No. 20A__

In the Supreme Court of the United States
T EXAS , A LABAMA , A RIZONA , A RKANSAS , I NDIANA , K ANSAS , K ENTUCKY
L OUISIANA , M ISSISSIPPI , M ONTANA , O HIO , O KLAHOMA ,
S OUTH C AROLINA , AND W EST V IRGINIA ,
Applicants,
v.
COOK COUNTY, ILLINOIS COALITION FOR IMMIGRANT AND REFUGEE RIGHTS,
C HAD F. W OLF , IN HIS OFFICIAL CAPACITY AS A CTING S ECRETARY OF
U.S. D EPARTMENT OF H OMELAND S ECURITY , U.S. D EPARTMENT OF
H OMELAND S ECURITY , K ENNETH T. C UCCINELLI , IN HIS OFFICIAL
CAPACITY AS A CTING D IRECTOR OF U.S. C ITIZENSHIP AND I MMIGRATION
S ERVICES , U.S. I MMIGRATIONS AND C USTOMS E NFORCEMENT ,
Respondents.
APPLICATION FOR LEAVE TO INTERVENE AND FOR
A STAY OF THE JUDGMENT ISSUED BY THE
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
KEN PAXTON
Attorney General of Texas
BRENT WEBSTER
First Assistant Attorney General
Office of the Texas Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Fax: (512) 474-2697
Judd.Stone@oag.texas.gov

JUDD E. STONE II
Solicitor General
Counsel of Record
LANORA C. PETTIT
Assistant Solicitor General
Counsel for Applicants

T ABLE

OF

C ONTENTS

Page
TABLE OF AUTHORITIES ...................................................................................... iii
INTRODUCTION ...................................................................................................... 1
STATEMENT OF THE CASE .................................................................................... 3
ARGUMENT ............................................................................................................ 7
I.

The States Are Entitled to Seek Relief in This Court ..........................8

II. This Court Should Enter a Stay Pending the Filing of a
Petition for Certiorari ........................................................................... 11
A. There is a Reasonable Probability that this Court Will
Grant Certiorari ................................................................................ 12
B. There is at Least a Fair Prospect that the Court Would
Vacate the injunction ........................................................................ 16
C. There is a Likelihood that Irreparable Harm Will Result
from the Denial of a Stay .................................................................. 20
III. In the Alternative, the States Seek Summary Reversal of the
Court of Appeals’ Denial of their Motions to Recall the
Mandate, to Rehear or Reconsider the Motion to Dismiss,
and to Intervene .................................................................................... 22
A. The Court of Appeals Should Have Recalled its Mandate ..........22
B. The Court of Appeals Should Have Granted the States’
Motion to Rehear or Reconsider the Motion to Dismiss.............. 23
C. The Court of Appeals Should Have Granted the States’
Motion to Intervene ........................................................................ 24
CONCLUSION ....................................................................................................... 27
CERTIFICATE OF SERVICE .................................................................................. 29
APPENDICES
A - Order Denying States’ Motions to Recall the Mandate to Permit
Intervention as Appellant
B - Order Granting Unopposed Motion to Voluntarily Dismiss Appeal
and Dismissing Appeal
C - Memorandum Opinion and Order Granting Motion for Partial Summary
Judgment
i

D - (Corrected) Memorandum Opinion and Order Granting Motion for
a Preliminary Injunction
E - Order Denying Appellants Motion for a Stay Pending Appeal
F - Order Denying Appellants Renewed Motion for a Stay Pending
Appeal
G - Order on Application for a Stay Granting Stay
H - Opinion Affirming Grant of Preliminary Injunction
I - States’ Motions to Recall Mandate, Reconsider or Rehear, and
Intervene in Seventh Circuit
J - Joint Stipulation to Dismiss Pursuant to Rule 46.1
K - Letter Re Agency Action Pertinent to New York v. U.S.
Department of Homeland Security and Make the Round
New York v. Renaud
L - States’ Motion to Intevene in Ninth Circuit
M - States’ Motion to Recal Mandate in Fourth Circuit
N - States’ Motion to Reconsider or Rehear in Fourth Circuit
O - States’ Motion to Intervene in Fourth Circuit
P - Unopposed Motion to Voluntarily Dismiss Appeal

ii

T ABLE

OF

A UTHORITIES
Page(s)

Cases:
Abbott v. Veasey,
137 S. Ct. 613 (2017) ......................................................................................... 15
Automobile Workers v. Scofield,
382 U.S. 205 (1965)...................................................................................... 10, 24
Banks v. Chi. Grain Trimmers,
389 U.S. 813 (1967).............................................................................................. 8
Calderon v. Thompson,
523 U.S. 538 (1998)............................................................................................ 22
Casa de Md., Inc. v. Trump,
No. 19-2222 (4th Cir. Dec. 9, 2019) ................................................................. 11
CASA de Md., Inc. v. Trump,
971 F.3d 220, vacated for rehearing en banc,
981 F.3d 311 (4th Cir. 2020) ................................................................. 13, 17, 19
City & Cty. of San Francisco v.
United States Citizenship & Immigr. Servs.,
944 F.3d 773 (9th Cir. 2019) .................................................................... passim
Conkright v. Frommert,
556 U.S. 1401 (2009)................................................................................. passim
Cook County v. McAleenan,
417 F. Supp. 3d 1008 (N.D. Ill. 2019) ................................................................ 5
Cook County v. Wolf,
962 F.3d 208 (7th Cir. 2020) .................................................................... passim
Dep’t of Com. v. New York,
139 S. Ct. 2551 (2019) ....................................................................................... 21
Dep’t of Homeland Sec. v. New York,
140 S. Ct. 599 (2020) ....................................................................... 11, 14, 16, 20
Department of Homeland Security v. New York,
No. 20-449, 2021 WL 666376 (U.S. Feb. 22, 2021) ............................... passim
Donnelly v. Glickman,
159 F.3d 405 (9th Cir. 1998) ............................................................................. 25
Fiallo v. Bell,
430 U.S. 787 (1977)............................................................................................ 14
iii

Gegiow v. Uhl,
239 U.S. 3 (1915)..................................................................................................5
Gonzales v. Oregon,
546 U.S. 807 (2005).............................................................................................. 8
Hohn v. United States,
524 U.S. 236 (1998)............................................................................................ 10
Hunter v. Ohio ex rel. Miller,
396 U.S. 879 (1969).............................................................................................. 8
Izumi Seimitsu Kogyo Kabushiki Kaisha v. U.S. Philips Corp.,
510 U.S. 27 (1993).............................................................................................. 10
Jordan v. Mich. Conference of Teamsters Welfare Fund,
207 F.3d 854 (6th Cir. 2000) ....................................................................... 24-25
Lightspeed Media Corp. v. Smith,
830 F.3d 500 (7th Cir. 2016) ............................................................................. 23
Massachusetts v. EPA,
549 U.S. 497 (2007)............................................................................................ 21
Mayorkas v. Cook County,
No. 20-450 (U.S. Oct 7, 2020) ............................................................................. 6
Motor Vehicle Mfr’s Ass’n v. State Farm Mutual Auto. Ins. Co.,
463 U.S 29 (1983)............................................................................................... 21
New York v. U.S. Dep’t of Homeland Security,
969 F.3d 42 (2d Cir. 2020) .................................................................... 13, 14, 15
Pyramid Lake Paiute Tribe of Indians v.
Truckee-Carson Irrigation Dist.,
104 S. Ct. 193 (1983) ........................................................................................... 8
Sierra Club, Inc. v. E.P.A.,
358 F.3d 516 (7th Cir. 2004) ............................................................................. 24
State v. City of Chicago,
912 F.3d 979 (7th Cir. 2019) ............................................................................. 25
Texas v. U.S. Dep’t of Energy,
754 F.2d 550 (5th Cir. 1985) ............................................................................. 24
Williams & Humbert Ltd. v. W. & H. Trade Marks (Jersey) Ltd.,
840 F.2d 72 (D.C. Cir. 1988)............................................................................. 24
Wolf v. Cook County,
140 S. Ct. 681 (2020) ..................................................................................... 5, 11

iv

Constitutional Provisions, Statutes, and Rules:
8 U.S.C.:
§ 1601(1)(2) ........................................................................................................ 18
§ 1601(5) ............................................................................................................. 17
§ 1182(a)(4)......................................................................................................... 18
§ 1182(a)(4)(A) ................................................................................................... 14
§ 1182(a)(4)(B)(i) ..................................................................................... 3, 16, 17
§ 1182(a)(4)(C)-(D) ............................................................................................ 18
§ 1183a(a)(1)(A) ................................................................................................. 18
§ 1183a(a)(1)(B) ................................................................................................. 18
§ 1601(2)(B) ........................................................................................................ 17
28 U.S.C. § 1254(1) ............................................................................................. 8, 10
Field Guidance on Deportability and Inadmissibility on Public
Charge Grounds, 64 Fed. Reg. 28,689 (May 26, 1999) ................................... 4
Inadmissibility and Deportability on Public Charge Grounds,
64 Fed. Reg. 28,676 (May 26,1999) ................................................................... 4
Inadmissibility on Public Charge Grounds,
84 Fed. Reg. 41,292 (Aug. 14, 2019) .................................................. 4, 5, 17, 22
86 Fed. Reg. 14221 (Mar. 15, 2021) ................................................................ 15, 26
Fed. R. App. P. 42 .................................................................................................. 23
Fed. R. Civ. P.:
1 ........................................................................................................................... 24
24 ......................................................................................................................... 24
54(b) ......................................................................................................................6
Immigrant Fund Act,
47th Cong. ch. 376, §§ 1-2, 22 Stat. 214 (1882) ................................................. 3
Sup. Ct. R. 10 .......................................................................................................... 13
Miscellaneous:
BLACK’S LAW DICTIONARY 295 (4th ed. 1951) .................................................... 17
Kaiser Family Foundation, Medicaid Expenditures as a Percent
of Total State Expenditures by Fund,
https://tinyurl.com/czpjys9v (last visited Mar. 17, 2021)................................ 9
Medicaid.gov, Medicaid Per Capita Expenditures,
https://tinyurl.com/heayt2 (last visited Mar. 17, 2021) ........................... 18-19

v

Tex. Health & Human Servs. Comm’n, Texas Medicaid and Chip
in Perspective 2 (13th ed. 2020), https://tinyurl.com/y4bhjfyv.................. 8, 9
U.S. Federal Register National Archives: Inadmissibility on
Public Charge Grounds; Implementation of Vacatur (Mar. 15,
2021), https://tinyurl.com/c6bapsf7 ................................................................. 15

vi

I NTRODUCTION
The States of Texas, Alabama, Arizona, Arkansas, Indiana, Kansas,
Kentucky, Louisiana, Mississippi, Montana, Ohio, Oklahoma, South Carolina, and West Virginia (the “States”), respectfully seek leave to intervene and a stay of the Northern District of Illinois’s grant of partial summary judgment entered November 2, 2020 pending the timely filing of a
petition for a writ of certiorari. App. C at 2. In the alternative, the States
seek summary reversal of the Seventh Circuit’s order denying their motions to (1) recall that court’s mandate, (2) reconsider its motion to dismiss, and (3) intervene as defendants-appellants in order to defend the
Public Charge Rule (the “Rule”) in the Seventh Circuit. App. A.
This Court has already granted multiple stays involving the Rule,
including in this very case. This Court had also granted certiorari in a
case presenting a materially indistinguishable challenge. Department of
Homeland Security v. New York, No. 20-449, 2021 WL 666376 (U.S.
Feb. 22, 2021). It should once again grant a stay in this case.
The States’ interests in this matter were adequately represented by
the United States during the previous Administration. But on March 9,
and without notice to the States or other interested parties, the Biden

Administration agreed to voluntarily dismiss its appeal in every pending
challenge to the Rule. 1
The effect of these voluntary dismissals was to leave in place a partial grant of summary judgment issued by the district court in this matter preventing enforcement of the Rule nationwide while evading appellate review of that judgment—and, ultimately, evading this Court’s review. This unusual tactic effectively reversed a full year of notice and
comment rulemaking at a stroke, also evading the procedures required
by the Administrative Procedure Act to rescind or modify the Rule.
Having received no notice of this dramatic change in position, the
States promptly moved to vindicate their interests. Merely two days after the voluntary dismissals, they filed all the necessary motions to intervene in this matter in order to defend those interests and the Rule.
The Court of Appeals denied those motions without explanation. 2
Allowing the United States to avoid the consequences of APA rulemaking by stipulating to dismissal—with a now-aligned party to take
advantage of a now-favorable ruling—will yield pernicious results. Most

Because they are now aligned, both plaintiffs and defendants in the
underlying litigation are listed as respondents in this application.
1

The States have also sought leave to intervene in proceedings in
the Fourth and Ninth Circuits. App. M-O; App. L. The Fourth Circuit
denied the motions pending before it on March 18, 2021. A motion to intervene remains pending before the Ninth Circuit.
2

2

prominently, it will require nonparties like the States to intervene in litigation at the first sign of an affected interest, or else risk both their
interests in favorable rules as well as their ability to participate in normal administrative procedures required by the APA.
In order to vindicate their interests in both the Rule and in the ability to participate in any modification of it, the States seek leave to intervene and a stay pending the timely filing of a petition for certiorari. Alternatively, the States seek summary reversal of the Court of Appeals’
orders preventing them from intervening in the court below.
S TATEMENT

OF THE

C ASE

Since the late Nineteenth Century, Congress has prohibited immigration by individuals who are likely to become a “public charge.” Immigrant Fund Act, 47th Cong. ch. 376, §§ 1-2, 22 Stat. 214 (1882). Congress
has not defined that term, stating only that the Executive “shall at a
minimum consider the alien’s (I) age; (II) health; (III) family status;
(IV) assets, resources, and financial status; and (V) education and skills.”
8 U.S.C. § 1182(a)(4)(B)(i). The meaning of the term has evolved over
time to consider “a totality-of-the-circumstances” with “different factors
. . . weigh[ing] more or less heavily at different times, reflecting changes
in the way in which we provide assistance to the needy.” City & Cty. of
San Francisco v. United States Citizenship & Immigr. Servs., 944 F.3d
773, 796 (9th Cir. 2019).

3

In 1999, the Clinton Administration recognized that the definition of
“public charge” was ambiguous and proposed a rule that would have defined “public charge” to include any alien:
who is likely to become primarily dependent on the Government for subsistence as demonstrated by either: (i) [t]he receipt of public cash assistance for income maintenance purposes, or (ii) [i]nstitutionalization for long-term care at Government expense.
Inadmissibility and Deportability on Public Charge Grounds, 64 Fed.
Reg. 28,676, 28,681 (May 26,1999). At the same time, it issued an informal guidance document that would apply the proposed definition pending the issuance of a final rule. Field Guidance on Deportability and Inadmissibility on Public Charge Grounds, 64 Fed. Reg. 28,689 (May 26,
1999). That rulemaking process was never completed, leaving the 1999
informal guidance in place. Inadmissibility on Public Charge Grounds,
84 Fed. Reg. 41,292, 41,348 n.295 (Aug. 14, 2019).
In 2018, the Trump Administration proposed, and in 2019 promulgated, a new rule that defined “public charge” in a way that accounted
for a broader range of government benefits. The Rule now considers not
just cash aid for purposes of determining whether an immigrant is likely
to become a public charge, but also valuable non-cash benefits such as
Medicaid, food stamps, and federal housing assistance. Id. at 41,501. Under the Rule, officials look at the totality of an alien’s circumstances to
determine whether that alien is likely to “receive[] one or more” of the
specified public benefits “for more than 12 months in the aggregate
4

within any 36-month period.” Id.; see id. at 41,369. These circumstances
include an alien’s age, financial resources, family size, education, and
health. Id. at 41,501-04.
This case is one of several related challenges to the Rule. Plaintiffs,
here respondents, include a County and the Illinois Coalition for Immigrant and Refugee Rights, a non-profit organization providing benefits
for aliens. They brought this action challenging the Rule under the APA
and sought a preliminary injunction. Cook County v. McAleenan, 417 F.
Supp. 3d 1008, 1013-14 (N.D. Ill. 2019), aff’d on other grounds sub nom.
Cook County v. Wolf, 962 F.3d 208 (7th Cir. 2020) Purporting to apply
Gegiow v. Uhl, 239 U.S. 3 (1915), the district court concluded that the
term “‘public charge’ encompasses only . . . persons with ‘a mental or
physical defect of a nature to affect their ability to make a living’— [who]
would be substantially, if not entirely, dependent on government assistance on a long-term basis.” Cook County, 417 F. Supp. 3d at 1023. Because the Rule included individuals who depend on supplemental, often
non-cash benefits, the district court held the rule invalid. Thus, the district court issued a preliminary injunction blocking the defendants from
enforcing the rule, but only in the State of Illinois. Id. at 1030.
The United States immediately appealed and moved to stay the preliminary injunction. The Seventh Circuit denied the stay, but this Court
ultimately granted one. Cook County, 962 F.3d at 217; Wolf v. Cook
County, 140 S. Ct. 681 (2020).
5

A divided panel of the Seventh Circuit subsequently affirmed the
district court’s preliminary injunction. Cook County, 962 F.3d at 234.
With this Court’s stay still in place, the United States filed a petition for
a writ of certiorari. Mayorkas v. Cook County, No. 20-450 (U.S. Oct 7,
2020). While that petition remained pending, this Court granted certiorari in another case concerning the validity of the Rule. See Dep’t of
Homeland Sec., 2021 WL 666376.
Litigation continued in the district court during these proceedings,
where the Plaintiffs moved for partial summary judgment on their APA
claims. See App. C at 2. The district court granted the motion, vacated
the Rule, and entered a partial final judgment under Rule 54(b). Id. at
14. Unlike the district court’s preliminary injunction, the vacatur was
explicitly “not limited to the State of Illinois.” Id. at 8. The United States
then appealed that ruling to the Seventh Circuit and proceeded to litigate that appeal for over three months.
Following the change in Administration, the United States decided
to abandon its defense of the Rule. On March 9, 2021, the United States
filed nearly simultaneous motions to dismiss its appeals defending the
Rule in all cases challenging it, including, among others, in both this case
and in New York, which had been awaiting review by this Court. See
App. P; App. J. The Seventh Circuit granted the defendants’ unopposed
motion to voluntarily dismiss the appeal and issued its mandate the same
day. App. B.
6

Only two days later—promptly after learning of the United States’
decision to abandon its defense of the Rule—the States filed three related motions in the Seventh Circuit. First, the States moved the Court
of Appeals to recall its mandate. App. I. Second, the States asked the
Court of Appeals to reconsider or rehear the order granting the stipulated motion to dismiss. Id. Third, the States requested that the Court
of Appeals allow them to intervene in order to defend the Rule, since the
defendants had abandoned their defense. Id. The Court of Appeals denied these motions on March 15 in a one-line order. App. A.
A RGUMENT
This Court should stay the district court’s judgment pending a petition by the States for certiorari. There is more than a “reasonable probability” that the Court will grant review, Conkright v. Frommert, 556
U.S. 1401, 1402 (2009) (Ginsburg, J., in chambers)—it has already done
so. Moreover, by repeatedly staying orders enjoining the Rule, this
Court has indicated that it is likely to conclude the decision below was
erroneous. See id. And the same interests that entitle the States to intervene are likely to be harmed absent a stay. Id.
In the alternative, this Court should summarily reverse the Seventh
Circuit’s refusal to permit the States to intervene. The United States’
decision to abandon its defense of the Rule, with no notice to any affected
parties (including the States) leaves the States with a vital interest undefended by the party who would normally be tasked with defending its
7

own rule. By stipulating to dismissal without providing notice to the affected States, the United States has both prejudiced the States’ concrete
interests and made an end run around the procedural protections that
would otherwise have been available to the States (and any other adversely affected party) under the APA.

I. The States Are Entitled to Seek Relief in This Court.
Under 28 U.S.C. § 1254(1), any party may file a petition for certiorari. This Court has interpreted “party” broadly to allow intervention by
those with interests that are vitally affected by the judgment below. See,
e.g., Gonzales v. Oregon, 546 U.S. 807 (2005); Pyramid Lake Paiute
Tribe of Indians v. Truckee-Carson Irrigation Dist., 104 S. Ct. 193
(1983); Hunter v. Ohio ex rel. Miller, 396 U.S. 879 (1969); Banks v. Chi.
Grain Trimmers, 389 U.S. 813 (1967).
The States’ interests are vitally affected here. In particular, the
States have important interests in conserving their Medicaid and related
social-welfare budgets. Providing for the healthcare needs of economically disadvantaged individuals represents a substantial portion of the
States’ budgets. For example, in Texas in 2020, over 4 million Texans
relied on Medicaid. Tex. Health & Human Servs. Comm’n, Texas Medicaid and Chip in Perspective 2 (13th ed. 2020), https://tinyurl.com/y4bhjfyv. Medicaid is jointly financed by the federal government and the States. Id. at 4. In 2018-19, Medicaid funds represented

8

approximately 22% of Texas’s budget. Kaiser Family Foundation, Medicaid Expenditures as a Percent of Total State Expenditures by Fund,
https://tinyurl.com/czpjys9v (last visited Mar. 17, 2021). In the past several years, the federal government has paid for slightly less than 60% of
Texas’s Medicaid expenditures. Tex. Health & Human Servs. Comm’n,
supra, at 74. Although the exact amount of Texas’s Medicaid budget
spent on immigrants who would otherwise be inadmissible under the
DHS Rule has varied, the total budget is always measured in billions of
dollars. Id. (reflecting that total Texas-financed expenditures for Medicaid represented approximately $30.8 billion).
Invalidating the Rule will have a disproportionate impact on the
States, particularly border States. For example, Texas, Arizona, and
Montana have among the largest international borders in the Union and
provide Medicaid services to many immigrants. The Rule would reduce
that burden by rendering inadmissible any alien who would likely require Medicaid services for more than 12 months in a 36-month period.
Accordingly, fewer aliens requiring Medicaid and other public services
would be admitted to the United States, including into these States, thus
reducing the States’ Medicaid budgets. The United States’ decision to
abandon its defense of the Rule will cost the States many millions of dollars.
These vital interests were adequately represented by the United
States until March 9. Rather than follow its normal practice and abey
9

this litigation regarding the Rule pending further rulemaking, the Biden
Administration stipulated to dismiss its appeals defending the Rule in
this case and related cases—leaving the judgment here vitiating the rule
nationwide in place.
The States had no notice of this decision. To the contrary, the United
States defended the Rule across multiple courts for more than a year
before reaching this decision. Absent the ability to intervene and to seek
a stay and ultimately certiorari, the States will have no way to vindicate
their vital interests. Because the Rule has been rendered unenforceable
through litigation rather than being rescinded or modified through notice-and-comment rulemaking, the States will likewise be deprived of the
benefits of regular APA proceedings. Allowing them to seek a stay and
then certiorari is necessary to afford the States some process to protect
these vital interests.
This Court has also made clear that “[o]ne who has been denied the
right to intervene in a case in a court of appeals may petition for certiorari to review that ruling.” Izumi Seimitsu Kogyo Kabushiki Kaisha v.
U.S. Philips Corp., 510 U.S. 27, 30 (1993) (citing Automobile Workers,
382 U.S. at 208-09); see also Hohn v. United States, 524 U.S. 236, 247-48
(1998) (“We have also held that § 1254(1) permits us to review denials of
motions for leave to intervene in the Court of Appeals in proceedings to
review the decision of an administrative agency.”). The States are also

10

entitled to seek certiorari, and a stay pending a petition for a writ of
certiorari, on this independent basis.

II. This Court Should Enter a Stay Pending the Filing of a Petition
for Certiorari.

A stay pending the disposition of a petition for a writ of certiorari is
appropriate where there is: “(1) a reasonable probability that four Justices will consider the issue sufficiently meritorious to grant certiorari
or to note probable jurisdiction; (2) a fair prospect that a majority of the
Court will conclude that the decision below was erroneous; and (3) a likelihood that irreparable harm [will] result from the denial of a stay.”
Conkright, 556 U.S. at 1402 (citation and internal quotation marks omitted).
Those factors are amply met here. Indeed, this Court has previously
granted certiorari and stay applications in cases involving the Rule—
including in this very case. Wolf, 140 S. Ct. 681. This Court had likewise
granted stays of nationwide injunctions issued by a district court in Dep’t
of Homeland Sec. v. New York, 140 S. Ct. 599 (2020). Multiple courts of
appeals had also held that stays were appropriate. See City & County of
San Francisco v. USCIS, 944 F.3d 773 (9th Cir. 2019); Casa de Md., Inc.
v. Trump, No. 19-2222 (4th Cir. Dec. 9, 2019). Finally, this Court had
granted certiorari in another challenge to the Rule. See Dep’t of Homeland Sec., 2021 WL 666376.

11

The only differences here are that the Defendants have since agreed
to voluntarily dismiss their cases, while the States now instead seek to
defend the Rule. But neither of these distinctions matter for this Court’s
stay analysis. Nor would plans by the United States to replace the Rule
through the ordinary administrative process. This Court should grant a
third stay for the same reasons it entered the previous two.

A. There is a Reasonable Probability that this Court Will
Grant Certiorari.
There is a reasonable probability that the Court will grant certiorari.
Conkright, 556 U.S. at 1402. There is no need for the States to speculate.
Before the case was voluntarily dismissed last week, this Court had already granted certiorari in a case involving the Rule. See Dep’t of Homeland Sec. 2021 WL 666376. There, the Second Circuit had affirmed in
part an injunction against the Rule based on its conclusion that the Rule
was likely inconsistent with immigration law and arbitrary and capricious and affirmed a nationwide injunction. And again, this Court had
previously entered a stay.
When the United States decided to abandon its defense of the Rule,
the question presented by this case met all of the usual requirements for
review by this Court: a conflict with another circuit’s decision on an important matter, the decision of an important federal question in a way

12

that conflicts with this Court’s decisions, and the decision of an important question of federal law that has not been but should be settled
by this Court. Sup. Ct. R. 10.
First, there was a well-defined split among federal courts over the
rule’s legality. Over the dissent of then-Judge Barrett, the Seventh Circuit had concluded it was likely to be held improper. Cook County, 962
F.3d at 228. The Second Circuit had similarly found the Rule to exceed
the scope of DHS’s delegated power. New York v. U.S. Dep’t of Homeland Security, 969 F.3d 42, 74-75 (2d Cir. 2020).
By contrast, a panel of the Fourth Circuit reversed a preliminary
injunction against enforcement of the Rule based on the conclusion that
“[t]he DHS Rule . . . comports with the best reading of the INA.” CASA
de Md., Inc. v. Trump, 971 F.3d 220, 250, vacated for rehearing en banc,
981 F.3d 311 (4th Cir. 2020) (dismissed Mar. 11, 2021). Indeed, the
Fourth Circuit went so far as to say that “[t]o invalidate the Rule would
. . . entail the disregard of the plain text of a duly enacted statute,” and
would “visit palpable harm upon the Constitution’s structure and the circumscribed function of the federal courts that document prescribes.” Id.
at 229. Similarly, in entering a stay pending appeal of preliminary injunctions against the Rule, the Ninth Circuit issued a lengthy published
opinion concluding that “[t]he Final Rule’s definition of ‘public charge’ is
consistent with the relevant statutes, and DHS’s action was not arbitrary or capricious.” City & County of San Francisco, 944 F.3d at 790.
13

Second, this question remains vitally important. Decisions about
whether and under what conditions to admit immigrants implicate a
“fundamental sovereign attribute exercised by the Government’s political departments.” Fiallo v. Bell, 430 U.S. 787, 792 (1977). As the Second
Circuit noted, making these decisions correctly is essential “[b]ecause
there is no apparent means by which DHS could revisit adjustment determinations” once made. 969 F.3d at 86-87.
Congress explicitly directed the Executive Branch to deny admission or adjustment of status to aliens who, “in the opinion of the [Secretary of Homeland Security],” are “likely at any time to become a public
charge.” 8 U.S.C. § 1182(a)(4)(A). The Rule provides key guidance in doing so, issuing formal, objective standards by which that determination
will be made. The propriety of the Rule is a question of national importance which this Court has already once determined merits its attention. Dep’t of Homeland Sec., 2021 WL 666376, at *1.
Third, this case is virtually indistinguishable from New York, and
the only distinctions make the case more worthy of certiorari, not less.
Like the court in New York, the district court here held that the Rule
violated the APA, because it exceeded the Department of Homeland Security’s authority, was not in accordance with law, and was arbitrary and
capricious. See App. C at 2. In granting the motion, the district court
explicitly explained that vacatur of the rule was “not limited to the State
of Illinois.” Id. at 8.
14

The only distinguishing factors are: (1) that the district court entered a partial final judgment instead of a preliminary injunction, and
(2) unlike in New York, the district court’s order applies nationwide.3
These factors, however, make the case more worthy of this Court’s attention. This Court prefers applications for certiorari arising from final
judgments rather than interlocutory orders, Abbott v. Veasey, 137 S. Ct.
613 (2017) (Roberts, C.J., respecting the denial of certiorari), and the
United States has already taken the position that the finality of the trial
court’s decision renders the rule no longer effective anywhere in the
country. 86 Fed. Reg. 14221 (Mar. 15, 2021); see also App. K (“confirming that ‘following the Seventh Circuit dismissal,’ the ‘final judgment
from the Northern District of Illinois, which vacated the 2019 public
charge rule, went into effect’”). 4 Unlike when this Court granted review
in New York, there will be no second chance to review this question.

In New York, the district court had initially issued a nationwide
injunction. 969 F.3d at 50. But, recognizing an already existing difference in opinion among the federal courts, the Second Circuit limited the
injunction’s scope to the three States within its purview. Id.
3

U.S. Federal Register National Archives: Inadmissibility on Public Charge Grounds; Implementation of Vacatur (Mar. 15, 2021),
https://tinyurl.com/c6bapsf7.
4

15

B. There is at Least a Fair Prospect that the Court Would
Vacate the injunction.
There is at least a fair prospect that the Court would vacate the district court’s partial grant of summary judgment here. Conkright, 556
U.S. at 1402. By previously granting a stay here and in New York, this
Court has already made this determination. Again, the only material
change is the United States’ abandoning its defense of the Rule—and
the now-nationwide scope of relief granted by the district court.
Once properly defended, challenges to the Rule are unlikely to succeed because they lack merit. The Rule’s interpretation of “public
charge” is consistent with the ordinary meaning of the term “public
charge,” other statutes enacted by Congress at the same time, and the
historic usage of the term “public charge.”
A. Congress has not defined the term “public charge,” stating only
that the Executive “shall at a minimum consider the alien’s (I) age;
(II) health; (III) family status; (IV) assets, resources, and financial status; and (V) education and skills.” 8 U.S.C. § 1182(a)(4)(B)(i). And since
at least the late 1990s, the United States has recognized that the term is
ambiguous. The Rule gives the term “public charge” its natural meaning
by including non-cash benefits as a consideration in determining
whether an alien will rely on public support and thus be inadmissible. As
the Fourth Circuit explained, “[t]he ordinary meaning of ‘public
charge’ . . . was ‘one who produces a money charge upon, or an expense

16

to, the public for support and care.’” CASA de Md., 971 F.3d at 242 (quoting BLACK’S LAW DICTIONARY 295 (4th ed. 1951)).
After all, the Rule encompasses benefits that allow an immigrant to
buy food, obtain housing, and pay for medical care. 84 Fed. Reg. at
41,501. These benefits are no less expensive to the States or significant
to the immigrant because they are provided in kind rather than in cash.
See Cook County, 962 F.3d at 241 (Barrett, J., dissenting). An immigrant
who relies on multiple such benefits for a period of time, or on one such
benefit for an extended period, falls easily within the ordinary usage of
the term “public charge.”
B. The Rule is further consistent with the text of the immigration
laws. In legislation adopted concurrently with the public charge provision, see 8 U.S.C. § 1182(a)(4)(B)(i), Congress determined that it should
be the official “immigration policy of the United States” to ensure that
the “availability of public benefits not constitute an incentive for immigration to the United States.” 8 U.S.C. § 1601(2)(B). Congress again
cited the “compelling” interest in ensuring “that aliens be self-reliant in
accordance with national immigration policy.” Id. at 1601(5). Congress
further emphasized that “[s]elf-sufficiency has been a basic principle of
United States immigration law since this country’s earliest immigration
statutes,” and that it “continues to be the immigration policy of the
United States that . . . (A) aliens within the Nation’s borders not depend
on public resources to meet their needs . . . and (B) the availability of
17

public benefits not constitute an incentive for immigration to the United
States.” Id. at § 1601(1)(2).
The Rule is also congruent with the broader statutory scheme. For
example, Congress required an alien seeking admission or adjustment
of status to submit “affidavit[s] of support” from sponsors. See 8 U.S.C.
§ 1182(a)(4)(C)-(D). Those sponsors must, in turn, agree “to maintain the
sponsored alien at an annual income that is not less than 125 percent of
the Federal poverty line.” Id. § 1183a(a)(1)(A). Congress reinforced this
requirement for self-sufficiency by allowing federal and state governments to seek reimbursement from the sponsor for “any means-tested
public benefit” the government provides to the alien during the period
the support obligation remains in effect. Id. § 1183a(a)(1)(B). That provision is not limited to cash support. Aliens who fail to obtain the required affidavit are treated by operation of law as inadmissible on the
public-charge ground, regardless of individual circumstances. Id.
§ 1182(a)(4).
The States’ interests here provide an obvious example. That stateobligated Medicaid funding does not come in the form of cash does not
mean that the States are not obligated to raise and expend many millions
of dollars on Medicaid for these individuals. For example, in 2018, the
cost of the average Medicaid beneficiary in Texas was $9,247 per capita;
in Ohio, $8,248; in West Virginia, $7,232. Medicaid.gov, Medicaid Per
Capita Expenditures, https://tinyurl.com/heayt2 (last visited Mar. 17,
18

2021). That figure is higher for older beneficiaries or those with chronic
illness or disabilities. See id. Likewise, the availability of substantial assistance—though not granted in the form of direct cash payments—may
well provide significant nonmonetary inducement for aliens to immigrate to the United States contrary to law.
C. Finally, as explained by the Ninth Circuit, the Rule is consistent
with the history of the term public charge. “Since 1882, when the Congress enacted the first comprehensive immigration statute, U.S. law has
prohibited the admission to the United States of ‘any person unable to
take care of himself or herself without becoming a public charge.’” City
& Cty. of San Francisco, 944 F.3d at 779. As the Ninth Circuit concluded
“[t]he history of the term ‘public charge’ confirms that its definition has
changed over time to adapt to the way in which federal, state, and local
governments have cared for our most vulnerable populations.” Id. at
792. The court recognized that the meaning of “public charge” has involved “a totality-of-the-circumstances test” with “different factors . . .
weigh[ing] more or less heavily at different times, reflecting changes in
the way in which we provide assistance to the needy.” Id. at 796.
In short, the Court is likely to reject challenges to the Rule because
it “easily” qualifies as a “permissible construction of the INA.” City &
County of San Francisco, 944 F.3d at 799; see CASA de Md., 971 F.3d
at 251 (holding that the Rule is “unquestionably lawful”); Cook County,
962 F.3d at 234 (Barrett, J., dissenting).
19

C. There is a Likelihood that Irreparable Harm Will Result
from the Denial of a Stay.
Irreparable harm will result from the denial of a stay. Conkright,
556 U.S. at 1402. Once again, by granting the previous stay in this case
and New York, this Court has already determined that irreparable harm
will result absent a stay. Moreover, as the Ninth Circuit recognized, “decisions to grant adjustment of status to aliens who could otherwise not
be eligible are not reversible.” City & County of San Francisco, 944 F.3d
at 805. Thus, aliens who would be inadmissible under a duly promulgated
rule would be rendered admissible to the United States with no chance
of correction. The States will also suffer irreparable harm in at least two
ways.
First, as a direct consequence, the States will be required to budget
for and expend many millions of dollars in additional aid through Medicaid and other programs that would otherwise not have been required.
Funds spent to provide public services to the economically disadvantaged will, by definition, never be recoverable. The abruptness with
which the Executive abandoned the Rule also deprives the States of the
ability to plan for this additional expense as they normally would during
an orderly rulemaking process.
Second, and only slightly less directly, States lose their procedural
right to defend their interests. To be clear, the States do not contest that
the Executive may change the Rule through further rulemaking about

20

the definition of “public charge” so long as its preferred interpretation
is reasonable and falls within the scope of authority delegated by Congress. But the requirements of APA rulemaking apply with equal force
whether the Executive is creating a rule or modifying it. See e.g., Dep’t
of Com. v. New York, 139 S. Ct. 2551, 2569-71 (2019). Because the Rule
was made through formal notice-and-comment procedures, it can only
be unmade the same way. Cf. Motor Vehicle Mfr’s Ass’n v. State Farm
Mutual Auto. Ins. Co., 463 U.S 29, 41, 46-47 (1983).
As part of that process, the States would have had the right to submit input and to protect their interests before the agency. If unsatisfied
with the ultimate result, they would have been permitted to challenge
whether the Executive “articulated ‘a satisfactory explanation’ for [its]
decision, ‘including a rational connection between the facts found and the
choice made.’” Dep’t of Com., 139 S. Ct. at 2569 (quoting Motor Vehicles
Mfrs. Ass’n, 463 U.S. at 43).
Yet by voluntarily dismissing the challenges to the Rule while leaving a favorable judgment in place, the new Administration has short-circuited that process, made an end run around the requirements of the
APA, and deprived the States of the input they would have under the
normal process. This type of procedural harm is also one that is remediable by the courts. See Massachusetts v. EPA, 549 U.S. 497, 518 (2007)
(“When a litigant is vested with a procedural right, that litigant has
standing if there is some possibility that the requested relief will prompt
21

the injury-causing party to reconsider the decision that allegedly
harmed the litigant.”).

III. In the Alternative, the States Seek Summary Reversal of the
Court of Appeals’ Denial of their Motions to Recall the
Mandate, to Rehear or Reconsider the Motion to Dismiss, and to
Intervene.

Should this Court decline to grant a stay pending filing of a petition
for certiorari, the States seek summary reversal of the court of appeals’
orders preventing them from intervening below to defend the Rule and
their interests. Under these unusual circumstances—where the United
States defended the Rule for over a year before precipitously abandoning that defense with no notice to any of the States—the court below
erred in failing to allow the States to intervene to defend the Rule.

A. The Court of Appeals Should Have Recalled its Mandate.
“[T]he courts of appeals are recognized to have an inherent power
to recall their mandates, subject to review for an abuse of discretion.”
Calderon v. Thompson, 523 U.S. 538, 549 (1998). Just such circumstances are present in this case: The United States went through a yearlong rulemaking process, including receiving more than 250,000 comments to promulgate the rule. 84 Fed. Reg. at 41,297. The United States
then defended the rule in district courts and courts of appeals throughout the country—only to abandon that defense with no notice to any of
the affected states on March 9. This action left in place the partial summary judgment rendering the rule unenforceable—without going
22

through any of the procedures required by formal rulemaking. These
are exceptional circumstances that justify the recall of the mandate.

B. The Court of Appeals Should Have Granted the States’ Motion to Rehear or Reconsider the Motion to Dismiss.

Motions for reconsideration are appropriate where, through no fault
of the movant, a court has committed an error of fact or law in deciding
on a motion. Cf. Lightspeed Media Corp. v. Smith, 830 F.3d 500, 505-506
(7th Cir. 2016). The court of appeals made such an error here by allowing
the parties—whose interests are now aligned—to dismiss the appeal under Federal Rule of Appellate Procedure 42 without allowing the numerous interested nonparties, including the States, opportunity to protect
the interests formerly protected by the United States.
Though the nominal parties to this matter approved dismissal, the
partial summary judgment issued by the district court directly implicates the interests of the States—who were not informed of the dismissal, had no opportunity to vindicate their interests, and are now deprived
of the benefits of the Rule by the district court’s judgment. As discussed
above, the States are also deprived of their ability to provide input and
defend their interests in the normal rulemaking process.
Allowing voluntary dismissal to be used this way will lead to pernicious consequences. If the United States and an aligned party are allowed to simply dismiss cases on appeal once a favorable judgment has
been reached, nonparties like the States will be forced to intervene at
23

the first sign of litigation that may affect their interests. Indeed, it would
paradoxically require States to more hastily intervene when the federal
government already supports their interests precisely to avoid the sudden switch-and-dismissal performed here. That is precisely the opposite
of how the federal rules are intended to work—namely “to secure the
just, speedy, and inexpensive determination of every action and proceeding.” Fed. R. Civ. P. 1.

C. The Court of Appeals Should Have Granted the States’ Motion to Intervene.

Although the Federal Rules of Civil Procedure do not apply directly
in appellate proceedings, both this Court and lower federal courts have
recognized that the rules controlling district court intervention may
serve as useful guidance regarding whether to permit intervention in
other contexts. See, e.g., Scofield, 382 U.S. at 217 n.10; Sierra Club, Inc.
v. E.P.A., 358 F.3d 516, 517-18 (7th Cir. 2004); Texas v. U.S. Dep’t of
Energy, 754 F.2d 550, 551 (5th Cir. 1985). The States meet Rule 24’s
standards for intervention.
Under Rule 24, “[t]he grounds for intervention of right may be
stated as: (1) timeliness, (2) cognizable interest, (3) impairment, and
(4) lack of adequate representation.” Williams & Humbert Ltd. v. W. &
H. Trade Marks (Jersey) Ltd., 840 F.2d 72, 74 (D.C. Cir. 1988); see also
Jordan v. Mich. Conference of Teamsters Welfare Fund, 207 F.3d 854,

24

862 (6th Cir. 2000); Donnelly v. Glickman, 159 F.3d 405, 409 (9th Cir.
1998).
The States sought to intervene in the lower court in a timely manner.
Although the States have been aware of their interests in the Rule for
some time, this case clearly presents “unusual circumstances” warranting intervention. State v. City of Chicago, 912 F.3d 979, 984 (7th Cir.
2019). The United States defended the Rule for more than a year across
multiple courts, and the States’ interests were appropriately represented in that defense. The States therefore relied on the United States
to defend the Rule in lieu of burdening the courts with additional briefing reiterating that defense. It was not until March 9, when the United
States voluntarily moved to dismiss this case that the States learned that
the new Administration intended, in essence, to repeal the Rule by stipulation in litigation. On learning of that decision, the States immediately
moved to intervene, not just here but in the Fourth and Ninth Circuits
where other appeals were also pending. App. M-O; App. L. The Fourth
Circuit denied the motions pending before it on March 18, while the motion before the Ninth Circuit remains pending. Upon the Seventh Circuit’s denial of those motions, the States also timely sought relief from
this Court.
As discussed above, the States also have a real and cognizable interest in this litigation that will be impaired absent intervention. Unlike in
New York, there will be no later opportunity or alternative vehicle to
25

review the question. In the Southern District of New York, the United
States has taken the position that the litigation there is moot because
the district court’s opinion in this case sets aside the rule in the entire
country. App. K.5 And it has already begun to take steps to enforce the
now outdated 1999 informal guidance rather than the duly promulgated
Rule. See 86 Fed. Reg. at 14221 (Mar. 15, 2021) (“This rule removes from
the Code of Federal Regulations . . . the regulatory text that DHS promulgated in the August 2019 rule and restores the regulatory text to appear as it did prior to the issuance of the August 2019 rule.”). In other
words, though this case has been litigated by one county and one interest
group, the district court’s ruling applies nationwide. Now that the
United States has voluntarily dismissed this appeal, nothing will stop the
district court’s nationwide vacatur from taking effect and adversely impacting the States’ budgets, including their Medicaid expenditures.
Finally, no party now adequately represents the States’ interests
because the United States has abandoned its defense of the Rule nationwide. Absent the States’ intervention, they will be bound by the invalidation of the Rule without having any ability to defend those interests.
The court of appeals erred by not allowing the States to intervene.

Should this Court stay the effect of the Northern District of Illinois
order, the States intend to intervene in the New York case as well.
5

26

C ONCLUSION
This Court should permit the States to intervene and stay the district court’s judgment pending the timely filing of a petition for a writ of
certiorari. In the alternative, this Court should summarily reverse the
Court of Appeals’ order denying the States’ motions to intervene.
Respectfully submitted.
STEVE MARSHALL
Attorney General of Alabama

KEN PAXTON
Attorney General of Texas

LESLIE RUTLEDGE
Attorney General of Arkansas

BRENT WEBSTER
First Assistant Attorney General

MARK BRNOVICH
Attorney General of Arizona

/s/ Judd E. Stone II
JUDD E. STONE II
Solicitor General
Counsel of Record

TODD ROKITA
Attorney General of Indiana
DEREK SCHMIDT
Attorney General of Kansas
DANIEL CAMERON
Attorney General of Kentucky
JEFF LANDRY
Attorney General of Louisiana

LANORA C. PETIT
Assistant Solicitor General
Office of the Texas Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Fax: (512) 474-2697
Judd.Stone@oag.texas.gov

LYNN FITCH
Counsel for Applicants
Attorney General of Mississippi
AUSTIN KNUDSEN
Attorney General of Montana
DAVE YOST
Attorney General of Ohio
27

MIKE HUNTER
Attorney General of Oklahoma
ALAN WILSON
Attorney General of
South Carolina
PATRICK MORRISEY
Attorney General of
West Virginia
March 2021

28

APPENDIX

APPENDIX A

Case: 20-3150

Document: 26

Filed: 03/15/2021

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

ORDER
March 15, 2021
By the Court:
COOK COUNTY, ILLINOIS and ILLINOIS COALITION FOR
IMMIGRANT AND REFUGEE RIGHTS,
Plaintiffs - Appellees
No. 20-3150

v.
CHAD F. WOLF, et al.,
Defendants - Appellants

Originating Case Information:
District Court No: 1:19-cv-06334
Northern District of Illinois, Eastern Division
District Judge Gary Feinerman

Upon consideration of the MOTION TO RECALL THE MANDATE TO
PERMIT INTERVENTION AS APPELLANT, filed on March 11, 2021, by counsel for
the intervenors,
IT IS ORDERED that the motions are DENIED.

form name: c7_Order_BTC(form ID: 178)

APPENDIX B

Case: 20-3150

Document: 24-1

Filed: 03/09/2021

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

March 9, 2021
By the Court:
COOK COUNTY, ILLINOIS and ILLINOIS COALITION FOR
IMMIGRANT AND REFUGEE RIGHTS,
Plaintiffs - Appellees
No. 20-3150

v.
CHAD F. WOLF, et al.,
Defendants - Appellants

Originating Case Information:
District Court No: 1:19-cv-06334
Northern District of Illinois, Eastern Division
District Judge Gary Feinerman

Upon consideration of the UNOPPOSED MOTION TO VOLUNTARILY DISMISS
APPEAL, filed on March 9, 2021, by counsel for appellants,
IT IS ORDERED that this case is DISMISSED, pursuant to Federal Rule of Appellate
Procedure 42(b).

form name: c7_FinalOrderWMandate(form ID: 137)

(1 of 3)

Case: 20-3150

Document: 24-2

Filed: 03/09/2021

Pages: 2

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

NOTICE OF ISSUANCE OF MANDATE
March 9, 2021
To:

Thomas G. Bruton
UNITED STATES DISTRICT COURT
Northern District of Illinois
Chicago , IL 60604-0000
COOK COUNTY, ILLINOIS and ILLINOIS COALITION FOR
IMMIGRANT AND REFUGEE RIGHTS,
Plaintiffs - Appellees

No. 20-3150

v.
CHAD F. WOLF, et al.,
Defendants - Appellants

Originating Case Information:
District Court No: 1:19-cv-06334
Northern District of Illinois, Eastern Division
District Judge Gary Feinerman

Herewith is the mandate of this court in this appeal, along with the Bill of Costs, if any. A
certified copy of the opinion/order of the court and judgment, if any, and any direction as to
costs shall constitute the mandate.
TYPE OF DISMISSAL:

F.R.A.P. 42(b)

STATUS OF THE RECORD:

no record to be returned

(2 of 3)

Case: 20-3150

Document: 24-2

Filed: 03/09/2021

Pages: 2

NOTE TO COUNSEL:
If any physical and large documentary exhibits have been filed in the above-entitled cause, they are
to be withdrawn ten (10) days from the date of this notice. Exhibits not withdrawn during this period
will be disposed of.
Please acknowledge receipt of these documents on the enclosed copy of this notice.
-----------------------------------

Received above mandate and record, if any, from the Clerk, U.S. Court of Appeals for the
Seventh Circuit.
Date:

Received by:

_________________________

____________________________________

form name: c7_Mandate(form ID: 135)

(3 of 3)

APPENDIX C

Case: 1:19-cv-06334 Document #: 222 Filed: 11/02/20 Page 1 of 14 PageID #:3018

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
COOK COUNTY, ILLINOIS, an Illinois governmental
entity, and ILLINOIS COALITION FOR IMMIGRANT
AND REFUGEE RIGHTS, INC.,
Plaintiffs,
vs.
CHAD F. WOLF, in his official capacity as Acting
Secretary of U.S. Department of Homeland
Security, U.S. DEPARTMENT OF HOMELAND
SECURITY, a federal agency, KENNETH T.
CUCCINELLI II, in his official capacity as Acting
Director of U.S. Citizenship and Immigration Services,
and U.S. CITIZENSHIP AND IMMIGRATION
SERVICES, a federal agency,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

19 C 6334
Judge Gary Feinerman

MEMORANDUM OPINION AND ORDER
Cook County and Illinois Coalition for Immigrant and Refugee Rights, Inc. (“ICIRR”)
allege in this suit that the Department of Homeland Security’s (“DHS”) final rule, Inadmissibility
on Public Charge Grounds, 84 Fed. Reg. 41,292 (Aug. 14, 2019) (“Final Rule” or “Rule”), is
unlawful. Doc. 1. Plaintiffs claim that the Rule violates the Administrative Procedure Act
(“APA”), 5 U.S.C. § 701 et seq., because (1) it exceeds DHS’s authority under the public charge
provision of the Immigration and Nationality Act (“INA”), 8 U.S.C. § 1182(a)(4)(A); (2) is not
in accordance with law; and (3) is arbitrary and capricious. Doc. 1 at ¶¶ 140-169. ICIRR also
claims that the Rule violates the equal protection component of the Fifth Amendment’s Due
Process Clause. Id. at ¶¶ 170-188.
On October 14, 2019, this court preliminarily enjoined DHS from enforcing the Final
Rule in the State of Illinois, reasoning that the Rule likely violates the APA because it interprets

1

Case: 1:19-cv-06334 Document #: 222 Filed: 11/02/20 Page 2 of 14 PageID #:3019

the term “public charge” in a manner incompatible with its statutory meaning. Docs. 85, 87, 106
(reported at 417 F. Supp. 3d 1008 (N.D. Ill. 2019)). DHS appealed. The Seventh Circuit denied
DHS’s motion to stay the preliminary injunction pending appeal, No. 19-3169 (7th Cir. Dec. 23,
2019), but the Supreme Court issued a stay, 140 S. Ct. 681 (2020) (mem.). Meanwhile, DHS
moved to dismiss the suit under Civil Rules 12(b)(1) and 12(b)(6). Doc. 124. This court denied
DHS’s motion and granted ICIRR’s request for extra-record discovery on its equal protection
claim. Docs. 149-150 (reported at 461 F. Supp. 3d 779 (N.D. Ill. 2020)). And this court denied
DHS’s motion to certify under 28 U.S.C. § 1292(b) an interlocutory appeal of the denial of its
motion to dismiss the equal protection claim. Docs. 183-184 (reported at 2020 WL 3975466
(N.D. Ill. July 14, 2020)).
Shortly after this court denied DHS’s motion to dismiss, the Seventh Circuit affirmed the
preliminary injunction, reasoning that the Final Rule likely violates the APA. 962 F.3d 208 (7th
Cir. 2020). Armed with the Seventh Circuit’s decision, Plaintiffs move for summary judgment
on their APA claims. Doc. 200. They seek a partial judgment under Civil Rule 54(b)—one that
would vacate the Rule pursuant to the APA and allow continued litigation on ICIRR’s equal
protection claim. Docs. 217-218. Plaintiffs’ motion is granted. A Rule 54(b) judgment is
entered, the Final Rule is vacated, DHS’s request to stay the judgment is denied, and ICIRR’s
equal protection claim may proceed in this court.
Discussion
The pertinent background is set forth in this court’s opinions and the Seventh Circuit’s
opinion, familiarity with which is assumed.
I.

Plaintiffs’ Summary Judgment Motion
DHS forthrightly concedes that the Seventh Circuit’s opinion affirming the preliminary

injunction effectively resolves the APA claims on the merits in Plaintiffs’ favor. Doc. 209 at 7
2

Case: 1:19-cv-06334 Document #: 222 Filed: 11/02/20 Page 3 of 14 PageID #:3020

(“Defendants do not dispute that the Seventh Circuit’s legal conclusions concerning the Rule
may justify summary judgment for Plaintiffs on their APA claims here.”); Doc. 219 at 1
(“Plaintiffs have argued, and Defendants do not dispute, that the Court may grant Plaintiffs’
pending [summary judgment motion] in light of the Seventh Circuit’s decision affirming the
Court’s preliminary injunction order.”). That concession is appropriate given the Seventh
Circuit’s conclusion that the Final Rule is both substantively and procedurally defective under
the APA. 962 F.3d at 222-33.
As for substance, the Seventh Circuit held in pertinent part as follows:
… Even assuming that the term “public charge” is ambiguous and thus might
encompass more than institutionalization or primary, long-term dependence
on cash benefits, it does violence to the English language and the statutory
context to say that it covers a person who receives only de minimis benefits
for a de minimis period of time. There is a floor inherent in the words “public
charge,” backed up by the weight of history. The term requires a degree of
dependence that goes beyond temporary receipt of supplemental in-kind
benefits from any type of public agency.
*

*

*

The ambiguity in the public-charge provision does not provide DHS
unfettered discretion to redefine “public charge.” We find that the
interpretation reflected in the Rule falls outside the boundaries set by the
statute.
Id. at 229. * As for procedure, and in the alternative, the Seventh Circuit held that the Rule was
“likely to fail the ‘arbitrary and capricious’ standard” due to “numerous unexplained serious

*

Although the Seventh Circuit reached its conclusion under step two of Chevron and this court
stopped at step one, there is less dissonance between the two opinions than meets the eye.
Adopting the methodological approach urged by DHS—which it has since abandoned—that
“‘the late 19th century [is] the key time to consider’ for determining the meaning of the term
‘public charge,’” 417 F. Supp. 3d at 1023 (quoting DHS’s brief in opposition to Plaintiffs’
motion for preliminary injunction), this court concluded from an examination of
contemporaneous court decisions, dictionaries, and commentary that “an alien [cannot] be
deemed a public charge based on the receipt, or anticipated receipt, of a modest quantum of
public benefits for short periods of time,” id. at 1026. See id. at 1022-29 (analyzing the cases,
dictionaries, and commentary). And as just noted, the Seventh Circuit held that “[t]here is a
3

Case: 1:19-cv-06334 Document #: 222 Filed: 11/02/20 Page 4 of 14 PageID #:3021

flaws: DHS did not adequately consider the reliance interests of state and local governments; did
not acknowledge or address the significant, predictable collateral consequences of the Rule;
incorporated into the term ‘public charge’ an understanding of self-sufficiency that has no basis
in the statute it supposedly interprets; and failed to address critical issues such as the relevance of
the five-year waiting period for immigrant eligibility for most federal benefits.” Id. at 233.
Given these holdings, DHS is right to acknowledge that this court should grant summary
judgment to Plaintiffs on their APA claims.
The parties disagree, however, about the appropriate remedy. Plaintiffs ask this court to
vacate the Final Rule. Doc. 201 at 35-37. DHS contends that this court should vacate the Rule
only insofar as it affects Plaintiffs, meaning that the vacatur should be limited to the State of
Illinois. Doc. 209 at 27-29. Plaintiffs are correct.
The APA provides in pertinent part that “[t]he reviewing court shall … hold unlawful and
set aside agency action, findings, and conclusions found to be … arbitrary, capricious, an abuse
of discretion, or otherwise not in accordance with law.” 5 U.S.C. § 706(2)(A). “[A]gency
action” includes “the whole or a part of an agency rule.” Id. § 551(13). By the APA’s plain
terms, then, an agency rule found unlawful in whole is not “set aside” just for certain plaintiffs or
geographic areas; rather, the rule “shall” be “set aside,” period. See Murphy v. Smith, 138 S. Ct.

floor inherent in the words ‘public charge,’” and that “[t]he term requires a degree of dependence
that goes beyond temporary receipt of supplemental in-kind benefits from any type of public
agency.” 962 F.3d at 229. Both opinions rest on a common premise: whatever play in the joints
the statutory term “public charge” might enjoy, it cannot be stretched to cover the full measure of
noncitizens deemed by the Final Rule to be public charges. See generally Matthew C.
Stephenson & Adrian Vermeule, Chevron Has Only One Step, 95 Va. L. Rev. 597, 599 (2009)
(“[Chevron] artificially divides one inquiry into two steps. The single question is whether the
agency’s construction is permissible as a matter of statutory interpretation; the two Chevron
steps both ask this question, just in different ways. As a result, the two steps are mutually
convertible.”); id. at 602 (“Congress’ intention may be ambiguous within a range, but not at all
ambiguous as to interpretations outside that range, which are clearly forbidden.”).
4

Case: 1:19-cv-06334 Document #: 222 Filed: 11/02/20 Page 5 of 14 PageID #:3022

784, 787 (2018) (“[T]he word ‘shall’ usually creates a mandate, not a liberty, so the verb phrase
‘shall be applied’ tells us that the district court has some nondiscretionary duty to perform.”)
(quoting 42 U.S.C. § 1997e(d)(2)); Lexecon Inc. v. Milberg Weiss Bershad Hynes & Lerach, 523
U.S. 26, 35 (1998) (“[T]he mandatory ‘shall’… normally creates an obligation impervious to
judicial discretion.”) (quoting 28 U.S.C. § 1407(a)).
Precedent confirms that the APA’s text means what it says. For example, in Bowen v.
Georgetown University Hospital, 488 U.S. 204 (1988), the Supreme Court affirmed the D.C.
Circuit’s decision to set aside an agency rule concerning Medicaid reimbursement costs. Rather
than limit relief to the “group of seven hospitals” that had filed suit, the Court declared the Rule
“invalid.” Id. at 207, 216. There is nothing unusual about this result, for that is simply what
courts do when they determine that an agency action violates the APA. See, e.g., DHS v.
Regents of the Univ. of Cal., 140 S. Ct. 1891, 1901 (2020) (holding that DHS’s rescission of the
Deferred Action for Childhood Arrivals program “must be vacated” due to the agency’s violation
of the APA); Allentown Mack Sales & Serv., Inc. v. NLRB, 522 U.S. 359, 374 (1998) (“Courts
enforce [arbitrary and capricious review] with regularity when they set aside agency regulations
which … are not supported by the reasons that the agencies adduce.”); H & H Tire Co. v. U.S.
Dep’t of Transp., 471 F.2d 350, 355-56 (7th Cir. 1972) (“When an administrative decision is
made without consideration of relevant factors it must be set aside.”) (internal quotation marks
omitted); Empire Health Found. ex rel. Valley Hosp. Med. Ctr. v. Azar, 958 F.3d 873, 886 (9th
Cir. 2020) (“[W]hen a reviewing court determines that agency regulations are unlawful, the
ordinary result is that the rules are vacated—not that their application to the individual
petitioners is proscribed.”) (internal quotation marks omitted); Nat’l Mining Ass’n v. U.S. Army
Corps of Eng’rs, 145 F.3d 1399, 1409 (D.C. Cir. 1998) (same).

5

Case: 1:19-cv-06334 Document #: 222 Filed: 11/02/20 Page 6 of 14 PageID #:3023

DHS cites Johnson v. United States Office of Personnel Management, 783 F.3d 655 (7th
Cir. 2015), for the proposition that the APA authorizes courts to limit the vacatur of agency
action to a defined geographic area. Doc. 209 at 27. True enough, Johnson held that “partial
vacatur is sometimes an appropriate remedy” for an APA violation. 783 F.3d at 663. But by
“partial vacatur,” the Seventh Circuit meant a circumstance where a court invalidates the
unlawful parts of an agency action and leaves the valid parts in place. See ibid. (citing Sierra
Club v. Van Antwerp, 719 F. Supp. 2d 77 (D.D.C. 2010), where the district court invalidated only
part of a Clean Water Act permit). The Seventh Circuit did not mean that an agency rule can be
vacated only as to certain plaintiffs or certain States. Nor could the court possibly have meant
that. As Judge Moss has aptly observed: “As a practical matter, … how could [a] [c]ourt vacate
[a challenged] Rule with respect to the … plaintiffs in [a] case without vacating the Rule writ
large? What would it mean to ‘vacate’ a rule as to some but not other members of the public?
What would appear in the Code of Federal Regulations?” O.A. v. Trump, 404 F. Supp. 3d 109,
153 (D.D.C. 2019).
DHS retorts that an order vacating the Final Rule without any geographic limitation
would be akin to entering the kind of nationwide injunction that the Fourth Circuit and two
Justices have criticized in other cases involving APA challenges to the Rule. Doc. 209 at 27-30;
see DHS v. New York, 140 S. Ct. 599, 599-601 (2020) (Gorsuch, J., joined by Thomas, J.,
concurring in the grant of stay); CASA de Md., Inc. v. Trump, 971 F.3d 220, 255-63 (4th Cir.
2020). DHS’s analogy is inapt. As an initial matter, the two cases cited by DHS arose in the
preliminary injunction posture—the district courts there could not have vacated the Rule at that
early juncture, so the only question concerned the appropriate scope of preliminary relief. Here,
by contrast, Plaintiffs ask this court to vacate the Rule after a judgment on the merits. Although

6

Case: 1:19-cv-06334 Document #: 222 Filed: 11/02/20 Page 7 of 14 PageID #:3024

vacatur will prevent DHS from enforcing the Rule against nonparties, that is a consequence not
of the court’s choice to grant relief that is broader than necessary, but of the APA’s mandate that
flawed agency action must be “h[e]ld unlawful and set aside.” 5 U.S.C. § 706(2).
Moreover, DHS’s analogy fails to recognize that the two remedies—vacatur of a rule,
and a nationwide injunction against its implementation—have significant differences. A
nationwide injunction is a “drastic and extraordinary remedy” residing at the outer bounds of the
judicial power. Monsanto Co. v. Geertson Seed Farms, 561 U.S. 139, 165-66 (2010) (“An
injunction is a drastic and extraordinary remedy, which should not be granted as a matter of
course. If a less drastic remedy (such as partial or complete vacatur of [the agency’s]
deregulation decision) was sufficient to redress [the challengers’] injury, no recourse to the
additional and extraordinary relief of an injunction was warranted.”). Vacatur, by contrast, is the
ordinary remedy—again, precisely the remedy demanded by the APA’s text when a rule is held
to violate the APA. See 5 U.S.C. § 706(2) (providing that the court “shall” “set aside” the
challenged “agency action” if it is adopted “in excess of statutory … authority” or is “arbitrary
[and] capricious”); see also Humane Soc’y of U.S. v. Zinke, 865 F.3d 585, 614 (D.C. Cir. 2017)
(“A common remedy when we find a rule invalid is to vacate.”). As Judge Randolph has
explained:
Once a reviewing court determines that the agency has not adequately
explained its decision, the [APA] requires the court—in the absence of any
contrary statute—to vacate the agency’s action. The [APA] states this in the
clearest possible terms. Section 706(2)(A) provides that a “reviewing court”
faced with an arbitrary and capricious agency decision “shall”—not may—
“hold unlawful and set aside” the agency action. Setting aside means
vacating; no other meaning is apparent. Often we do this simply as a matter
of course.
Checkosky v. SEC, 23 F.3d 452, 491 (D.C. Cir. 1994) (opinion of Randolph, J.) (citation
omitted).

7

Case: 1:19-cv-06334 Document #: 222 Filed: 11/02/20 Page 8 of 14 PageID #:3025

In sum, the Final Rule is vacated, and the vacatur is not limited to the State of Illinois.
II.

Rule 54(b) Judgment
With the APA claims resolved in Plaintiffs’ favor, the question becomes whether the

court should enter judgment under Rule 54(b) or, rather, under Rule 58—and, relatedly, what
should happen to ICIRR’s equal protection claim. Plaintiffs urge this court to enter a Rule 54(b)
judgment on their APA claims and allow ICIRR to continue litigating its equal protection claim.
Docs. 217-218. DHS does not expressly address whether a Rule 54(b) or Rule 58 judgment
should be entered, but argues in its brief—and reiterated last week at oral argument, Doc. 220—
that the court should stay further proceedings on the equal protection claim if judgment is
entered on the APA claims. Doc. 219 at 1, 4-5. The court will enter a Rule 54(b) judgment and,
given the particular facts and circumstances of this suit and parallel suits pending elsewhere, will
not stay litigation on the equal protection claim.
“When a case involves more than one claim, Rule 54(b) allows a federal court to direct
entry of a final judgment on ‘one or more, but fewer than all, claims,’ provided there is no just
reason for delay.” Peerless Network, Inc. v. MCI Commc’ns Servs., Inc., 917 F.3d 538, 543 (7th
Cir. 2019) (quoting Fed. R. Civ. P. 54(b)). “A proper Rule 54(b) order requires the district court
to make two determinations: (1) that the order in question was truly a ‘final judgment,’ and
(2) that there is no just reason to delay the appeal of the claim that was ‘finally’ decided.” Gen.
Ins. Co. of Am. v. Clark Mall Corp., 644 F.3d 375, 379 (7th Cir. 2011) (quoting Sears, Roebuck
& Co. v. Mackey, 351 U.S. 427, 434-37 (1956)). Plaintiffs satisfy both requirements.
As to the “final judgment” requirement, “a judgment must be final in the sense that it is
an ultimate disposition of an individual claim entered in the course of a multiple claims action.”
Ibid. (internal quotation marks omitted). A judgment is not “truly final” if “there is too much
factual overlap with claims remaining in the district court.” Peerless Network, 917 F.3d at 543.
8

Case: 1:19-cv-06334 Document #: 222 Filed: 11/02/20 Page 9 of 14 PageID #:3026

When “multiple claims arise from the same set of facts,” the court must “consider whether they
are based on entirely different legal entitlements yielding separate recoveries or different legal
theories aimed at the same recovery—the latter of which makes Rule 54(b) partial final judgment
improper.” Ibid. (internal quotation marks omitted).
The final judgment requirement is satisfied here. The APA claims concern whether the
Final Rule properly implements the INA’s public charge provision and whether DHS’s
rulemaking was arbitrary and capricious, Doc. 1 at ¶¶ 140-169; 962 F.3d at 222-33, while the
equal protection claim concerns whether the Rule is motivated by the impermissible
discriminatory purpose of favoring white immigrants over nonwhite immigrants, Doc. 1 at
¶¶ 170-188; 461 F. Supp. 3d at 784-92. Other than their common attack on the Rule itself, there
is minimal factual (or legal) overlap between those claims. See Marseilles Hydro Power, LLC v.
Marseilles Land & Water Co., 518 F.3d 459, 465 (7th Cir. 2008) (holding that tort and property
law claims arising from the collapse of a water canal had “some overlapping historical facts” but
nonetheless were “sufficiently distinct” for purposes of Rule 54(b)); Ty, Inc. v. Publ’ns Int’l Ltd.,
292 F.3d 512, 515-16 (7th Cir. 2002) (upholding the entry of a Rule 54(b) judgment on a
copyright claim because “the only facts before [the court] on … appeal” were “unlikely to be at
issue” in the trademark claim that remained in the district court). Granted, a portion of one of
Plaintiffs’ APA claims alleges that the economic justifications articulated by DHS for the Rule
are a pretext for racial discrimination, Doc. 1 at ¶ 166; 2020 WL 3975466, at *2, but the Seventh
Circuit’s opinion did not rely on pretext, and this court’s grant of summary judgment on the APA
claims likewise does not rely on pretext given that it rests exclusively on the Seventh Circuit’s
opinion. See Lawyers Title Ins. Corp. v. Dearborn Title Corp., 118 F.3d 1157, 1163 (7th Cir.
1997) (“[S]ome overlap between the facts in the retained and the appealed claims is not fatal.”).

9

Case: 1:19-cv-06334 Document #: 222 Filed: 11/02/20 Page 10 of 14 PageID #:3027

Moreover, the APA and equal protection claims are not “different legal theories aimed at
the same recovery.” Peerless Network, 917 F.3d at 543 (internal quotation marks omitted). The
only remedy Plaintiffs seek under the APA is vacatur of the Final Rule. Doc. 201 at 35-37;
Doc. 213 at 2-6; Doc. 217 at 3; Doc. 218 at 1. For its equal protection claim, ICIRR seeks a
declaration that the Rule violates the Fifth Amendment and, more importantly, a permanent
injunction enjoining DHS and its officials from implementing and enforcing the Rule, Doc. 1 at
pp. 58-59, which could entail a requirement that, until a new rule is promulgated, DHS resume
applying its 1999 field guidance, Field Guidance on Deportability and Inadmissibility on Public
Charge Grounds, 64 Fed. Reg. 28,689 (May 26, 1999). As noted, the Supreme Court in
Monsanto Co. made clear that “complete vacatur of [an agency’s] … decision” is a “less drastic
remedy” than the “additional and extraordinary relief of an injunction.” 561 U.S. at 165-66. It
follows that victory for ICIRR on its equal protection claim may yield relief in addition to the
relief the court is granting on Plaintiff’s APA claims. See Nat’l Ski Areas Ass’n v. U.S. Forest
Serv., 910 F. Supp. 2d 1269, 1288 (D. Colo. 2012) (in addition to vacating a Forest Service
administrative directive, granting injunctive relief against the agency’s enforcement thereof “to
ensure good faith between the parties while the [directive] runs through APA procedural process
on remand”). Whether ICIRR will prevail on its equal protection claim, whether injunctive relief
would be appropriate to remedy an equal protection violation, and what that relief might entail
remain to be seen and cannot be answered at this juncture, when the parties have only recently
commenced discovery and have not sought judgment on that claim. See Marie v. Mosier, 196 F.
Supp. 3d 1202, 1216 (D. Kan. 2016) (collecting cases in which district courts in the wake of
Obergefell v. Hodges, 576 U.S. 644 (2015), enjoined state laws banning same sex marriage, and

10

Case: 1:19-cv-06334 Document #: 222 Filed: 11/02/20 Page 11 of 14 PageID #:3028

rejecting the argument that the unlikelihood that those laws might be enforced made a permanent
injunction unnecessary).
As to the “no just reason to delay the appeal” requirement, “a district court must take into
account judicial administrative interests as well as the equities involved.” Curtiss-Wright Corp.
v. Gen. Elec. Co., 446 U.S. 1, 8 (1980). Regarding the judicial system’s interests, the “goal … is
to prevent ‘piece-meal appeals’ involving the same facts.” Peerless Network, 917 F.3d at 543
(quoting Curtiss-Wright Corp., 446 U.S. at 10). Entry of a Rule 54(b) judgment is fully
consistent with that aim because, as noted, the APA claims on which the court grants summary
judgment have little overlap with ICIRR’s equal protection claim. And regarding the equities,
the Seventh Circuit has held that continued operation of the Final Rule will inflict ongoing harms
on Cook County and on immigrants, 962 F.3d at 233, and this court has held that the same is true
of ICIRR, 417 F. Supp. 3d at 1029-30. Because a Rule 54(b) judgment would give immediate
effect to this court’s vacatur of the Rule—which DHS resumed implementing in September, see
Public Charge Fact Sheet, U.S. Citizenship & Immigr. Servs.,
https://www.uscis.gov/news/public-charge-fact-sheet (last updated Sept. 22, 2020)—there is no
just reason for delaying the entry of judgment or DHS’s appeal thereof.
In sum, the entry of a Rule 54(b) final judgment on the APA claims is proper. The
question remains whether this court should allow litigation to proceed on ICIRR’s equal
protection claim. In urging a stay of litigation on that claim, DHS invokes the constitutional
avoidance doctrine, arguing that “courts ‘will not decide a constitutional question if there is some
other ground upon which to dispose of the case,’ especially if the other ground ‘afford[s] [a
plaintiff] all the relief it seeks.’” Doc. 219 at 3 (quoting Nw. Austin Mun. Util. Dist. No. 1 v.
Holder, 557 U.S. 193, 205 (2009)) (alterations by DHS). DHS’s argument fails because, as

11

Case: 1:19-cv-06334 Document #: 222 Filed: 11/02/20 Page 12 of 14 PageID #:3029

noted, ICIRR’s equal protection claim provides a basis for injunctive relief, which Plaintiffs do
not seek—and would have faced an uphill battle obtaining—on their APA claims. See Monsanto
Co., 561 U.S. at 165-66; O.A., 404 F. Supp. 3d at 153-54.
DHS argues in the alternative that this court should stay litigation on ICIRR’s equal
protection claim because discovery on that claim “could consume significant resources of both
the Court and the parties.” Doc. 219 at 5. If this case were the only challenge to the Final Rule
pending in federal court, DHS’s argument would have significant weight. But as DHS
confirmed at argument, Doc. 220, discovery is proceeding on equal protection claims brought in
two parallel public charge cases. See Washington v. U.S. DHS, No. 19 C 5210 (E.D. Wash.);
New York v. U.S. DHS, No. 19 C 7777 (S.D.N.Y.). Proceeding with discovery on ICIRR’s equal
protection claim here therefore is unlikely to impose on DHS much work in addition to the work
it is already doing in those other cases.
III.

Stay of Judgment Pending Appeal
While acknowledging that, given the Seventh Circuit’s ruling, summary judgment should

be granted to Plaintiffs on the APA claims, DHS asks this court to stay its judgment pending
appeal. Doc. 209 at 29-30. “The standard for granting a stay pending appeal mirrors that for
granting a preliminary injunction. … To determine whether to grant a stay, [the court]
consider[s] the moving party’s likelihood of success on the merits, the irreparable harm that will
result to each side if the stay is either granted or denied in error, and whether the public interest
favors one side or the other.” In re A & F Enters., Inc. II, 742 F.3d 763, 766 (7th Cir. 2014); see
also Venckiene v. United States, 929 F.3d 843, 853 (7th Cir. 2019) (same).
The hierarchical structure of the judiciary makes this a straightforward decision for a
district court. The Seventh Circuit held in the cases just cited that the standard for granting a
stay pending appeal mirrors that for granting a preliminary injunction, and held in this case that
12

Case: 1:19-cv-06334 Document #: 222 Filed: 11/02/20 Page 13 of 14 PageID #:3030

the criteria for a preliminary injunction have been met. 962 F.3d at 221-34. Accordingly,
because (as the Seventh Circuit held) Plaintiffs are entitled to a preliminary injunction, DHS is
not entitled to a stay pending appeal.
DHS counters with the argument that the Supreme Court, in staying this court’s
preliminary injunction order, “‘necessarily conclud[ed]’ that Plaintiffs were unlikely to succeed
on the merits” and “necessarily … determin[ed] that the balance of the harms and the public
interest support a stay.” Doc. 209 at 29 (quoting CASA de Md., 971 F.3d at 230) (first alteration
in original). But the Seventh Circuit effectively rejected that line of reasoning in affirming the
preliminary injunction:
With respect to the balance of harms, we must take account of the
Supreme Court’s decision to stay the preliminary injunction entered by the
district court. The Court’s stay decision was not a merits ruling. … We do not
know why the Court granted this stay, because it did so by summary order, but
we assume that it abided by the normal standards. Consequently, the stay
provides an indication that the Court thinks that there is at least a fair prospect
that DHS should prevail and faces a greater threat of irreparable harm than the
plaintiffs.
The stay thus preserves the status quo while this case and others
percolate up from courts around the country. There would be no point in the
merits stage if an issuance of a stay must be understood as a sub silentio
disposition of the underlying dispute. With the benefit of more time for
consideration and the complete preliminary injunction record, we believe that
it is our duty to evaluate each of the preliminary injunction factors, including
the balance of equities. In so doing, we apply a ‘sliding scale’ approach in
which “the more likely the plaintiff is to win, the less heavily need the balance
of harms weigh in his favor; the less likely he is to win, the more need it
weigh in his favor.” Valencia v. City of Springfield, 883 F.3d [959,] 966 [(7th
Cir. 2018)]. We also consider effects that granting or denying the preliminary
injunction would have on the public. Ibid.
In our view, Cook County has shown that it is likely to suffer (and has
already begun to suffer) irreparable harm caused by the Rule. Given the
dramatic shift in policy the Rule reflects and the potentially dire public health
consequences of the Rule, we agree with the district court that the public
interest is better served for the time being by preliminarily enjoining the Rule.

13

Case: 1:19-cv-06334 Document #: 222 Filed: 11/02/20 Page 14 of 14 PageID #:3031

962 F.3d at 233-34. In reaching that decision, the Seventh Circuit also had the benefit of a Ninth
Circuit opinion holding that the Final Rule likely complied with the APA, see City and Cnty. of
San Francisco v. USCIS, 944 F.3d 773 (9th Cir. 2019), and necessarily rejected the Ninth
Circuit’s approach. Given the Seventh Circuit’s holding that, despite the Supreme Court’s stay,
the Final Rule was substantively and procedurally invalid under the APA and preliminary
injunctive relief was appropriate, this court will not stay its vacatur of the Rule.
Conclusion
Plaintiffs’ summary judgment motion is granted. The court enters a Rule 54(b) judgment
vacating the Final Rule, to take effect immediately. Litigation may proceed in this court on
ICIRR’s equal protection claim.

November 2, 2020

___________________________________
United States District Judge

14

APPENDIX D

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 1 of 33 PageID #:1612

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
COOK COUNTY, ILLINOIS, an Illinois governmental
entity, and ILLINOIS COALITION FOR IMMIGRANT
AND REFUGEE RIGHTS, INC.,
Plaintiffs,
vs.
KEVIN K. McALEENAN, in his official capacity as
Acting Secretary of U.S. Department of Homeland
Security, U.S. DEPARTMENT OF HOMELAND
SECURITY, a federal agency, KENNETH T.
CUCCINELLI II, in his official capacity as Acting
Director of U.S. Citizenship and Immigration Services,
and U.S. CITIZENSHIP AND IMMIGRATION
SERVICES, a federal agency,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

19 C 6334
Judge Gary Feinerman

(CORRECTED) MEMORANDUM OPINION AND ORDER
In this suit under the Administrative Procedure Act (“APA”), 5 U.S.C. § 701 et seq.,
Cook County and Illinois Coalition for Immigrant and Refugee Rights, Inc. (“ICIRR”) challenge
the legality of the Department of Homeland Security’s (“DHS”) final rule, Inadmissibility on
Public Charge Grounds, 84 Fed. Reg. 41,292 (Aug. 14, 2019) (to be codified at 8 C.F.R. pts. 103,
212-14, 245, 248). Doc. 1. The Final Rule has an effective date of October 15, 2019. Cook
County and ICIRR move for a temporary restraining order and/or preliminary injunction under
Civil Rule 65, or a stay under § 705 of the APA, 5 U.S.C. § 705, to bar DHS (the other
defendants are ignored for simplicity’s sake) from implementing and enforcing the Rule in the
State of Illinois. Doc. 24. At the parties’ request, briefing closed on October 10, 2019, and oral
argument was held on October 11, 2019. Docs. 29, 81. The motion is granted, and DHS is
enjoined from implementing the Rule in the State of Illinois absent further order of court.

1

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 2 of 33 PageID #:1613

Background
Section 212(a)(4) of the Immigration and Nationality Act (“INA”) states: “Any alien
who, in the opinion of the consular officer at the time of application for a visa, or in the opinion
of the Attorney General at the time of application for admission or adjustment of status, is likely
at any time to become a public charge is inadmissible.” 8 U.S.C. § 1182(a)(4)(A). The public
charge provision has a long pedigree, dating back to the Immigration Act of 1882, ch. 376, §§ 12, 22 Stat. 214, 214, which directed immigration officers to refuse entry to “any convict, lunatic,
idiot, or any person unable to take care of himself or herself without becoming a public charge.”
The provision has been part of our immigration laws, in various but nearly identical guises, ever
since. See Immigration Act of 1891, ch. 551, § 1, 26 Stat. 1084, 1084; Immigration Act of 1907,
ch. 1134, § 2, 34 Stat. 898, 899; Immigration Act of 1917, ch. 29, § 3, 39 Stat. 874, 876; INA of
1952, ch. 477, § 212(a)(15), 66 Stat. 163, 183; Illegal Immigration Reform and Immigrant
Responsibility Act (“IIRIRA”), Pub. L. No. 104-208, § 531(a), 110 Stat. 3009-546, 3009-674 to 75 (1996).
Prior to the rulemaking resulting in the Final Rule, the federal agency charged with
immigration enforcement last articulated its interpretation of “public charge” in a 1999 field
guidance document. Field Guidance on Deportability and Inadmissibility on Public Charge
Grounds, 64 Fed. Reg. 28,689 (May 26, 1999). The field guidance defined a “public charge” as
a person “primarily dependent on the government for subsistence,” and instructed immigration
officers to ignore non-cash public benefits in assessing whether an individual was “likely at any
time to become a public charge.” Ibid. That definition and instruction never made their way into
a regulation.

2

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 3 of 33 PageID #:1614

On October 10, 2018, DHS published a Notice of Proposed Rulemaking, Inadmissibility
on Public Charge Grounds, 83 Fed. Reg. 51,114 (Oct. 10, 2018), which was followed by a sixtyday public comment period. Some ten months later, DHS published the Final Rule, which
addressed the comments, revised the proposed rule, and provided analysis to support the Rule.
See Inadmissibility on Public Charge Grounds, 84 Fed. Reg. at 41,292. As DHS described it, the
Rule “redefines the term ‘public charge’ to mean an alien who receives one or more designated
public benefits for more than 12 months in the aggregate within any 36-month period (such that,
for instance, receipt of two benefits in one month counts as two months).” 84 Fed. Reg. at
41,295.
By adopting a duration-based standard, the Rule covers aliens who receive only minimal
benefits so long as they receive them for the requisite time period. As the Rule explains: “DHS
may find an alien inadmissible under the standard, even though the alien who exceeds the
duration threshold may receive only hundreds of dollars, or less, in public benefits annually.” Id.
at 41,360-61. The Rule “defines the term ‘public benefit’ to include cash benefits for income
maintenance, [the Supplemental Nutrition Assistance Program], most forms of Medicaid, Section
8 Housing Assistance under the Housing Choice Voucher (HCV) Program, Section 8 ProjectBased Rental Assistance, and certain other forms of subsidized housing.” Id. at 41,295. The
Rule sets forth several nonexclusive factors DHS must consider in determining whether an alien
is likely to become a public charge, including “the alien’s health,” any “diagnosed … medical
condition” that “will interfere with the alien’s ability to provide and care for himself or herself,”
and past applications for the enumerated public benefits. Id. at 41,502-04. The Rule provides
that persons found likely to become public charges are ineligible “for a visa to come to the
United States temporarily or permanently, for admission, or for adjustment of status to that of a

3

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 4 of 33 PageID #:1615

lawful permanent resident.” Id. at 41,303. The Rule also “potentially affect[s] individuals
applying for an extension of stay or change of status because these individuals would have to
demonstrate that they have not received, since obtaining the nonimmigrant status they are
seeking to extend or change, public benefits for” more than the allowed duration. Id. at 41,493.
Cook County and ICIRR challenge the Rule’s legality and seek to enjoin its
implementation. Cook County operates the Cook County Health and Hospitals System (“CCH”),
one of the largest public hospital systems in the Nation. Doc. 27-1 at p. 326, ¶ 5. ICIRR is a
membership-based organization that represents nonprofit organizations and social and health
service providers throughout Illinois that deliver and seek to protect access to health care,
nutrition, housing, and other services for immigrants regardless of immigration status. Id. at
pp. 341-342, ¶¶ 3-10. Cook County and ICIRR maintain that the Rule will cause immigrants to
disenroll from public benefits—or to not seek benefits in the first place—which will in turn
generate increased costs and cause them to divert resources from their existing programs meant
to aid immigrants and safeguard public health. Doc. 27-1 at pp. 330-338, ¶¶ 25-52; id. at pp.
342-350, ¶¶ 11-42. Cook County and ICIRR argue that the Rule exceeds the authority granted to
DHS under the INA and that DHS acted arbitrarily and capriciously in promulgating the Rule.
Discussion
“To win a preliminary injunction, the moving party must establish that (1) without
preliminary relief, it will suffer irreparable harm before final resolution of its claims; (2) legal
remedies are inadequate; and (3) its claim has some likelihood of success on the merits.” Eli
Lilly & Co. v. Arla Foods, Inc., 893 F.3d 375, 381 (7th Cir. 2018). “If the moving party makes
this showing, the court balances the harms to the moving party, other parties, and the public.”
Ibid. “In so doing, the court employs a sliding scale approach: the more likely the plaintiff is to

4

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 5 of 33 PageID #:1616

win, the less heavily need the balance of harms weigh in [its] favor; the less likely [it] is to win,
the more need [the balance] weigh in [its] favor.” Valencia v. City of Springfield, 883 F.3d 959,
966 (7th Cir. 2018) (alteration and internal quotation marks omitted). “The sliding scale
approach is not mathematical in nature, rather it is more properly characterized as subjective and
intuitive, one which permits district courts to weigh the competing considerations and mold
appropriate relief.” Stuller, Inc. v. Steak N Shake Enters., 695 F.3d 676, 678 (7th Cir. 2012)
(internal quotation marks omitted). “Stated another way, the district court sits as would a
chancellor in equity and weighs all the factors, seeking at all times to minimize the costs of being
mistaken.” Ibid. (alteration and internal quotation marks omitted). A request for a temporary
restraining order is analyzed under the same rubric, see Carlson Grp., Inc. v. Davenport, 2016
WL 7212522, at *2 (N.D. Ill. Dec. 13, 2016), as is a request for a stay under 5 U.S.C. § 705, see
Cronin v. U.S. Dep’t of Agric., 919 F.2d 439, 446 (7th Cir. 1990) (“The standard is the same
whether a preliminary injunction against agency action is being sought in the district court or a
stay of that action [under 5 U.S.C. § 705] is being sought in [the appeals] court.”).
I.

Likelihood of Success on the Merits
A.

Standing

DHS argues at the outset that Cook County and ICIRR lack Article III standing. Doc. 73
at 20-23. “To assert [Article III] standing for injunctive relief, [a plaintiff] must show that [it is]
under an actual or imminent threat of suffering a concrete and particularized ‘injury in fact’; that
this injury is fairly traceable to the defendant’s conduct; and that it is likely that a favorable
judicial decision will prevent or redress the injury.” Common Cause Ind. v. Lawson, 937 F.3d
944, 949 (7th Cir. 2019) (citing Summers v. Earth Island Inst., 555 U.S. 488, 493 (2009)).
On the present record, Cook County has established its standing. In Gladstone, Realtors
v. Village of Bellwood, 441 U.S. 91 (1979), where a municipality alleged under the Fair Housing
5

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 6 of 33 PageID #:1617

Act (“FHA”), 42 U.S.C. § 3601 et seq., that real estate brokers had engaged in racial steering, the
Supreme Court held for Article III purposes that “[a] significant reduction in property values
directly injures a municipality by diminishing its tax base, thus threatening its ability to bear the
costs of local government and to provide services.” Gladstone, 441 U.S. at 110-11. That was so
even though the causal chain resulting in the municipality’s injury involved independent
decisions made by non-parties; as the Court explained, “racial steering effectively manipulates
the housing market” by altering homebuyers’ decisions, which “reduce[s] the total number of
buyers in the … housing market,” particularly where “perceptible increases in the minority
population … precipitate an exodus of white residents.” Id. at 109-10. That reduction in buyers,
in turn, meant that “prices may be deflected downward[,] … directly injur[ing] a municipality by
diminishing its tax base.” Id. at 110-11.
Applying Gladstone, the Seventh Circuit in City of Chicago v. Matchmaker Real Estate
Sales Center, Inc., 982 F.2d 1086 (7th Cir. 1992), held that Chicago had standing in a similar
FHA case, reasoning that “racial steering leads to resegregation” and to “[p]eople … becom[ing]
panicked and los[ing] interest in the community,” generating “destabilization of the community
and a corresponding increased burden on the City in the form of increased crime and an erosion
of the tax base.” Id. at 1095. The Seventh Circuit added that Chicago’s standing also rested on
the fact that its “fair housing agency ha[d] to use its scarce resources to ensure compliance with
the fair housing laws” rather than to “perform its routine services.” Ibid.
The Supreme Court’s decision earlier this year in Department of Commerce v. New York,
139 S. Ct. 2551 (2019), is of a piece with Gladstone and Matchmaker. In a challenge to the
Department of Commerce’s addition of a citizenship question to the census, the Court held that
the plaintiff States had shown standing by “establish[ing] a sufficient likelihood that the

6

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 7 of 33 PageID #:1618

reinstatement of a citizenship question would result in noncitizen households responding to the
census at lower rates than other groups, which in turn would cause them to be undercounted and
lead to” injuries to the States such as “diminishment of political representation, loss of federal
funds, degradation of census data, and diversion of resources.” Id. at 2565. In so holding, the
Court explained that the fact that a “harm depends on the independent action of third parties,”
even when such actions stem from the third parties’ “unfounded fears,” does not make an injury
too “speculative” to confer standing. Id. at 2565-66.
Cook County asserts injuries at least as concrete, imminent, and traceable as did the
government plaintiffs in Gladstone, New York, and Matchmaker. As the parties agree, the Final
Rule will cause immigrants to disenroll from, or refrain from enrolling in, critical public benefits
out of fear of being deemed a public charge. Doc. 27-1 at pp. 330-332, ¶¶ 25, 30; id. at pp. 344345, ¶¶ 19-20, 23; 84 Fed. Reg. at 41,300 (“The final rule will … result in a reduction in transfer
payments from the Federal Government to individuals who may choose to disenroll from or
forego enrollment in a public benefits program.”); id. at 41,485 (similar). Cook County adduces
evidence showing, consistent with common sense, that where individuals lack access to health
coverage and do not avail themselves of government-provided healthcare, they are likely to forgo
routine treatment—resulting in more costly, uncompensated emergency care down the line. Doc.
27-1 at pp. 331-333, 335-337, ¶¶ 30-32, 41-50. Additionally, because uninsured persons who do
not seek public medical benefits are less likely to receive immunizations or to seek diagnostic
testing, the Rule increases the risk of vaccine-preventable and other communicable diseases
spreading throughout the County. Id. at pp. 329-330, 333, ¶¶ 20-21, 33; id. at pp. 358-359,
¶¶ 29, 32. Both the costs of community health epidemics and of uncompensated care are likely
to fall particularly hard on CCH, which already provides approximately half of all charity care in

7

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 8 of 33 PageID #:1619

Cook County, id. at pp. 335-336, ¶¶ 42-43, including to non-citizens regardless of their
immigration status, id. at p. 327, ¶ 11. Indeed, DHS itself recognizes that the Rule will cause
“[s]tate and local governments … [to] incur costs” stemming from “changes in behavior caused
by” the Rule. 84 Fed. Reg. at 41,469; see also id. at 41,300-01 (“DHS estimates that the total
reduction in transfer payments from the Federal and State governments will be approximately
$2.47 billion annually due to disenrollment or foregone enrollment in public benefits programs
by foreign-born non-citizens who may be receiving public benefits.”); id. at 41,469 (“DHS
agrees that some entities, such as State and local governments or other businesses and
organizations, would incur costs related to the changes ….”). DHS specifically noted that
“hospital systems, state agencies, and other organizations that provide public assistance to aliens
and their households” will suffer financial harm from the Rule’s implementation. Id. at 41,46970.
Given its operation of and financial responsibility for CCH, that is more than enough to
establish Cook County’s standing under the principles set forth in Gladstone, New York, and
Matchmaker. DHS’s contrary arguments fail to persuade.
First, DHS suggests that it is “inconsistent” for Cook County to maintain both that
immigrants will forgo treatment and that they will come to rely more on uncompensated care
from CCH. Doc. 73 at 21. But as Cook County observes, Doc. 80 at 14, there is no
inconsistency: Immigrants will “avoid seeking treatment for cases other than emergencies,” Doc.
1 at ¶ 109, and the emergency treatment they seek will involve additional reliance on
uncompensated care from CCH, Doc. 27-1 at p. 330, ¶ 21 (“When individuals are uninsured,
they avoid seeking routine care and instead risk worse health outcomes and use costly emergency
services.”). The Rule itself acknowledges as much. 84 Fed. Reg. at 41,384 (“DHS

8

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 9 of 33 PageID #:1620

acknowledges that increased use of emergency rooms and emergent care as a method of primary
healthcare due to delayed treatment is possible and there is a potential for increases in
uncompensated care ….”).
Second, DHS argues that because some non-citizen residents of Cook County have
already disenrolled from benefits and are unlikely to re-enroll, the County cannot rely on their
disenrollment as showing that others will follow suit. Doc. 73 at 21. That argument ignores the
plain logic of Cook County’s position—if the mere prospect of the Rule’s promulgation after the
Notice of Proposed Rulemaking in October 2018 prompted some immigrants to disenroll, it is
likely that the Rule’s going into effect will prompt others to do so as well. Again, the Rule itself
acknowledges that disenrollment is a likely result of the Rule’s implementation. 84 Fed. Reg. at
41,300-01.
Third, DHS argues that Cook County’s invocation of its need to divert resources is a
“novel” and unsupported extension of organizational “standing from the private organizations to
whom it has always been applied to a local government entity.” Doc. 73 at 22. Even if this
argument were correct, it would not speak to the injuries to the County arising from CCH’s
provision of uncompensated care. But the argument is wrong, as municipal entities and private
organizations alike may rely on the need to divert resources to establish standing. See
Matchmaker, 982 F.2d at 1095 (holding that Chicago had Article III standing because its “fair
housing agency has to use its scarce resources to ensure compliance with the fair housing laws
… [and] cannot perform its routine services … because it has to commit resources against those
engaged in racial steering”); see also City of Milwaukee v. Saxbe, 546 F.2d 693, 698 (7th Cir.
1976) (“In any case where a municipal corporation seeks to vindicate the rights of its residents,
there is no reason why the general rule on organizational standing should not be followed.”).

9

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 10 of 33 PageID #:1621

As for ICIRR, the Supreme Court held in Havens Realty Corp. v. Coleman, 455 U.S. 363
(1982), that if a private organization shows that a defendant’s “practices have perceptibly
impaired” its ability to undertake its existing programs, “there can be no question that the
organization has suffered injury in fact.” Id. at 379; see also Common Cause Ind., 937 F.3d at
954 (“[I]mpairment of [an organization’s] ability to do work within its core mission [is] enough
to support standing.”) (emphasis omitted). ICIRR adduces evidence that its existing programs
include efforts within immigrant communities to increase access to care, improve health literacy,
and reduce reliance on emergency room care. Doc. 27-1 at pp. 341-342, ¶ 4-10. ICIRR further
shows that the Rule is likely to decrease immigrants’ access to health services, food, and other
programs. Id. at p. 344-345, ¶¶ 19-20, 23. Indeed, ICIRR already has expended resources to
prevent frustration of its programs’ missions, to educate immigrants and staff about the Rule’s
effects, and to encourage immigrants not covered by but nonetheless deterred by the Rule to
continue enrolling in benefits programs. Id. at pp. 343-345, ¶¶ 14-15, 22. If the Rule goes into
effect, those consequences are likely to intensify and ICIRR’s diversion of resources likely to
increase. Id. at pp. 343-347, ¶¶ 16, 18, 23-31. ICIRR’s standing is secure. See Common Cause
Ind., 937 F.3d at 964 (Brennan, J., concurring) (“[I]f a defendant’s actions compromise an
organization’s day-to-day operations, or force it to divert resources to address new issues caused
by the defendant’s actions, an Article III injury exists.”).
In pressing the contrary result, DHS contends that ICIRR “does not allege that the Rule
will disrupt any of its current programs,” and therefore that ICIRR is not “required” to alter its
activities but instead “simply elected to do so.” Doc. 73 at 22-23. But the evidence adduced by
ICIRR suggests a “concrete and demonstrable injury to the organization’s activities,” not
“simply a setback to [its] abstract social interests.” Havens, 455 U.S. at 379. That is enough to

10

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 11 of 33 PageID #:1622

establish standing, for “[w]hat matters is whether the organization[’s] activities were undertaken
because of the challenged law, not whether they [we]re voluntarily incurred or not.” Common
Cause Ind., 937 F.3d at 956 (internal quotation marks omitted).
B.

Ripeness

DHS next contends that this case is not ripe. Doc. 73 at 23-25. Suits directed at agency
action “are appropriate for judicial resolution” where the challenged action is final and the issues
involved are legal ones, provided that the plaintiff shows that the action’s impact on it “is
sufficiently direct and immediate.” Abbott Labs. v. Gardner, 387 U.S. 136, 149-52 (1967). The
challenged agency action here is the Final Rule’s promulgation, the issues involved (as discussed
below) are purely legal challenges to DHS’s implementation of the public charge provision
enacted by Congress, and—as shown above and addressed below in the discussion of irreparable
harm—Cook County and ICIRR allege a direct and immediate impact of the Rule on them.
Under these circumstances, the suit is ripe. See OOIDA v. FMCSA, 656 F.3d 580, 586-87 (7th
Cir. 2011) (rejecting a federal agency’s ripeness challenge, which posited that the “petitioners
[we]re not currently under a remedial directive,” because “the threat of enforcement is sufficient”
to show hardship under Abbott Laboratories); id. at 586 (“Where … a petition involves purely
legal claims in the context of a facial challenge to a final rule, a petition is presumptively
reviewable.”) (internal quotation marks omitted).
DHS retorts that this suit will not be ripe until the Rule is applied to actual admissibility
or adjustment determinations. Doc. 73 at 23-24. At most, DHS’s argument pertains to any
individual non-citizen’s challenge to the Rule. It is far from clear that ripeness would pose an
impediment even to claims by affected individuals. See OOIDA, 656 F.3d at 586 (“[T]he threat
of enforcement is sufficient” to make a suit ripe “because the law is in force the moment it

11

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 12 of 33 PageID #:1623

becomes effective and a person made to live in the shadow of a law that she believes to be
invalid should not be compelled to wait and see if a remedial action is coming.”). In any event,
certain of Cook County’s and ICIRR’s injuries—like their need to respond to the Rule’s chilling
effect on benefits enrollment, or to divert resources to educate immigrants about the Rule—result
from the Rule’s promulgation. It follows that their claims are ripe.
C.

Zone of Interests

DHS next argues that Cook County and ICIRR fall outside the “zone of interests”
protected by the INA. Doc. 73 at 25-26. “[A] person suing under the APA must satisfy not only
Article III’s standing requirements, but an additional test: The interest … assert[ed] must be
‘arguably within the zone of interests to be protected or regulated by the statute’” that the agency
action allegedly violated. Match-E-Be-Nash-She-Wish Band of Pottawatomi Indians v. Patchak,
567 U.S. 209, 224 (2012) (quoting Ass’n of Data Processing Serv. Orgs. v. Camp, 397 U.S. 150,
153 (1970)). “Whether a plaintiff comes within the ‘zone of interests’ is an issue that requires
[the court] to determine, using traditional tools of statutory interpretation, whether a legislatively
conferred cause of action encompasses a particular plaintiff’s claim.” Lexmark Int’l, Inc. v.
Static Control Components, Inc., 572 U.S. 118, 127 (2014) (internal quotation marks omitted).
The question here is whether Cook County and ICIRR “fall[] within the class of plaintiffs whom
Congress has authorized to sue under” the relevant statutes. Id. at 128.
“[I]n the APA context, … the [zone of interests] test is not ‘especially demanding.’”
Lexmark, 572 U.S. at 130 (quoting Match-E-Be-Nash-She-Wish Band, 567 U.S. at 225). As the
Supreme Court explained, it has “always conspicuously included the word ‘arguably’ in the test
to indicate that the benefit of any doubt goes to the plaintiff” and the test does not require any
“indication of congressional purpose to benefit the would-be plaintiff.” Match-E-Be-Nash-SheWish Band, 567 U.S. at 225 (internal quotation marks omitted); see also Lexmark, 572 U.S. at
12

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 13 of 33 PageID #:1624

130 (reaffirming Match-E-Be-Nash-She-Wish Band and distinguishing non-APA cases).
Accordingly, the zone of interests test “forecloses suit only when a plaintiff’s interests are so
marginally related to or inconsistent with the purposes implicit in the statute that it cannot
reasonably be assumed that Congress intended to permit the suit.” Match-E-Be-Nash-She-Wish
Band, 567 U.S. at 225 (internal quotation marks omitted). The appropriate frame of reference
here is not only the public charge provision, but the immigration laws as a whole. See Clarke v.
Sec. Indus. Ass’n, 479 U.S. 388, 401 (1987) (holding that the court should “consider any
provision that helps [it] to understand Congress’ overall purposes in the” relevant statutes);
Grocery Mfrs. Ass’n v. EPA, 693 F.3d 169, 186 (D.C. Cir. 2012) (“Importantly, in determining
whether a petitioner falls within the zone of interests to be protected by a statute, we do not look
at the specific provision said to have been violated in complete isolation, but rather in
combination with other provisions to which it bears an integral relationship.”) (internal quotation
marks omitted). And even if an APA plaintiff is not among “those who Congress intended to
benefit,” the plaintiff nonetheless falls within the zone of interests if it is among “those who in
practice can be expected to police the interests that the [relevant] statute protects.” Mova Pharm.
Corp. v. Shalala, 140 F.3d 1060, 1075 (D.C. Cir. 1998); see also Amgen, Inc. v. Smith, 357 F.3d
103, 109 (D.C. Cir. 2004) (“[T]he salient consideration under the APA is whether the
challenger’s interests are such that they in practice can be expected to police the interests that the
statute protects.”) (internal quotation marks omitted); ALPA Int’l v. Trans States Airlines, LLC,
638 F.3d 572, 577 (8th Cir. 2011) (same).
Cook County and ICIRR both satisfy the zone of interests test. As DHS observes, the
principal interests protected by the INA’s “public charge” provision are those of “aliens
improperly determined inadmissible.” Doc. 73 at 25. ICIRR’s interests in ensuring that health

13

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 14 of 33 PageID #:1625

and social services remain available to immigrants and in helping them navigate the immigration
process are consistent with the statutory purpose, as DHS describes it, to “ensure[] that only
certain aliens could be determined inadmissible on the public charge ground.” Ibid. There is
ample evidence that ICIRR’s interests are not merely marginal to those of the aliens more
directly impacted by the public charge provision. Not only is ICIRR precisely the type of
organization that would reasonably be expected to “police the interests that the statute protects,”
Amgen, 357 F.3d at 109 (internal quotation mark omitted), but the INA elsewhere gives
organizations like ICIRR a role in helping immigrants navigate immigration procedures
generally, see, e.g., 8 U.S.C. § 1101(i)(1) (requiring that potential T visa applicants be referred to
nongovernmental organizations for legal advice); id. § 1184(p)(3)(A) (same for U visa
applicants); id. § 1228(a)(2), (b)(4)(B) (recognizing a right to counsel for aliens subject to
expedited removal proceedings); id. § 1229(a)(1), (b)(2) (requiring that aliens subject to
deportation proceedings be provided a list of pro bono attorneys and advised of their right to
counsel); id. § 1443(h) (requiring the Attorney General to work with “relevant organizations” to
“broadly distribute information concerning” the immigration process). Especially given the
APA’s “generous review provisions,” Clarke, 479 U.S. at 395 (internal quotation marks
omitted), these considerations place ICIRR’s claims “at the least[] ‘arguably within the zone of
interests’” protected by the INA, Bank of Am. Corp. v. City of Miami, 137 S. Ct. 1296, 1303
(2017) (quoting Data Processing, 397 U.S. at 153).
In pressing the contrary result, DHS relies principally on Justice O’Connor’s in-chambers
opinion in INS v. Legalization Assistance Project of the Los Angeles County Federation of
Labor, 510 U.S. 1301 (1993). Doc. 73 at 25-26. That reliance is misplaced. As an initial
matter, Justice O’Connor’s opinion is both non-binding and concededly “speculative.”

14

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 15 of 33 PageID #:1626

Legalization Assistance Project, 510 U.S. at 1304. In any event, the opinion predates the Court’s
articulation in Match-E-Be-Nash-She-Wish Band and Lexmark of the current, more flexible
understanding of the zone of interests test in APA cases.
Cook County satisfies the zone of interests test as well. In City of Miami, the Supreme
Court held that Miami’s allegations of “lost tax revenue and extra municipal expenses” placed it
within the zone of interests protected by the FHA, which allows “any person who … claims to
have been injured by a discriminatory housing practice” to file a civil action for damages. 137 S.
Ct. at 1303 (internal quotation marks omitted). Cook County asserts comparable financial harms
from the Final Rule. True enough, Cook County is not itself threatened with an improper
admissibility or status adjustment determination, but neither did Miami itself suffer
discrimination under the FHA. In both City of Miami and here, the consequences of the
challenged action generate additional costs for the municipal plaintiff. If such injuries place a
municipality within the FHA’s zone of interests in a non-APA case like City of Miami, they
certainly do so in this APA case.
D.

Chevron Analysis

The APA provides for judicial review of final agency decisions. See 5 U.S.C. §§ 702,
706; Fla. Power & Light Co. v. Lorion, 470 U.S. 729, 743-44 (1985) (“The task of the reviewing
court is to apply the appropriate APA standard of review, 5 U.S.C. § 706, to the agency decision
based on the record the agency presents to the reviewing court.”). The question here is whether
DHS exceeded its authority in promulgating the Final Rule. Under current precedent, which this
court must follow, resolution of that question is governed by the framework set forth in Chevron,
U.S.A., Inc. v. NRDC, Inc., 467 U.S. 837 (1984).
“At Chevron’s first step, [the court] determine[s]—using ordinary principles of statutory
interpretation—whether Congress has directly spoken to the precise question at issue.”
15

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 16 of 33 PageID #:1627

Coyomani–Cielo v. Holder, 758 F.3d 908, 912 (7th Cir. 2014). If “Congress has directly spoken
to the precise question at issue … the court … must give effect to the unambiguously expressed
intent of Congress,” Indiana v. EPA, 796 F.3d 803, 811 (7th Cir. 2015) (quoting Chevron, 467
U.S. at 842-43) (alterations in original) (internal quotation marks omitted), and end the inquiry
there, see Coyomani–Cielo, 758 F.3d at 912. “If, however, ‘the statute is silent or ambiguous
with respect to the specific issue,’” Chevron’s second step, at which “a reviewing court must
defer to the agency’s interpretation if it is reasonable,” comes into play. Indiana, 796 F.3d at
811 (quoting Chevron, 467 U.S. at 843-44). As shown below, because the pertinent statute is
clear, there is no need to go beyond Chevron’s first step.
“When interpreting a statute, [the court] begin[s] with the text.” Loja v. Main St.
Acquisition Corp., 906 F.3d 680, 683 (7th Cir. 2018). “Statutory words and phrases are given
their ordinary meaning.” Singh v. Sessions, 898 F.3d 720, 725 (7th Cir. 2018); see also United
States v. Titan Int’l, Inc., 811 F.3d 950, 952 (7th Cir. 2016). “It is a fundamental canon of
statutory construction that the words of a statute must be read in their context and with a view to
their place in the overall statutory scheme.” Brumfield v. City of Chicago, 735 F.3d 619, 628
(7th Cir. 2013); see also LaPlant v. N.W. Mut. Life Ins. Co., 701 F.3d 1137, 1139 (7th Cir. 2012)
(“We try to give the statutory language a natural meaning in light of its context.”).
Congress has expressed in general terms that “[s]elf-sufficiency has been a basic
principle of United States immigration law since this country’s earliest immigration statutes,” 8
U.S.C. § 1601(1), that “[t]he immigration policy of the United States” provides that “aliens
within the Nation’s borders not depend on public resources to meet their needs,” id.
§ 1601(2)(A), and that “the availability of public benefits [is] not [to] constitute an incentive for
immigration to the United States,” id. § 1601(2)(B). But those provisions express only general

16

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 17 of 33 PageID #:1628

policy goals without specifying what it means for non-citizens to be “[s]elf-sufficient” or to “not
depend on public resources to meet their needs.” Cf. NAACP v. Am. Family Mut. Ins. Co., 978
F.2d 287, 298 (7th Cir. 1992) (“You cannot discover how far a statute goes by observing the
direction in which it points. Finding the meaning of a statute is more like calculating a vector
(with direction and length) than it is like identifying which way the underlying ‘values’ or
‘purposes’ point (which has direction alone).”) (internal quotation marks omitted). The public
charge provision is intended to implement those general policy goals—yet in none of its
iterations since its original enactment in 1882 did Congress define the term “public charge.”
This lack of a statutory definition gives rise to the interpretative dispute that divides the
parties. Cook County and ICIRR submit that the term “public charge” includes only “those who
are likely to become primarily and permanently dependent on the government for subsistence.”
Doc. 27 at 15 (emphasis in original). DHS submits that the term is broad enough to include any
non-citizen “who receives” a wide range of “designated public benefits for more than 12 months
in the aggregate within a 36-month period,” Doc. 73 at 18-19—including, as the Final Rule
acknowledges, those who “receive only hundreds of dollars, or less, in public benefits annually”
for any twelve months in a thirty-six month period, 84 Fed. Reg. at 41,360-61. As Cook County
and ICIRR contend, and as DHS implicitly concedes through its silence, if Cook County and
ICIRR are correct about what “public charge” means, the Final Rule fails at Chevron step one, as
there would be “no ambiguity for the agency to fill.” Wis. Cent. Ltd. v. United States, 138 S. Ct.
2067, 2074 (2018).
Settled precedent governs how to ascertain the meaning of a statutorily undefined term
like “public charge.” “[I]t’s a fundamental canon of statutory construction that words generally
should be interpreted as taking their ordinary … meaning … at the time Congress enacted the

17

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 18 of 33 PageID #:1629

statute.” New Prime Inc. v. Oliveira, 139 S. Ct. 532, 539 (2019) (alterations in original and
internal quotation marks omitted). As noted, the term “public charge” entered the statutory
lexicon in 1882 and has been included in nearly identical inadmissibility provisions ever since.
For this reason, the court agrees with DHS’s foundational point that, given the “unbroken line of
predecessor statutes going back to at least 1882 [that] have contained a similar inadmissibility
ground for public charges,” Doc. 73 at 16, “the late 19th century [is] the key time to consider”
for determining the meaning of the term “public charge,” id. at 27.
Fortunately, the Supreme Court told us just over a century ago what “public charge”
meant in the relevant era, and thus what it means today. In Gegiow v. Uhl, 239 U.S. 3 (1915),
several Russian nationals brought suit after they were denied admission to the United States on
public charge grounds because, the immigration authorities reasoned, they were bound for
Portland, Oregon, where the labor market would have made it impossible for them to obtain
employment. Id. at 8-9. In holding that the aliens could not be excluded on that ground, the
Court observed that in the statute identifying “who shall be excluded, ‘Persons likely to become
a public charge’ [we]re mentioned between paupers and professional beggars, and along with
idiots, persons dangerously diseased, persons certified by the examining surgeon to have a
mental or physical defect of a nature to affect their ability to earn a living, convicted felons,
prostitutes, and so forth.” Id. at 10. In light of the statutory text, the Court held that “[t]he
persons enumerated … are to be excluded on the ground of permanent personal objections
accompanying them irrespective of local conditions unless the … phrase [‘public charge’] … is
directed to different considerations than any other of those with which it is associated.
Presumably [the phrase ‘public charge’] is to be read as generically similar to the other[ phrase]s
mentioned before and after.” Ibid. (emphasis added).

18

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 19 of 33 PageID #:1630

Gegiow teaches that “public charge” does not, as DHS maintains, encompass persons
who receive benefits, whether modest or substantial, due to being temporarily unable to support
themselves entirely on their own. Rather, as Cook County and ICIRR maintain, Gegiow holds
that “public charge” encompasses only persons who—like “idiots” or persons with “a mental or
physical defect of a nature to affect their ability to make a living”—would be substantially, if not
entirely, dependent on government assistance on a long-term basis. That is what Gegiow plainly
conveys—DHS does not contend otherwise—and that is how courts of that era read the decision.
See United States ex rel. De Sousa v. Day, 22 F.2d 472, 473-74 (2d Cir. 1927) (“In the face of
[Gegiow] it is hard to say that a healthy adult immigrant, with no previous history of pauperism,
and nothing to interfere with his chances in life but lack of savings, is likely to become a public
charge within the meaning of the statute.”); United States ex rel. La Reddola v. Tod, 299 F. 592,
592-93 (2d Cir. 1924) (holding that an alien who “suffer[ed] from an insanity” from which
“recovery [was] impossible … was a public charge” while institutionalized, “for he was
supported by public moneys of the state of New York and nothing was paid for his maintenance
by him or his relatives”); Ng Fung Ho v. White, 266 F. 765, 769 (9th Cir. 1920) (holding that
“the words ‘likely to become a public charge’ are meant to exclude only those persons who are
likely to become occupants of almshouses for want of means with which to support themselves
in the future”), rev’d on other grounds, 259 U.S. 276 (1922); Howe v. United States ex rel.
Savitsky, 247 F. 292, 294 (2d Cir. 1917) (holding that “Congress meant the act to exclude
persons who were likely to become occupants of almshouses for want of means with which to
support themselves in the future”); Ex parte Horn, 292 F. 455, 457 (W.D. Wash. 1923) (“The
record is conclusive that the petitioner was not likely to become a public charge, in the sense that

19

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 20 of 33 PageID #:1631

he would be a ‘pauper’ or an occupant of an almshouse for want of means of support, or likely to
be sent to an almshouse for support at public expense.”) (citations omitted).
In an attempt to evade Gegiow’s interpretation of “public charge,” DHS argues that
Congress, through amendments enacted in the Immigration Act of 1917, “negated the Court’s
interpretation in Gegiow.” Doc. 73 at 30-31. That argument fails on two separate grounds. The
first is that DHS maintained (correctly) that “the late 19th century [is] the key time to consider”
in ascertaining the meaning of the term “public charge,” id. at 27, and therefore cannot be heard
to contend that the pertinent timeframe is, on second thought, 1917. The second is that, even
putting aside DHS’s arguable waiver, the 1917 Act did not change the meaning of “public
charge” in the manner urged by DHS.
As relevant here, the 1917 Act moved the phrase “persons likely to become a public
charge” from between the terms “paupers” and “professional beggars” to much later in the (very
long) list of excludable aliens. 1917 Act, 39 Stat. at 875-76. The Senate Report states that this
change was meant “to overcome recent decisions of the courts limiting the meaning of the
description of the excluded class because of its position between other descriptions conceived to
be of the same general and generical nature. (See especially Gegiow v. Uhl, 239 U.S., 3.).” S.
Rep. No. 64-352, at 5 (1916). The value of any committee report in ascertaining a statute’s
meaning is questionable. See Exxon Mobil Corp. v. Allapattah Servs., Inc., 545 U.S. 546, 568
(2005) (“[J]udicial reliance on legislative materials like committee reports … may give
unrepresentative committee members—or, worse yet, unelected staffers and lobbyists—both the
power and the incentive to attempt strategic manipulations of legislative history to secure results
they were unable to achieve through the statutory text.”); Covalt v. Carey Can. Inc., 860 F.2d
1434, 1438 (7th Cir. 1988) (“Even the contemporaneous committee reports may be the work of

20

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 21 of 33 PageID #:1632

those who could not get their thoughts into the text of the bill.”). And the value of this particular
Senate Report is further undermined by its opacity, as it does not say in which way its author(s)
believed that court decisions had incorrectly limited the statute’s breadth. See Azar v. Allina
Health Servs., 139 S. Ct. 1804, 1815 (2019) (holding that “murky legislative history … can’t
overcome a statute’s clear text and structure”).
Later commentary on the 1917 Act—which DHS cites as authoritative, but the origin of
which DHS fails to identify, Doc. 73 at 30—explained that the public charge provision “has been
shifted from its position in sec. 2 of the Immigration Act of 1907 to its present position in sec. 3
of this act in order to indicate the intention of Congress that aliens shall be excluded upon said
ground for economic as well as other reasons and with a view to overcoming the decision of the
Supreme Court in Gegiow v. Uhl, 239 U.S. 3 (S. Rept. 352, 64th Cong., 1st sess.).” U.S. Dep’t
of Labor, Immigration Laws and Rules of January 1, 1930 with Amendments from January 1,
1930 to May 24, 1934 (1935), at 25 n.5 (emphasis added). This explanation suggests that
Congress understood Gegiow, given its exclusive focus on an alien’s economic circumstances, to
have held that aliens may be deemed public charges only if there were economic reasons for their
dependence on government support, and further that Congress wanted aliens dependent on
government support for noneconomic reasons, like imprisonment, to be included as well.
That is precisely how many cases of the era understood the 1917 Act. See United States
ex rel. Medich v. Burmaster, 24 F.2d 57, 59 (8th Cir. 1928) (“The fact that the appellant
confessed to a crime punishable by imprisonment in the federal prison, and the very fact that he
was actually incarcerated for a period of 18 months was sufficient to support the allegation in the
warrant of deportation that he was likely ‘to become a public charge.’”); Ex parte Horn, 292 F. at
457 (holding that although “the petitioner was not likely to become a public charge, in the sense

21

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 22 of 33 PageID #:1633

that he would be a ‘pauper’ or an occupant of an almshouse for want of means of support, or
likely to be sent to an almshouse for support at public expense,” he was, as a convicted felon, a
public charge because he was “a person committed to the custody of a department of the
government by due course of law”) (citations omitted); Ex parte Tsunetaro Machida, 277 F. 239,
241 (W.D. Wash. 1921) (“[A] public charge [is] a person committed to the custody of a
department of the government by due course of law.”). Other cases disagreed, holding that
noneconomic dependence on the government for basic subsistence did not make one a public
charge. See Browne v. Zurbrick, 45 F.2d 931, 932-33 (6th Cir. 1930) (rejecting the proposition
“that one who is guilty of crime, and therefore likely to be convicted for it and to be imprisoned
at the public expense, is ipso facto likely to become a public charge”); Coykendall v. Skrmetta,
22 F.2d 120, 121 (5th Cir. 1927) (holding that “it cannot well be supposed that the words in
question were intended to refer to anything other than a condition of dependence on the public
for support,” and therefore that the public charge provision did not include the public expense
imposed by imprisonment); Ex Parte Mitchell, 256 F. 229, 232 (N.D.N.Y. 1919) (“The court
holds expressly that the words ‘likely to become a public charge’ are meant to exclude only those
‘persons who were likely to become occupants of almshouses for want of means with which to
support themselves in the future.’”). The divergence between those two lines of precedent is
immaterial here, for DHS cites no case holding that the 1917 Act upended Gegiow’s holding that
an alien could be deemed a public charge on economic grounds only if that person’s dependence
on public support was of a “permanent” nature. Gegiow, 239 U.S. at 10. Nor does DHS cite any
case holding that an alien could be deemed a public charge based on the receipt, or anticipated
receipt, of a modest quantum of public benefits for short periods of time.

22

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 23 of 33 PageID #:1634

DHS’s contrary view rests upon an obvious misreading of Ex parte Horn. DHS cites Ex
parte Horn for the proposition that post-1917 cases “recognized that” the 1917 Act’s transfer of
the public charge provision to later in the list of excludable persons “negated the Court’s
interpretation of Gegiow by underscoring that the term ‘public charge’ is ‘not associated with
paupers or professional beggars.’” Doc. 73 at 30 (quoting Ex parte Horn, 292 F. at 457). But Ex
parte Horn involved not an alien whose economic circumstances were less dire than a pauper’s
or professional beggar’s and thus who might have needed only modest government benefits for a
short period of time; rather, the case involved a person who had committed crimes and was likely
to be imprisoned. 292 F. at 458. Thus, in saying that “[t]he term ‘likely to become a public
charge’ is not associated with paupers or professional beggars, idiots, and certified physical and
mental defectives,” id. at 457, Ex parte Horn held not that the 1917 Act ousted Gegiow’s view
regarding the severity and duration of the economic circumstances that could result in an alien
being deemed a public charge; rather, it held that the 1917 Act expanded the meaning of “public
charge” to include persons who would be totally dependent on the government for noneconomic
reasons like imprisonment, see id. at 458 (“When he was convicted he became a public charge,
and a tax, duty, and trust was imposed upon the government by his conduct; and at the time of
his entry he was likely to become a public charge by reason of the crime which he had
committed.”) (internal quotation marks omitted). Ex parte Horn thus faithfully implements the
change that, as shown above, DHS’s own historical authority suggests the amendment was
intended to effect.
DHS has three other arrows in its quiver, but none hits its mark. The first is a 1929
treatise stating that “public charge” means “any maintenance, or financial assistance, rendered
from public funds, or funds secured by taxation.” Arthur Cook et al., Immigration Laws of the

23

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 24 of 33 PageID #:1635

United States § 285 (1929). The treatise is wrong. It does not address Gegiow in expressing its
understanding of “public charge.” And the sole authority it cites, Ex parte Kichmiriantz, 283 F.
697 (N.D. Cal. 1922), does not support its view. Ex parte Kichmiriantz concerned an alien
“committed to the Stockton State Hospital for the insane” for dementia, who, without care,
“would starve to death within a short time.” Id. at 697-98. Thus, although Ex parte
Kichmiriantz observes that “the words ‘public charge,’ as used in the Immigration Act, mean just
what they mean ordinarily; … a money charge upon, or an expense to, the public for support and
care,” id. at 698 (citation omitted), the context in which the court made that observation shows
that it had in mind a person who was totally and likely permanently dependent on the
government for subsistence. The case therefore aligns with Cook County and ICIRR’s
understanding of the term, not DHS’s.
DHS’s second arrow consists of a mélange of nineteenth century dictionaries and state
court cases addressing whether one municipality or another was responsible for providing public
assistance to a particular person under state poor laws. Doc. 73 at 29, 32-33. Those authorities,
which address the meaning of the words “public,” “charge,” and “chargeable” and the term
“public charge,” would be material to the court’s interpretative enterprise but for one thing: The
Supreme Court told us in Gegiow what the statutory term “public charge” meant in that era. The
federal judiciary is hierarchical, so in deciding here whether the Final Rule faithfully implements
the statutory “public charge” provision, this court must adhere to the Supreme Court’s
understanding of the term regardless of what nineteenth century dictionaries and state court cases
might have said. See Shields v. Ill. Dep’t of Corr., 746 F.3d 782, 792 (7th Cir. 2014); Reiser v.
Residential Funding Corp., 380 F.3d 1027, 1029 (7th Cir. 2004); Ind. Prot. & Advocacy Servs. v.

24

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 25 of 33 PageID #:1636

Ind. Family & Soc. Servs. Admin., 603 F.3d 365, 393 (7th Cir. 2010) (Easterbrook, J.,
dissenting).
As it happens, the dictionaries and state court cases do not advance DHS’s cause. An
1888 dictionary cited by DHS defines “charge” as “an obligation or liability,” but the only
human example it offers of a “charge” is “a pauper being chargeable to the parish or town.”
Dictionary of American and English Law 196 (1888) (emphasis added). An 1889 dictionary
defines “charge” in the context of a person as one who is “committed to another’s custody, care,
concern, or management,” Century Dictionary of the English Language 929 (1889), and an 1887
dictionary likewise defines “charge” as “[t]he person or thing committed to the care or
management of another,” Webster’s Condensed Dictionary of the English Language 85 (3d ed.
1887). Those definitions are consistent with Gegiow’s understanding of “public charge” and do
nothing to support DHS’s view that the term is broad enough to include those who temporarily
receive modest public benefits. The same holds for state court cases from the era. See Cicero
Twp. v. Falconberry, 42 N.E. 42, 44 (Ind. App. 1895) (“The mere fact that a person may
occasionally obtain assistance from the county does not necessarily make such person a pauper
or a public charge.”); City of Boston v. Capen, 61 Mass. 116, 121-22 (Mass. 1851) (holding that
“public charge” refers “not [to] merely destitute persons, who … have no visible means of
support,” but rather to those who “by reason of some permanent disability, are unable to
maintain themselves” and “might become a heavy and long continued charge to the city, town or
state”); Overseers of Princeton Twp. v. Overseers of S. Brunswick Twp., 23 N.J.L. 169 (N.J.
1851) (repeatedly equating “paupers” with being “chargeable, or likely to become chargeable”).
As it did with Ex parte Horn, DHS misreads the state court cases upon which it relies.
According to DHS, Poor District of Edenburg v. Poor District of Strattanville, 5 Pa. Super. 516

25

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 26 of 33 PageID #:1637

(1897), held that a person who temporarily received “some assistance” while ill was not
“chargeable to” the public solely because she was “without notice or knowledge” that her
receiving the assistance would “place[] [her] on the poor book,” and not because the public
assistance was temporary. Doc. 73 at 32 (quoting Edenburg, 5 Pa. Super. at 520-24, 527-28).
But it is plain that the court’s holding rested in large part on the fact that the person had
economic means and was only temporarily on the poor rolls. See Edenburg, 5 Pa. Super. at 526
(noting that the person “had for sixteen years been an inhabitant of the borough and for twelve
years the undisputed owner by fee simple title of unincumbered real estate, and household goods
of the value of $300 in the district,” and that she “had fully perfected her settlement by the
payment of taxes for two successive years”). DHS characterizes Inhabitants of Guilford v.
Inhabitants of Abbott, 17 Me. 335 (Me. 1840), as holding that a person was “likely to become
chargeable” based on his receipt of “‘a small amount’ of assistance” and “‘his age and
infirmity.’” Doc. 73 at 33 (quoting Guilford, 17 Me. at 335-36). To be sure, DHS’s brief quotes
words that appear in the decision, but as DHS fails to acknowledge, the court observed that the
person “for many years had no regular or stated business, … was at one time so furiously mad,
that the public security required him to be confined,” had “occasionally since that time, … been
deranged in mind,” and at a later time “was insane, roving in great destitution.” Guilford, 17 Me.
at 335. DHS describes Town of Hartford v. Town of Hartland, 19 Vt. 392, 398 (Vt. 1847), as
holding that a “widow and children with a house, furniture, and a likely future income of
$12/year from the lease of a cow were nonetheless public charges.” Doc. 73 at 32. But DHS
fails to mention the court’s explanation that the widow’s “mother claimed to own some part of
the furniture, … that her brother … claimed a lien upon the cow,” and that the $12 annual lease
income—which, incidentally, was for the house, not the cow—was past due for the preceding

26

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 27 of 33 PageID #:1638

year with no reason to expect payment in the future. Hartford, 19 Vt. at 394. Accordingly,
contrary to DHS’s treatment of those state court cases, they align with Gegiow’s—and Cook
County and ICIRR’s—conception of what it means to be a public charge.
DHS’s third arrow is an 1894 floor speech in which Representative Warner, objecting to
a bill to support “industrial paupers” or “deadbeat industries”—what today might be called
corporate welfare—drew a rhetorical comparison with his constituents’ view that, because the
immigration laws would bar admission of an alien who “earn[s] half his living or three-quarters
of it,” they had “no sympathy … with the capitalist who offers to condescend to do business in
this country provided this country will tax itself in order to enable him to make profits.” 26
Cong. Rec. 657 (1894) (statement of Rep. Warner) (cited at Doc. 73 at 29). Representative
Warner’s remarks have no value. They only obliquely reference the immigration laws, and he
had every incentive to exaggerate the harshness of immigration law to support his opposition to
the industrial assistance under consideration.
To sum up: As DHS argues, interpretation of the statutory term “public charge” turns on
its meaning in the late nineteenth century. The Supreme Court in Gegiow interpreted the term in
a manner consistent with Cook County and ICIRR’s position and contrary to DHS’s position in
the Final Rule. The Immigration Act of 1917 did not undermine Gegiow’s understanding of the
severity of the economic circumstances that would lead an alien to be deemed a public charge.
Contemporaneous dictionaries and state court cases are immaterial and, even if they were
material, are consistent with Gegiow. DHS cites no case from any era holding that the public
charge provision covers noncitizens who receive public benefits—let alone modest public
benefits—on a temporary basis. And against that statutory and case law backdrop, Congress
retained the “public charge” language in the INA of 1952 and the IIRIRA of 1996. See Lamar,

27

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 28 of 33 PageID #:1639

Archer & Cofrin, LLP v. Appling, 138 S. Ct. 1752, 1762 (2018) (holding that Congress
“presumptively was aware of the longstanding judicial interpretation of the phrase [included in a
newly enacted statute] and intended for it to retain its established meaning”). It follows, based
on the arguments and authorities before the court at this juncture, that Cook County and ICIRR
are likely to prevail on the merits of their challenge to the Final Rule.
II.

Adequacy of Legal Remedies and Irreparable Harm
Although a party seeking a preliminary injunction must show “more than a mere

possibility of harm,” the harm need not “actually occur before injunctive relief is warranted” or
“be certain to occur before a court may grant relief on the merits.” Whitaker ex rel. Whitaker v.
Kenosha Unified Sch. Dist. No. 1 Bd. of Educ., 858 F.3d 1034, 1044-45 (7th Cir. 2017). “Rather,
harm is considered irreparable if it cannot be prevented or fully rectified by the final judgment
after trial.” Ibid. (internal quotation marks omitted).
The final relief potentially available to Cook County and ICIRR is circumscribed by the
APA’s limited waiver of sovereign immunity: It waives the sovereign immunity of the United
States only to the extent that the suit “seek[s] relief other than money damages.” 5 U.S.C. § 702.
Thus, if Cook County and ICIRR show that, in the absence of a preliminary injunction, they will
suffer injury that would ordinarily be redressed by money damages, that will suffice to show
irreparable harm, as “there is no adequate remedy at law” to rectify that injury. Turnell v.
CentiMark Corp., 796 F.3d 656, 662 (7th Cir. 2015).
Cook County and ICIRR have made the required showing. As set forth in the discussion
of standing, Cook County has shown that the Rule will cause immigrants to disenroll from, or
refrain from enrolling in, medical benefits, in turn leading them to forgo routine treatment and
rely on more costly, uncompensated emergency care from CCH. Doc. 27-1 at pp. 330-333, 335337, ¶¶ 25, 30-32, 41-50; id. at pp. 344-345, ¶¶ 19-20, 23. In addition, because uninsured
28

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 29 of 33 PageID #:1640

persons who forgo public medical benefits are less likely to receive immunizations or to seek
diagnostic testing, the Rule increases the entire County’s risk of vaccine-preventable and other
communicable diseases. Id. at pp. 329-330, 333, ¶¶ 20-21, 33; id. at pp. 358-359, ¶¶ 29, 32.
And as also shown above, ICIRR will have to divert resources away from its existing programs
to respond to the effects of the Final Rule. Id. at pp. 343-347, ¶¶ 16, 18, 23-31. Given the
unavailability of money damages, those injuries are irreparable, satisfying the adequacy of legal
remedies and irreparable harm requirements of the preliminary injunction standard.
III.

Balance of Harms and Public Interest
In balancing the harms, “the court weighs the irreparable harm that the moving party

would endure without the protection of the preliminary injunction against any irreparable harm
the nonmoving party would suffer if the court were to grant the requested relief.” Valencia v.
City of Springfield, 883 F.3d 959, 966 (7th Cir. 2018) (internal quotation marks omitted). As
discussed above, Cook County and ICIRR have shown that the Final Rule is likely to impose on
them both financial and programmatic consequences for which there is no effective remedy at
law. On the other side of the balance, DHS asserts that it has “a substantial interest in
administering the national immigration system, a solely federal prerogative, according to the
expert guidance of the responsible agencies as contained in their regulations, and that the
Defendants will be harmed by an impediment to doing so.” Doc. 73 at 54. A temporary delay in
implementing the Rule undoubtedly would impose some harm on DHS. But absent any
explanation of the practical consequences of the delay and whether those consequences are
irreparable, it is clear—at least on the present record—that the balance of harms favors Cook
County and ICIRR.
As for the public interest, DHS makes no argument beyond the public interest in its
unimpeded administration of national immigration policy. Id. at 54-55. But at the same time,
29

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 30 of 33 PageID #:1641

“[t]here is generally no public interest in the perpetuation of unlawful agency action.” League of
Women Voters of U.S. v. Newby, 838 F.3d 1, 12 (D.C. Cir. 2016). Given the court’s holding that
Cook County and ICIRR are likely to succeed on the merits of their challenge to the Final Rule,
given that the balance of harms otherwise favors preliminary relief, and bearing in mind the
public health risks to Cook County if the Final Rule were allowed to take effect, entry of a
preliminary injunction satisfies the public interest.
DHS raises two other equitable points. First, it argues that an ongoing challenge to the
Final Rule in the Eastern District of Washington in which the State of Illinois is a party, and in
which the court last Friday granted a preliminary injunction, see Washington v. U.S. Dep’t of
Homeland Sec., No. 19-5210 (E.D. Wash. Oct. 11, 2019), ECF No. 162, renders this case
duplicative. Doc. 73 at 52-53. Relatedly, DHS contends that the Eastern District of
Washington’s injunction, as well as a nationwide preliminary injunction issued last Friday by the
Southern District of New York, see New York v. U.S. Dep’t of Homeland Sec., __ F. Supp. __,
2019 WL 5100372, at *8 (S.D.N.Y. Oct. 11, 2019), renders moot this court’s consideration of
the present motion. Doc. 82. While recognizing the federal courts’ general aversion to
duplicative litigation, see Serlin v. Arthur Andersen & Co., 3 F.3d 221, 223-24 (7th Cir. 1993),
the court concludes that the pendency of those other cases and the preliminary injunction orders
entered therein do not moot the present motion or otherwise counsel against its consideration.
Neither the parties nor this court have any power over or knowledge of whether and, if
so, when those two preliminary injunctions will be lifted or modified. Even a temporary lag
between the lifting of both injunctions and the entry of a preliminary injunction by this court
would entail some irreparable harm to Cook County and ICIRR. Indeed, the federal government
in other litigation earlier this year maintained, correctly, that “[t]he possibility that [a nationwide]

30

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 31 of 33 PageID #:1642

injunction may not persist is sufficient reason to conclude that … appeal” of an injunction
entered elsewhere was “not moot.” Supplemental Brief for the Federal Appellants at 152,
California v. U.S. Dep’t of Health & Human Servs., No. 19-15072 (9th Cir. May 20, 2019), ECF
No. 152.
Second, DHS argues that Cook County and ICIRR’s “[l]ack of diligence, standing
alone,” is sufficient to “preclude the granting of preliminary injunctive relief.” Doc. 73 at 53
(quoting Majorica, S.A. v. R.H. Macy, 762 F.2d 7, 8 (7th Cir. 1982)). Cook County and ICIRR’s
delay in bringing this suit relative to when the New York and Washington suits were brought,
while not trivial, is not sufficiently severe to justify denying them equitable relief, particularly
because any delay “goes primarily to the issue of irreparable harm,” which they have otherwise
amply established. See Majorica, 762 F.2d at 8. In any event, because DHS was already
preparing substantially similar briefs in the other cases challenging the Final Rule, the effect of
the delay on its ability to contest the present motion was minimal.
Finally, DHS asks that any preliminary injunction be limited “to Cook County and
specific individual members of ICIRR.” Doc. 73 at 55. But because the record shows that
ICIRR “represent[s] nearly 100 nonprofit organizations and social and health service providers
throughout Illinois,” Doc. 27-1 at p. 341, ¶ 5 (emphasis added), it is appropriate for the
preliminary injunction to cover the entire State.
Conclusion
The parties (to a lesser extent) and their amici (to a greater extent) appeal to various
public policy concerns in urging the court to rule their way. To be sure, this case has important
policy implications, and the competing policy views held by parties and their amici are entitled
to great respect. But let there be no mistake: The court’s decision today rests not one bit on

31

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 32 of 33 PageID #:1643

policy. The decision reflects no view whatsoever of whether the Final Rule is consistent or
inconsistent with the American Dream, or whether it distorts or remains faithful to the Emma
Lazarus poem inscribed on the Statue of Liberty. Compare New York, 2019 WL 5100372, at *8
(asserting that the Final Rule “is repugnant to the American Dream of the opportunity for
prosperity and success through hard work and upward mobility”), with Jason Silverstein,
Trump’s top immigration official reworks the words on the Statue of Liberty, CBS News (Aug.
14, 2019, 4:25 AM), http://www.cbsnews.com/news/statue-of-liberty-poem-emma-lazarusquote-changed-trump-immigration-official-ken-cuccinelli-after-public-charge-law (quoting the
acting director of the Citizenship and Immigration Services suggesting in defense of the Final
Rule that the Lazarus poem conveys this message: “Give me your tired and your poor who can
stand on their own two feet, and who will not become a public charge.”). The court certainly
takes no position on whether, as DHS suggests, the Old Testament sheds light on the historical
backdrop of Congress’s enactment of the 1882 Act. Doc. 73 at 28 (citing Deuteronomy 15:715:8).
Today’s decision, rather, rests exclusively on a dry and arguably bloodless examination
of the authorities that precedent requires courts to examine—and the deployment of the legal
tools that precedent requires courts to use—when deciding whether executive action complies
with a federal statute. See SAS Inst. Inc. v. Iancu, 138 S. Ct. 1348, 1357-58 (2018) (“Each side
offers plausible reasons why its approach might make for the more efficient policy. But who
should win that debate isn’t our call to make. Policy arguments are properly addressed to
Congress, not this Court. It is Congress’s job to enact policy and it is this Court’s job to follow
the policy Congress has prescribed.”). And having undertaken that examination with the
appropriate legal tools, the court holds that Cook County and ICIRR are likely to succeed on the

32

Case: 1:19-cv-06334 Document #: 106 Filed: 10/14/19 Page 33 of 33 PageID #:1644

merits of their challenge to the Final Rule, that the other requirements for preliminary injunctive
relief are met, and that the Final Rule shall not be implemented or enforced in the State of
Illinois absent further order of court.

October 14, 2019

___________________________________
United States District Judge

33

APPENDIX E

Case: 19-3169

Document: 41

Filed: 12/23/2019

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

ORDER
December 23, 2019
Before
DIANE P. WOOD, Chief Judge
ILANA DIAMOND ROVNER, Circuit Judge
AMY C. BARRETT, Circuit Judge
COOK COUNTY, et al.,
Plaintiffs - Appellees
No. 19-3169

v.
CHAD F. WOLF, et al.,
Defendants - Appellants

Originating Case Information:
District Court No: 1:19-cv-06334
Northern District of Illinois, Eastern Division
District Judge Gary Feinerman

The following are before the court:
1.

APPELLANTS’ MOTION FOR A STAY PENDING APPEAL, filed on
November 15, 2019, by counsel for the appellants.

2.

PLAINTIFFS-APPELLEES’ OPPOSITION TO DEFENDANTS-APPELLANTS’
MOTION FOR STAY PENDING APPEAL, filed on December 3, 2019, by
counsel for the appellees.

3.

APPELLANTS’ REPLY IN SUPPORT OF MOTION FOR A STAY PENDING
APPEAL, filed on December 10, 2019, by counsel for the appellants.

IT IS ORDERED that the motion is DENIED. An expedited briefing schedule will
follow.
Judge Barrett dissents and would grant the motion.
form name: c7_Order_3J(form ID: 177)

APPENDIX F

Case: 19-3169

Document: 117

Filed: 02/10/2020

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

ORDER
February 10, 2020
By the Court:
COOK COUNTY, et al.,
Plaintiffs - Appellees
No. 19-3169

v.
CHAD F. WOLF, et al.,
Defendants - Appellants

Originating Case Information:
District Court No: 1:19-cv-06334
Northern District of Illinois, Eastern Division
District Judge Gary Feinerman

The following is before the court:
1.

RENEWED MOTION FOR STAY PENDING APPEAL, filed on
January 28, 2020, by counsel for the appellants,

2.

APPELLEES OPPOSITION TO DEFENDANTS RENEWED MOTION
FOR STAY PENDING APPEAL, filed on February 5, 2020, by counsel for
the appellees.

3.

REPLY IN SUPPORT OF RENEWED MOTION FOR STAY PENDING
APPEAL, filed on February 7, 2020, by counsel for the appelllants.

IT IS ORDERED that the motion is DENIED.

APPENDIX G

Case: 19-3169

Document: 125

Filed: 02/21/2020

Cite as: 589 U. S. ____ (2020)

Pages: 7

1

SOTOMAYOR, J., dissenting

SUPREME COURT OF THE UNITED STATES
_________________

No. 19A905
_________________

CHAD WOLF, ACTING SECRETARY OF HOMELAND
SECURITY, ET AL. v. COOK COUNTY,
ILLINOIS, ET AL.
ON APPLICATION FOR STAY
[February 21, 2020]

The application for stay presented to JUSTICE
KAVANAUGH and by him referred to the Court is granted,
and the District Court’s October 14, 2019 order granting a
preliminary injunction is stayed pending disposition of the
Government’s appeal in the United States Court of Appeals
for the Seventh Circuit and disposition of the Government’s
petition for a writ of certiorari, if such writ is timely sought.
Should the petition for a writ of certiorari be denied, this
stay shall terminate automatically. In the event the petition for a writ of certiorari is granted, the stay shall terminate upon the sending down of the judgment of this Court.
JUSTICE GINSBURG, JUSTICE BREYER, and JUSTICE
KAGAN would deny the application.
JUSTICE SOTOMAYOR, dissenting from the grant of stay.
Today’s decision follows a now-familiar pattern. The
Government seeks emergency relief from this Court, asking
it to grant a stay where two lower courts have not. The
Government insists—even though review in a court of appeals is imminent—that it will suffer irreparable harm if
this Court does not grant a stay. And the Court yields.
But this application is perhaps even more concerning
than past ones. Just weeks ago, this Court granted a stay
of a different decision involving the same administrative
rule at issue here, after the Government professed urgency

Case: 19-3169

2

Document: 125

Filed: 02/21/2020

Pages: 7

WOLF v. COOK COUNTY
SOTOMAYOR, J., dissenting

because of the form of relief granted in the prior case—a
nationwide injunction. The Government now uses that
stay—of a nationwide injunction—to insist that it is entitled to one here. But the injunction in this case is limited
to one State, Illinois. The Government cannot state with
precision any of the supposed harm that would come from
the Illinois-specific injunction, and the Court of Appeals for
the Seventh Circuit has scheduled oral argument for next
week. The Government’s professed harm, therefore, boils
down to an inability to enforce its immigration goals, possibly in only the immediate term, in one of 50 States. It is
hard to say what is more troubling: that the Government
would seek this extraordinary relief seemingly as a matter
of course, or that the Court would grant it.
This case concerns a provision of the Immigration and
Nationality Act that renders inadmissible any noncitizen
who “is likely at any time to become a public charge.” 8
U. S. C. §1182(a)(4)(A). The provision instructs immigration officers to consider, “at a minimum,” a person’s “age;
health; family status; assets, resources, and financial status; and education and skills” in determining inadmissibility on this “public charge” basis. §1182(a)(4)(B). For the
last 20 years, field guidance has defined “public charge” as
a person “primarily dependent on the government for subsistence.” 64 Fed. Reg. 28689 (1999) (internal quotation
marks omitted). Per that guidance, immigration officers
were not to consider non-cash public benefits in deciding
whether a noncitizen met that definition.
In August 2019, the Department of Homeland Security
issued a regulation that changed this longstanding definition. This new regulation (the public-charge rule) now defines a “public charge” as “an alien who receives one or more
designated public benefits for more than 12 months in the
aggregate within any 36-month period (such that, for instance, receipt of two benefits in one month counts as two
months).” 84 Fed. Reg. 41292, 41295. The regulation also

Case: 19-3169

Document: 125

Filed: 02/21/2020

Cite as: 589 U. S. ____ (2020)

Pages: 7

3

SOTOMAYOR, J., dissenting

expands the type of benefits that may render a noncitizen
inadmissible, including non-cash benefits such as the Supplemental Nutrition Assistance Program (formerly food
stamps), most forms of Medicaid, and various forms of housing assistance. Ibid.
Several lawsuits followed, one of which reached this
Court last month. See Application for Stay of Injunctions
in Department of Homeland Security v. New York, No.
19A785 (New York cases). The Government in no small
part insisted that it was entitled to a stay because of the
scope of relief awarded below: The District Court in the New
York cases imposed a nationwide injunction that “rendered
effectively academic” the Government’s successful litigation
on the public-charge rule elsewhere. Id., at 4. The Government’s unquestionable focus was the scope of that injunction: Its stay application used the word “nationwide” 34
times.
Over the dissent of four Justices, this Court granted the
Government’s application for a stay. Department of Homeland Security v. New York, 589 U. S. ___ (2020). Two Justices concurred in the grant of the stay, emphasizing—as
the Government did—the “equitable and constitutional
questions raised by the rise of nationwide injunctions.” Id.,
at ___ (GORSUCH, J., concurring in grant of stay) (slip op.,
at 5). No Member of the Court discussed the application’s
merit apart from its challenges to the injunction’s nationwide scope.
In the meantime, other courts considered the publiccharge rule, and one—the District Court in this case—ruled
much more narrowly. The District Court concluded that the
plaintiffs in the case before it were entitled to a preliminary
injunction, based on self-described “dry and arguably bloodless” legal analysis. Cook County v. McAleenan, ___
F. Supp. 3d ___, ___, 2019 WL 5110267, *14 (ND Ill., Oct.
14, 2019). But it did not award nationwide relief as the New
York court had: It merely prevented the Government from

Case: 19-3169

4

Document: 125

Filed: 02/21/2020

Pages: 7

WOLF v. COOK COUNTY
SOTOMAYOR, J., dissenting

enforcing the public-charge rule in Illinois, where the
“ ‘nearly 100 nonprofit organizations and social and health
service providers’ ” represented by one of the plaintiffs were
located. Ibid.
After the District Court declined to stay enforcement of
its injunction pending appeal, the Government asked the
Seventh Circuit to intervene and stay the injunction itself.
On December 23, 2019, the Seventh Circuit declined, and
instead set an expedited briefing schedule to ensure prompt
consideration of the issue. As part of that expedited schedule, the Seventh Circuit set oral argument for February 26,
2020—five days from now.
Notably, the Government initially chose not to appeal the
Seventh Circuit’s decision denying a stay. Instead, while
letting the normal appellate process play out in this case, it
urged this Court to review a later issued decision granting
a nationwide injunction—in no small part because it was a
nationwide injunction. Yet now that this Court acceded to
that request, the Government wants more: It asks this
Court to grant a stay of the District Court’s considered—
and considerably narrower—order below.
One might wonder what the trouble is with granting a
stay in this case. After all, by granting a stay in the New
York cases, the Court effectively has already allowed the
Government to enforce the public-charge rule elsewhere—
why not Illinois too? But—even putting aside the dissent
of four Justices in the New York cases and the plaintiffs’
weighty arguments on the merits—the Court should not
forget the burden the Government must carry to obtain a
stay. To warrant this “ ‘extraordinary’ ” relief, Williams v.
Zbaraz, 442 U. S. 1309, 1316 (1979) (Stevens, J., in chambers), it is not enough for a party to point to an important
legal issue, or even one that is likely to obtain the assent of
five Justices on the merits (which is far from certain here).
Instead, to justify upending the normal rules of appellate

Case: 19-3169

Document: 125

Filed: 02/21/2020

Cite as: 589 U. S. ____ (2020)

Pages: 7

5

SOTOMAYOR, J., dissenting

procedure, a party must also show a likelihood of irreparable harm. Packwood v. Senate Select Comm. on Ethics, 510
U. S. 1319, 1320 (1994) (Rehnquist, C. J., in chambers).
And “[b]ecause this matter is pending before the Court of
Appeals, and because the Court of Appeals denied” the Government’s motion for a stay, the Government now bears “an
especially heavy burden.” Ibid.
The Government has not made that showing here. Its
public-charge rule is set to go into effect in 49 of 50 States
next week. The Seventh Circuit is set to consider the
Illinois-specific injunction next week as well, with a decision to follow shortly thereafter. And the Government is
unable to articulate how many cases—if any—this narrow
injunction would affect in the meantime. In sum, the Government’s only claimed hardship is that it must enforce an
existing interpretation of an immigration rule in one
State—just as it has done for the past 20 years—while an
updated version of the rule takes effect in the remaining 49.
The Government has not quantified or explained any burdens that would arise from this state of the world. Indeed,
until this Court granted relief in the New York cases, the
Government itself did not consider this Illinois-specific
harm serious enough to warrant asking this Court for relief.
These facts—all of which undermine the Government’s
assertion of irreparable harm—show two things, one about
the Government’s conduct and one about this Court’s own.
First, the Government has come to treat “th[e] exceptional
mechanism” of stay relief “as a new normal.” Barr v. East
Bay Sanctuary Covenant, 588 U. S. ___, ___ (2019)
(SOTOMAYOR, J., dissenting from grant of stay) (slip op., at
5). Claiming one emergency after another, the Government
has recently sought stays in an unprecedented number of
cases, demanding immediate attention and consuming limited Court resources in each. And with each successive application, of course, its cries of urgency ring increasingly
hollow. Indeed, its behavior relating to the public-charge

Case: 19-3169

6

Document: 125

Filed: 02/21/2020

Pages: 7

WOLF v. COOK COUNTY
SOTOMAYOR, J., dissenting

rule in particular shows how much its own definition of irreparable harm has shifted. Having first sought a stay in
the New York cases based, in large part, on the purported
harm created by a nationwide injunction, it now disclaims
that rationale and insists that the harm is its temporary
inability to enforce its goals in one State.
Second, this Court is partly to blame for the breakdown
in the appellate process. That is because the Court—in this
case, the New York cases, and many others—has been all
too quick to grant the Government’s “reflexiv[e]” requests.
Ibid. But make no mistake: Such a shift in the Court’s own
behavior comes at a cost.
Stay applications force the Court to consider important
statutory and constitutional questions that have not been
ventilated fully in the lower courts, on abbreviated timetables and without oral argument. They upend the normal
appellate process, putting a thumb on the scale in favor of
the party that won a stay. (Here, the Government touts
that in granting a stay in the New York cases, this Court
“necessarily concluded that if the court of appeals were to
uphold the preliminary injunctio[n], the Court likely would
grant a petition for a writ of certiorari” and that “there was
a fair prospect the Court would rule in favor of the government.” Application 3.) They demand extensive time and
resources when the Court’s intervention may well be unnecessary—particularly when, as here, a court of appeals is
poised to decide the issue for itself.
Perhaps most troublingly, the Court’s recent behavior on
stay applications has benefited one litigant over all others.
This Court often permits executions—where the risk of irreparable harm is the loss of life—to proceed, justifying
many of those decisions on purported failures “to raise any
potentially meritorious claims in a timely manner.” Murphy v. Collier, 587 U. S. ___, ___ (2019) (second statement
of KAVANAUGH, J.) (slip op., at 4); see also id., at ___ (ALITO,
J., joined by THOMAS and GORSUCH, JJ., dissenting from

Case: 19-3169

Document: 125

Filed: 02/21/2020

Cite as: 589 U. S. ____ (2020)

Pages: 7

7

SOTOMAYOR, J., dissenting

grant of stay) (slip op., at 6) (“When courts do not have adequate time to consider a claim, the decisionmaking process
may be compromised”); cf. Dunn v. Ray, 586 U. S. ___ (2019)
(overturning the grant of a stay of execution). Yet the
Court’s concerns over quick decisions wither when prodded
by the Government in far less compelling circumstances—
where the Government itself chose to wait to seek relief,
and where its claimed harm is continuation of a 20-year status quo in one State. I fear that this disparity in treatment
erodes the fair and balanced decisionmaking process that
this Court must strive to protect.
I respectfully dissent.

APPENDIX H

Case: 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

In the

United States Court of Appeals
For the Seventh Circuit
____________________

No. 19-3169
COOK COUNTY, ILLINOIS, et al.,
Plaintiffs-Appellees,
v.
CHAD F. WOLF, Acting Secretary
of Homeland Security, et al.,
Defendants-Appellants.
____________________
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 19 C 6334 — Gary Feinerman, Judge.

____________________

ARGUED FEBRUARY 26, 2020 — DECIDED JUNE 10, 2020
____________________
Before WOOD, Chief Judge, and ROVNER and BARRETT, Circuit Judges.
WOOD, Chief Judge. Like most people, immigrants to the
United States would like greater prosperity for themselves
and their families. Nonetheless, it can take time to achieve the
American Dream, and the path is not always smooth. Recognizing this, Congress has chosen to make immigrants eligible
for various public beneﬁts; state and local governments have

Case: 19-3169

Document: 129

Filed: 06/10/2020

2

Pages: 82

No. 19-3169

done the same. Those beneﬁts include subsidized health insurance, supplemental nutrition beneﬁts, and housing assistance. Historically, with limited exceptions, temporary receipt
of these supplemental beneﬁts did not jeopardize an immigrant’s chances of one day adjusting his status to that of a legal permanent resident or a citizen.
Recently, however, the Department of Homeland Security
(DHS) issued a new rule designed to prevent immigrants
whom the Executive Branch deems likely to receive public assistance in any amount, at any point in the future, from entering the country or adjusting their immigration status. The
Rule purports to implement the “public-charge” provision in
the Immigration and Nationality Act, 8 U.S.C. § 1182(a)(4).
States, cities, and nonproﬁt groups across the country have
ﬁled suits seeking to overturn the Rule.
Cook County, Illinois, and the Illinois Coalition for Immigrant and Refugee Rights, Inc. (ICIRR) brought one of those
cases in the Northern District of Illinois. They immediately
sought a preliminary injunction against the Rule pending the
outcome of the litigation. Finding that the criteria for interim
relief were satisﬁed, the district court granted their motion.
We conclude that at least Cook County adequately established its right to bring its claim and that the district court did
not abuse its discretion by granting preliminary injunctive relief. We therefore aﬃrm.
I.

The Setting

A. The Public-Charge Rule
The Immigration and Nationality Act (INA, or “the Act”)
provides that a noncitizen may be denied admission or ad-

Case: 19-3169

No. 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

3

justment of status if she “is likely at any time to become a public charge.” 8 U.S.C. § 1182(a)(4)(A). The statute does not deﬁne the term “public charge,” nor has it ever done so. Instead,
the Act calls for a “totality-of-the-circumstances” analysis,
though it singles out several factors to be considered “at a
minimum”: age; health; family status; assets, resources, and
ﬁnancial status; education and skills; and any aﬃdavit of support under section 1183a. Id. § 1182(a)(4)(B). The statute does
not specify how oﬃcials should weigh the listed factors and
any others that appear to be relevant.
On August 14, 2019, following a notice and comment period, DHS issued a rule interpreting this provision. In it, DHS
deﬁnes as a “public charge” any noncitizen (with some exceptions) who receives certain cash and noncash government
beneﬁts for more than “12 months” in the aggregate in a
36-month period. Inadmissibility on Public Charge Grounds,
84 Fed. Reg. 41292–508 (Aug. 14, 2019) (“Rule”). It applies to
all legally admitted immigrants; we are not concerned here
with those in the country unlawfully. The Rule is not limited
to federal beneﬁts; instead, it sweeps in any federal, state, local, or tribal cash assistance for income maintenance; Supplemental Nutrition Assistance Program (SNAP) beneﬁts; most
forms of Medicaid; Section 8 Housing Assistance under the
Housing Choice Voucher Program; Section 8 Project-Based
Rental Assistance; and certain other forms of subsidized
housing. Id. at 41295, 41501. Each beneﬁt received, no matter
how small, is counted separately and stacked, such that receipt of multiple beneﬁts in one month is considered receipt
of multiple months’ worth of beneﬁts. Id. at 41295. For example, an immigrant who receives any amount of SNAP beneﬁts,
Medicaid, and housing assistance, and nothing else for four
months in a three-year period, will be considered a public

Case: 19-3169

4

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

charge and likely denied adjustment of status. The stacking
rule means that a person can use up her “12 months” of beneﬁts in a far shorter time than a quick reading of the Rule
would indicate.
The Rule also explains what facts DHS will consider with
respect to an applicant’s age, health, family status, ﬁnancial
status, and education and skills. Id. at 41502–04. “Heavily
weighted negative factors” include the following: lack of current employment or reasonable prospect of future employment; previous receipt or approval for receipt of 12 months’
worth of public beneﬁts in a three-year period; diagnosis of a
medical condition that is likely to require extensive medical
treatment or institutionalization or that will interfere with the
ability to provide for oneself, attend school, or work, along
with lack of insurance and no prospect of obtaining private
health insurance, and insuﬃcient ﬁnancial resources to pay
for reasonably foreseeable medical costs related to such medical condition; and prior determination of inadmissibility or
deportability on public-charge grounds. Id. at 41504.
The “heavily weighted positive factors” are exclusively
monetary. They include the following: a household income,
assets, resources, or support amounting to at least 250 percent
of the Federal Poverty Guidelines for the household size; current employment with an annual income of at least 250 percent of the Federal Poverty Guidelines for the household size;
and private health insurance other than subsidized insurance
under the Aﬀordable Care Act. Id. To put this in perspective,
recall that the Federal Poverty Guideline in 2020 for a family
of four is $26,200 in annual income. Poverty Guidelines,
www.aspe.hhs.gov. An annual income 250 percent of that

Case: 19-3169

No. 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

5

number is $65,500, which is very close to the median U.S. income of $63,179 (the 2018 number reported by the U.S. Census
on Sept. 10, 2019, see Income, Poverty and Health Insurance
Coverage in the United States: 2018, www.census.gov).
Other factors include whether an immigrant is younger
than 18 or older than 61 (bad); household size (smaller is better); whether an immigrant’s household annual gross income
is at least 125 percent of the Federal Poverty Guidelines; past
receipt of any amount of public beneﬁts (bad); level of education (good); English language proﬁciency; and credit history
and credit score. Id. at 41502–04.
The Rule represents a striking departure from the previous administrative guidance—one with a potentially devastating impact on those to whom it applies. 1 That guidance, issued in 1999 by the Immigration and Naturalization Service
(the predecessor of today’s U.S. Citizenship and Immigration
Services), deﬁnes as a public charge a noncitizen who is “primarily dependent on the government for subsistence, as
demonstrated by either (i) the receipt of public cash assistance
for income maintenance or (ii) institutionalization for long-

1

The dissent emphasizes the fact that the Rule will not affect certain
people, such as those for whom a sponsor has furnished an affidavit of
support. But those are not the people who concern Cook County—it must
deal with those who bear the brunt of the Rule. Cf. Planned Parenthood of
Southeastern Pennsylvania v. Casey, 505 U.S. 833, 894 (1992) (“Legislation is
measured for consistency with the Constitution by its impact on those
whose conduct it affects. … The proper focus of constitutional inquiry is
the group for whom the law is a restriction, not the group for whom the
law is irrelevant.”). The dissent concedes, as it must, that the affected
group is not the null set.

Case: 19-3169

Document: 129

Filed: 06/10/2020

6

Pages: 82

No. 19-3169

term care at government expense.” Field Guidance on Deportability and Inadmissibility on Public Charge Grounds, 64 Fed.
Reg. 28689 (May 26, 1999) (“1999 Field Guidance”) (emphasis
added); see also Proposed Rule: Inadmissibility and Deportability on Public Charge Grounds, 64 Fed. Reg. 28676 (May 26,
1999). Drawing on both dictionary deﬁnitions and the development of immigration law since the 1880s, the proposed rule
accompanying the 1999 Field Guidance explained that “a person becomes a public charge when he or she is committed to
the care, custody, management, or support of the public,” and
that the term is best understood to signify “a complete, or
nearly complete, dependence on the Government rather than
the mere receipt of some lesser level of ﬁnancial support.” 64
Fed. Reg. at 28677.
B. Procedural History
DHS’s new rule was scheduled to go into effect in October
2019. Before it did so, plaintiffs filed this suit against DHS and
related entities for declaratory and injunctive relief. The complaint presents several theories: (1) the Rule violates the Administrative Procedure Act (APA), 5 U.S.C. § 706, because it
exceeds DHS’s statutory authority; (2) the Rule violates APA
section 706 because it is not in accordance with law; (3) the
Rule violates APA section 706 because it is arbitrary and capricious; and (4) the Rule violates the Fifth Amendment’s
Equal Protection guarantee because it discriminates against
non-white immigrants.
Focusing on the APA theories, plaintiffs moved for a preliminary injunction, which the district court granted on October 14, 2019. (Following plaintiffs’ lead, we do not discuss the
Equal Protection theory.) The injunction is geographically
limited to Illinois. The district court concluded that both Cook

Case: 19-3169

No. 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

7

County and ICIRR have constitutional standing to sue—Cook
County primarily because of the added costs its health and
hospital system is absorbing and will have to absorb as a result of decreased immigrant enrollment in government-provided health care coverage, and ICIRR because it is expending
and will continue to expend additional resources to educate
immigrant communities about the Rule and ensure they are
able to obtain necessary health services. The court also determined that both the County and ICIRR fall within the “zone
of interests” protected by the INA, for largely the same reasons they have constitutional standing. On the merits, the
court concluded that DHS’s reinterpretation of the term is
likely impermissible. The court found the statute to be clear
and to require more substantial, sustained dependence on
government assistance than the Rule demands before a
noncitizen may be considered a public charge. This showed,
the court held, that plaintiffs are likely to succeed on their
claims. Finally, the court ruled that plaintiffs had shown a
likelihood of irreparable harm and that the balance of harms
favored them, such that a preliminary injunction is warranted.
DHS filed an immediate appeal and moved to stay the preliminary injunction pending resolution of its appeal. We denied the stay and a renewed motion for a stay, but on February 21, 2020, the Supreme Court granted a stay. Chad Wolf, et
al. v. Cook County, et al., 140 S. Ct. 681 (2020).
As we write, parallel cases are being litigated in New
York, Maryland, California, and Washington. New York v. U.S.
Dep’t of Homeland Sec., No. 19-cv-7777 (S.D.N.Y.); Make the
Road New York v. Cuccinelli, No. 19-cv-7993 (S.D.N.Y.); Casa de
Maryland, Inc. v. Trump, No. 19-cv-2715 (D. Md.); California v.

Case: 19-3169

Document: 129

Filed: 06/10/2020

8

Pages: 82

No. 19-3169

U.S. Dep’t of Homeland Sec., No. 19-cv-4975 (N.D. Cal.); La
Clinica De La Raza v. Trump, No. 19-cv-4980 (N.D. Cal.); Washington v. U.S. Dep’t of Homeland Sec., No. 19-cv-5210 (E.D.
Wash.). The district courts in each of those cases also issued
preliminary injunctions, though with nationwide effect. DHS
appealed the preliminary injunctions and requested stays
pending appeal. The Ninth and Fourth Circuits granted
DHS’s stay requests. City and Cnty. of San Francisco v. U.S. Citizenship & Immigration Servs., 944 F.3d 773 (9th Cir. 2019); Casa
de Maryland, Inc. v. Trump, No. 19-2222 (4th Cir. Dec. 9, 2019).
The Second Circuit declined to issue a stay, but the Supreme
Court granted one pending further proceedings. Dep’t of
Homeland Sec., et al., v. New York, et al., 140 S. Ct. 599 (2020).
Rather than discussing these opinions point-by-point, we
think it better to spell out our own analysis of these issues.
II.

Right To Sue

Plaintiﬀs invoked the district court’s jurisdiction under 28
U.S.C. § 1331 for their claims under the APA. DHS responds
that they lack standing to sue under Article III of the Constitution. The district court rejected that argument. It also concluded that plaintiﬀs had adequately raised a claim within the
“zone of interests” of the INA. We review the legal question
of standing de novo and the factual ﬁndings underlying the
district court’s determination of standing for clear error. Arreola v. Godinez, 546 F.3d 788, 794 (7th Cir. 2008).
A. Article III Standing
Article III of the Constitution limits the federal judicial
power to the adjudication of “cases” and “controversies.” U.S.
Const. art. III, § 2, cl. 1. For there to be a justiciable case or
controversy, the party invoking the power of the court must

Case: 19-3169

No. 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

9

have standing to sue. Hollingsworth v. Perry, 570 U.S. 693, 700
(2013). To assert standing for injunctive relief, a plaintiﬀ must
show that it is under an actual or imminent threat of suﬀering
a concrete and particularized injury-in-fact; that this injury is
fairly traceable to the defendant’s conduct; and that it is likely
that a favorable judicial decision will prevent or redress the
injury. Summers v. Earth Island Inst., 555 U.S. 488, 493 (2009).
Municipalities generally have standing to challenge laws
that result (or immediately threaten to result) in substantial
ﬁnancial burdens and other concrete harms. See, e.g., Dep’t of
Commerce v. New York, 139 S. Ct. 2551, 2565 (2019) (“diminishment of political representation, loss of federal funds, degradation of census data, and diversion of resources” were suﬃcient to give states and municipalities standing to sue over the
proposed inclusion of a citizenship question on the 2020 census); Gladstone, Realtors v. Vill. of Bellwood, 441 U.S. 91, 110–11
(1979) (municipality had standing based on the eﬀect of racial
steering in housing on the municipality’s tax base and social
stability).
The district court found that Cook County has standing
based on the ﬁnancial harms the County will incur if and
when the Rule goes into eﬀect. The Rule is likely to cause immigrants to forgo routine treatment, immunizations, and diagnostic testing, resulting in more costly, uncompensated
emergency care and an increased risk of communicable diseases spreading to the general public. Indeed, DHS conceded
this harm in its commentary on the Rule, acknowledging
“that increased use of emergency rooms and emergent care as
a method of primary healthcare due to delayed treatment is
possible and there is a potential for increases in uncompensated care in which a treatment or service is not paid for by an

Case: 19-3169

10

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

insurer or patient.” 84 Fed. Reg. at 41384. The district court
determined that “[b]oth the costs of community health epidemics and of uncompensated care are likely to fall particularly hard on [the Cook County health system], which already
provides approximately half of all charity care in Cook
County, including to noncitizens regardless of their immigration status.” The district court found that these ﬁnancial and
health burdens were suﬃcient.
The district court also concluded that ICIRR has Article III
standing based on the eﬀect of the Rule on its ability to perform its core mission and operate its existing programs. The
court found that the Rule would impair the organization’s
ability to achieve its mission of increasing access to care, improving health literacy, and reducing reliance on emergency
room care in immigrant communities. The Rule already has
caused ICIRR to divert resources from its core programs to
new eﬀorts designed to educate immigrants and staﬀ about
the Rule’s eﬀects and to mitigate the Rule’s chilling impact on
immigrants who are not covered by the Rule but who nonetheless fear immigration consequences based on their receipt
of public beneﬁts.
Under Havens Realty Corp. v. Coleman, 455 U.S. 363 (1982)
and Common Cause Indiana v. Lawson, 937 F.3d 944 (7th Cir.
2019), this is enough. In Havens, the Supreme Court found that
a nonproﬁt organization focused on equal housing access had
standing to sue an apartment owner under the Fair Housing
Act for racial discrimination, based on the negative impact of
the defendant’s racial steering practices on the organization’s
ability to provide counseling and referral services for low-and
moderate-income home-seekers. 455 U.S. at 379. And in Common Cause, we relied on Havens in concluding that the plaintiﬀ

Case: 19-3169

Document: 129

Filed: 06/10/2020

No. 19-3169

Pages: 82

11

voting rights organizations had standing to challenge an Indiana law designed to remove certain people from the voter
rolls, because the law caused the organizations to divert their
limited resources from core programs to ameliorating the effects of the law. 937 F.3d at 950–52.
We agree with the district court that Cook County and
ICIRR have established cognizable injuries. Their alleged injuries are predictable, likely, and imminent. And the Rule—
not independent third-party decision-making—is the but-for
cause of these injuries. Plaintiﬀs thus have constitutional
standing to challenge the Rule.
B. Statutory Coverage
The next question is whether the interests Cook County
and ICIRR assert are among those protected or regulated by
the INA. A statute “ordinarily provides a cause of action only
to plaintiﬀs whose interests fall within the zone of interests
protected by the law invoked.” Bank of America Corp. v. City of
Miami, 137 S. Ct. 1296, 1302 (2017).
The zone-of-interests test is not “especially demanding” in
the APA context. Lexmark Int’l, Inc. v. Static Control Components, Inc., 572 U.S. 118, 130 (2014). This is because it was
“Congress’s evident intent when enacting the APA to make
agency action presumptively reviewable.” Match-E-Be-NashShe-Wish Band of Pottawatomi Indians v. Patchak, 567 U.S. 209,
225 (2012). The plaintiﬀs’ interests must only arguably fall
within the zone of interests of the statute. And the emphasis
on the word “arguably” is not ours: the Supreme Court has
“always conspicuously included the word ‘arguably’ in the
test to indicate that the beneﬁt of any doubt goes to the plaintiﬀ.” Id. It is not necessary to demonstrate any “indication of

Case: 19-3169

Document: 129

12

Filed: 06/10/2020

Pages: 82

No. 19-3169

congressional purpose to beneﬁt the would-be plaintiﬀ.” Id.
Suit is foreclosed “only when a plaintiﬀ’s interests are so marginally related to or inconsistent with the purposes implicit in
the statute that it cannot reasonably be assumed that Congress intended to permit the suit.” Id.
1. Cook County
The district court concluded that Cook County satisﬁes the
zone-of-interests test based on the ﬁnancial burdens the
County will incur as a result of the Rule. It drew an analogy
to City of Miami, in which the Supreme Court held that Miami’s allegations of lost tax revenue and extra municipal expenses placed it within the zone of interests protected by the
Fair Housing Act.
DHS takes issue with these conclusions. It argues that the
County does not fall within the INA’s zone of interests because its asserted interests are inconsistent with the statutory
purpose. DHS sees a tension between the County’s eﬀorts to
provide services to immigrants and the supposed aim of the
public-charge provision, which it understands as a command
to reduce and penalize immigrants’ receipt of public beneﬁts.
DHS also contends that the district court misread City of Miami, and that the INA does not give any third party a judicially
enforceable interest in the Executive Branch’s immigration
decisions.
DHS has overshot the mark. Indeed, its own arguments
undermine such an absolutist position. DHS admits that one
purpose of the public-charge provision is to protect taxpayer
resources. In large measure, that is the same interest Cook
County asserts. DHS tries to distinguish itself from Cook
County by saying that it is focused on reducing the burden on

Case: 19-3169

No. 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

13

federal taxpayers, but the Rule itself covers not just federal, but
also state, local, and tribal assistance. Even if the eﬀect of the
Rule is some reduction in the burden on federal taxpayers,
Cook County has plausibly alleged that at the same time, the
Rule will increase the burden on those same people in their
capacity as state and local taxpayers, who will have to suﬀer
the adverse eﬀects of a substantial population with inadequate medical care, housing, and nutrition.
Furthermore, though the purpose of the public-charge
provision is to screen for and promote “self-suﬃciency”
among immigrants, it is not obvious what self-suﬃciency
means. Subsidies abound in the modern world, from discounted or free transportation for seniors, to public snow removal, to school lunches, to childhood vaccinations, and
much more. Cf. Danilo Trisi, Administration’s Public Charge
Rules Would Close the Door to U.S. Immigrants Without Substantial Means, Ctr. on Budget and Policy Priorities (Nov. 11, 2019)
(noting that in a single year, one in four U.S.-born citizens,
and 15 percent of all residents, receives a beneﬁt included in
the Rule’s public charge deﬁnition). Ensuring that immigrants
have access to aﬀordable basic health care, for example, may
promote their greater self-suﬃciency in other domains, including income, housing, and nutrition. It also protects the
community at large from highly contagious diseases such as
COVID-19. Cook County’s interest in ensuring lawful immigrants’ access to authorized federal and state public beneﬁts
is not plainly inconsistent with the text of the statute. Its ﬁnancial interests thus suﬃce to bring it within the zone of interests of the public-charge provision.

Case: 19-3169

Document: 129

14

Filed: 06/10/2020

Pages: 82

No. 19-3169
2. ICIRR

The court also found that ICIRR ﬁts within the INA’s zone
of interests, explaining that there is “ample evidence that
ICIRR’s interests are not merely marginal to those of the aliens
more directly impacted by the public charge provision” and
that “ICIRR [is] precisely the type of organization that would
reasonably be expected to ‘police the interests that the statute
protects.’”
Because only one plaintiﬀ need demonstrate that it has
stated a claim within the zone of interests of the statute, we
elect to pass over ICIRR without much comment. We recognize that it asserts that it has suﬀered a ﬁnancial burden directly attributable to the Rule. And we accept that ICIRR helps
immigrants navigate the INA’s various requirements, including the public-charge rule, and it has an interest in ensuring
that immigrants are not improperly denied adjustment of status or removed from the country because of confusion over
DHS’s Rule. But the link between these injuries and the purpose of the public-charge part of the statute is more attenuated, and thus it is harder to say that the injury ICIRR has asserted meets the “zone-of-interests” test.
Given Cook County’s presence in the case, we need not
resolve ICIRR’s status deﬁnitively, and so we limit our discussion in the remainder of the opinion to Cook County. The central question is whether the district court abused its discretion
in preliminarily enjoining the Rule for the State of Illinois?
III.

The Preliminary Injunction

To obtain a preliminary injunction, a plaintiﬀ must establish that: (1) she is likely to succeed on the merits, (2) she is
likely to suﬀer irreparable harm in the absence of preliminary

Case: 19-3169

Document: 129

Filed: 06/10/2020

No. 19-3169

Pages: 82

15

relief; and (3) legal remedies are inadequate. See Winter v. Natural Res. Def. Council, Inc., 555 U.S. 7, 20 (2008); Eli Lilly & Co.
v. Arla Foods, Inc., 893 F.3d 375, 381 (7th Cir. 2018). “If the moving party makes this showing, the court balances the harms to
the moving party, other parties, and the public.” Eli Lilly, 893
F.3d at 381. The standard is the same for an application for a
stay under section 705 of the APA. Cronin v. U.S. Dep’t of
Agric., 919 F.2d 439, 446 (7th Cir. 1990).
The district court concluded that Cook County is likely to
succeed on the merits and that the other requirements for preliminary injunctive relief have been met. We review the issuance of a preliminary injunction under the deferential abuseof-discretion standard, reviewing legal issues de novo and factual ﬁndings for clear error. Whitaker v. Kenosha Uniﬁed Sch.
Dist. No. 1 Bd. of Educ., 858 F.3d 1034, 1044 (7th Cir. 2017).
A. Likelihood of Success
The pivotal question in this case, as in many involving preliminary relief, is likelihood of success on the merits. We
therefore devote the bulk of our analysis to this issue, understanding that the litigation is still in an early stage and anything we say may change as the record develops further.
The APA provides for judicial review of ﬁnal agency decisions. 5 U.S.C. §§ 702, 706. The overriding question is whether
the agency’s interpretation of the relevant statute is one the
text will permit. We approach this inquiry through the twostep framework set forth in Chevron U.S.A. Inc. v. Nat. Res. Def.
Council, Inc., 467 U.S. 837 (1984). The ﬁrst issue is “whether
Congress has directly spoken to the precise question at issue.”
Id. at 842. If Congress has done so unambiguously, then that
is the end of it: the agency and courts alike are bound by what

Case: 19-3169

Document: 129

16

Filed: 06/10/2020

Pages: 82

No. 19-3169

Congress wrote. Id. at 842–43. If Congress has not spoken
clearly, then we move on to step two, in which we consider
whether the agency’s interpretation reﬂects a permissible construction of the statute. Id. at 843. We defer to the agency’s
reading “unless it appears from the statute or its legislative
history that the accommodation [of conﬂicting policies] is not
one that Congress would have sanctioned.” Id. at 845; see also
Indiana v. EPA, 796 F.3d 803, 811 (7th Cir. 2015).
Statutory interpretation is not the end of the matter, however. We also must assess the agency’s policymaking to ensure that it is not “arbitrary and capricious,” as the APA uses
those terms. 5 U.S.C. § 706(2)(A). This review, guided by Motor Vehicle Mfrs. Ass’n v. State Farm Mut. Auto. Ins. Co., 463 U.S.
29 (1983), focuses not on the facial validity of the agency’s interpretation, but rather on the soundness of the process by
which it reached its interpretation. See Encino Motorcars, LLC
v. Navarro, 136 S. Ct. 2117, 2125 (2016) (“[W]here a proper
challenge is raised to the agency procedures, and those procedures are defective, a court should not accord Chevron deference to the agency interpretation.”).
1. Chevron Step One
We begin our analysis of DHS’s Rule with an analysis of
the text of the INA. In conducting this analysis, we consider
the words of the public-charge provision, its place in the overall statutory scheme, the relation of the INA to other statutes,
and “common sense as to the manner in which Congress is
likely to delegate a policy decision of such economic and political magnitude to an administrative agency.” FDA v. Brown
& Williamson Tobacco Corp., 529 U.S. 120, 132–33 (2000).

Case: 19-3169

No. 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

17

As we noted at the outset, the INA contains no formal definition of what it takes to be a “public charge.” It merely lists
several broad factors that are relevant to the determination.
8 U.S.C. § 1182(a)(4)(B). It does not provide weights for either
the listed factors or any others that might exist in a given case.
Instead, it relies on the discretion of the responsible consular
oﬃcial or the Attorney General. Id. § 1182(a)(4)(A). It also authorizes the Secretary of Homeland Security to promulgate
rules to guide those determinations. Id. § 1103(a)(3).
In defense of its Rule, DHS relies heavily on the 1996
amendments to the INA. There Congress stated that “self-sufﬁciency has been a basic principle of United States immigration law since this country’s earliest immigration statutes.” 8
U.S.C. § 1601(1). Congress also announced its intent that “aliens within the Nation’s borders not depend on public resources to meet their needs, but rather rely on their own capabilities and the resources of their families, their sponsors
and private organizations”; and that “the availability of public beneﬁts [should] not constitute an incentive for immigration to the United States.” 8 U.S.C. § 1601(2).
Both parties also cite various other statutory provisions
that they believe shed light on the meaning of the publiccharge provision, including the requirement for some immigrants to obtain aﬃdavits of support from sponsors, 8 U.S.C.
§ 1183a; an exception to the public-charge provision for immigrants who are victims of domestic violence and receive beneﬁts in that capacity, id. §§ 1182(a)(4)(E), 1641(c); and several
other statutes that extend, with varying conditions, certain
beneﬁts to immigrants, see, e.g., id. §§ 1611, 1621. We do not
ﬁnd these provisions to be particularly helpful; each is susceptible to more than one reasonable reading.

Case: 19-3169

18

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

Cook County argues that long-established judicial decisions, ratiﬁed by Congress, point us to only one possible interpretation—that is, the one that it urges. But in our view, the
historical record is not so clear. The parties agreed in the district court that the understanding of the term “public charge”
around the time it ﬁrst entered federal immigration law in
1882 is particularly relevant. See New Prime Inc. v. Oliveira, 139
S. Ct. 532, 539 (2019) (“It’s a fundamental canon of statutory
construction that words generally should be interpreted as
taking their ordinary meaning at the time Congress enacted
the statute.”). But that is where the harmony ends.
Enter the dueling dictionaries. In Cook County’s corner,
we have the Century Dictionary, deﬁning a “charge” as a person who is “committed to another’s custody, care, concern or
management,” Century Dictionary 929 (William Dwight
Whitney, ed., 1889) (emphasis added); and Webster’s Dictionary, likewise deﬁning a “charge” as a “person or thing committed to the care or management of another,” Webster’s Condensed Dictionary of the English Language 84 (Dorsey Gardner, ed., 1884). These suggest primary, long-term dependence.
In DHS’s corner, we have dictionaries deﬁning a “charge” as
“an obligation or liability,” as in a “pauper being chargeable
to the parish or town,” Dictionary of Am. and English Law
196 (Stewart Rapalje & Robert Lawrence, eds., 1888); and as a
“burden, incumbrance, or lien,” Glossary of the Common
Law 56 (Frederic Jesup Stimson, ed., 1881). These deﬁnitions
can be read to indicate that a lesser reliance on public beneﬁts
is enough. Finding no clarity here, we move on.
Cook County contends that from the outset Congress distinguished between, on the one hand, those who were permit-

Case: 19-3169

No. 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

19

ted to “land” and receive short-term support from government agencies, and, on the other hand, those who were excluded as public charges. Under the 1882 Immigration Act,
the set of people who could be prevented from landing included convicts, “lunatics,” “idiots,” and any other person
“unable to take care of himself or herself.” An Act to Regulate
Immigration, ch. 376, § 2, 22 Stat. 214 (1882). The 1882 Act authorized the Secretary of the Treasury, who was responsible
for supervising immigration, to enter into contracts with state
entities “to provide for the support and relief of such immigrants therein landing as may fall into distress or need public
aid, under the rules and regulations to be prescribed by said
Secretary.” Id. Cook County stresses this distinction between
excludable public charges and immigrants who (less drastically) “may fall into distress or need public aid.”
This argument has some intuitive merit. DHS responds
however, that the general revenues were not at risk under the
1882 Act for immigrants who were not self-suﬃcient upon arrival. The 1882 Act directed the Secretary of the Treasury to
levy an entry tax on all noncitizens arriving by ship to cover
both the cost of regulating immigration and that of temporary
assistance. 1882 Act, ch. 376, § 1. It also speciﬁed that “no
greater sum shall be expended for the purposes hereinbefore
mentioned, at any port, than shall have been collected at such
port.” Id. In other words, federal funding was available only
to the extent the funds matched collections from the vessels.
This general feature is no longer part of the law (putting to
one side the special case of sponsored immigrants).
Congress tinkered with the language in 1891, 1903, and
1907. See An Act in Amendment to the Various Acts Relative
to Immigration and the Importation of Aliens Under Contract

Case: 19-3169

20

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

or Agreement to Perform Labor, ch. 551, 26 Stat. 1084, 1086
(1891); An Act to Regulate the Immigration of Aliens into the
United States, ch. 1012, 32 Stat. 1213, 1213–1214 (1903); An Act
to Regulate the Immigration of Aliens into the United States,
ch. 1134, 34 Stat. 898, 898–899, 904–905 (1907). Never, however, did it deﬁne “public charge” or explain what degree of
reliance on government aid brands someone as such a person.
Federal district court and state-court cases from this period point in diﬀerent directions. For example, in In re Feinknopf, 47 F. 447 (E.D.N.Y. 1891), a district court distinguished
between the primary dependence of persons who live in almshouses and the lesser dependence of those who merely receive public support. Around the same time, a North Dakota
court indicated that temporary aid is actually a means of
averting public dependence, insofar as it can keep those “destitute of means and credit from becoming a public charge.”
Yeatman v. King, 2 N.D. 421 (1892). On the other hand, the
question in Yeatman was whether an obligation to repay the
county the value of received temporary public assistance
counted as a tax, and so the decision is of limited value.
The district court did not ﬁnd these and other early decisions to be dispositive. Instead, it thought that the Supreme
Court’s decision in Gegiow v. Uhl, 239 U.S. 3 (1915), resolved
the issue. But there, too, the question presented was a narrow
one. The Court said that it was addressing the “single question … whether an alien can be declared likely to become a
public charge on the ground that the labor market in the city
of his immediate destination is overstocked.” Id. at 9–10. It answered in the negative, saying that “[t]he persons enumerated, in short, are to be excluded on the ground of permanent
personal objections accompanying them irrespective of local

Case: 19-3169

No. 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

21

conditions … .” Id. at 10. The district court in our case understood Gegiow as holding that the term “public charge” encompasses only persons who are substantially, if not entirely, dependent on government assistance on a long-term basis.
While there is language in Gegiow that supports that reading, we are not persuaded that the Supreme Court necessarily
ruled so broadly. The Court went out of its way to say that the
question presented was the one we noted above. The Acting
Commissioner of Immigration, in deciding to deport the persons at issue, mentioned in addition to local labor conditions
“the amount of money possessed and ignorance of our language.” But the Court brushed oﬀ these considerations as
mere “makeweights.” Id. at 9. It thus had no need to address
directly the immigrants’ ﬁnancial resources and education.
In context, the Court’s reference to “permanent personal
objections” might have simply reﬂected a distinction between
the individualized characteristics of an immigrant and external factors such as a local labor market. The terse opinion is
silent about any distinction between people whose need for
public assistance is temporary and minimal, and those whose
need is likely to be substantial or permanent. We thus agree
with DHS that the case before us cannot be resolved exclusively by reference to Gegiow.
Circuit court decisions in the aftermath of Gegiow add little
clarity to this picture. For example, in Wallis v. United States ex
rel. Mannara, 273 F. 509 (2d Cir. 1921), the Second Circuit deﬁned a person likely to become a public charge as “one whom
it may be necessary to support at public expense by reason of
poverty, insanity and poverty, disease and poverty, idiocy
and poverty.” Id. at 511. It did so in a case in which the immi-

Case: 19-3169

22

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

grant family’s primary breadwinner was “certiﬁed for senility” and thus would never be “capable of continued self-support.” Id. at 510. The court noted that the family had “insuﬃcient [means] to provide for their necessary wants any reasonable length of time” and no private sources of support. Id. On
the other hand, in Ex parte Hosaye Sakaguchi, 277 F. 913 (9th
Cir. 1922), the Ninth Circuit held that an immigrant woman
with the skills to support herself was not likely to become a
public charge. Id. at 916. It ruled that the government had to
present evidence of “mental or physical disability or any fact
tending to show that the burden of supporting the [immigrant] is likely to be cast upon the public.” Id. How much of a
burden was left undeﬁned. See also United States ex rel. De
Sousa v. Day, 22 F.2d 472, 473–74 (2d Cir. 1927) (“In the face of
[Gegiow] it is hard to say that a healthy adult immigrant, with
no previous history of pauperism, and nothing to interfere
with his chances in life but lack of savings, is likely to become
a public charge within the meaning of the statute.”).
The parties and amici also call our attention to later actions
by the Executive Branch, but we ﬁnd these also to be inconclusive. See, e.g., Matter of B-, 3 I. & N. Dec. 323, 326 (BIA &
AG 1948) (stating that the longstanding test for whether an
immigrant could be deemed a public charge had three components: (1) the state must charge for the service it renders; (2)
it must make a demand for payment; and (3) the immigrant
must fail to pay).
What we can say is that in 1952 Congress amended the Act
in a way that uses the language of discretion: it deems inadmissible immigrants “who, in the opinion of the consular ofﬁcer at the time of application for a visa, or in the opinion of
the Attorney General at the time of application for admission,

Case: 19-3169

No. 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

23

are likely at any time to become public charges.” An Act to Revise the Laws Relating to Immigration, Naturalization, and
Nationality; and for Other Purposes, Pub. L. No. 414, § 212, 66
Stat. 163, 183 (1952) (emphasis added). This language clariﬁes
the temporal dimension of the public-charge determination,
but it says nothing about the degree or duration of assistance.
The Immigration Act of 1990, Pub. L. No. 101-649, § 601, 104
Stat. 4978, also lacks a clear deﬁnition of “public charge.”
In the 1996 Immigration Act, Congress for the ﬁrst time
provided guidance on what the Executive Branch must consider when determining whether an immigrant is likely to become a public charge. As we noted earlier, immigration oﬃcials were instructed “at a minimum” to look at age, health,
family status, ﬁnancial situation, and education and skills. Illegal Immigration Reform and Immigrant Responsibility Act
of 1996, Pub. L. No. 104-208, Div. C, § 531, 110 Stat. 3009
(1996). They also could consider whether an immigrant had
an aﬃdavit of support from a third party. Id. Congress rejected a proposal to deﬁne “public charge” to cover “any alien
who receives [means-tested public beneﬁts] for an aggregate
of at least 12 months.” 142 Cong. Rec. 24313, 24425 (1996).
Contemporaneously, Congress enacted the Personal Responsibility and Work Opportunity Reconciliation Act of
1996, Pub. L. 104-193, 110 Stat. 2105 (1996), commonly known
as the “Welfare Reform Act.” DHS places great weight on language in that statute’s expression of Congress’s desire that
immigrants be self-suﬃcient and not come to the United
States with the purpose of beneﬁtting from public welfare
programs. See 8 U.S.C. § 1601(1). The INA (with that amendment) pursues that goal by restricting most noncitizens from
eligibility for many federal and state public beneﬁts. It grants

Case: 19-3169

24

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

lawful permanent residents access to means-tested public
beneﬁts only after they have spent ﬁve years as a lawful permanent resident. Id. §§ 1611, 1613, 1621. But the exclusions are
not absolute. Congress speciﬁed instead that immigrants may
at any time receive emergency medical assistance; immunizations and testing for communicable diseases; short-term, inkind emergency disaster relief; various in-kind services such
as short-term shelter and crisis counseling; and certain housing and community development assistance. Id.
The INS summarized its understanding of the 1996 legal
regime in the 1999 Field Guidance, which deﬁned as a public
charge those who are “primarily dependent on the government for subsistence, as demonstrated by either (i) the receipt
of public cash assistance for income maintenance or (ii) institutionalization for long-term care at government expense.” 64
Fed. Reg. at 28689. Following an earlier 1987 interpretive rule,
see Adjustment of Status for Certain Aliens, 52 Fed. Reg.
16205, 16211–12, 16216 (May 1, 1987), the 1999 Field Guidance
said that “oﬃcers should not initiate or pursue public charge
deportation cases against aliens who have not received public
cash beneﬁts for income maintenance or who have not been
institutionalized for long-term care.“ 64 Fed. Reg. at 28689. It
directed oﬃcers “not [to] place any weight on the receipt of
non-cash public beneﬁts (other than institutionalization) or
the receipt of cash beneﬁts for purposes other than for income
maintenance with respect to determinations of admissibility
or eligibility for adjustment on public charge grounds.” Id.
Later enactments lightened some of the statutory restrictions, in order to allow additional categories of immigrants to qualify for certain beneﬁts without a ﬁve-year waiting period. See Farm Security and Rural Investment Act of

Case: 19-3169

Document: 129

No. 19-3169

Filed: 06/10/2020

Pages: 82

25

2002, Pub. L. 107-171, § 4401, 116 Stat. 134 (2002); Children’s
Health Insurance Program Reauthorization Act of 2009, Pub.
L. 11-3, § 214, 123 Stat. 8 (2009).
This is where things stood when DHS developed the Rule.
What should we make of this historical record? As the district
court recognized, there is abundant evidence supporting
Cook County’s interpretation of the public-charge provision
as being triggered only by long-term, primary dependence.
But the question before us is not whether Cook County has
oﬀered a reasonable interpretation of the law. It is whether the
statutory language unambiguously leads us to that interpretation. We cannot say that it does. As our quick and admittedly incomplete overview of this byzantine law has shown,
the meaning of “public charge” has evolved over time as immigration priorities have changed and as the nature of public
assistance has shifted from institutionalization of the destitute
and sick, to a wide variety of cash and in-kind welfare programs. What has been consistent is the delegation from Congress to the Executive Branch of discretion, within bounds, to
make public-charge determinations.
Thus, this case cannot be resolved at Chevron step one. But
that does not end the analysis, because we may aﬃrm the district court’s issuance of a preliminary injunction on any basis
in the record. See Valencia v. City of Springﬁeld, Ill., 883 F.3d
959, 967 (7th Cir. 2018). We therefore proceed to step two.
2. Chevron Step Two
At step two of the Chevron analysis, we consider “whether
the agency’s answer is based on a permissible construction of
the statute.” 467 U.S. at 843. Our review is deferential; we accord “considerable weight … to an executive department’s

Case: 19-3169

26

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

construction of a statutory scheme it is entrusted to administer.” Id. at 844; see also Nat’l Cable & Telecomms. Ass’n v. Brand
X Internet Servs., 545 U.S. 967, 980 (2005).
A court may strike down an agency’s interpretation of a
law if, for example, the agency’s reading disregards the statutory context, see, e.g., Michigan v. EPA, 135 S. Ct. 2699, 2708
(2015); its rule is based on an unreasonable interpretation of
legislative history, see, e.g., Council for Urological Interests v.
Burwell, 790 F.3d 212, 223 (D.C. Cir. 2015); or its new position
“would bring about an enormous and transformative expansion in [the agency’s] regulatory authority without clear congressional authorization, Util. Air Reg. Grp. v. EPA, 573 U.S.
302, 324 (2014).
Cook County oﬀers several reasons why DHS’s interpretation founders here. First, it contends that the Rule conﬂicts
with at least two statutes: the SNAP statute and the Rehabilitation Act of 1973. Second, it urges that the DHS position creates internal inconsistencies in the immigration laws themselves. We address these points in turn.
The SNAP statute prohibits the government from considering SNAP beneﬁts as “income or resources for any purpose
under any Federal, State, or local laws.” 7 U.S.C. § 2017(b). But
DHS is not trying to characterize these beneﬁts as income or
resources held by the immigrant in question. The Rule merely
notes that receipt of the beneﬁts is an indicium of a lack of
self-suﬃciency. Whatever else one might say about that position, it is not one that the SNAP law forbids.
The Rehabilitation Act of 1973 prohibits the government
from excluding from participation in, denying the beneﬁts of,
or subjecting to discrimination under any federally funded

Case: 19-3169

No. 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

27

program or activity, a person with a disability “solely by reason of her or his disability.” 29 U.S.C. § 794(a). An agency violates the Act if it (1) intentionally acts on the basis of the disability; (2) refuses to provide a reasonable modiﬁcation; or (3)
takes an action or adopts a rule that disproportionately aﬀects
disabled people. A.H. ex rel. Holzmueller v. Ill. High Sch. Ass’n,
881 F.3d 587, 592–93 (7th Cir. 2018). An aggrieved person
must demonstrate that “but for” her disability, she would
have been able to access the desired beneﬁts. Id. at 593.
DHS frankly acknowledges that it takes disability into account in its public-charge analysis, and it does so in an unfavorable way. 84 Fed. Reg. at 41383 (“DHS considers any disability or other medical condition in the public charge inadmissibility determination to the extent the alien’s health makes
the alien more likely than not to become a public charge at
any time in the future.”). Indeed, the Rule brands as a heavily
weighted negative factor a medical condition that is likely to
require extensive medical treatment or interfere with the person’s ability to provide for herself, attend school, or work. Id.
at 41504. DHS does not say what amounts to “extensive medical treatment” or what it means for a condition to “interfere
with [an immigrant’s] ability to provide for herself, attend
school, or work.” The Rule leaves the interpretation of these
terms to immigration oﬃcials. It is therefore unclear what
sorts of disabilities DHS will place into this category.
As several amici curiae point out, the Rule ignores the fact
that private insurers do not cover many home- and community-based services, and so denial of beneﬁts is eﬀectively denial of access to programs or activities. See id. at 41382. DHS
responded to this criticism, as it applies to Medicaid Buy-in
for those with disabilities, with the comment that “[a]liens

Case: 19-3169

28

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

should be obtaining private health insurance other than Medicaid in order to establish self-suﬃciency.” Id. But that is chimerical. Private insurance in the United States typically excludes these beneﬁts, and so persons with disabilities are able
to obtain essential services, including personal-care services,
specialized therapies and treatment, habilitative and rehabilitative services, and medical equipment, only by participating
in the Medicaid Buy-in program. With this assistance, they are
able to work and thus can avoid becoming a public charge,
which is DHS’s purported goal.
The conclusion is inescapable that the Rule penalizes disabled persons in contravention of the Rehabilitation Act. All
else being equal—education and skills, work history and potential, health besides disability, etc.—the disabled are saddled with at least two heavily weighted negative factors directly as a result of their disability. Even while DHS purports
to follow the statutorily-required totality of the circumstances
test, the Rule disproportionately burdens disabled people and
in many instances makes it all but inevitable that a person’s
disability will be the but-for cause of her being deemed likely
to become a public charge.
We do not mean to suggest that the Rehabilitation Act repealed the “health” criterion in the public-charge provision
by implication. There is no need to do that, if the two statutes
can be reconciled—and it is our duty to see if that can be accomplished. See Epic Sys. Corp. v. Lewis, 138 S. Ct. 1612, 1624
(2018) (“[T]his Court is not at liberty to pick and choose
among congressional enactments and must instead strive to
give eﬀect to both.”). And they can live together comfortably,
as long as we understand the “health” criterion in the INA as
referring to things such as contagious disease and conditions

Case: 19-3169

No. 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

29

requiring long-term institutionalization, but not disability per
se. That interpretation is also historically grounded.
DHS’s interpretation also creates serious tensions, if not
outright inconsistencies, within the statutory scheme. It conﬂicts with Congress’s aﬃrmative authorization for designated immigrants to receive the beneﬁts the Rule targets. See
8 U.S.C. §§ 1611, 1621 (allowing immigrants to receive emergency medical assistance, immunizations and contagious disease testing, and some public housing assistance); Farm Security and Rural Investment Act of 2002, Pub. L. No. 107–171,
§ 4401, 116 Stat. 134 (authorizing supplemental nutrition beneﬁts for certain categories of immigrants, and Medicaid and
children’s health insurance for noncitizen children and pregnant women). Cook County is largely correct when it accuses
the Rule of “set[ting] a trap for the unwary” by penalizing
people for accepting beneﬁts Congress made available to
them. Although the Rule does not punish immigrants for using the designated beneﬁts, in the sense of imposing a ﬁne, its
heavily negative consideration of such use is an even worse
penalty for someone seeking a lawful path to staying in the
United States. Furthermore, the preliminary injunction record
shows that many immigrants are not sophisticated enough to
know which beneﬁts they may safely accept and which not.
Congress drew the balance between acceptance of beneﬁts
and preference for self-suﬃciency in the statutes, and it is
DHS’s duty to respect that outer boundary. The Welfare Reform Act achieved its stated goal of reducing immigrant reliance on public assistance by barring receipt of any beneﬁts by
some classes of noncitizens and authorizing receipt by other
classes only after a ﬁve-year waiting period. The statute did
not create a regime that permitted self-suﬃciency to trump all

Case: 19-3169

30

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

other goals, nor did it modify the public-charge provision to
penalize receipt of non-cash as well as cash assistance. DHS is
correct that its Rule is not worded as an outright prohibition
against an immigrant’s receipt of beneﬁts to which Congress
has entitled him. The latter would exceed DHS’s authority.
But the record before us indicates that it may have the same
eﬀect.
Our concerns are heightened by the fact that DHS’s interpretation of its statutory authority has no natural limitation.
Although it chose a rule that quantiﬁed the beneﬁts used to
12 months’ worth over a 36-month period, nothing in its interpretation requires even that limit. There is nothing in the
text of the statute, as DHS sees it, that would prevent the
agency from imposing a zero-tolerance rule under which the
receipt of even a single beneﬁt on one occasion would result
in denial of entry or adjustment of status.
We see no warrant in the Act for this sweeping view. Even
assuming that the term “public charge” is ambiguous and
thus might encompass more than institutionalization or primary, long-term dependence on cash beneﬁts, it does violence
to the English language and the statutory context to say that
it covers a person who receives only de minimis beneﬁts for a
de minimis period of time. There is a ﬂoor inherent in the
words “public charge,” backed up by the weight of history.
The term requires a degree of dependence that goes beyond
temporary receipt of supplemental in-kind beneﬁts from any
type of public agency.
DHS also runs into trouble as a result of its decision to
stack beneﬁts and disregard monetary value. Under its Rule,
the receipt of multiple beneﬁts in one month, no matter how

Case: 19-3169

Document: 129

Filed: 06/10/2020

No. 19-3169

Pages: 82

31

slight, counts as multiple months of beneﬁts. DHS acknowledges that the Rule’s 12-months-in-36 tolerance would actually run out in four months if an immigrant received nonemergency Medicaid, any SNAP beneﬁt, and housing assistance, or even sooner if she additionally received any amount
of cash income assistance through a federal, state, local, or
tribal program. Paradoxically, the Rule provides no opportunity for an immigrant to repay the value of the beneﬁts received once she is back on her feet. This is another way in
which it unreasonably imposes substantially disproportionate consequences for immigrants, compared to the supposed
drain on the public ﬁsc they cause.
The ambiguity in the public-charge provision does not
provide DHS unfettered discretion to redeﬁne “public
charge.” We ﬁnd that the interpretation reﬂected in the Rule
falls outside the boundaries set by the statute.
3. Arbitrary and Capricious Review
Our conclusion that the Rule likely does not meet the
standards of Chevron step two is enough to require us to move
on to the remainder of the preliminary-injunction analysis.
But even if we are wrong about step two, one more inquiry
remains: whether the Rule is arbitrary and capricious, as the
APA uses those terms. See 5 U.S.C. § 706(2)(A). That requires
an examination of DHS’s policymaking process.
When conducting rulemaking, an agency must “examine
the relevant data and articulate a satisfactory explanation for
its action including a rational connection between the facts
found and the choice made.” Motor Vehicle Mfrs. Ass’n v. State
Farm, 463 U.S. at 43. It may not “rel[y] on factors which Congress has not intended it to consider, entirely fail[] to consider

Case: 19-3169

32

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

an important aspect of the problem, [or] oﬀer[] an explanation
for its decision that runs counter to the evidence before the
agency, or is so implausible that it could not be ascribed to a
diﬀerence in view or the product of agency expertise.” Id. Furthermore, when an agency changes course, as DHS did here
when it adopted a radically diﬀerent understanding of the
term “public charge” compared to the 1999 Field Guidance, it
“must show that there are good reasons for the new policy.”
FCC v. Fox Television Stations, Inc., 556 U.S. 502, 515 (2009). In
explaining a change in policy, “an agency must also be cognizant that longstanding policies may have engendered serious
reliance interests that must be taken into account.” Encino Motorcars, 136 S. Ct. at 2126. This is because a “settled course of
behavior embodies the agency’s informed judgment that, by
pursuing that course, it will carry out the policies committed
to it by Congress.” State Farm, 463 U.S. at 41–42. Thus, “a reasoned explanation is needed for disregarding facts and circumstances that underlay or were engendered by the prior
policy.” Fox Television Stations, 556 U.S. at 516.
The review called for by State Farm is narrow in scope and
does not permit us to substitute our own policy judgment for
that of the agency. We ask only whether the agency’s “decision was based on a consideration of the relevant factors” and
was not “a clear error of judgment.” 463 U.S. at 43.
In response to its notice of proposed rulemaking, DHS received a whopping 266,077 comments, the vast majority of
which opposed the proposed rule. In the preamble to the ﬁnal
rule, DHS summarized signiﬁcant issues raised by the comments and changes it made in the ﬁnal rule. We assess the validity of DHS’s decision-making process based on this record.

Case: 19-3169

No. 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

33

Cook County urges that the Rule is arbitrary and capricious in a number of ways: (1) DHS failed meaningfully to
evaluate and address signiﬁcant potential harms from the
Rule, including its substantial chilling eﬀect on immigrants
not covered by the Rule; (2) DHS failed to give a logical rationale for the duration-based standard; and (3) DHS added
factors to the totality-of-the-circumstances analysis that are
“unsupported, irrational and at odds with the Final Rule’s
purported purpose.” Numerous amici underscored these
points and explained how the Rule will lead to arbitrary results, cause both direct and indirect economic harms, burden
states and localities that have to manage fallout from the Rule,
and disproportionately harm the disabled and children.
We look ﬁrst at DHS’s dismissal of concerns about the
Rule’s chilling eﬀect on legal immigrants and family members
who fall outside its scope. DHS acknowledged a “plausible
connection” between the Rule and needless disenrollment by
exempt noncitizens (including refugees, asylees, and victims
of domestic violence) in covered public beneﬁts, and by covered immigrants in noncovered beneﬁt programs. 84 Fed.
Reg. at 41313. DHS also said that it “appreciates … the potential nexus between public beneﬁt enrollment reduction and
food insecurity, housing scarcity, public health and vaccinations … and increased costs to states and localities.” Id. Nonetheless, it brushed oﬀ these impacts as “diﬃcult to predict”
and refused to “alter this rule to account for such unwarranted choices.” Id. Even though these consequences are foreseeable, the Rule does not literally compel them, and so DHS
asserted that they could be addressed through additional
public guidance.

Case: 19-3169

34

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

DHS may think that these responses are unwarranted, but
it does not deny that they are taking place and will continue
to do so. Moreover, the record indicates that the target population is responding rationally. DHS’s system of counting and
stacking beneﬁts is hardly transparent, and so a rational person might err on the side of caution and refrain from seeking
medical care, or food, or housing, even from a city, state, or
tribe rather than the federal government. And the risk that the
Rule may become more stringent at any time and operate retroactively against the use of beneﬁts already used is a real
one. DHS trumpets its view that the Rule stops short of its
lawful authority and that it could promulgate a more restrictive rule if it so chooses. In response to comments on the proposed rule, DHS used discretionary language: “DHS believes
it is a reasonable approach to only designate Medicaid at this
time,” id. at 41381 (emphasis added); and “DHS will not consider [Healthy Start] beneﬁts at this time,” id. at 41390 (emphasis added). It warned that it may “updat[e] the list of beneﬁts
through future regulatory action.” Id. at 41387. Immigrants
thus reasonably anticipate that their receipt of beneﬁts that
are currently not covered could eventually hurt them if DHS
alters the Rule in the future.
It was not enough for DHS simply to nod at this argument;
it called for a serious explanation. The importance of the
chilling eﬀect is not the number of disenrollments in the abstract, but the collateral consequences of such disenrollments.
DHS failed adequately to grapple with the latter. For example,
commenters predicted that disenrollment and under-enrollment in Medicaid, including by immigrants not covered by
the Rule, would reduce access to vaccines and other medical
care, resulting in an increased risk of an outbreak of infectious
disease among the general public. To recognize the truth in

Case: 19-3169

No. 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

35

that prediction, one need only consider the current outbreak
of COVID-19—a pandemic that does not respect the diﬀerences between citizens and noncitizens.
There is also the added burden on states and local governments, which must disentangle their purely state-funded programs from covered federal programs. The federal government has no interest in the way that states and localities
choose to spend their money. There is no reason why immigrants should not continue to beneﬁt from the state programs
without being penalized at the federal level. The Rule will
force states to make their own public welfare programs more
robust to compensate for a reduction in the availability of federal programs. DHS touts the savings to the federal government from the Rule, primarily through a signiﬁcant reduction
in transfer payments to the states (including, it should be
noted, for persons who disenroll unnecessarily because of the
chilling eﬀect), but at the same time it expects the states to ﬁll
the gaps and continue to provide critical services such as preventive healthcare. See, e.g., id. at 41385 (“In addition, local
health centers and state health departments provide preventive services that include vaccines that may be oﬀered on a
sliding scale fee based on income. Therefore, DHS believes
that vaccines would still be available for children and adults
even if they disenroll from Medicaid.”). It assumes this while
simultaneously denying that the Rule will have “substantial
direct eﬀects on the States, on the relationship between the
Federal Government and the States, or on the distribution of
power and responsibilities among the various levels of government.” Id. at 41481.
Cook County also asserts that DHS failed to give a logical
rationale for its chosen durational threshold. In its notice of

Case: 19-3169

36

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

proposed rulemaking, DHS proposed an array of thresholds
that would apply before beneﬁts can be counted against a
noncitizen in the public charge analysis. Those lines came under sharp criticism for being arbitrary, confusing, and an unacceptable proxy for undue reliance on public support. Id. at
41357–58.
In the ﬁnal Rule, DHS opted for the single threshold for
both monetizable and nonmonetizable beneﬁts of 12 months
(stacked) over a 36-month period. It touted this approach as
“particularly responsive to public comments that communicated concerns about the complexity of the bifurcated standard and lack of certainty.” Id. at 41358. It also asserted that the
12/36 standard “is consistent with DHS’s interpretation of the
term ’public charge.’” Id. at 41359. DHS equates the term
“public charge” with a lack of “self-suﬃciency” and it regards
anyone who fails its test as not self-suﬃcient. Id. It defends its
stacking mandate on the theory that it “ensures that aliens
who receive more than one public beneﬁt (which may be more
indicative of a lack of self-suﬃciency, with respect to the fulﬁllment of multiple types of basic needs) reach the 12-month
limit faster.” Id. at 41361. DHS concluded that the bright-line
rule “provides meaningful guidance to aliens and adjudicators, … accommodates meaningful short-term and intermittent access to public beneﬁts, and … does not excuse continuous or consistent public beneﬁt receipt that denotes a lack of
self-suﬃciency.” Id.
This explains how DHS incorporated its understanding of
“self-suﬃciency” into the Rule. But we still have a textual
problem. The INA does not call for total self-suﬃciency at
every moment; it uses the words “public charge.” DHS sees
“lack of complete self-suﬃciency” and “public charge” as

Case: 19-3169

No. 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

37

synonyms: in its view, receipt of any public beneﬁt, particularly one related to core needs such as health care, housing,
and nutrition, shows that a person is not self-suﬃcient. See id.
at 41356. This is an absolutist sense of self-suﬃciency that no
person in a modern society could satisfy; everyone relies on
nonmonetary governmental programs, such as food safety,
police protection, and emergency services. DHS does not oﬀer
any justiﬁcation for its extreme view, which has no basis in
the text or history of the INA. As we explained earlier, since
the ﬁrst federal immigration law in 1882, Congress has assumed that immigrants (like others) might face economic insecurity at some point. Instead of penalizing immigrants by
denying them entry or the right to adjust status, Congress
built into the law accommodations for that reality. Also, as
numerous commenters on the Rule pointed out, the beneﬁts
it covers are largely supplemental and not intended to be, or
relied upon as, a primary resource for recipients. Many recipients could get by without them, though as a result they
would face greater health, nutrition, and housing insecurity,
which in turn would likely harm their work or educational
attainment (and hence their ability to be self-suﬃcient).
Finally, Cook County contends that the Rule adds irrational factors into the public-charge assessment, including
family size, mere application for beneﬁts, English-language
proﬁciency, lack of disability, and good credit history. With
respect to language, we note the obvious: someone whose
English is limited on the date of entry may be entirely competent ﬁve years later, when the person ﬁrst becomes eligible for
beneﬁts under the Welfare Reform Act and related laws. In
almost all cases, an immigration oﬃcial making a determination about whether someone is likely to become a public

Case: 19-3169

38

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

charge will be speculating about that person’s family size, linguistic abilities, credit score, and the like no fewer than ﬁve
years in the future.
Even if we grant that these new factors carry some minimal probative value, it is unclear to us, and DHS nowhere explains, how immigration oﬃcials are supposed to make these
predictions in a nonarbitrary way. Worse, for many people
the relevant time is not ﬁve years—it is eternity, because the
Rule calls for oﬃcials to guess whether an immigrant will become a public charge at any time. There is a great risk that ofﬁcials will make their determination based on stereotype or
unsupported assumptions, rather than on the type of objective facts called for by the Act (age, present health, family status, ﬁnancial situation, and education or skills).
DHS also never explains why it chose not to take into account the possibility that an immigrant might, at some point
in the future, be able to repay the value of public beneﬁts received. Someone who seeks to adjust status will be penalized
for having previously received public beneﬁts without being
given the opportunity to refund the government the cost of
those beneﬁts. This is new: the regulations governing deportation on public-charge grounds require a demand and a failure to pay. See 64 Fed. Reg. at 28691.
All of this convinces us that this Rule is likely to fail the
“arbitrary and capricious” standard. The Rule has numerous
unexplained serious ﬂaws: DHS did not adequately consider
the reliance interests of state and local governments; did not
acknowledge or address the signiﬁcant, predictable collateral
consequences of the Rule; incorporated into the term “public
charge” an understanding of self-suﬃciency that has no basis
in the statute it supposedly interprets; and failed to address

Case: 19-3169

Document: 129

Filed: 06/10/2020

No. 19-3169

Pages: 82

39

critical issues such as the relevance of the ﬁve-year waiting
period for immigrant eligibility for most federal beneﬁts.
B. Other Criteria for Preliminary Injunction
We have spent most of our time on likelihood of success
on the merits, because that is the critical factor here. We add
only a few words about the other requirements for preliminary relief. Cook County had to show that it is likely to suﬀer
irreparable harm in the absence of preliminary relief; that legal remedies are inadequate; and that the balance of equities
tips in their favor. The district court found that it did so.
As we noted earlier, Cook County has shown that the Rule
will cause immigrants, including those not covered by the
Rule, to disenroll from, or refrain from enrolling in, federal
Medicaid and state-level public health programs. This already
has led to reduction in rates of preventive medicine and
caused immigrants to rely on uncompensated emergency care
from Cook County’s hospital system; the record supports the
prediction that those harms will only get worse. The result for
the County will be a signiﬁcant increase in costs it must bear
and a higher county-wide risk of vaccine-preventable and
other communicable diseases for its population as a whole.
The record also supports the district court’s ﬁnding that Cook
County will have to divert resources away from existing programs to respond to the eﬀects of the Rule.
The district court was also on solid ground in ﬁnding that
Cook County lacks adequate legal remedies for the injuries
imposed by the Rule. The APA provides a limited waiver of
the United States’ sovereign immunity and supports a claim
for a challenge to agency action, but only to the extent that the
plaintiﬀs “seek relief other than money damages.” 5 U.S.C.

Case: 19-3169

40

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

§ 702. There is thus no post-hoc legal remedy available to
Cook County to redress the ﬁnancial harms it stands to suﬀer
as a result of the Rule. It is injunctive relief or nothing.
With respect to the balance of harms, we must take account of the Supreme Court’s decision to stay the preliminary
injunction entered by the district court. The Court’s stay decision was not a merits ruling. To succeed in obtaining a stay
from the Supreme Court, an applicant “must demonstrate (1)
a reasonable probability that four Justices will consider the issue suﬃciently meritorious to grant certiorari or to note probable jurisdiction; (2) a fair prospect that a majority of the Court
will conclude that the decision below was erroneous; and (3)
a likelihood that irreparable harm will result from the denial
of a stay.” Conkright v. Frommert, 556 U.S. 1401, 1402 (2009)
(Ginsburg, J., in chambers). Stays, the Court tells us, are
“granted only in extraordinary cases.” Id. We do not know
why the Court granted this stay, because it did so by summary order, but we assume that it abided by the normal
standards. Consequently, the stay provides an indication that
the Court thinks that there is at least a fair prospect that DHS
should prevail and faces a greater threat of irreparable harm
than the plaintiﬀs.
The stay thus preserves the status quo while this case and
others percolate up from courts around the country. There
would be no point in the merits stage if an issuance of a stay
must be understood as a sub silentio disposition of the underlying dispute. With the beneﬁt of more time for consideration
and the complete preliminary injunction record, we believe
that it is our duty to evaluate each of the preliminary injunction factors, including the balance of equities. In so doing, we
apply a “sliding scale” approach in which “the more likely the

Case: 19-3169

Document: 129

Filed: 06/10/2020

No. 19-3169

Pages: 82

41

plaintiﬀ is to win, the less heavily need the balance of harms
weigh in his favor; the less likely he is to win, the more need
it weigh in his favor.” Valencia v. City of Springﬁeld, 883 F.3d at
966. We also consider eﬀects that granting or denying the preliminary injunction would have on the public. Id.
In our view, Cook County has shown that it is likely to
suﬀer (and has already begun to suﬀer) irreparable harm
caused by the Rule. Given the dramatic shift in policy the Rule
reﬂects and the potentially dire public health consequences of
the Rule, we agree with the district court that the public interest is better served for the time being by preliminarily enjoining the Rule.
IV.

Conclusion

While we disagree with the district court that this case can
be resolved at step one of the Chevron analysis, we agree that
at least Cook County has standing to sue. We make no ruling
on ICIRR’s standing, and so we have based the remainder of
our opinion on Cook County’s situation only. The district
court did not abuse its discretion or err as a matter of law
when it concluded that Cook County is likely to succeed on
the merits of its APA claims against DHS. Nor did the district
court’s handling of the balance of harms and lack of alternative legal remedies represent an abuse of discretion. We therefore AFFIRM the district court’s order entering a preliminary
injunction.

Case: 19-3169

Document: 129

Filed: 06/10/2020

42

Pages: 82

No. 19-3169
BARRETT, Circuit Judge, dissenting.

The plaintiffs have worked hard to show that the statutory
term “public charge” is a very narrow one, excluding only
those green card applicants likely to be primarily and permanently dependent on public assistance. That argument is belied by the term’s historical meaning—but even more importantly, it is belied by the text of the current statute, which
was amended in 1996 to increase the bite of the public charge
determination. When the use of “public charge” in the Immigration and Nationality Act (INA) is viewed in the context of
these amendments, it becomes very difficult to maintain that
the definition adopted by the Department of Homeland Security (DHS) is unreasonable. Recognizing this, the plaintiffs try
to cast the 1996 amendments as irrelevant to the meaning of
“public charge.” That argument, however, flies in the face of
the statute—which means that despite their best efforts, the
plaintiffs’ interpretive challenge is an uphill battle that they
are unlikely to win.
I therefore disagree with the majority’s conclusion that the
plaintiffs’ challenge to DHS’s definition of “public charge” is
likely to succeed at Chevron step two. I express no view, however, on the majority’s analysis of the plaintiffs’ other challenges to the rule under the Administrative Procedure Act.
The district court did not reach them, and the plaintiffs barely
briefed them. The preliminary injunction was based solely on
the district court’s interpretation of the term “public charge.”
Because its analysis was flawed, I would vacate the injunction
and remand the case to the district court, where the plaintiffs
would be free to develop their other arguments.

Case: 19-3169

Document: 129

Filed: 06/10/2020

No 19-3169

Pages: 82

43
I.

There is a lot of confusion surrounding the public charge
rule, so I’ll start by addressing who it affects and how it
works. The plaintiffs emphasize that the rule will prompt
many noncitizens to drop or forgo public assistance, lest their
use of benefits jeopardize their immigration status. That’s
happening already, and it’s why Cook County has standing:
noncitizens who give up government-funded healthcare are
likely to rely on the county-funded emergency room. But it’s
important to recognize that immigrants are dropping or forgoing aid out of misunderstanding or fear because, with very
rare exceptions, those entitled to receive public benefits will
never be subject to the public charge rule. Contrary to popular
perception, the force of the rule does not fall on immigrants
who have received benefits in the past. Rather, it falls on
nonimmigrant visa holders who, if granted a green card,
would become eligible for benefits in the future.
To see why, one must be clear-eyed about the fact that federal law is not particularly generous about extending public
assistance to noncitizens. That is not a function of the public
charge rule; it is a function of the Personal Responsibility and
Work Opportunity Reconciliation Act of 1996, Pub. L. No.
104-193, 110 Stat. 2105 (1996), commonly referred to as the
“Welfare Reform Act.” Under the Act, undocumented noncitizens are ineligible for benefits. So are nonimmigrant visa
holders, a category that encompasses noncitizens granted
permission to be in the United States for a defined period—
think of tourists, students, and temporary workers. See 8
U.S.C. §§ 1611(a), 1621(a), 1641(b) (excluding undocumented
noncitizens and nonimmigrant visa holders from the list of

Case: 19-3169

44

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

noncitizens “qualified” for government benefits). 1 Because of
these restrictions, many noncitizens are altogether ineligible
for the benefits relevant to a public charge determination.
Only two major groups are statutorily eligible to receive
the benefits that the public charge rule addresses, and the rule
has little to no effect on either. The first group is certain especially vulnerable populations—refugees and asylees, among
others. Congress has entitled these vulnerable noncitizens to
public assistance, 8 U.S.C. § 1641(b), and exempted them from
the public charge exclusion, id. §§ 1157(c)(3), 1159(c). That
means that their need for aid is not considered when they are
admitted to the United States, nor is their actual receipt of aid
considered in any later adjustment-of-status proceeding. The

1

There are some narrow exceptions, but they are irrelevant to the
“public charge” determination. All noncitizens, including the undocumented, are eligible to receive short-term, in-kind emergency disaster relief; certain forms of emergency medical assistance; public-health assistance for immunization, as well as treatment for the symptoms of communicable disease; other in-kind services such as soup kitchens and crisis
counseling; and housing benefits to the extent that the noncitizen was receiving public housing prior to 1996. 8 U.S.C. §§ 1611(b), 1621(b). Other
than the housing benefits, none of this aid counts under the rule’s definition of a “public benefit,” so none has any effect on any future adjustmentof-status proceeding. See 8 C.F.R. § 212.21; see also Inadmissibility on Public Charge Grounds, 84 Fed. Reg. 41,292, 41,313 (Aug. 14, 2019) (noting that
the rule’s “definition does not include benefits related exclusively to emergency response, immunization, education, or social services”); id. at 41,482
(explaining that the rule’s definition “does not include emergency aid,
emergency medical assistance, or disaster relief”). And while housing
benefits are covered by the public charge rule, 8 C.F.R. § 212.21, they are
largely irrelevant because the number of noncitizens still within the
grandfathering provision has presumably dwindled dramatically in the
quarter century since the Welfare Reform Act was passed.

Case: 19-3169

No 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

45

public charge rule is entirely irrelevant to the most vulnerable.
The second group eligible for benefits is lawful permanent
residents, often referred to as green card holders, and the rule
is almost entirely irrelevant to them too. Here’s why: The public charge exclusion applies to noncitizens at the admission
stage or an adjustment-of-status proceeding. Id.
§ 1182(a)(4)(A). (“Admission” is a term of art referring to “the
lawful entry of the alien into the United States after inspection
and authorization by an immigration officer.” Id.
§ 1101(a)(13)(A).) Lawful permanent residents have already
been admitted to the United States, and they already possess
the most protected immigrant status. They are therefore not
subject to the public charge exclusion unless they jeopardize
their lawful permanent residency. See id. § 1101(a)(13)(C) (describing the narrow circumstances in which lawful permanent residents are considered to be “seeking an admission”).
Most relevant here, a green card holder who leaves the country for more than 180 days puts her residency in question and
might need to “seek[] an admission” upon returning to the
United States. Id. § 1011(a)(13)(C)(iii). If she used benefits
prior to her departure, then her use of those benefits might
count against her at reentry. But this consequence is easy to
avoid by keeping trips abroad shorter than six months. It’s
also worth noting that a lawful permanent resident is eligible
to receive very few benefits until she has been here for five
years—which is the point at which she is eligible for citizenship. Id. § 1427(a). Naturalization eliminates even the small
risk that a lawful permanent resident would ever face the admission process again. Notably, the rule doesn’t apply at the
naturalization stage. See id. § 1429.

Case: 19-3169

46

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

The upshot is that the public charge rule will rarely apply
to a noncitizen who has received benefits in the past. 2 Indeed,
in the Second Circuit case challenging this same rule, both the
government and the plaintiffs conceded as much. When
pressed to identify who could be penalized under the public
charge rule for using benefits, neither side identified any example other than the 180-day departure of a lawful permanent resident. See Oral Argument at 36:06–38:47, 1:03:45–
1:04:40, New York v. U.S. Dep’t of Homeland Sec., Nos. 19-3591,
19-3595 (2d Cir. Mar. 2, 2020), https://www.cspan.org/video/?469804-1/oral-argument-trump-administration-public-charge.
Notwithstanding all of this, many lawful permanent residents, refugees, asylees, and even naturalized citizens have
disenrolled from government-benefit programs since the
public charge rule was announced. Given the complexity of
immigration law, it is unsurprising that many are confused or
fearful about how the rule might apply to them. Still, the pattern of disenrollment does not reflect the rule’s actual scope.
Focusing on the source of Cook County’s injury can therefore
be misleading.
That does not mean, however, that the rule has no effect.
Even though it is almost entirely inapplicable to those currently eligible for benefits, it significantly affects a different
group: nonimmigrant visa holders applying for green cards.

2

Hence the majority is wrong to treat the rule as unreasonable because it “set[s] a trap for the unwary.” Maj. Op. at 29. Because those eligible for the designated benefits are not subject to the rule—except in very
rare circumstances—it does not “penaliz[e] people for accepting benefits
Congress made available to them.” Id.

Case: 19-3169

No 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

47

Recall that nonimmigrant visa holders, unlike lawful permanent residents and those holding humanitarian-based visas,
are ineligible for the relevant benefits in their current immigration status. If granted lawful permanent residency,
though, they would become eligible for these benefits in the
future. The public charge rule is concerned with what use a
green card applicant would make of this future eligibility. As
a leading treatise puts it, the public charge determination is a
“prophetic” one. 5 CHARLES GORDON ET AL., IMMIGRATION
LAW AND PROCEDURE § 63.05[3] (2019). If DHS predicts that an
applicant is likely to rely too heavily on government assistance, it will deny her lawful permanent residency on the
ground that she is likely to become a public charge. This case
is about whether DHS has defined “public charge” too expansively and is therefore turning too many noncitizens away.
There are four major routes to obtaining the status of lawful permanent resident: humanitarian protection (refugees
and asylees), the sponsorship of a family member, employment, and winning what is known as the green card lottery. 3
See U.S. DEP’T OF HOMELAND SEC., OFFICE OF IMMIGRATION
STATISTICS, ANNUAL FLOW REPORT: LAWFUL PERMANENT
RESIDENTS
3–4
(2018),
https://www.dhs.gov/sites/default/files/publications/Lawful_Permanent_Residents_2017.pdf. Those seeking humanitarian protection are
not subject to the statutory provision rendering inadmissible
any “alien who … is likely at any time to become a public
charge,” 8 U.S.C. § 1182(a)(4)(A), and only a subset of those in
the remaining three categories will be subject to the DHS rule.
3

The diversity visa, commonly referred to as the green card lottery, is
awarded to foreign nationals from underrepresented countries in an effort
to increase diversity within the United States. See 8 U.S.C. § 1153(c).

Case: 19-3169

48

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

That is because DHS only handles the applications of noncitizens who apply from within the United States; the State Department processes the applications of noncitizens who apply
from abroad. 4 This division of authority means that, as a practical matter, the regulation applies to those present in the
United States on nonimmigrant visas who seek to adjust their
status to that of lawful permanent residents. And because the
green card lottery is processed almost entirely by the State Department, the DHS rule applies primarily to employmentbased applicants and family-based applicants (by far the
larger of these two groups). 5
As nonimmigrant visa holders, these applicants have not
previously been eligible for the benefits designated by DHS’s
rule—so the determination is not a backward-looking inquiry
into whether they have used such benefits in the past. Instead,
it is a forward-looking inquiry into whether they are likely to
use such benefits in the future. The rule guides this forwardlooking inquiry. Under the 1999 Guidance, an applicant was

4

The State Department has adopted the interpretation set forth in this
rule, but its implementation of the public charge exclusion is not at issue
in this case. See Visas: Ineligibility on Public Charge Grounds, 84 Fed. Reg.
54,996, 55,000 (Oct. 11, 2019).
5 In 2019, approximately 572,000 noncitizens adjusted their status to
that of lawful permanent residents. The largest group—roughly 330,000—
were family based, and the majority of those (over 217,000) were spouses
of U.S. citizens. About 111,000 were employment based, and only about
1,000 were lottery winners. The vast majority of the remaining 130,000
noncitizens—refugees and asylees, among others—were exempt from the
public charge rule. See Legal Immigration and Adjustment of Status Report
Data Tables: FY 2019, U.S. DEP’T HOMELAND SECURITY tbl.1B (Jan. 15, 2020),
https://www.dhs.gov/immigration-statistics/readingroom/special/LIASR#.

Case: 19-3169

Document: 129

Filed: 06/10/2020

No 19-3169

Pages: 82

49

excluded only if she was likely to be institutionalized or primarily dependent on government cash assistance for the long
term. Field Guidance on Deportability and Inadmissibility on
Public Charge Grounds, 64 Fed. Reg. 28,689, 28,689 (Mar. 26,
1999). Now, DHS considers the applicant’s potential usage
not only of cash assistance for income maintenance (including
Temporary Assistance for Needy Families (TANF), Supplemental Security Income (SSI), and state cash assistance), but
also of the Supplemental Nutrition Assistance Program
(SNAP), the Section 8 Housing Choice Voucher Program, Section 8 project-based rental assistance, housing benefits under
Section 9, and Medicaid (with some explicit exceptions). 8
C.F.R. § 212.21. And if DHS concludes that an applicant is
likely to use more than 12 months’ worth of these benefits—
with the use of 2 benefits in 1 month counting as 2 months—
it will deem her “likely to become a public charge” and deny
the green card. Id.
This heightened standard for admissibility is a significant
change—but it’s not the one that the plaintiffs’ emphasis on
disenrollment suggests. Evaluating the rule requires a clear
view of what it actually does; so, with the rule’s scope in
mind, I turn to the merits.
II.
While I agree with the majority’s bottom-line conclusion
at Chevron step one that “public charge” does not refer exclusively to one who is primarily and permanently dependent on
government assistance, I have a little to add to the history and
a lot to add to the statutory analysis. In my view, the majority
takes several wrong turns in analyzing the statute that skew
its thinking about Chevron step two. For purposes of this Part,
the most significant is that the majority accepts the plaintiffs’

Case: 19-3169

Document: 129

Filed: 06/10/2020

50

Pages: 82

No. 19-3169

view that the 1996 amendments to the public charge provision
were irrelevant. In what follows, I’ll lay out my own analysis
of the plaintiffs’ arguments, which will explain why I wind
up in a different place than the majority does on the reasonableness of DHS’s interpretation of the statute.
The plaintiffs advance three basic arguments as to why the
term “public charge” refers exclusively to one who is “primarily and permanently” dependent on government assistance. First, they say that the term had that meaning when it
first appeared in the 1882 federal statute. Second, they contend that even if the term was unsettled in the late nineteenth
century, subsequent judicial and administrative decisions
narrowed it, and later amendments to the statute ratified
these interpretations. Third, they argue that interpreting the
term “public charge” to encompass anything short of primary
and permanent dependence conflicts with Congress’s choice
to make supplemental government benefits available to immigrants. I’ll take these arguments in turn.
A.
The plaintiffs first argue that in the late nineteenth century, “public charge” meant primary and permanent dependence. See New Prime Inc. v. Oliveira, 139 S. Ct. 532, 539 (2019)
(“[I]t’s a ‘fundamental canon of statutory construction’ that
words generally should be ‘interpreted as taking their ordinary … meaning … at the time Congress enacted the statute.’” (citation omitted)). Evaluating this argument requires
careful consideration of a term with a long history. The term
“public charge” was borrowed from state “poor laws,” which
were in turn modeled on their English counterparts.
HIDETAKA HIROTA, EXPELLING THE POOR: ATLANTIC SEABOARD
STATES AND THE NINETEENTH-CENTURY ORIGINS OF AMERICAN

Case: 19-3169

No 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

51

IMMIGRATION POLICY 43–47 (2017). Early poor laws used
“public charge” synonymously with “public expense,” referring to any burden on the public fisc. Thus, when someone
sought assistance from a city or county overseer of the poor,
the cost of the relief provided was entered on the overseer’s
books as a public charge—that is, an expense properly chargeable to, and therefore funded by, the public. Over time, the
term “public charge” came to refer (at least in the context of
poor relief and immigration laws) not only to expenditures
made under the poor laws, but also to the people who depended on these expenditures. 6
State legislatures, worried about the burden that destitute
immigrants might place on programs to aid the needy, coopted the poor-law language into immigration legislation. In
1847, New York created an administrative apparatus for dealing with the influx of immigrants. The new “Commissioners
of Emigration” were tasked with examining incoming passengers to determine if “there shall be found among such passengers, any lunatic, idiot, deaf and dumb, blind or infirm persons … who, from attending circumstances, are likely to become permanently a public charge”—language, incidentally,
that suggests that one could be a public charge either temporarily or permanently. Act of May 5, 1847, ch. 195, § 3, 1847
N.Y. Laws 182, 184. These individuals were permitted to land
in the state upon payment of a bond by the vessel’s master “to
indemnify … each and every city, town and county within
6

This is why nineteenth-century dictionary definitions of “charge”
are unhelpful. The words “public” and “charge” comprise a unit that must
be understood in the context of the laws that used the phrase. Cf. Yates v.
United States, 135 S. Ct. 1074, 1082 (2015) (“[A]lthough dictionary definitions of the words ‘tangible’ and ‘object’ bear consideration, they are not
dispositive of the meaning of ‘tangible object’ ….”).

Case: 19-3169

52

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

this state, from any cost or charge … for the maintenance or
support of the person … within five years.” Id. The bonds
paid for the landing of these immigrants were then used to
pay for the state immigration infrastructure, including the
provision of some temporary aid to new arrivals. Two years
later, the state expanded the category of people for whom a
bond was required. Still excluded were those “likely to become permanently a public charge” but also those “who have
been paupers in any other country, or who from sickness or
disease, existing at the time of departing from the foreign
port, are or are likely to soon become a public charge.” Act of
Apr. 11, 1849, ch. 350, § 3, 1849 N.Y. Laws 504, 506. By 1851,
the New York statute contained the language which would be
included in both the 1882 and 1891 federal statutes. Gone was
the reference to those “likely to become permanently a public
charge,” replaced by phrases referring to someone “unable to
take care of himself or herself without becoming a public
charge” and someone “likely to become a public charge.” Act
of July 11, 1851, ch. 523, § 4, 1851 N.Y. Laws 969, 971. In the
event that a bond was unpaid, New York—and Massachusetts, which enacted a substantially similar law—ordered the
exclusion of those immigrants deemed “likely to soon become
a public charge.” HIROTA, supra, at 71–72.
The bond system was held unconstitutional by the U.S. Supreme Court on the ground that that the power to tax incoming foreign passengers “has been confided to Congress by the
Constitution.” Henderson v. Mayor of New York, 92 U.S. 259, 274
(1876). The decision threw the state systems into uncertainty
and created demand for federal legislation, largely to reenact
the defunct state policies and to replace the lost funding. Since
the states could no longer fund their immigration systems using state bonds, the 1882 federal statute levied “a duty of fifty

Case: 19-3169

No 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

53

cents for each and every passenger not a citizen of the United
States” arriving by sea; this was to “constitute a fund … to
defray the expense of regulating immigration … and for the
care of immigrants arriving in the United States, for the relief
of such as are in distress.” Act of Aug. 3, 1882, ch. 376, § 1, 22
Stat. 214, 214. The first federal statute therefore filled the space
left by the now-ineffective state laws: it used funds raised
from the immigrants or their carriers to provide some care for
the newly arrived, while describing criteria for excluding
those likely to financially burden state and local governments.
Because the term “public charge” had been pulled directly
from the state statutes, it presumably had the same meaning
that it had come to have under the state laws: someone who
depended, or would likely depend, on poor-relief programs.
But when the term “public charge” was imported into federal law, it was unclear how much state aid qualified someone
as a “public charge.” Neither state poor laws nor state immigration laws defined “public charge,” and no clear definition
emerged in judicial opinions or secondary sources, either.
Early efforts to enforce the 1882 statute bear out the uncertainty surrounding the term. In 1884, an association of ten
steamship companies asked the Secretary of the Treasury, on
whom responsibility for immigration fell at the time, to “specifically define … the circumstances which shall constitute ‘a
person unable to take care of himself or herself without becoming a public charge,’ and who shall not be permitted to
land under … the [1882] act.” SYNOPSIS OF THE DECISIONS OF
THE TREASURY DEPARTMENT ON THE CONSTRUCTION OF THE
TARIFF, NAVIGATION, AND OTHER LAWS FOR THE YEAR ENDED
DECEMBER 31, 1884, at 365 (1885). (The steamship companies
had a stake because they were on the hook for the noncitizen’s
return ticket if she was rejected as a likely public charge.) The

Case: 19-3169

54

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

Secretary demurred, answering that “the determination of the
liability of arriving immigrants to become public charges is
vested … in the commissioners of immigration appointed by
the State in which such immigrants arrive,” and thus “this Department must decline to interfere in the matter.” Id. One year
later, Treasury continued to recognize that “difficulties have
arisen in regard to the construction of so much of section 2 of
[the 1882 act] … as refers to the landing of convicts, lunatics,
idiots, or persons unable to take care of themselves without
becoming a public charge,” though it still refused to offer clarification. SYNOPSIS OF THE DECISIONS OF THE TREASURY
DEPARTMENT ON THE CONSTRUCTION OF THE TARIFF,
NAVIGATION, AND OTHER LAWS FOR THE YEAR ENDING
DECEMBER 31, 1885, at 359 (1886).
The term was not necessarily clarified in 1891, when immigration-enforcement authority was placed directly in the
hands of federal officials. (From 1882 until Congress enacted
the Immigration Act of 1891, states had continued to administer immigration enforcement, albeit under authority conferred by the federal statute.) With the change in administration, the steamship companies continued to express confusion, informing Treasury officials that the phrase “was somewhat indefinite and [that they] desired to have a more specific
explanation of its meaning.” 1 LETTER FROM THE SECRETARY OF
THE
TREASURY, TRANSMITTING A REPORT OF THE
COMMISSIONERS OF IMMIGRATION UPON THE CAUSES WHICH
INCITE IMMIGRATION TO THE UNITED STATES 109 (1892). At this
point, Treasury offered an answer, but it was hardly clarifying. Pressed by Congress to describe the standards used by
officials to determine whether an immigrant was “likely to become a public charge,” the Assistant Secretary in 1892 responded that “written instructions and an inflexible standard

Case: 19-3169

No 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

55

would be inapplicable and impracticable … and the sound
discretion of the inspection officer, subject to appeal as prescribed by law, must be the chief reliance.” H.R. REP. NO. 522090, at 4 (1892).
Rather than conveying something narrow and definite, the
term “public charge” seemed to refer in an imprecise way to
someone who lacked self-sufficiency and therefore burdened
taxpayers. Explanations of the term offered in a congressional
hearing by John Weber, the first commissioner of immigration
at Ellis Island, illustrate the point. He explained that “[t]he
appearance of the man, his vocation, his willingness to work,
his apparent industry, and the demand for the kind of work
that he is ready to give, is what governs” whether an individual was likely to become a public charge. Id. at 359. When
asked whether an immigrant would be considered likely to
become a public charge if “it is necessary that a private charity
shall furnish food and lodging … for a period long or short
after landing,” Weber responded that such a person would
likely be considered a public charge, but that it would not violate the statute to allow him to land so long as it was obvious
that he would be “supported on private charity only up to the
time when [he got] employment, which may only be until the
next day.” Id. at 425.
The repeated requests for clarification from steamship operators and Congress, coupled with Treasury’s reluctance to
provide a concrete answer, indicate that the term did not have
a definite and fixed meaning. That is unsurprising in the context of the time: it would have been difficult to have a onesize-fits-all definition of how much aid was too much, because there was not a one-size-fits-all system of welfare. Poor
relief was largely handled by towns and counties, which

Case: 19-3169

Document: 129

Filed: 06/10/2020

56

Pages: 82

No. 19-3169

made their own choices about how to deliver aid. Most localities deployed “outdoor relief”—in-kind and cash support
without institutionalization. See MICHAEL B. KATZ, IN THE
SHADOW OF THE POORHOUSE: A SOCIAL HISTORY OF WELFARE IN
AMERICA 37 (1986) (“[P]oorhouses did not end public outdoor
relief. With a few exceptions, most towns, cities, and counties
helped more people outside of poorhouses than within
them.”). Other areas were more reliant on “indoor” relief in
the form of poorhouses. Id. at 16–18. Some used a mixed system, adjusting the provision of indoor and outdoor relief as
poorhouse populations ebbed and flowed. Id. at 39. And
while the plaintiffs treat residence in a poorhouse as a proxy
for primary and permanent dependence, that’s not how poorhouses worked—they housed a mix of the permanently and
temporarily dependent, serving as “both a short-term refuge
for people in trouble and a home for the helpless and elderly.”
Id. at 90.
The bottom line is that in the closing decades of the nineteenth century, several different forms of public relief existed
contiguously. And when nineteenth-century immigration officials determined whether someone was “likely to become a
public charge,” dependence on a particular kind or amount of
relief does not appear to have been dispositive. Rather than
serving as shorthand for a certain type or duration of aid, the
term “public charge” referred to a lack of self-sufficiency that
officials had broad discretion to estimate. Neither state legislatures nor Congress pinned down the term any more than
that.
B.
The plaintiffs have a backup argument: even if the term
was unsettled in the late nineteenth century, they claim that it

Case: 19-3169

No 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

57

became settled in the twentieth. According to the plaintiffs,
courts and administrative agencies repeatedly held that “public charge” meant one who is “primarily and permanently dependent” on the government, and Congress ratified this settled meaning in its many reenactments of the public charge
provision. See WILLIAM N. ESKRIDGE JR., INTERPRETING LAW: A
PRIMER ON HOW TO READ STATUTES AND THE CONSTITUTION
app. at 421 (2016) (“When Congress reenacts a statute, it incorporates settled interpretations of the reenacted statute.”).
Thus, the plaintiffs say, whatever uncertainty may have surrounded the term in 1882, there was no uncertainty when
Congress reenacted the provision. And because Congress
reenacted the provision many times—in 1891, 1907, 1917,
1952, 1990, and 1996—the plaintiffs canvass a century’s worth
of judicial and administrative precedent in an effort to show
that a consensus existed before at least one of these reenactments.
The bar for establishing a settled interpretation is high: at
the time of reenactment, the judicial consensus must have
been “so broad and unquestioned that we must presume Congress knew of and endorsed it.” Jama v. Immigration & Customs
Enf’t, 543 U.S. 335, 349 (2005). The plaintiffs rely heavily on
Gegiow v. Uhl, 239 U.S. 3 (1915), to establish this consensus,
but I share the majority’s view that Gegiow doesn’t do the
work that the plaintiffs want it to. In that case, the Court did
not define “public charge” other than to say that it cannot be
defined with reference to labor conditions in the city in which
an immigrant intends to settle. The Court concluded that immigrant arrivals “are to be excluded on the ground of permanent personal objections accompanying them irrespective of
local conditions unless the one phrase before us [public
charge] is directed to different considerations than any other

Case: 19-3169

58

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

of those with which it is associated.” Id. at 10. In other words,
classifying someone as a likely “public charge” does not depend on whether he is bound for Portland or St. Paul. The
Court did not define the degree of reliance that renders someone a “public charge,” because that was not the question before it. Thus, Gegiow neither binds us nor offers a definition
that Congress could have ratified. 7
Without Gegiow, the plaintiffs face an uphill battle because
satisfying the requirements of the reenactment canon typically requires at least one Supreme Court decision. See, e.g.,
Forest Grove Sch. Dist. v. T.A., 557 U.S. 230, 244 n.11 (2009);
Cannon v. Univ. of Chi., 441 U.S. 677, 699 (1979). And for the
reasons that the majority gives, this is not the rare case in
which lower court and administrative decisions are enough
to demonstrate a consensus. See Maj. Op. at 21–22; see also William N. Eskridge, Jr., Interpreting Legislative Inaction, 87 MICH.
L. REV. 67, 83 (1988) (“[T]he Court often will not incorporate
lower court decisions into a statute through the reenactment
rule.”); cf. Tex. Dep’t of Hous. & Cmty. Affairs v. Inclusive Cmtys.

7 It is worth noting that even after Gegiow, state and local governments

took varied positions on what it meant for an immigrant to be a public
charge. For instance, in the 1920s, Los Angeles worked closely with charitable institutions to report as public charges immigrants who were receiving outdoor relief. Cybelle Fox, The Boundaries of Social Citizenship:
Race, Immigration and the American Welfare State, 1900–1950, at 266–67
(May 7, 2007) (unpublished Ph.D. dissertation, Harvard University). But
other jurisdictions rarely reported immigrants who were receiving only
outdoor relief—for example, as early as the 1920s, Cook County developed its own local policy to not “deport when the necessity for public care
[was] only temporary.” Id. at 278.

Case: 19-3169

No 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

59

Project, Inc., 135 S. Ct. 2507, 2520 (2015) (applying the reenactment canon in light of “the unanimous holdings of the Courts
of Appeals”) (emphasis added).
In any event, the reenactment canon requires more than a
judicial consensus—it applies only if Congress reenacted the
provision without making material changes. Jama, 543 U.S. at
349; see also Holder v. Martinez Gutierrez, 566 U.S. 583, 593
(2012) (“[T]he doctrine of congressional ratification applies
only when Congress reenacts a statute without relevant
change.”). Whatever one thinks of earlier changes to the public charge provision, there can be no doubt that the 1996
amendments were material.
The INA is notoriously complex, and these amendments
are no exception. Making matters worse, the amendments
came from two separate acts, themselves incredibly complex,
that were passed a month apart: the Welfare Reform Act, Pub.
L. No. 104-193, 110 Stat. 2105 (1996), and the Illegal Immigration Reform and Immigrant Responsibility Act, Pub. L. No.
104-208, 110 Stat. 3009-546 (1996) (IIRIRA). But because the
plaintiffs challenge the materiality of these amendments to
the meaning of the term “public charge,” it is necessary to step
through them at a level of detail that is, unfortunately, excruciating.
Congress enacted IIRIRA, which made sweeping changes
to the INA, in September of 1996. Among its changes were
several material amendments to the public charge provision.
For the first time in the provision’s 114-year history, Congress
required the Executive to consider an itemized list of factors
in making the public charge determination, thereby ensuring
that the inquiry was searching rather than superficial. See 8
U.S.C. § 1182(a)(4)(B)(i) (providing that “the consular officer

Case: 19-3169

60

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

or the Attorney General shall at a minimum consider” the
noncitizen’s age; health; family status; assets, resources, and
financial status; and education and skills). Even more significantly, it added a subsection to the public charge provision
rendering most family-sponsored applicants automatically
inadmissible on public charge grounds unless they obtained
an enforceable affidavit of support from a sponsor (usually
the family member petitioning for their admission). Id.
§ 1182(a)(4)(C) (rendering a family-sponsored noncitizen “inadmissible under this paragraph” unless the sponsor executes
an “affidavit of support described in [8 U.S.C. § 1183a] with
respect to such alien”).8 The affidavit provision had been inserted into the INA weeks earlier by the Welfare Reform Act.
See Welfare Reform Act § 423. In addition to making the affidavit of support mandatory under the public charge provision, IIRIRA significantly expanded 8 U.S.C. § 1183a by
spelling out what the affidavit of support requires.
The affidavit provision is meant to establish that the applicant “is not excludable as a public charge.” 8 U.S.C.
§ 1183a(a)(1). To that end, it empowers the federal government, as well as state and local governments, to demand reimbursement from the sponsor for any means-tested public
benefit
received
by
the
sponsored
noncitizen. 9
Id. § 1183a(b)(1)(A). A “means-tested public benefit” is one
8

IIRIRA originally provided that a family-based applicant was “excludable” without the affidavit. IIRIRA § 531(a). A subsequent amendment to the INA changed the terminology from “excludable” to “inadmissible.”
9 It also requires the sponsor “to maintain the sponsored alien at an
annual income that is not less than 125 percent of the Federal poverty
line.” 8 U.S.C. § 1183a(a)(1)(A).

Case: 19-3169

No 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

61

available to those whose income falls below a certain level.
The provision explicitly excludes certain benefits, regardless
of whether they are means tested, from the sponsor’s reimbursement obligation; by implication, receipt of every other
means-tested benefit is included. See id. § 1183a note. 10 If the
sponsor doesn’t pay upon request, the government can sue
the sponsor. Id. § 1183a(b)(2). If the sponsor doesn’t keep “the
Attorney General and the State in which the sponsored alien
is currently a resident” apprised of any change in the sponsor’s address, she is subject to a civil penalty—and that penalty is higher if she fails to update her address “with
knowledge that the sponsored alien has received any meanstested public benefits” other than those described in three
cross-referenced provisions of the Welfare Reform Act. Id.
§ 1183a(d). 11 The affidavit is generally enforceable for ten
years or until the sponsored noncitizen is naturalized. Id.
§ 1183a(a)(2).12
10

I discuss these exemptions, which are narrow, in my analysis at
Chevron step two.
11 This list of exempted benefits in the change-of-address penalty section largely track those in the “benefits subject to reimbursement” section.
12 IIRIRA contained another provision relevant to the “public charge”
ground of inadmissibility: section 564 of the Act directed the Attorney
General to establish a pilot program “to require aliens to post a bond in
addition to the affidavit requirements under [8 U.S.C. § 1183a].” IIRIRA
§ 564(a)(1). The bond covered the cost of benefits described in the affidavit
provision—that is, any means-tested benefit other than those described in
three cross-referenced provisions of the Welfare Reform Act. Id. Congress
instructed the Attorney General to set the bond at “an amount that is not
less than the cost of providing [the relevant benefits] for the alien and the
alien’s dependents for 6 months.” Id. § 564(b)(2). If an admitted noncitizen
used a covered benefit, the government could bring suit either on the bond

Case: 19-3169

62

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

Notwithstanding IIRIRA’s obvious—and obviously significant—amendments to the public charge provision, the
plaintiffs insist, and the majority agrees, that its amendments
reveal nothing about the scope of the term “public charge.”
Yet as I will explain below, the 1996 amendments were not
only material, but they also increased the bite of the public
charge exclusion.
The plaintiffs characterize the affidavit provision as having nothing to do with admissibility; as they see it, the provision merely reinforces restrictions on government benefits for
lawful permanent residents. They offer two basic arguments
in support of that position: first, that the supporting-affidavit
requirement appears in a different provision than does the
public charge exclusion (8 U.S.C. § 1183a, as opposed to
§ 1182(a)(4)), and second, that the supporting-affidavit requirement doesn’t apply to everyone who is subject to the
public charge exclusion.
The first argument is totally unpersuasive. The public
charge provision explicitly cross-references the affidavit provision, thereby tying the two together, and it makes obtaining
an affidavit of support a condition of admissibility. Id.
§ 1182(a)(4)(C)(ii). What’s more, the affidavit provision expressly states that the point of the affidavit is “to establish that
an alien is not excludable as a public charge under section
1182(a)(4).” Id. § 1183a(a)(1). Because a family-sponsored applicant is inadmissible as a public charge without the affidavit, the coverage of the affidavit is very strong evidence of the
or against the sponsor pursuant to 8 U.S.C. § 1183a. IIRIRA § 564(a)(2).
Congress allowed this pilot program to sunset after three years. Id.
§ 564(e).

Case: 19-3169

No 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

63

nature of the burden with which the public charge exclusion
is concerned. 13
The plaintiffs’ second argument fails too. As an initial matter, the affidavit provision—which, it bears repeating, is tied
by cross-reference to the public charge exclusion—uses the
term “public charge,” and we “do[] not lightly assume that
Congress silently attaches different meanings to the same
term in the same or related statutes.” Azar v. Allina Health
Servs., 139 S. Ct. 1804, 1812 (2019); see also Desert Palace, Inc. v.
Costa, 539 U.S. 90, 101 (2003) (explaining that as a general rule,
“identical words used in different parts of the same act are
intended to have the same meaning” (citation omitted)). The
plaintiffs don’t specify what different meaning the term “public charge” might have in the affidavit provision; they just
vaguely assert that the provision is getting at something else.
They presumably don’t want to embrace the logical implication of their position: that the term “public charge” means
something more stringent for family-based immigrants, who
need to produce an affidavit, than it does for the others, who
don’t.
In any event, this argument assumes that if the affidavit
were tied to the standard of admissibility, Congress would
have required one from everyone subject to the exclusion. Its
choice to require an affidavit only from family-based immigrants, the logic goes, means that the affidavit provision can’t

13 The same is true of IIRIRA’s pilot bond program. The required bond

protected the government against the risk that the noncitizen would become a public charge, so the scope of its coverage is a window into the
meaning of the term at the time of the 1996 amendments.

Case: 19-3169

64

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

shed any light on the admissibility provision, which is more
generally applicable.
This argument is misguided. There is an obvious explanation for why Congress required supporting affidavits from
family-based immigrants and not from employment-based
immigrants or green card lottery winners: that is the only context in which it makes sense to demand this assurance. A connection to a citizen or lawful permanent resident is the basis
for a family-based green card. 8 U.S.C. §§ 1151(b)(2), 1153(a).
The same is not true for immigrants who obtain diversity or
employment-based green cards, neither of which is based on
a personal relationship—much less a relationship close
enough that someone would be willing to take on ten years’
worth of potentially significant liability. Moreover, in the context of an employment-based green card, a supporting affidavit would add little. The affidavit is a means of providing the
Executive with assurance that the green card applicant will
not become a public charge if admitted. The stringent criteria
for an employment-based green card provide similar assurance. Employment-based green cards are reserved largely for
those with “extraordinary ability in the sciences, arts, education, business, or athletics which has been demonstrated by
sustained national or international acclaim”; “outstanding
professors and researchers” who are “recognized internationally”; “multinational executives and managers”; those who
hold advanced degrees and have job offers; and entrepreneurs prepared to invest a minimum of $1,000,000 in a venture that will benefit the United States economy and employ
“not fewer than 10 United States citizens or [lawful permanent residents].” Id. § 1153(b)(1)–(5). Someone who meets
these criteria is unlikely to have trouble supporting herself in
the future. That said, if an employment-based applicant will

Case: 19-3169

No 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

65

be working for a relative, and therefore has a family connection, the statute still requires her to obtain a supporting affidavit—demonstrating that the affidavit is not uniquely applicable to those applying for family-based green cards. See id.
§ 1182(a)(4)(D).
Despite the plaintiffs’ effort to show otherwise, it doesn’t
make sense to treat the affidavit provision as an anomalous
carve-out rather than compelling evidence of the scope of the
public charge inquiry. In fact, trying to categorize the supporting affidavit as limited by virtue of its application to family-based immigrants is a sleight of hand, because, as the
plaintiffs surely know, the family-based category is not
simply one among several to which the public charge exclusion applies. As a practical matter, it is the category for which
the exclusion matters most. The number of lottery winners is
considerably smaller than the number of family-based immigrants, and employment-based immigrants—also a smaller
category than the family based—have other means of demonstrating self-sufficiency.
In short, the 1996 amendments to the public charge provision—most notably, the addition of factors to guide the public
charge determination and the insertion of the affidavit requirement—were material. What’s more, the affidavit provision reflects Congress’s view that the term “public charge”
encompasses supplemental as well as primary dependence on
public assistance. To establish that a family-based applicant is
not excludable as a public charge, a sponsor must promise to
pay for the noncitizen’s use of any means-tested benefit outside the itemized exclusions. Without such an affidavit, the
noncitizen is inadmissible. Congress’s attempt to aggressively

Case: 19-3169

Document: 129

Filed: 06/10/2020

66

Pages: 82

No. 19-3169

protect the public fisc through the supporting-affidavit requirement is at odds with the view that it used the term “public charge” to refer exclusively to primary and permanent dependence.
C.
Switching gears, the plaintiffs—with the support of the
House of Representatives, appearing as amicus curiae—advance a creative structural argument for why the term “public
charge” must be interpreted narrowly: they say that interpreting the term to include the receipt of supplemental benefits is
inconsistent with Congress’s choice in the Welfare Reform
Act to make such benefits available to lawful permanent residents. According to the plaintiffs, Congress would not have
authorized lawful permanent residents to receive supplemental benefits if it did not expect them to use those benefits.
And it is inconsistent with Congress’s generosity to deny
someone a green card because she is likely to take advantage
of benefits for which Congress has made her eligible. The statutory scheme therefore forecloses the possibility of interpreting “public charge” to mean anything other than primary and
permanent dependence.
There are several problems with this argument. To begin
with, its logic would read the public charge provision out of
the statute. The premise of the public charge inquiry has always been that immigrants in need of assistance would have
access to it after their arrival—initially through state poor
laws and later through modern state and federal welfare systems. Indeed, it is difficult to imagine how someone could become a public charge under any conception of the term if it
were impossible to receive public aid. For example, on the
plaintiffs’ logic, DHS could not exclude an applicant even if it

Case: 19-3169

No 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

67

predicted that the applicant would eventually become permanently reliant on government benefits, because the future use
of those benefits would, after all, be authorized. Barring the
Executive from considering a green card applicant’s potential
use of authorized benefits would render the statutory public
charge exclusion a dead letter.
Moreover, the plaintiffs’ position assumes that tension exists between the public charge exclusion and the availability
of benefits to lawful permanent residents—and that this tension can be resolved only by limiting the scope of the exclusion. In fact, the public charge exclusion and the availability
of benefits are easily reconcilable. Immigration law has long
distinguished between one who becomes a public charge because of a condition preexisting her arrival and one who becomes a public charge because of something that has happened since. See, e.g., id. § 1227(a)(5) (“Any alien who, within
five years after the date of entry, has become a public charge
from causes not affirmatively shown to have arisen since entry is deportable.”); Act of Mar. 3, 1891, ch. 551, § 11, 26 Stat.
1084, 1086 (”[A]ny alien who becomes a public charge within
one year after his arrival in the United States from causes existing prior to his landing therein shall be deemed to have
come in violation of law and shall be returned as aforesaid.”).
Providing benefits to immigrants who have been here for a
designated period of time—generally five years under current
law—takes care of immigrants in the latter situation. Life contains the unexpected: for instance, a pandemic may strike,
leaving illness, death, and job loss in its wake. A lawful permanent resident who falls on hard times can rely on public
assistance to get back on her feet. Congress’s willingness to
authorize funds to help immigrants who encounter unex-

Case: 19-3169

68

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

pected trouble is perfectly consistent with its reluctance to admit immigrants whose need for help is predictable upon arrival.
In any event, the plaintiffs’ argument is inconsistent not
only with the statutory exclusion, but also with the Welfare
Reform Act. As the plaintiffs tell it, Congress has generously
supported noncitizens, thereby implicitly instructing the Executive to ignore a green card applicant’s potential usage of
supplemental benefits in the admissibility determination. But
that is a totally implausible description of the Welfare Reform
Act. The stated purpose of the Act is to ensure that noncitizens
“within the Nation’s borders not depend on public resources
to meet their needs, but rather rely on their own capabilities
and the resources of their families, their sponsors, and private
organizations,” and that “the availability of public benefits
not constitute an incentive for immigration to the United
States.” 8 U.S.C. § 1601(2). To this end, the Act renders lawful
permanent residents ineligible for most benefits until they
have lived in the United States for at least five years. Id.
§ 1613(a). The Act’s dramatic rollback of benefits for noncitizens sparked vociferous criticism. See Isabel Sawhill et al.,
Problems and Issues for Reauthorization, in WELFARE REFORM
AND BEYOND: THE FUTURE OF THE SAFETY NET 20, 27 (Isabel
Sawhill et al. eds., 2002) (referring to the five-year aid eligibility restriction as one of the Act’s “most contentious features”).
It blinks reality to describe the Welfare Reform Act as a
“grant” of benefits, as the plaintiffs do, or to say that the Act

Case: 19-3169

Document: 129

Filed: 06/10/2020

No 19-3169

Pages: 82

69

took an immigrant’s potential use of supplemental benefits
off the table for purposes of the admissibility determination. 14
***
Given the length and complexity of my analysis of the
plaintiffs’ arguments at Chevron step one, a summary may be
helpful. In my view, the plaintiffs can’t show that the term
“public charge” refers narrowly to someone who is primarily
and permanently dependent on government assistance. The
term “public charge” was broad when it entered federal immigration law in 1882, and it has not been pinned down since.
IIRIRA, Congress’s latest word on the public charge provision, cuts in the opposite direction of the plaintiffs’ argument,
as does the Welfare Reform Act, which, contrary to the plaintiffs’ argument, hardly reflects a congressional desire that immigrants take advantage of available public assistance. In fact,
the amendments that IIRIRA and the Welfare Reform Act together made to the INA reflect more than Congress’s view
that the term “public charge” is capacious enough to include
supplemental dependence on public assistance. They reflect

14

As the plaintiffs point out, Congress softened some of these restrictions in subsequent legislation. Perhaps most notably, in 2002 Congress passed the Farm Security and Rural Investment Act, which made
adults eligible for SNAP after 5 years of residency (it had previously been
10) and children eligible for SNAP immediately after becoming lawful
permanent residents. Pub. L. No. 107-171, § 4401, 116 Stat. 134, 333 (2002)
(codified as amended at 8 U.S.C. § 1612(a)(2)). Yet these minor adjustments, even if slightly more generous than the original restrictions, did
not overhaul immigration policy—nor, as I have already explained, is it
unreasonable in any event for the Executive to consider whether a green
card applicant is likely to use benefits if she is permitted to stay. That’s the
point of the public charge determination.

Case: 19-3169

Document: 129

Filed: 06/10/2020

70

Pages: 82

No. 19-3169

its preference that the Executive consider even supplemental
dependence in enforcing the public charge exclusion.
III.
While the term “public charge” is indeterminate enough
to leave room for interpretation, DHS can prevail only if its
definition is reasonable. The majority holds that DHS is likely
to lose on the merits of that argument; I disagree. My dissent
from the majority on this score is inevitable, given how differently we analyze the statute at Chevron step one. The majority
seems to understand “public charge” to mean something only
slightly broader than “primarily and permanently dependent,” but I understand it to be a much more capacious term—
not only as a matter of history, but also by virtue of the 1996
amendments to the public charge provision. On my reading,
in contrast to the majority’s, the statute gives DHS relatively
wide discretion to specify the degree of benefit usage that renders someone a “public charge.” Thus, the majority and I approach Chevron step two from different starting points.
The plaintiffs challenge the reasonableness of the rule’s
definition in two respects. First, they object to the particular
benefits that DHS has chosen to designate in its definition of
“public charge.” According to the plaintiffs, DHS has unreasonably interpreted the statute insofar as the rule counts inkind aid. Second, they argue that DHS has set the relevant
benefit usage so low that the definition captures people who
cannot reasonably be characterized as “public charges.” I will
address these arguments in turn.
A.
The plaintiffs don’t contest DHS’s authority to account for
the receipt of state and federal cash assistance (like SSI and

Case: 19-3169

No 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

71

TANF) in the definition of “public charge.” But they insist
that in-kind benefits (like SNAP, public housing, and Medicaid) are off-limits. Their argument in support of that position
is difficult to grasp. In their brief, the plaintiffs vaguely assert
that in-kind benefits shouldn’t be counted because they are
categorically different from cash payments; they imply that
the term “public charge” does not encompass someone who
relies on in-kind public assistance. At oral argument, the
plaintiffs wisely abandoned that position. For one thing, they
could not articulate why it mattered whether the government
chose to give someone $500 for groceries or $500 worth of
food. For another, that argument is inconsistent with history:
everyone agrees that someone living permanently in a late
nineteenth-century poorhouse qualified as a public charge,
and shelter in a poorhouse is in-kind relief.
At least rhetorically, a great deal of the plaintiffs’ argument involves their repeated emphasis on the fact that the
1999 Guidance directed officers “not [to] place any weight on
the receipt of non-cash public benefits (other than institutionalization) or the receipt of cash benefits for purposes other
than for income maintenance.” 1999 Guidance, 64 Fed. Reg. at
28,689. The implication is that the 1999 Guidance reflects the
only reasonable interpretation of the statute.
Of course, the fact that a prior administration interpreted
a statute differently does not establish that the new interpretation is unreasonable—the premise of Chevron step two is
that more than one reasonable interpretation of the statute exists. See Chevron U.S.A. Inc. v. Nat. Res. Def. Council, Inc., 467
U.S. 837, 863–64 (1984) (“An initial agency interpretation is
not instantly carved in stone. On the contrary, the agency, to

Case: 19-3169

72

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

engage in informed rulemaking, must consider varying interpretations and the wisdom of its policy on a continuing basis.”). Moreover, the focus on cash benefits in the 1999 Guidance flowed from the Immigration and Naturalization Service’s decision to interpret “public charge” to mean “primarily dependent on the government for subsistence.” 1999 Guidance, 64 Fed. Reg. at 28,692. As the Guidance explained, INS
had decided “that the best evidence of whether an alien is primarily dependent on the government for subsistence is either
(i) the receipt of public cash assistance for income maintenance, or (ii) institutionalization for long-term care at government expense.” Id. DHS has now taken a different approach—
it has decided that projected reliance on government benefits
need not be primary to trigger the public charge exclusion.
And once DHS made that baseline choice, a broader range of
benefits became relevant. Thus, the plaintiffs’ fundamental
objection to the counting of benefits like Medicaid, housing,
and SNAP—that they are supplemental—is really just a repackaging of their argument under Chevron step one.
The plaintiffs also advance a legislative-inaction argument: in 2013—twenty years after Congress enacted IIRIRA—
the Senate Judiciary Committee, while debating the Border
Security, Economic Opportunity, and Immigration Modernization Act, voted down a proposal to require applicants for
lawful permanent resident status “to show they were not
likely to qualify even for non-cash employment supports such
as Medicaid, the SNAP program, or the Children’s Health Insurance Program (CHIP).” S. REP. NO. 113-40, at 42 (2013). But
the failure of this proposal is neither here nor there. As the
Supreme Court has cautioned, “Congressional inaction lacks
‘persuasive significance’ because ‘several equally tenable in-

Case: 19-3169

No 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

73

ferences’ may be drawn from such inaction, ‘including the inference that the existing legislation already incorporated the
offered change.’” Pension Benefit Guar. Corp. v. LTV Corp., 496
U.S. 633, 650 (1990) (citation omitted). This rejected proposal—which would have overridden the 1999 Guidance—is
a case in point: the rejection is as consistent with the choice to
leave the matter within the Executive’s discretion as it is with
the choice to force the Executive’s hand. The plaintiffs’ argument has other problems too. Why should the views of the
2013 Senate Judiciary Committee be attributed to Congress as
a whole? See Thompson v. Thompson, 484 U.S. 174, 191–92
(1988) (Scalia, J., concurring in the judgment) (“Committee reports, floor speeches, and even colloquies between Congressmen, are frail substitutes for bicameral vote upon the text of a
law and its presentment to the President.” (citation omitted)).
And how could the unenacted views of the 2013 Congress settle the meaning of language chosen by a different Congress at
a different time? See United States v. Price, 361 U.S. 304, 313
(1960) (“[T]he views of a subsequent Congress form a hazardous basis for inferring the intent of an earlier one.”).
Thus, the plaintiffs are wrong to insist that DHS is barred
from considering the receipt of a particular benefit simply because the benefit is in-kind rather than cash. There is no such
bar. Rather, the list of designated benefits is reasonable if receiving them is consistent with the lack of self-sufficiency conveyed by the term “public charge.”
Answering this question requires fleshing out what it
means to lack self-sufficiency for purposes of the public
charge exclusion. As the majority observes, no one is self-sufficient in an “absolutist” sense because everyone relies on

Case: 19-3169

74

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

some nonmonetary government services—for example, public snow removal and emergency services. Maj. Op. at 13, 37.
Importantly, the term “public charge” does not implicate selfsufficiency in this absolutist sense. Throughout its centurieslong history, “public charge” has always been associated with
dependence on a particular category of government programs: those available based on financial need. In the nineteenth and early twentieth centuries, these were “poor relief”
programs; now, they are the need-based programs of the
modern welfare system. And what has always been implicit
in the term “public charge” was made explicit by the 1996
amendments. The statutory exclusion requires the Executive
to consider the noncitizen’s age; health; family status; assets,
resources, and financial status; and education and skills—factors plainly designed to determine whether a noncitizen will
be able to support herself, not whether she will use generally
available services like snow removal. In the same vein, the
sponsor’s reimbursement obligation covers only those benefits that are “means tested”—that is, available to those whose
income falls below a certain threshold. As a matter of both
history and text, a “public charge” lacks self-sufficiency in the
sense that she lacks the financial resources to provide for herself.
The benefits designated in DHS’s definition are all consistent with this concept of self-sufficiency. Recall that DHS
has designated the following benefits: cash assistance for income maintenance (including SSI, TANF, and state cash assistance), SNAP, the Section 8 Housing Choice Voucher Program, Section 8 project-based rental assistance, housing benefits under Section 9, and Medicaid (with some explicit exceptions). 8 C.F.R. § 212.21. These benefits are all means tested;

Case: 19-3169

No 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

75

they are also squarely within the Welfare Reform Act’s definition of “public benefit.” 8 U.S.C. §§ 1611(c), 1621(c) (defining “public benefit” to include welfare, food, health, and public-housing benefits funded by the federal, state, or local governments). It is consistent with the term “public charge” to
consider the potential receipt of cash, food, housing, and
healthcare benefits—all of which fulfill fundamental needs—
in evaluating whether someone is likely to depend on public
assistance to get by.
It is also worth noting some of the benefits that the rule
does not include: significantly, the rule’s definition accommodates the reimbursement limitations in the affidavit provision. Under the affidavit provision, the following benefits,
even if means tested, are not subject to reimbursement: certain
forms of emergency medical assistance; short-term, in-kind
emergency disaster relief; school-lunch benefits; benefits under the Child Nutrition Act of 1966; public-health assistance
for immunization, as well as treatment for the symptoms of
communicable disease; certain foster-care and adoption payments; certain in-kind services such as soup kitchens and crisis counseling; student assistance for higher education; benefits under the Head Start Act; means-tested programs under
the Elementary and Secondary Education Act of 1965; and
certain job-training benefits. Id. § 1183a note.15
These exemptions under the affidavit provision are excluded from the rule too. The rule’s definition provides “an
15

By virtue of a notice issued by the Department of Housing and Urban Development, housing benefits are excluded from the reimbursement
obligation. See 8 C.F.R. § 213a.1; Eligibility Restrictions on Noncitizens, 65
Fed. Reg. 49,994 (Aug. 16, 2000). But that exemption is not statutory, and
here, I’m concerned only with DHS’s interpretation of the statute.

Case: 19-3169

76

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

exhaustive list of public benefits,” Inadmissibility on Public
Charge Grounds, 84 Fed. Reg. at 41,296, so any benefit not
mentioned in the list is by implication excluded from the definition. And the list does not mention any of the benefits exempted in the affidavit provision of the statute. 8 C.F.R.
§ 212.21; see also Inadmissibility on Public Charge Grounds, 84
Fed. Reg. at 41,312 (noting that the rule’s “definition does not
include benefits related exclusively to emergency response,
immunization, education, or social services”); id. at 41,482 (explaining that the rule’s definition “does not include emergency aid, emergency medical assistance, or disaster relief”);
id. at 41,389 (excluding benefits under the National School
Lunch Act, the Child Nutrition Act, and the Head Start Act).
Indeed, to highlight just how carefully the rule tracks the statutory exemptions to the affidavit of support, consider the
rule’s exclusion of Medicaid for those under the age of 21 and
pregnant women. Id. at 41,367. These benefits do not appear
in the list of exemptions to the affidavit of support, but they
are exempted from the sponsor’s reimbursement obligations
under a different statutory provision. 42 U.S.C.
§ 1396b(v)(4)(B). The rule captures that exclusion even though
it appears elsewhere; in other words, DHS did not simply
copy and paste the statutory note.
In sum, the designated benefits are not only consistent
with the term “public charge,” but they also fit neatly within
the statutory structure. Considering the potential receipt of
these benefits to gauge the likelihood that a noncitizen will
become a public charge is therefore not an unreasonable interpretation of the statute.

Case: 19-3169

Document: 129

Filed: 06/10/2020

No 19-3169

Pages: 82

77
B.

The closer question is whether DHS’s benefit-usage
threshold stretches the meaning of “public charge” beyond
the breaking point. The rule defines “public charge” to mean
a noncitizen who receives one or more of the designated benefits “for more than twelve months in the aggregate within
any 36-month period.” One month of one benefit counts toward the twelve. As a result, an applicant expected to live in
Section 8 housing for a year would be denied admission as
someone who is likely to become a public charge, as would an
applicant who is expected to receive three months’ worth of
housing, TANF, Medicaid, and SNAP.
The plaintiffs have a legislative-inaction argument for this
feature of the rule too. They point out that during the enactment of IIRIRA, the Senate Judiciary Committee, while negotiating the House-passed version of the bill, dropped language that “would have clarified the definition of ‘public
charge’” in the deportation provision to provide for deportation if a noncitizen “received Federal public benefits for an
aggregate of 12 months over a period of 7 years.” 142 Cong.
Rec. S11,872, S11,882 (daily ed. Sept. 30, 1996) (statement of
Sen. Kyl). Thus, they say, Congress has foreclosed the possibility that 12 months’ worth of benefit usage renders someone
a public charge. Whatever the statutory floor is, it must be
higher than that.
I’ve already identified some of the problems with legislative-inaction arguments, so I won’t belabor them here. It’s
worth noting, though, that this legislative-inaction argument
is even worse than the plaintiffs’ other. So far as the plaintiffs’
citation reveals, the proposal dropped out of the statute in the
course of committee negotiations, not by a vote, and there is

Case: 19-3169

78

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

no explanation for why it did. See Thompson, 484 U.S. at 191
(Scalia, J., concurring in the judgment) (“An enactment by implication cannot realistically be regarded as the product of the
difficult lawmaking process our Constitution has prescribed.”). Moreover, the dropped proposal involved the public charge deportation provision, not the public charge admissibility provision. See 8 U.S.C. § 1227(a)(5). Drawing general
conclusions from a committee’s decision to drop this language in a context with much higher stakes is a particularly
dubious proposition. Despite the plaintiffs’ effort to demonstrate otherwise, the statute doesn’t draw a bright line requiring something more than 12 months of benefit usage to meet
the definition of “public charge.”
At oral argument, DHS declined to identify any limit to its
discretion, implying that it could define public charge to include someone who took any amount of benefits, no matter
how small. It may have been grounding its theory in the affidavit provision, which triggers the sponsor’s liability once the
noncitizen receives “any means-tested public benefit” that
falls within the sponsor’s reimbursement obligation. Id.
§ 1183a(b)(1)(A) (emphasis added).
That may well overread the affidavit provision, which
does not purport to define “public charge.” Enforcement of
the public charge exclusion has waxed and waned over time
in response to economic conditions, immigration policy, and
changes in the programs available to support the poor. The
amendments made by IIRIRA and the Welfare Reform Act,
including the affidavit provision, reflect Congress’s interest in
vigorous enforcement. Yet Congress left the centuries-old
term in the statute, and that term has always been associated

Case: 19-3169

No 19-3169

Document: 129

Filed: 06/10/2020

Pages: 82

79

with a lack of self-sufficiency. So that’s the principle that governs here: if it’s reasonable to describe someone who takes one
or more of the designated benefits “for more than twelve
months in the aggregate within any 36-month period” as lacking in self-sufficiency, then DHS’s definition falls within the
permissible range.
In deciding this question, it is wrong to focus exclusively
on the durational requirement—duration must be viewed in
the context of the benefits measured. Three features are particularly important in this regard: the designated benefits are
means tested, satisfy basic necessities, and are major welfare
grants. To see the importance of these features, consider how
different the durational threshold would look without
them—for example, if the rule measured the usage of benefits
that are not means tested (e.g., public education), that are
means tested but don’t satisfy a basic necessity (e.g., Pell
grants), or that satisfy a basic necessity but are not major welfare grants (e.g., need-based emergency food assistance). Relying on the government to provide a year’s worth of a basic
necessity (food, shelter, medicine, or cash assistance for income maintenance) implicates self-sufficiency in a way that
funding a year of college with the help of a Pell grant does
not.
The plaintiffs particularly object to the rule’s stacking
mechanism, which can reduce the durational requirement
from 12 months to as little as 3 months. But here, too, the context matters: all of the designated benefits supply basic necessities, and the reduction is triggered in proportion to the degree of reliance on the government. The more supplemental
the reliance, the longer it can go on before crossing the “public
charge” threshold. The briefest durational threshold—three

Case: 19-3169

Document: 129

Filed: 06/10/2020

80

Pages: 82

No. 19-3169

months of benefit usage—meets the definition only when the
recipient relies on the government for all basic necessities
(food, shelter, medicine, and cash assistance for income
maintenance). In other words, such short-term reliance only
counts if it’s virtually total. The rule measures self-sufficiency
along a sliding scale rather than by time alone.
It is not unreasonable to describe someone who relies on
the government to satisfy a basic necessity for a year, or multiple basic necessities for a period of months, as falling within
the definition of a term that denotes a lack of self-sufficiency.
To be sure, the rule reaches dependence that is supplemental
and temporary rather than primary and permanent. But the
definition of “public charge” is elastic enough to permit that.
The rule’s definition is exacting, and DHS could have exercised its discretion differently. The line that DHS chose to
draw, however, does not exceed what the statutory term will
bear.
IV.
This case involves more than the definition of “public
charge.” The plaintiffs raised a host of objections to the rule in
their complaint, and the majority addresses some of them. It
concludes that the plaintiffs are likely to succeed in their challenge to the factors that DHS uses to implement its definition
(the list of factors includes health, family size, and English
proficiency), as well as in their argument that the rule is arbitrary and capricious. See 5 U.S.C. § 706(2)(A); Motor Vehicle
Mfrs. Ass'n of the U.S., Inc. v. State Farm Mut. Auto. Ins. Co., 463
U.S. 29, 43 (1983) (explaining that the agency must “articulate
a satisfactory explanation for its action including a ‘rational
connection between the facts found and the choice made’” (citation omitted)).

Case: 19-3169

Document: 129

Filed: 06/10/2020

No 19-3169

Pages: 82

81

I wouldn’t reach these issues. The district court didn’t address them, and on appeal, the parties devoted their briefs almost entirely to the definition of “public charge.” Singleton v.
Wulff, 428 U.S. 106, 120 (1976) (“It is the general rule, of course,
that a federal appellate court does not consider an issue not
passed upon below.”); see also Ctr. for Individual Freedom v. Van
Hollen, 694 F.3d 108, 111 (D.C. Cir. 2012) (remanding to the
district court for arbitrary-and-capricious review when the
district court resolved a case at Chevron step one without
reaching the issue and when the agency’s position was not
well developed). And while it’s generally prudent to refrain
from deciding difficult issues without the benefit of arguments from the parties, the procedural posture of this case offers a particularly good reason to stop where the parties did.
We are reviewing the issuance of the “extraordinary remedy”
of a preliminary injunction. Whitaker ex rel. Whitaker v. Kenosha
Unified Sch. Dist. No. 1 Bd. of Educ., 858 F.3d 1034, 1044 (7th
Cir. 2017). Based on the record developed thus far, the plaintiffs have not shown that they are entitled to this extraordinary remedy. I would remand so that the district court can
assess whether the plaintiffs’ remaining challenges to the rule
are likely to succeed.
***
The many critics of the “public charge” definition characterize it as too harsh. But the same can be said—and has been
said—of IIRIRA and the Welfare Reform Act. The latter dramatically rolled back the availability of aid to noncitizens, and
both statutes linked those cuts to the public charge provision
by making the affidavit of support a condition of admissibility. The definition in the 1999 Guidance tried to blunt the force
of these changes; now, DHS has chosen to exercise the leeway

Case: 19-3169

82

Document: 129

Filed: 06/10/2020

Pages: 82

No. 19-3169

that Congress gave it. At bottom, the plaintiffs’ objections reflect disagreement with this policy choice and even the statutory exclusion itself. Litigation is not the vehicle for resolving
policy disputes. Because I think that DHS’s definition is a reasonable interpretation of the statutory term “public charge,” I
respectfully dissent.

APPENDIX I

Case: 20-3150

Document: 25-1

Filed: 03/11/2021

Pages: 19

No. 20-3150

In the United States Court of Appeals
for the Seventh Circuit
Cook County, Illinois, and Illinois Coalition for
Immigrant and Refugee Rights,
Plaintiffs-Appellees,
v.
Chad F. Wolf, et al.,
Defendants-Appellants.
On Appeal from the United States District Court
for the Northern District of Illinois, Eastern Division
MOTION TO RECALL THE MANDATE TO PERMIT
INTERVENTION AS APPELLANT
Ken Paxton
Attorney General of Texas
Brent Webster
First Assistant Attorney General
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Fax: (512) 474-2697

Judd E. Stone II
Solicitor General
Judd.Stone@oag.texas.gov
Lanora C. Pettit
Assistant Solicitor General
Ben Mendelson
Assistant Attorney General
Counsel for State Intervenor

(1 of 42)

Case: 20-3150

Document: 25-1

Filed: 03/11/2021

Pages: 19

Circuit Rule 26.1 Disclosure Statement
No. 20-3150
Cook County, Illinois, and Illinois Coalition for
Immigrant and Refugee Rights,
Plaintiffs-Appellees,
v.
Chad F. Wolf, et al.,
Defendants-Appellants.
Pursuant to Circuit Rule 26.1, I represent that the following parties seek to leave
to intervene, and that the following attorneys represent, have represented, or expected to represent the State in this matter.
Intervenors:
State of Texas
State of Alabama
State of Arizona
State of Arkansas
State of Indiana
State of Kansas
State of Kentucky
State of Louisiana
State of Mississippi
State of Montana
State of Ohio
State of Oklahoma
State of South Carolina
State of West Virginia
Counsel for Intervenors:
Ken Paxton
Brent Webster
Judd E. Stone II (counsel of record)
Lanora C. Pettit
Benjamin Wallace Mendelson
i

(2 of 42)

Case: 20-3150

Document: 25-1

Filed: 03/11/2021

Office of the Attorney General
P.O. Box 12548 (MC-059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Fax: (512) 474-2697
Judd.Stone@oag.texas.gov

/s/ Judd E. Stone II
Judd E. Stone II
Counsel of Record for
State Intervenors

ii

Pages: 19

(3 of 42)

Case: 20-3150

Document: 25-1

Filed: 03/11/2021

Pages: 19

Introduction
The States of Texas, Alabama, Arizona, Arkansas, Indiana, Kansas, Kentucky,
Louisiana, Mississippi, Montana, Ohio, Oklahoma, South Carolina, and West Virginia seek to intervene in this case to defend a duly promulgated rule interpreting the
Immigration and Nationality Act’s prohibition against immigration by those who
would become a public charge (the “Rule”). Two days ago, the named defendants,
who are agents or agencies of the United States, filed a stipulated motion to dismiss
this appeal. The Court granted that stipulated motion and immediately issued its
mandate without offering affected parties, including the States, an opportunity to
seek to defend the Rule.
The Rule directly implicates the States’ obligations in providing Medicaid and
other social services to indigent and low-income individuals. Moreover, the States,
especially the border States, have strong interests in enforcing the Rule, which
properly interpreted and implemented Congress’s long-held policy of immigrant
self-sufficiency. This request is timely: until two days ago, the United States and associated federal defendants defended the Rule’s legality.
Because the Court issued its mandate within hours of the United States’ announcement that it would no longer defend the Rule, interested parties had no ability
to intervene before it did so. And because the United States did not inform the States
that it intended to cease defending the Rule before abandoning numerous cases supporting the Rule nationwide, the States did not have an opportunity to intervene at
an earlier point. The Court should not allow the federal government to use litigation
stipulations to evade the Administrative Procedure Act’s strictures on modifying

(4 of 42)

Case: 20-3150

Document: 25-1

Filed: 03/11/2021

Pages: 19

rules a new Administration finds uncongenial without at least allowing interested
parties the opportunity to defend the case.

Background
Since the late Nineteenth Century, Congress has prohibited immigration by
individuals who are likely to become a “public charge.” Immigrant Fund Act, Act of
Aug. 3, 1882, ch. 376, §§ 1-2, 22 Stat. 214. Congress has not defined that term, stating
only that the Executive “shall at a minimum consider the alien’s (I) age; (II) health;
(III) family status; (IV) assets, resources, and financial status; (V) education and
skills.” 8 U.S.C. § 1182(a)(4)(B)(i).
In 1999, the Clinton Administration recognized that the definition of “public
charge” was ambiguous and proposed a rule that would have defined “public
charge” to include any alien:
who is likely to become primarily dependent on the Government for subsistence as demonstrated by either: (i) [t]he receipt of public cash assistance for
income maintenance purposes, or (ii) [i]nstitutionalization for long-term
care at Government expense.
64 Fed. Reg. 28,676, 28,681 (1999) (emphases added). At the same time, it issued an
informal guidance document that would apply the proposed definition pending the
issuance of a final rule. 64 Fed. Reg. 28,689 (1999). That rulemaking process was
never completed, leaving the 1999 informal guidance in place. 84 Fed. Reg. at 41,292,
41,348 n.295 (2019).
In 2018, the Trump Administration proposed, and in 2019 promulgated, a new
rule that defined “public charge” in a way that accounted for a broader range of government benefits. The Rule now considers not just cash aid for purposes of
2

(5 of 42)

Case: 20-3150

Document: 25-1

Filed: 03/11/2021

Pages: 19

discovering whether an immigrant is likely to become a public charge, but also valuable non-cash benefits such as Medicaid, food stamps, and federal housing assistance. Id. at 41,501. Officials now look at the totality of an alien’s circumstances to
determine whether that alien is likely to “receive[] one or more” of the specified
public benefits “for more than 12 months in the aggregate within any 36-month period.” Id.; id. at 41,369. These circumstances include an alien’s age, financial resources, family size, education, and health, id. at 41,501-04.
This case is one of several related challenges to the Rule. Plaintiffs are a County
and the Illinois Coalition for Immigrant and Refugee Rights, a non-profit organization providing benefits for aliens. They brought this action challenging the Rule under the Administrative Procedure Act and sought a preliminary injunction. Cook
County v. McAleenan, 417 F. Supp. 3d 1008, 1013-14 (N.D. Ill. 2019). Purporting to
apply Gegiow v. Uhl, 239 U.S. 3 (1915), the district court concluded that the term
“‘public charge’ encompasses only persons who—like ‘idiots’ or persons with ‘a
mental or physical defect of a nature to affect their ability to make a living’—would
be substantially, if not entirely, dependent on government assistance on a long-term
basis.” Id. at 1023. Because the Rule extends beyond that narrow definition to cover
individuals who depend on supplemental, often non-cash benefits, the district court
held the rule invalid. Thus, the district court issued a preliminary injunction blocking
the Defendants from enforcing the rule across the State of Illinois. Id. at 1030.
The Defendants immediately appealed and moved to stay the preliminary injunction. This Court denied the stay, but the Supreme Court ultimately granted one.

3

(6 of 42)

Case: 20-3150

Document: 25-1

Filed: 03/11/2021

Pages: 19

Cook County v. Wolf, 962 F.3d 208, 217 (7th Cir. 2020); Wolf v. Cook County, 140 S.
Ct. 681 (2020).
This Court then considered the Defendants’ appeal. A divided panel affirmed
the district court’s preliminary injunction. Cook County, 962 F.3d at 324. The Supreme Court’s stay remained in place, and the Defendants filed a petition for a writ
of certiorari. Mayorkas v. Cook County, No. 20-450 (U.S. Oct 7, 2020). That petition
remained pending while the Supreme Court granted certiorari in another case about
the validity of DHS’s Rule. See Department of Homeland Security v. New York, No.
20-449, 2021 WL 666376 (U.S. Feb. 22, 2021).
Meanwhile, litigation in this case continued in the district court. The Plaintiffs
moved for partial summary judgment on their APA claims. See Cook County v. Wolf,
No. 1:19-cv-06334, ECF 222 at 2. The district court granted the motion, vacated the
Rule, and entered a partial final judgment under Rule 54(b). Id. at 14. Unlike the
district court’s preliminary injunction, the vacatur was explicitly “not limited to the
State of Illinois.” Id. at 8. In other words, the district court’s ruling applied nationwide. The Defendants appealed that ruling to this Court and had been litigating that
appeal for over three months.
Following the change in the Administration, the United States decided not to
defend the Rule. On March 9, 2021, the Defendants filed nearly simultaneous motions to dismiss all cases challenging the Rule. See, e.g., ECF 23 at 1 (this court). This
Court granted that motion. ECF 24-1 at 1. It also issued its mandate immediately and
without allowing any potentially interested parties to seek leave to intervene and

4

(7 of 42)

Case: 20-3150

Document: 25-1

Filed: 03/11/2021

Pages: 19

defend the rule. ECF 24-2 at 2. As a result, the public charge rule will become (absent
intervention and a stay) unenforceable in any State.
Because the Defendants will no longer defend a rule directly implicating the
States’ interests, the States now move this Court to recall its mandate, to reconsider
its dismissal, and for leave to intervene in defense of the Rule.

I. The Court Should Recall the Mandate.
The Court should recall the mandate and has the “inherent power” to do so.
Calderon v. Thompson, 523 U.S. 538, 549 (1998); see also United States v. Tolliver, 116
F.3d 120, 123 (5th Cir. 1997) (“Our authority to recall our own mandate is clear.”).
Recalling the mandate is appropriate in “extraordinary circumstances” and to prevent injustice. Calderon, 523 U.S. at 550.
As described below, extraordinary circumstances justify recalling the mandate
where State Intervenors were presented no opportunity to preserve their interests in
this litigation. Until March 9, State Intervenors’ interests were represented by the
United States. The United States did not inform the State Intervenors that it intended to withdraw its defense of the Rule, depriving the States of an opportunity to
seek leave to intervene prior to its seeking dismissal of this appeal. Likewise, the
Court’s immediate issuance of the mandate following the motion to dismiss prevented the States from seeking leave to intervene prior to dismissal once the intentions of the United States not to defend the Rule became public.
The harms to State Intervenors—who include multiple border States—from allowing the district court’s order vacating the Rule nationwide to take effect are

5

(8 of 42)

Case: 20-3150

Document: 25-1

Filed: 03/11/2021

Pages: 19

severe and will hamper state officials’ ability to act in a period of great budgetary
uncertainty. The mandate should be recalled.

II. The Court Should Stay the Mandate Pending Resolution of Any Petition for a Writ of Certiorari.
Once recalled, the Court should stay further issuance of the mandate until Intervenors have been able to seek review of the district court’s order in this Court and,
if necessary, on a petition for certiorari.
A motion to stay the mandate pending the filing of a petition for writ of certiorari
“must show that the petition would present a substantial question and that there is
good cause for a stay.” Fed. R. App. P. 41(d)(1). Under this standard, there must be
(1) “a reasonable probability that four members of the [Supreme] Court would consider the underlying issue sufficiently meritorious for the grant of certiorari,” (2) “a
significant possibility of reversal of the lower court’s decision,” and (3) “a likelihood
that irreparable harm will result if that decision is not stayed.” Baldwin v. Maggio,
715 F.2d 152, 153 (5th Cir. 1983). This case easily meets that standard.

A. The Supreme Court is likely to grant certiorari.
The Supreme Court is not only likely to grant certiorari—it had already done so.
Dep’t of Homeland Sec., 2021 WL 666376, at *1. Moreover, the Supreme Court has
identified several considerations governing its exercise of discretion in granting certiorari: conflict with another circuit’s decision on an important matter, the decision
of an important federal question in a way that conflicts with Supreme Court decisions, and the decision of an important question of federal law that has not been but

6

(9 of 42)

Case: 20-3150

Document: 25-1

Filed: 03/11/2021

Pages: 19

should be settled by the Supreme Court. Sup. Ct. R. 10. This case meets each criterion.
1. At the time the Administration decided to abandon the Rule, there was a welldefined split among federal courts over the rule’s legality. Over the dissent of thenJudge Barrett, this Court had concluded it was likely to be held improper. Wolf, 962
F.3d at 228. The Second Circuit had similarly found the rule to exceed the scope of
DHS’s delegated power. New York v. U.S. Dep’t of Homeland Security, 969 F.3d 42,
74-75 (2d Cir. 2020).
By contrast, a panel of the Fourth Circuit, reversed a preliminary injunction
against enforcement of the Rule based on the conclusion that “[t]he DHS Rule . . .
comports with the best reading of the INA.” CASA de Maryland, Inc. v. Trump, 971
F.3d 220, 250, vacated for rehearing en banc, 981 F.3d 311 (4th Cir. 2020) (dismissed
Mar. 11, 2021). Indeed, the Fourth Circuit went so far as to say that “[t]o invalidate
the Rule would . . . entail the disregard of the plain text of a duly enacted statute,”
and would “visit palpable harm upon the Constitution’s structure and the circumscribed function of the federal courts that document prescribes.” Id. at 229. Similarly, in entering a stay pending appeal of preliminary injunctions against the Rule,
the Ninth Circuit issued a lengthy published opinion concluding that “[t]he Final
Rule’s definition of ‘public charge’ is consistent with the relevant statutes, and
DHS’s action was not arbitrary or capricious.” City & County of San Francisco v.
USCIS, 944 F.3d 773, 790 (9th Cir. 2019).
2. This question is vitally important. Decisions about whether and under what
conditions to admit immigrants implicate a “fundamental sovereign attribute
7

(10 of 42)

Case: 20-3150

Document: 25-1

Filed: 03/11/2021

Pages: 19

exercised by the Government’s political departments.” Fiallo v. Bell, 430 U.S. 787,
792 (1977). As the Second Circuit noted, making these decisions correctly is essential
“[b]ecause there is no apparent means by which DHS could revisit adjustment determinations” once made. 969 F.3d at 86-87.
Congress explicitly directed the Executive Branch to deny admission or adjustment of status to aliens who, “in the opinion of the [Secretary of Homeland Security],” are “likely at any time to become a public charge.” 8 U.S.C. § 1182(a)(4)(A).
The Rule provides key guidance in doing so, issuing formal, objective standards by
which that determination will be made. The propriety of the Rule is a question of
national importance which the Supreme Court has already once determined merits
its attention. Dep’t of Homeland Sec., 2021 WL 666376, at *1.

B. There is a significant possibility of reversal.
State Intervenors are likely to prevail on the merits following a petition for certiorari because the Rule is lawful. For more than a century, it has been “the immigration policy of the United States that . . . (A) aliens within the Nation’s borders
not depend on public resources to meet their needs, . . . and (B) the availability of
public benefits not constitute an incentive for immigration to the United States,” 8
U.S.C. § 1601(2). That long-held policy formed the basis of the public-charge rule.
Congress never defined the term “public charge,” but “[t]he ordinary meaning of
‘public charge’ . . . was ‘one who produces a money charge upon, or an expense to,
the public for support and care.’” CASA de Maryland, 971 F.3d at 242 (quoting
BLACK’S LAW DICTIONARY 295 (4th ed. 1951)). The Rule reflects that ordinary
meaning by defining as public charges those individuals who rely on individual
8

(11 of 42)

Case: 20-3150

Document: 25-1

Filed: 03/11/2021

Pages: 19

benefits for a prolonged period, or multiple benefits for a shorter period of time. 84
Fed. Reg. at 41,501; id. at 41,294-95.
That the Rule represents the best—or, at least, a reasonable—reading of the
public-charge provision of the INA is confirmed by reading that provision within its
larger statutory context. See CASA de Maryland, 971 F.3d at 243-44. For example,
Congress required that an alien seeking admission or adjustment of status to submit
“affidavit[s] of support” from sponsors. See 8 U.S.C. § 1182(a)(4)(C)-(D). Those
sponsors must, in turn, agree “to maintain the sponsored alien at an annual income
that is not less than 125 percent of the Federal poverty line.” Id. § 1183a(a)(1)(A).
Congress reinforced this requirement for self-sufficiency by allowing federal and
state governments to seek reimbursement from the sponsor for “any means-tested
public benefit” the government provides to the alien during the period the support
obligation remains in effect, Id. § 1183a(a)(1)(B). That provision is not limited to
cash support. Aliens who fail to obtain the required affidavit are treated by operation
of law as inadmissible on the public-charge ground, regardless of individual circumstances. Id. § 1182(a)(4).
Taken together, these provisions of the INA demonstrate that Congress did not
mandate the narrow reading of “public charge” insisted on by the district court. Instead, “[t]his sponsor-and-affidavit scheme” shows “that the public charge provision is naturally read as extending beyond only those who may become ‘primarily
dependent’ on public support.” CASA de Maryland, 971 F.3d at 243; see also Cook
County, 962 F.3d at 246 (Barrett, J., dissenting) (“[T]he affidavit provision reflects

9

(12 of 42)

Case: 20-3150

Document: 25-1

Filed: 03/11/2021

Pages: 19

Congress’s view that the term ‘public charge’ encompasses supplemental as well as
primary dependence on public assistance.”).
Further, the larger statutory context demonstrates why the Executive Branch
could—and indeed should—take non-cash benefits into account in making publiccharge determinations. The current public-charge provision was adopted in 1996. Illegal Immigration Reform and Immigrant Responsibility Act of 1996, Pub. L. No.
104-208, Div. C, Tit. V, § 531, 110 Stat. 3009-674. In contemporaneous legislation,
Congress stressed the government’s “compelling” interest in ensuring “that aliens
be self-reliant in accordance with national immigration policy.” 8 U.S.C. § 1601(5);
see also id. § 1601(4) (emphasizing the government’s strong interest in “assuring that
individual aliens not burden the public benefits system”). Congress equated a lack
of “self-sufficiency” with the receipt of “public benefits” by aliens, id. § 1601(3),
which it defined broadly to include any “welfare, health, disability, public or assisted
housing . . . or any other similar benefit,” id. § 1611(c)(1)(B) (emphasis added). That
is, Congress adopted a broad, plain meaning of the statutory phrase “public charge”
as one who receives public benefits, and Congress’s statutory policy of ensuring that
aliens do “not burden the public benefits system” programs to be “an incentive for
immigration to the United States.” Id. § 1601(2)(B), (4).
Given these statutory provisions, the Supreme Court is likely to agree with the
Fourth Circuit’s panel decision and the Ninth Circuit’s stay decision: The Rule
“easily” qualifies as a “permissible construction of the INA.” City & County of San
Francisco, 944 F.3d at 799; see CASA de Maryland, 971 F.3d at 251 (holding that the
Rule is “unquestionably lawful”). In applying Chevron, the Supreme Court has
10

(13 of 42)

Case: 20-3150

Document: 25-1

Filed: 03/11/2021

Pages: 19

repeatedly emphasized that the federal courts “may not substitute [their] judgment
for that of the [Executive], but instead must confine [themselves] to ensuring that he
remained “‘within the bounds of reasoned decisionmaking.’” Dep’t of Com. v. New
York, 139 S. Ct. 2551, 2569 (2019) (citation omitted) (quoting Baltimore Gas & Elec.
Co. v. Natural Resources Defense Council, Inc., 462 U.S. 87, 105 (1983)). Administrative rules passed regarding immigration are given particular deference because
“Congress has expressly and specifically delegated power to the executive in an area
that overlaps with the executive’s traditional constitutional function.” CASA de
Maryland, 971 F.3d at 251 & n.6; (citing United States v. Curtiss-Wright Export Corp.,
299 U.S. 304, 319-320 (1936)). The public-charge Rule easily passes muster.
To be clear, State Intervenors do not maintain that the Executive may not change
the definition of “public charge.” But the requirements of APA rulemaking apply
with equal force whether the Executive is creating a rule or modifying it. E.g., Dep’t of
Comm, 139 S. Ct. at 2569-71 Because the public-charge Rule was made through formal notice-and-comment procedures, it can only be unmade the same way. Cf. Motor
Vehicle Mfr’s Ass’n v. State Farm Mutual Auto. Ins. Co., 463 U.S 29, 41, 46-47 (1983).
As part of that process, State Intervenors would have had the right to submit input
and to protect their interests before the agency. 5 U.S.C. § 553(c). If unsatisfied with
the ultimate result, they would have been permitted to challenge whether the Executive “articulated ‘a satisfactory explanation’ for [its] decision, ‘including a rational
connection between the facts found and the choice made.” Dep’t of Comm., 139 S.
Ct. at 2569 (quoting Motor Vehicles Mfrs. Ass’n, 463 U.S. at 43). The Administration
improperly seeks to short-circuit that process by using early court decisions to “set
11

(14 of 42)

Case: 20-3150

Document: 25-1

Filed: 03/11/2021

Pages: 19

aside” the Rule under 5 U.S.C. § 706(2). Accordingly, State Intervenors are likely
to prevail in showing that the order under review was improper.

C.

There is a likelihood of irreparable harm absent a stay.

Allowing the mandate to issue and permitting the district court to vacate the rule
will cause State Intervenors irreparable harm. As an initial matter, a State suffers an
“institutional injury” from the “inversion of . . . federalism principles.” Texas v.
EPA, 829 F.3d 405, 434 (5th Cir. 2016); see Moore v. Tangipahoa Par. Sch. Bd., 507 F.
App’x 389, 399 (5th Cir. 2013) (per curiam) (finding that a State suffers irreparable
harm when an injunction “would frustrate the State’s program”). The district
court’s judgment reverses a formal rulemaking process upon which States have relied in setting law enforcement and budgetary policies, without allowing them input
into the process or the time to adjust that normally follows from a formal rescission
process. And it interferes with traditional state prerogatives for the reasons described
in the accompanying motion to intervene.
As the Court is undoubtedly aware, this is a time of considerable financial strain
on all States, given the unprecedented COVID-19 pandemic and associated economic downturn. Immigration can be a driver of cultural and economic growth. But
as Congress has recognized for over a century, it can also significantly strain the public fisc. 8 U.S.C. § 1601(1) (“Self-sufficiency has been a basic principle of United
States immigration law since this country’s earliest immigration statutes.”). By definition, the individuals whose receipt of benefits depends on the definition of “public
charge” are among the poorest in our society. Because such benefits can never be

12

(15 of 42)

Case: 20-3150

Document: 25-1

Filed: 03/11/2021

Pages: 19

recouped, State Intervenors will be irreparably harmed if the Rule cannot be enforced while its legality is resolved here and elsewhere.

[Remainder of Page Intentionally Left Blank.]

13

(16 of 42)

Case: 20-3150

Document: 25-1

Filed: 03/11/2021

Pages: 19

Conclusion
The Court should recall and stay issuance of the mandate, reconsider its dismissal of the appeal, and permit the States to intervene as Defendant-Appellants.
Respectfully submitted.
Steve Marshall
Attorney General of Alabama

Ken Paxton
Attorney General of Texas

Mark Brnovich
Attorney General of Arizona

Brent Webster
First Assistant Attorney General

Leslie Rutledge
Attorney General of Arkansas

/s/ Judd E. Stone II
Judd E. Stone II
Solicitor General
Judd.Stone@oag.texas.gov

Todd Rokita
Attorney General of Indiana
DEREK SCHMIDT
Attorney General of Kansas
DANIEL CAMERON
Attorney General of Kentucky
Jeff Landry
Attorney General of Louisiana
Lynn Fitch
Attorney General of Mississippi

Lanora C. Pettit
Assistant Solicitor General
Benjamin Wallace Mendelson
Assistant Attorney General
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Fax: (512) 474-2697
Counsel for State Intervenors

Austin Knudsen
Attorney General of Montana
Dave Yost
Attorney General of Ohio

14

(17 of 42)

Case: 20-3150

Document: 25-1

Filed: 03/11/2021

Pages: 19

Mike Hunter
Attorney General of Oklahoma
Alan Wilson
Attorney General of
South Carolina
Patrick Morrisey
Attorney General of
West Virginia

Certificate of Conference
On March 11, 2021, counsel for the State of Texas conferred with counsel for
plaintiffs and for the United States, who advised that they are opposed to this motion.
/s/ Judd E. Stone II
Judd E. Stone II

Certificate of Service
On March 11, 2021, this brief was served via CM/ECF on all registered counsel
and transmitted to the Clerk of the Court. Counsel further certifies that: (1) any required privacy redactions have been made in compliance with Fifth Circuit Rule
25.2.13; (2) the electronic submission is an exact copy of the paper document in compliance with Fifth Circuit Rule 25.2.1; and (3) the document has been scanned with
the most recent version of Symantec Endpoint Protection and is free of viruses.
/s/ Judd E. Stone II
Judd E. Stone II

15

(18 of 42)

Case: 20-3150

Document: 25-1

Filed: 03/11/2021

Pages: 19

Certificate of Compliance
This brief complies with: (1) the type-volume limitation of Federal Rule of Appellate Procedure 32(a)(7)(B) because it contains 3,348 words, excluding the parts of
the brief exempted by Rule 32(f); and (2) the typeface requirements of Rule 32(a)(5)
and the type style requirements of Rule 32(a)(6) because it has been prepared in a
proportionally spaced typeface (14-point Equity) using Microsoft Word (the same
program used to calculate the word count).
/s/ Judd E. Stone II
Judd E. Stone II

16

(19 of 42)

Case: 20-3150

Document: 25-2

Filed: 03/11/2021

Pages: 10

No. 20-3150

In the United States Court of Appeals
for the Seventh Circuit
Cook County, Illinois and Illinois Coalition for
Immigrant and Refugee Rights,
Plaintiff-Appellees,
v.
Chad Wolf, et al.,
Defendant-Appellants.
On Appeal from the United States District Court
for the Northern District of Illinois, Eastern Division
OPPOSED MOTION TO RECONSIDER, OR IN THE
ALTERNATIVE TO REHEAR, THE MOTION TO DISMISS
The States of Texas, Alabama, Arizona, Arkansas, Indiana, Kansas, Kentucky, Louisiana, Mississippi, Montana, Ohio, Oklahoma, South Carolina, and West
Virginia respectfully ask this Court to reconsider its order dismissing this appeal so
that they may intervene as Defendants-Appellants to challenge the district court’s
order. The district court vacated a final Rule interpreting the Immigration and Nationality Act’s prohibition against immigration by those would become a public
charge—the public charge rule (“Rule”). Until two days ago, the federal defendants,
agents or agencies of the United States (collectively the “United States”), defended
this Rule in multiple courts, including the United States Supreme Court.

1

(20 of 42)

Case: 20-3150

Document: 25-2

Filed: 03/11/2021

Pages: 10

Two days ago, the named defendants changed tack. Abandoning its typical practice of asking courts to abey appeals of actions it no longer supports while it formally
reverses those actions, the federal defendants filed stipulated motions to dismiss numerous appeals defending the Rule across the country, including in this case. Following it normal practice, this Court granted that motion and immediately issued its
mandate. Seventh Cir. R. 41.
Under these circumstances, this Court should have rejected that stipulation.
The nationwide injunction implicates the interests of countless parties who, until the
stipulation was filed, had no notice that they needed to intervene in order to protect
those interests. Indeed, the federal defendants here did not notify the States that they
intended to withdraw support of the Rule prior to these stipulations becoming common knowledge. Allowing Federal Rule of Appellate Procedure 42(a) to be used in
this fashion permits the federal government effectively to rescind rules by litigation
rather than through the Administrative Procedure Act’s requirements, vitiating numerous procedural protections for adversely impacted parties.
This novel practice will not end here. If permitted to stand, the federal government’s repeal-by-stipulation will simultaneously stifle public participation in major
policy initiatives at the federal level, encourage ever-more-complex procedural
gamesmanship, and will encourage even potentially impacted parties to intervene
aggressively into cases to prevent this tactic’s future use. The Court should not
countenance these results and should reconsider its dismissal.

2

(21 of 42)

Case: 20-3150

Document: 25-2

Filed: 03/11/2021

Pages: 10

Background
The background of this case is explored in the accompanying motions to withdraw the mandate and to intervene. To avoid burdening the Court, State Intervenors
point supply only a truncated background here.
Since the late Nineteenth Century, Congress has prohibited immigration by
individuals who are likely to become a “public charge.” Immigrant Fund Act, 47th
Cong. ch. 376, §§ 1-2, 22 Stat. 214 (1882). Congress has never attempted to define
that term, providing only a list of factors that the Executive is to consider. 8 U.S.C.
§ 1182(a)(4)(B).
In 2018, following an extensive notice-and-comment period, the Trump Administration finalized the first formal rule defining “public charge.” This Rule required federal officials to look at non-cash public assistance as well as cash public
assistance when determining whether an alien is likely to be a public charge, and
therefore inadmissible. Inadmissibility on Public Charge Grounds 84 Fed. Reg.
41,292 (Aug. 14, 2019). Various States, municipalities, and private interest groups
immediately filed suit to challenge this Rule in courts across the country. These cases
led sometimes overlapping, and sometimes conflicting, orders and injunctions,
which are fully described in the federal government’s petition for certiorari out of a
companion case regarding the Rule in the Second Circuit. Petition for a Writ of Certiorari, Department of Homeland Security v. New York, No. 20-449 (U.S. Feb. 22,
2021) (U.S. Oct. 7, 2020).
In November of last year, the district court issued a partial final judgment that
vacated the public-charge rule nationwide, Mem. Op. At 14, Cook County v. Wolf,
3

(22 of 42)

Case: 20-3150

Document: 25-2

Filed: 03/11/2021

Pages: 10

No. 1:19-cv-06334 (N.D. Ill. 2, 2020) (ECF No. 222), which the United States appealed. After a variety of opinions issued by four courts of appeals (including this
one), the United States successfully petitioned the U.S. Supreme Court to take up
the question of the validity of the public-charge rule. Dep’t of Homeland Sec. v. New
York, No. 20-449, 2021 WL 666376 (U.S. Feb. 22, 2021).
On March 9, 2021, the United States revealed that it no longer intended to
defend the Rule, filing nearly simultaneous motions to dismiss litigation pending in
the Supreme Court, this Court, and the Fourth Circuit. This Court immediately
granted that motion under Federal Rule of Appellate Procedure 42, without offering
the opportunity for other parties whose interests would be affected by the nationwide
injunction to intervene to defend those interests.

Argument
The Court should reconsider its ruling on the Motion to Dismiss under Federal
Rule of Appellate Procedure 42(b).1 Motions for reconsideration are appropriate
where, through no fault of the movant, a court has committed an error of fact or law
in deciding on a motion. Cf. Lightspeed Media Corp. v. Smith, 830 F.3d 500, 505-506
(7th Cir. 2016) (collecting cases); Keene Corp. v. Int’l Fid. Ins. Co., 561 F. Supp. 656,
656 (N.D. Ill. 1982) (mem. op.), aff’d, 736 F.2d 388 (7th Cir.1984) (“Motions for
reconsideration serve a limited function; to correct manifest errors of law or fact or

1

To the extent that the Court determines that this motion should have been
brought as a petition for rehearing, State Intervenors request the Court to construe
it as such. The standards for relief are similar, and such rehearing would be appropriate for the same reasons. See Fed. R. App. P. 40(a)(2).
4

(23 of 42)

Case: 20-3150

Document: 25-2

Filed: 03/11/2021

Pages: 10

to present newly discovered evidence.”). State Intervenors respectfully suggest that
the Court made such an error here by allowing the parties—who are now aligned—
to voluntarily dismiss an appeal of a ruling vacating a final Rule without allowing
nonparties whose interests are affected by the Rule the opportunity to intervene to
protect those interests.
Federal Rule of Appellate Procedure 42 is an inappropriate mechanism to seek
dismissal of an appeal of a nationwide injunction affecting numerous non-parties—
particularly when accompanied by the immediate issuance of the court’s mandate.
Rule 42(b) allows the “circuit clerk [to] dismiss a docketed appeal if the parties file
a signed dismissal agreement specifying how costs are to be paid and pay any fees
that are due.” This rule typically serves a salutary purpose in that it allows appeals
where there is no longer a controversy to dismiss the case rather than incur additional
costs. “Normally such stipulations are accepted and the appeal dismissed.” Alvarado v. Corp. Cleaning Servs., Inc., 782 F.3d 365, 372 (7th Cir. 2015). This Court
has, however, stated that it will “decline to do so if necessary to avoid an injustice,
and especially to ‘protect the rights of anyone who did not consent to the dismissal.’” Id. (quoting Safeco Ins. Co. of Am. v. Am. Int’l Grp., Inc., 710 F.3d 754, 755 (7th
Cir.2013)).
Though the nominal parties to this appeal approved the dismissal, the injunction
that has now become final affects numerous parties who have not had the opportunity either to consent or deny their consent to the dismissal. Indeed, many States
whose interests are directly implicated were not so much as notified about the federal
government’s intentions before it acted to dismiss these cases. This Rule was
5

(24 of 42)

Case: 20-3150

Document: 25-2

Filed: 03/11/2021

Pages: 10

promulgated following a notice-and-comment period that lasted nearly a year. 84
Fed. Reg. at 41,501 (Aug. 2019); Inadmissibility on Public Charge Grounds, 83 Fed.
Reg. 51,114 (Oct. 10, 2018). The final Rule balanced a multitude of concerns and
addressed numerous comments, and the federal government, as it typically does, was
charged with defending that rule against the litigation that inevitably followed. And
though the district court ordered the rule vacated in November of last year, Mem.
Op. at 14, supra (ECF No. 222), the United States nonetheless continued to fulfill its
duties until it filed the motion of March 9, 2021.
The Court should not allow parties to voluntarily dismiss an appeal under these
circumstances. Ordinarily, a Rule adopted through notice-and-comment rulemaking
can only be rescinded through notice-and-comment rulemaking. Cf. Motor Vehicle
Mfrs. Ass’n of U.S. v. State Farm Mutual Auto. Ins. Co., 463 U.S 29, 36-37, 41 (1983).
As part of that process, parties whose interests would be negatively impacted by the
rescission of the Rule would have had the right to submit input, 5 U.S.C. § 503, and
ultimately to challenge the final outcome in court, Dep’t of Com. v. New York, 139 S.
Ct. 2551, 2569-70 (2019). But this Administration has effectively rescinded the public-charge rule by agreeing to dismiss the case with an adversary in name only under
Rule 42(b). That is not what voluntary dismissal under Rule 42(b) was designed to
do.
To permit Rule 42(b) to be used as a route around the Administrative Procedure Act would lead to severe adverse consequences. Because rulemaking rarely satisfies everyone, APA challenges are both commonplace and often complex, potentially involving numerous issues and parties. In the early stages of this case, it was
6

(25 of 42)

Case: 20-3150

Document: 25-2

Filed: 03/11/2021

Pages: 10

not clear that parties who were aligned with the United States could have become
involved. In particular, during preliminary proceedings, the district court only “enjoined [DHS] from implementing the Rule in the State of Illinois.” Cook County v.
McAleenan, 417 F. Supp. 3d 1008, 1014 (N.D. Ill. 2019) (mem. op.), aff’d on other
grounds sub nom. Cook County v. Wolf, 962 F.3d 208 (7th Cir. 2020). Like all Americans, Intervenor States have an interest in uniform application of our immigration
laws. It initially appeared, however, that the United States planned to defend those
interests. Now, though vacatur of the Rule would impose direct costs on the States
in the form of increased benefit payments to otherwise ineligible immigrants, see generally Mot. to Intervene, the States cannot vindicate their interests absent this
Court’s action because the United States has agreed to dismiss the appeal and allow
the district court’s order to become final.
If the Court permits Rule 42 to be used to dismiss a case in circumstances like
this, nonparties like State Intervenors will be forced to intervene at the first sign of
litigation that may affect their interests. Indeed, it would paradoxically require States
to more hastily intervene when the federal government already supports their interests precisely to avoid the sudden switch-and-dismissal performed here. That is precisely the opposite of what the federal rules are intended to work—namely “to secure the just, speedy, and inexpensive determination of every action and proceeding.” Fed. R. Civ. P. 1.

7

(26 of 42)

Case: 20-3150

Document: 25-2

Filed: 03/11/2021

Pages: 10

Conclusion
The Court reconsider the motion to dismiss to allow State Intervenors to intervene and prosecute this appeal as Defendant-Appellants.
Respectfully submitted.
Steve Marshall
Attorney General of Alabama

Ken Paxton
Attorney General of Texas

Mark Brnovich
Attorney General of Arizona

Brent Webster
First Assistant Attorney General

Leslie Rutledge
Attorney General of Arkansas

/s/ Judd E. Stone II
Judd E. Stone II
Solicitor General
Judd.Stone@oag.texas.gov

Todd Rokita
Attorney General of Indiana
DEREK SCHMIDT
Attorney General of Kansas
DANIEL CAMERON
Attorney General of Kentucky
Jeff Landry
Attorney General of Louisiana
Lynn Fitch
Attorney General of Mississippi

Lanora C. Pettit
Assistant Solicitor General
Benjamin Wallace Mendelson
Assistant Attorney General
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Fax: (512) 474-2697
Counsel for State Intervenor

Austin Knudsen
Attorney General of Montana
Dave Yost
Attorney General of Ohio

8

(27 of 42)

Case: 20-3150

Document: 25-2

Filed: 03/11/2021

Pages: 10

Mike Hunter
Attorney General of Oklahoma
Alan Wilson
Attorney General of
South Carolina
Patrick Morrisey
Attorney General of
West Virginia

Certificate of Conference
On March 11, 2021, counsel for the State of Texas conferred with counsel for
plaintiffs and for the United States, who advised that they are opposed to this motion.
/s/ Judd E. Stone II
Judd E. Stone II

Certificate of Service
On March 11, 2021, this brief was served via CM/ECF on all registered counsel
and transmitted to the Clerk of the Court. Counsel further certifies that: (1) any required privacy redactions have been made in compliance with Fifth Circuit Rule
25.2.13; (2) the electronic submission is an exact copy of the paper document in compliance with Fifth Circuit Rule 25.2.1; and (3) the document has been scanned with
the most recent version of Symantec Endpoint Protection and is free of viruses.
/s/ Judd E. Stone II
Judd E. Stone II
9

(28 of 42)

Case: 20-3150

Document: 25-2

Filed: 03/11/2021

Pages: 10

Certificate of Compliance
This brief complies with: (1) the type-volume limitation of Federal Rule of Appellate Procedure 32(a)(7)(B) because it contains 1,718 words, excluding the parts of
the brief exempted by Rule 32(f); and (2) the typeface requirements of Rule 32(a)(5)
and the type style requirements of Rule 32(a)(6) because it has been prepared in a
proportionally spaced typeface (14-point Equity) using Microsoft Word (the same
program used to calculate the word count).
/s/ Judd E. Stone II
Judd E. Stone II

10

(29 of 42)

Case: 20-3150

Document: 25-3

Filed: 03/11/2021

Pages: 13

No. 20-3150

In the United States Court of Appeals
for the Seventh Circuit
Cook County, Illinois Coalition for Immigrant and
Refugee Rights,
Plaintiffs-Appellees,
v.
Chad F. Wolfe, et al.
Defendants-Appellants.
On Appeal from the United States District Court
for the Northern District of Illinois, Eastern Division
OPPOSED MOTION TO INTERVENE AS
DEFENDANT-APPELLANTS
The States of Texas, Alabama, Arizona, Arkansas, Indiana, Kansas, Kentucky,
Louisiana, Mississippi, Montana, Ohio, Oklahoma, South Carolina, and West Virginia move under Federal Rule of Appellate Procedure 27 to intervene as a Defendant-Appellants to challenge the district court’s order, which applies nationwide, vacating a rule interpreting the Immigration and Nationality Act’s prohibition against
immigration by those who would become a public charge (“Rule”). Two days ago,
Defendants, who are agents or agencies of the United States (collectively, the
“United States”), filed a stipulated motion to dismiss this appeal. The Court
granted that stipulated motion and immediately issued its mandate without offering
affected parties an opportunity to seek to defend the Rule. Because the Rule at issue
1

(30 of 42)

Case: 20-3150

Document: 25-3

Filed: 03/11/2021

Pages: 13

directly implicates the States’ obligations in providing Medicaid and other services,
they seek leave to defend the suit.
The States timely seek to intervene. Until two days ago, the United States defended the Rule, so that the States’ intervention prior to that point would have unnecessarily complicated this suit. But now that the federal government has abandoned that defense—and, by extension, has evaded the Administrative Procedure
Act’s strictures for modifying a rule it no longer finds genial—no one is left to represent the States’ interests in defending the Rule.
Counsel for Texas contacted counsel for all parties regarding this motion.
Counsel for Plaintiffs indicated that they opposed this motion. Counsel for the federal governmental agents and agencies likewise indicated that they opposed this motion.

Background
This immigration case concerns the hotly contested Public Charge Rule. Under
the INA, “any alien who . . . in the opinion of the Attorney General at the time of
application for admission or adjustment of status, is likely at any time to become a
public charge is inadmissible.” 8 U.S.C. § 1182(a)(4)(A).
In 2019, following extensive notice and comment, the Department of Homeland
Security issued a final rule adopting new definition of “public charge” for purposes
of this statute. See Casa de Maryland, Inc. v. Trump, 971 F.3d 220, 234, reh’g granted,
981 F.3d 311, 314 (4th Cir. 2020) (dismissed March 11, 2021). The new rule defines
“public charge” as “‘an alien who receives one or more public benefits . . . for more
than 12 months in the aggregate within any 36-month period.’” Id. at 234 (quoting
2

(31 of 42)

Case: 20-3150

Document: 25-3

Filed: 03/11/2021

Pages: 13

Inadmissibility on Public Charge Grounds, 84 Fed. Reg. 41,292 (Aug. 14, 2019)).
The Rule further explains that “public benefits” include non-cash benefits that are
funded in part by the States, including certain Medicaid benefits. Id.
This case is one of several related challenges to the Rule. Plaintiffs are a County
and the Illinois Coalition for Immigrant Refugee Rights, a non-profit organization
providing benefits for aliens. They brought this action challenging the Rule under
the Administrative Procedure Act and sought a preliminary injunction. Cook County
v. McAleenan, 417 F. Supp. 3d 1008, 1013-14 (N.D. Ill. 2019). Purporting to apply
Gegiow v. Uhl, 239 U.S. 3 (1915), the district court concluded that the term “‘public
charge’ encompasses only persons who—like ‘idiots’ or persons with ‘a mental or
physical defect of a nature to affect their ability to make a living’—would be substantially, if not entirely, dependent on government assistance on a long-term basis.” Id.
at 1023. Because the Rule extends beyond that narrow definition to cover individuals
who depend on supplemental, often non-cash benefits, the district court held the rule
invalid. Thus, the district court issued a preliminary injunction blocking the United
States from enforcing the rule across the State of Illinois. Id. at 1030.
The United States immediately appealed and moved to stay the preliminary injunction. This Court denied the stay, but the Supreme Court ultimately granted one.
Cook County v. Wolf, 962 F.3d 208, 217 (7th Cir. 2020); Wolf v. Cook County, 140 S.
Ct. 681 (2020).
This Court then considered the United States’s appeal. A divided panel affirmed the district court’s preliminary injunction. Cook County, 962 F.3d at 234. The
Supreme Court’s stay remained in place, and the United States filed a petition for a
3

(32 of 42)

Case: 20-3150

Document: 25-3

Filed: 03/11/2021

Pages: 13

writ of certiorari. Mayorkas v. Cook County, No. 20-450. That petition remained
pending while the Supreme Court granted certiorari in another case about the validity of DHS’s Rule. See Dep’t of Homeland Sec. v. New York, No. 20-449, 2021 WL
666376 (U.S. Feb. 22, 2021).
Meanwhile, litigation in this case continued in the district court. The Plaintiffs
moved for partial summary judgment on their APA claims. See Memorandum Opinion & Order at 2, Cook County v. Wolf, No. 1:19-cv-06334 (N.D. Ill. Nov. 2, 2020)
(ECF No. 222). The district court granted the motion, vacated the Rule, and entered
a partial final judgment under Rule 54(b). Id. at 14. Unlike the district court’s preliminary injunction, the vacatur was explicitly “not limited to the State of Illinois.”
Id. at 8. In other words, the district court’s ruling applied nationwide. The United
States appealed that ruling to this Court and have been litigating that appeal for over
three months.
Following the change in Administration, the United States decided not to defend the Rule. On March 9, 2021, the United States filed nearly simultaneous motions to dismiss all cases challenging the Rule. See, e.g., Unopposed Motion to Dismiss Appeal at 1, Cook County v. Wolf, No. 20-3150 (ECF No. 23). This Court
granted that motion. Order, Cook County v. Wolf, No. 20-3150 (ECF No. 24-1). It
also issued its mandate immediately and without allowing any potentially interested
parties to seek leave to intervene and defend the rule. Notice of Issuance of Mandate
at 2, Cook County v. Wolf, No. 20-3150 (ECF No. 24-2). As a result, the public charge
rule will become (absent intervention and a stay) unenforceable in any State—including the State-Intervenors.
4

(33 of 42)

Case: 20-3150

Document: 25-3

Filed: 03/11/2021

Pages: 13

Because the United States will no longer defend a rule directly implicating the
States’ interests, these States now move this Court to withdraw its mandate, and to
reconsider its dismissal, and for leave to intervene in defense of the Rule.

Argument
Although the Federal Rules of Civil Procedure do not apply directly in appellate
proceedings, multiple courts (including this one) have recognized that the rules controlling district court intervention may serve as useful guidance regarding whether
to permit intervention in other contexts. E.g., Int’l Union v. Scofield, 382 U.S. 205,
217 n.10 (1965); Sierra Club, Inc. v. E.P.A., 358 F.3d 516, 517-18 (7th Cir. 2004);
Texas v. U.S. Dep’t of Energy, 754 F.2d 550, 551 (5th Cir. 1985). The States meet Rule
24’s standards for intervention both as of right and as a permissive matter.

I. The States are entitled to intervene as of right.
To intervene as of right under Rule 24(a), an intervenor must show: “(1) [a]
timely application; (2) an interest relating to the subject matter of the action; (3) potential impairment, as a practical matter, of that interest by the disposition of the action; and (4) lack of adequate representation of the interest by the existing parties to
the action.” Illinois v. City of Chicago, 912 F.3d 979, 984 (7th Cir. 2019) (internal
quotation marks omitted). The States easily meet that standard.
First, this motion is timely. “We look to four factors to determine whether a motion is timely: (1) the length of time the intervenor knew or should have known of
his interest in the case; (2) the prejudice caused to the original parties by the delay;

5

(34 of 42)

Case: 20-3150

Document: 25-3

Filed: 03/11/2021

Pages: 13

(3) the prejudice to the intervenor if the motion is denied; (4) any other unusual circumstances.” Id. (internal quotation marks omitted).
Although the States have been aware of their interests in the Rule for some time,
this case clearly presents “unusual circumstances” warranting intervention. The
previous Administration and former federal defendants in this case defended the
Rule for years across multiple courts, and the States’ interests were appropriately
represented in this defense. The States therefore relied on the United States to defend the Rule in lieu of burdening the courts with additional briefing reiterating that
defense. It was not until two days ago, on March 9, when the United States voluntarily moved to dismiss this case that the States learned that the new Administration
intended to withdraw its defense of the Rule in courts across the country and, in
essence, repeal the Rule by stipulation in litigation. On learning of that decision, the
States immediately moved to intervene.
Further, the Plaintiffs will not be prejudiced by the States’ intervention. Plaintiffs faced the possibility of protracted litigation until two days ago; they suffer no
prejudice by litigating the same issues in the same forum against the States rather
than the United States. In contrast, the States will suffer great prejudice if they cannot intervene. As discussed in detail below, this is so because the States spend billions of dollars on Medicaid services and other public benefits to indigent individuals, including individuals who would be inadmissible under the Rule. These costs
have steadily increased over the past several years, and the Rule would have helped
to reduce such expenditures by efficiently and effectively implementing Congress’s
long-held policy of limiting the immigration of individuals who are not self-sufficient.
6

(35 of 42)

Case: 20-3150

Document: 25-3

Filed: 03/11/2021

Pages: 13

Thus, if the States cannot defend the Rule against the district court’s nationwide
vacatur, their Medicaid and other social-welfare expenditures will be higher than
they would if the Rule were enforced. This motion is therefore timely.
Second, the States have important interests relating to the subject matter of this
action, specifically their interests in conserving their Medicaid and related socialwelfare budgets. Providing for the healthcare needs of economically disadvantaged
individuals represents a substantial portion of the States’ budgets. For example, in
Texas in 2015, approximately 4 million Texans relied on Medicaid. Tex. Health &
Human Servs. Comm’n, Texas Medicaid and Chip in Perspective 1-2 (11th ed.
2017),

https://hhs.texas.gov/reports/2017/02/texas-medicaid-chip-perspective-

eleventh-edition. Medicaid is jointly financed by the federal government and the
States. Id. at 4. In 2015, total Texas expenditures for Medicaid represented approximately 28% of the State’s budget. Id. at 4. In the past several years, the federal government has paid for approximately 56-58% of Texas’s Medicaid expenditures. Id. at
183. Although the exact amount of Texas’s Medicaid budget spent on immigrants
who would otherwise be inadmissible under the DHS Rule has varied, the total
budget is always measured in billions of dollars. Id. at 179. And from 2000 to 2015,
Medicaid expenses increased from 20% to 28% of the state’s budget. Id. at 179.
This Court can and should infer that invalidating the Rule will have a disproportionate impact on the States, particularly on border States. For example, Texas and
Montana have among the largest international borders in the Union and provide
Medicaid services to many immigrants. The Rule would reduce that burden. Under
the relevant statute, “[a]ny alien who . . . in the opinion of the Attorney General at
7

(36 of 42)

Case: 20-3150

Document: 25-3

Filed: 03/11/2021

Pages: 13

the time of application for admission or adjustment of status, is likely at any time to
become a public charge is inadmissible.” 8 U.S.C. § 1182(a)(4)(A). DHS’s rule defines “public charge” as “‘an alien who receives one or more public benefits . . . for
more than 12 months in the aggregate within any 36-month period.’” 84 Fed. Reg.
at 41,501. “Public benefits” specifically includes, among other forms of public assistance, Medicaid services with some exceptions. Id. Thus, if the Attorney General
determined that an alien applying for admission to the United States would likely
require Medicaid services for more than 12 months in a 36-month period, then that
alien would be inadmissible. Accordingly, fewer aliens requiring Medicaid and other
public services would be admitted to the United States, including into Texas and
Montana, thus reducing the States’ Medicaid budgets. Accordingly, each State Intervenor has a state interest in the subject matter of this action.
Third, the States’ interests in conserving their increasing Medicaid and related
social-welfare budgets will be impaired by the disposition of this case absent intervention. As explained above, the district court’s vacatur order was explicitly “not
limited to the State of Illinois.” See Memorandum Opinion & Order at 8, supra (ECF
222). In other words, though this case has been litigated by one county and one interest group, the district court’s ruling applies nationwide. Now that the United
States has voluntarily dismissed this appeal, nothing will stop the district court’s nationwide vacatur from taking effect and adversely impacting the States’ budgets, including their Medicaid expenditures.
Fourth, no party now adequately represents the States’ interests because no
party is left to defend the Rule. Absent the States’ intervention, all States will be
8

(37 of 42)

Case: 20-3150

Document: 25-3

Filed: 03/11/2021

Pages: 13

affected by the invalidation of the Rule without Texas and other similarly situated
States having the ability to defend those interests. For these reasons, the States are
entitled to intervene as of right.

II. The States also meet the criteria for permissive intervention.
For similar reasons, even if the Court concludes that the States do not meet the
standard to intervene as of right, it should use its discretion to allow the States to do
so. Under Rule 24(b), a movant seeking permissive intervention must show: (1) that
there exists an independent ground of subject matter jurisdiction; (2) that the motion
is timely; (3) that the movant’s claims or defenses share with the main action a common question of law or fact; and (4) that intervention will not result in undue delay
or prejudice to the existing parties. Fed R. Civ. P. 24(b)(1), 24(b)(1)(B), 24(b)(2),
24(b)(3); Security Ins. Co. of Hartford v. Schipporeit, Inc., 69 F.3d 1377, 1381 (7th Cir.
1995). Again, the States easily meet that standard.
Here, the requirements of an independent ground of subject-matter jurisdiction
and shared claims or defenses are not strictly applicable, as plaintiffs must demonstrate subject-matter jurisdiction, and the States seek to intervene as defendants by
stepping into the shoes of the United States. Kokkonen v. Guardian Life Ins. Co. of
Am., 511 U.S. 375, 377 (1994). But this Court would retain subject-matter jurisdiction
over this federal question, and the States intend to present similar defenses of the
Rule to those that were (until two days ago) presented by the federal government.
Cook County, 962 F.3d at 217. The States likewise enjoy an actual controversy against
the plaintiffs: they will be tangibly, economically affected by an adverse judgment
redressable by this Court, and thus this Court would retain Article III jurisdiction.
9

(38 of 42)

Case: 20-3150

Document: 25-3

Filed: 03/11/2021

Pages: 13

The timeliness and prejudice analyses discussed above apply equally to the
States’ ability to intervene permissively. The States filed this motion promptly after
they learned on March 9 that the United States would no longer defend the Rule,
and Plaintiffs will suffer no prejudice by this intervention because they were already
expected to continue to litigate this case until mere days ago.
This Court should exercise its discretion to permit the States to intervene to
defend their interests in avoiding increased costs by the invalidation of the Rule that
will otherwise go unprotected. The States have enormous financial obligations in
providing Medicaid and other public services and, until quite recently, had no need
to intervene to defend those interests. That need has changed due to unexpected
litigation tactics by the United States. This Court should not countenance this unprecedented turn.

[Remainder of case intentionally left back.]

10

(39 of 42)

Case: 20-3150

Document: 25-3

Filed: 03/11/2021

Pages: 13

Conclusion
This Court should grant the States leave to intervene as Defendant-Appellants.

Respectfully submitted.
Steve Marshall
Attorney General of Alabama

Ken Paxton
Attorney General of Texas

Mark Brnovich
Attorney General of Arizona

Brent Webster
First Assistant Attorney General

Leslie Rutledge
Attorney General of Arkansas

/s/ Judd E. Stone II
Judd E. Stone II
Solicitor General
Judd.Stone@oag.texas.gov

Todd Rokita
Attorney General of Indiana
DEREK SCHMIDT
Attorney General of Kansas
DANIEL CAMERON
Attorney General of Kentucky
Jeff Landry
Attorney General of Louisiana
Lynn Fitch
Attorney General of Mississippi

Lanora C. Pettit
Assistant Solicitor General
Benjamin Wallace Mendelson
Assistant Attorney General
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Fax: (512) 474-2697
Counsel for State Intervenors

Austin Knudsen
Attorney General of Montana
Dave Yost
Attorney General of Ohio

11

(40 of 42)

Case: 20-3150

Document: 25-3

Filed: 03/11/2021

Pages: 13

Mike Hunter
Attorney General of Oklahoma
Alan Wilson
Attorney General of
South Carolina
Patrick Morrisey
Attorney General of
West Virginia

Certificate of Conference
On March 11, 2021, counsel for the State of Texas conferred with counsel for
plaintiffs and for the United States, who advised that they are opposed to this motion.
/s/ Judd E. Stone II
Judd E. Stone II

Certificate of Service
On March 11, 2021, this motion was served via CM/ECF on all registered counsel and transmitted to the Clerk of the Court. Counsel further certifies that: (1) any
required privacy redactions have been made in compliance with local rules; (2) the
electronic submission is an exact copy of the paper document; and (3) the document
has been scanned with the most recent version of Symantec Endpoint Protection and
is free of viruses.
/s/ Judd E. Stone II
Judd E. Stone II

12

(41 of 42)

Case: 20-3150

Document: 25-3

Filed: 03/11/2021

Pages: 13

Certificate of Compliance
This brief complies with: (1) the type-volume limitation of Federal Rule of Appellate Procedure 27 because it contains 2,527 words, excluding the parts of the brief
exempted by Rule 32(f); and (2) the typeface requirements of Rule 32(a)(5) and the
type style requirements of Rule 32(a)(6) because it has been prepared in a proportionally spaced typeface (14-point Equity) using Microsoft Word (the same program
used to calculate the word count).
/s/ Judd E. Stone II
Judd E. Stone II

13

(42 of 42)

APPENDIX J

IN THE SUPREME COURT OF THE UNITED STATES

No. 20-449
UNITED STATES DEPARTMENT OF HOMELAND SECURITY, ET AL .,
PETITIONER S

v.
STATE OF NEW YORK, ET AL.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

JOINT STIPULATIO N TO DISMISS

Pursuant to Rule 46.1 of the Rules of this Court, all par t ies
respectfu lly request that this case be dismissed .

No fees are due

to the Clerk , and each party will bear its own costs.
Respectfu lly submitted .

\0

l

/C/'--..----

ELIZABETH B. PRELOGAR
Acting Solicitor General
United States Departmen t of Justice
Washingto n, D.C . 20530-0001
SupremeCtB riefs @usdoj.gov
(202) 514-2217

MARCH

j_,

Counsel for Pe titioners
202 1

2

BARBARA DALE UNDERWOOD
Solicitor Genera l
Office of the Attorney General
28 Liberty Street
New York , NY 10005 - 1400
Barbara . Underwood@ag.ny.gov
(212) 416 - 8016

Counsel for Respondents
State of New York ; State of
Connecticut; State of Vermont ; and
City of New York

MARCH

~,

2021

3

Paul , Weiss , Rifkind , Wharton &
Garrison LLP
1285 Avenue of the Americas
New York , NY 10019
jhurwitz@paulweiss . com
(212) 373 - 3254

Counsel for Respondents
Make the Road New York ; African
Services Committee ; Asian American
Federation ; Catholic Charities
Community Services (Archdiocese of New
York) ; and Catholic Legal Immigration
Network , Inc .

MARCH

_Ej

2021

APPENDIX K

Case 1:19-cv-07993-GBD-OTW Document 305 Filed 03/10/21 Page 1 of 2
U.S. Department of Justice
Civil Division, Federal Programs Branch

Keri Berman
Trial Attorney

Tel.: (202) 305-7538
E-mail: keri.l.berman@usdoj.gov

March 10, 2021
Hon. George B. Daniels
United States District Court
Southern District of New York
500 Pearl Street, Room 1310
New York, NY 10007
Re:
Agency Action Pertinent to New York v. U.S. Department of Homeland
Security, No. 19-7777, and Make the Road New York v. Renaud1, No. 19-7993
Dear Judge Daniels:
I represent the defendants in the above-captioned case. As Defendants reported previously,
on February 2, 2021, the President issued an Executive Order addressing issues pertinent to this
action, titled Executive Order on Restoring Faith in Our Legal Immigration Systems and
Strengthening Integration and Inclusion Efforts for New Americans. The Executive Order directs
heads of relevant agencies, including the Secretary of Homeland Security, to review agency actions
related to implementation of the public charge ground of inadmissibility, 8 U.S.C. § 1182(a)(4)(A),
in light of the policy set forth in the Executive Order and certain other considerations.
Defendants hereby notify the Court that, yesterday (March 9, 2021), DHS released a
statement indicating that (i) it “has determined that continuing to defend the final rule,
Inadmissibility on Public Charge Grounds . . . is neither in the public interest nor an efficient use
of limited government resources,” (ii) the Department of Justice is no longer “pursu[ing] appellate
review of judicial decisions invalidating or enjoining enforcement of the 2019 Rule,” and (iii)
“[o]nce the previously entered judicial invalidation of the 2019 Rule becomes final, the 1999

1

Tracy Renaud, Senior Official Performing the Duties of the Director of USCIS, is substituted as
defendant under Rule 25(d) of the Federal Rules of Civil Procedure.

Case 1:19-cv-07993-GBD-OTW Document 305 Filed 03/10/21 Page 2 of 2
-2interim field guidance on the public charge inadmissibility provision (i.e., the policy that was in
place before the 2019 Rule) will apply.” Ex. A.
Consistent with DHS’s statement, Defendants in another action related to the Final Rule,
ICIRR v. Mayorkas, 19-cv-6334 (N.D. Ill.), filed a motion to voluntarily dismiss their appeal of
the Court’s Order granting Plaintiffs’ Motion for Summary Judgment (ECF No. 221). See
Unopposed Motion to Voluntarily Dismiss, No. 20-3150, ECF No. 23 (7th Cir. March 9, 2021).
The Seventh Circuit promptly granted this motion, and concurrently issued its mandate. See Order
Dismissing Appeal, No. 20-3150, ECF No. 24-1 (7th Cir. March 9, 2021); Notice of Issuance of
Mandate, No. 20-3150, ECF No. 24-2 (7th Cir. March 9, 2021).
Shortly afterwards, DHS issued another statement, confirming that “[f]ollowing the
Seventh Circuit dismissal,” the “final judgment from the Northern District of Illinois, which
vacated the 2019 public charge rule, went into effect” and, “[a]s a result, the 1999 interim field
guidance on the public charge inadmissibility provision (i.e., the policy that was in place before
the 2019 public charge rule) is now in effect.” Ex. B.
Pursuant to the vacatur of the Final Rule, the condition of this Court’s February 22, 2021
Order, New York v. DHS, 19-cv-7777, ECF No. 276, entering a stay of proceedings for up to 90
days upon agreement that “no agency action will be taken during that period of time to enforce or
apply the public charge rule at issue in this litigation,” has been met.
Respectfully submitted,
/s/
Keri L. Berman
CC: All Counsel of record via ECF.

Case 1:19-cv-07993-GBD-OTW Document 305-1 Filed 03/10/21 Page 1 of 3

Exhibit A

3/9/2021

DHS Statement on Litigation Related
to the Public 305-1
Charge Ground
of Inadmissibility
Case 1:19-cv-07993-GBD-OTW
Document
Filed
03/10/21 | Homeland
Page 2Security
of 3

Official website of the Department of Homeland Security

U.S. Department of
Homeland Security

DHS Statement on Litigation
Related to the Public Charge
Ground of Inadmissibility
Release Date: March 9, 2021
On February 2, 2021, the President issued Executive Order 14,012, directing the Secretary of
Homeland Security to review the actions of the Department of Homeland Security (DHS or
Department) related to the implementation of the public charge ground of inadmissibility.
Consistent with the Executive Order, DHS has begun its review, as well as its consultation with
other relevant agencies.
As part of its review, DHS has determined that continuing to defend the final rule,
Inadmissibility on Public Charge Grounds, 84 Fed. Reg. 41,292 (Aug. 14, 2019) (2019 Rule), is
neither in the public interest nor an efficient use of limited government resources. Consistent
with that decision, the Department of Justice will no longer pursue appellate review of judicial
decisions invalidating or enjoining enforcement of the 2019 Rule.
Once the previously entered judicial invalidation of the 2019 Rule becomes final, the 1999
interim field guidance (https://www.federalregister.gov/documents/1999/05/26/99-13202/field-guidance-ondeportability-and-inadmissibility-on-public-charge-grounds) on the public charge inadmissibility

provision (i.e., the policy that was in place before the 2019 Rule) will apply. Under the 1999
interim field guidance, DHS will not consider a person’s receipt of Medicaid (except for
Medicaid for long-term institutionalization), public housing, or Supplemental Nutrition
Assistance Program (SNAP) benefits as part of the public charge inadmissibility
determination. In addition, medical treatment or preventive services for COVID-19, including
vaccines, will not be considered for public charge purposes.
DHS and USCIS will provide additional updates regarding the administration of the public
charge ground of inadmissibility, including announcing when DHS will cease applying the
2019 Rule.
https://www.dhs.gov/news/2021/03/09/dhs-statement-litigation-related-public-charge-ground-inadmissibility

1/2

3/9/2021

DHS Statement on Litigation Related
to the Public 305-1
Charge Ground
of Inadmissibility
Case 1:19-cv-07993-GBD-OTW
Document
Filed
03/10/21 | Homeland
Page 3Security
of 3

For more information on equal access to vaccines and vaccine distribution sites specifically,
please see DHS’s February 1 statement (https://www.dhs.gov/news/2021/02/01/dhs-statement-equalaccess-covid-19-vaccines-and-vaccine-distribution-sites) on that subject.

Keywords: Immigration Reform (/keywords/immigration-reform)
Last Published Date: March 9, 2021

https://www.dhs.gov/news/2021/03/09/dhs-statement-litigation-related-public-charge-ground-inadmissibility

2/2

Case 1:19-cv-07993-GBD-OTW Document 305-2 Filed 03/10/21 Page 1 of 3

Exhibit B

3/10/2021

DHS Secretary Statement
on the 2019305-2
Public Charge
Rule
| Homeland Security
Case 1:19-cv-07993-GBD-OTW
Document
Filed
03/10/21
Page 2 of 3

Official website of the Department of Homeland Security

U.S. Department of
Homeland Security

DHS Secretary Statement on the
2019 Public Charge Rule
Release Date: March 9, 2021
Today, DHS Secretary Alejandro N. Mayorkas announced that the government will no longer
defend the 2019 public charge rule as doing so is neither in the public interest nor an efficient
use of limited government resources.
“The 2019 public charge rule was not in keeping with our nation’s values. It penalized those
who access health benefits and other government services available to them,” said Secretary
of Homeland Security Alejandro N. Mayorkas. “Consistent with the President’s vision, we will
continue to implement reforms that improve our legal immigration system.”
President Biden’s Executive Order on Restoring Faith in Our Legal Immigration Systems and
Strengthening Integration and Inclusion Efforts for New Americans called for an immediate
review of agency actions on public charge inadmissibility and deportability. DHS’s review, in
consultation with the Departments of Justice and State and the federal benefits-granting
agencies, is ongoing.
As discussed in DHS’s litigation statement (http://www.dhs.gov/news/2021/03/09/dhs-statement-litigationrelated-public-charge-ground-inadmissibility) , and consistent with the government’s decision not to

defend the rule, the Department of Justice is no longer pursuing appellate review of judicial
decisions invalidating or enjoining enforcement of the 2019 public charge rule. Today, the
Department of Justice dismissed its pending appeals in the Supreme Court and Seventh
Circuit, and is in the process of doing so in the Fourth Circuit. Following the Seventh Circuit
dismissal this afternoon, the final judgment from the Northern District of Illinois, which
vacated the 2019 public charge rule, went into effect. As a result, the 1999 interim field
guidance on the public charge inadmissibility provision (i.e., the policy that was in place
before the 2019 public charge rule) is now in effect.
Topics: Citizenship and Immigration Services (/topics/immigration-and-citizenship-services) , Citizenship and Immigration
Services Ombudsman (/topics/citizenship-and-immigration-services-ombudsman) , Homeland Security Enterprise
https://www.dhs.gov/news/2021/03/09/dhs-secretary-statement-2019-public-charge-rule

1/2

3/10/2021

DHS Secretary Statement
on the 2019305-2
Public Charge
Rule
| Homeland Security
Case 1:19-cv-07993-GBD-OTW
Document
Filed
03/10/21
Page 3 of 3

(/topics/homeland-security-enterprise) , Secretary of Homeland Security (/topics/secretary-homeland-security)

Keywords: Immigration (/keywords/immigration)
Last Published Date: March 9, 2021

https://www.dhs.gov/news/2021/03/09/dhs-secretary-statement-2019-public-charge-rule

2/2

APPENDIX L

Case: 19-35914, 03/10/2021, ID: 12031586, DktEntry: 141, Page 1 of 18

No. 19-17213, 19-17214, 19-35914
______________________
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
______________________
CITY AND COUNTY OF SAN FRANCISCO; COUNTY OF SANTA
CLARA,
Plaintiffs-Appellees,
v.
UNITED STATES CITIZENSHIP AND IMMIGRATION SERVICES, et al.,
Defendants-Appellants,
and
STATE OF ARIZONA,
Proposed Intervenor-Defendant-Appellant.
______________________
ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
Case No. 4:19-cv-04975-PJH
______________________
MOTION TO INTERVENE BY THE STATES OF
ARIZONA, ALABAMA, ARKANSAS, INDIANA,
KANSAS, LOUISIANA, MISSISSIPPI, MONTANA,
OKLAHOMA, TEXAS, AND WEST VIRGINIA.
______________________
MARK BRNOVICH
ATTORNEY GENERAL

Drew C. Ensign
Deputy Solicitor General
Robert J. Makar
Assistant Attorney General

Joseph A. Kanefield
Chief Deputy & Chief of Staff
Brunn (“Beau”) W. Roysden III
Solicitor General
2005 N. Central Avenue
Telephone: (602) 542-8958
Drew.Ensign@azag.gov
Counsel for the State of Arizona

Dated: March 10, 2021
(additional counsel listed on signature page)

Case: 19-35914, 03/10/2021, ID: 12031586, DktEntry: 141, Page 2 of 18

TABLE OF CONTENTS
PAGE
TABLE OF AUTHORITIES................................................................................... ii
INTRODUCTION .................................................................................................. 1
BACKGROUND ..................................................................................................... 2
LEGAL STANDARD ............................................................................................. 5
ARGUMENT .......................................................................................................... 6
I.

II.

THIS COURT SHOULD GRANT THE STATES
INTERVENTION AS OF RIGHT ......................................................... 6
A.

The States’ Motion To Intervene Is Timely............................... 6

B.

The State Has A Significant Protectable Interest In The
Subject Matter Of This Action, Which Would Be
Affected By Any Adverse Ruling That Stands. ....................... 8

C.

Intervention By The State Now Will Ensure That The
State’s Interests Will Be Adequately Represented. ................. 9

PERMISSIVE INTERVENTION IS WARRANTED HERE ............. 10

CONCLUSION ..................................................................................................... 11

i

Case: 19-35914, 03/10/2021, ID: 12031586, DktEntry: 141, Page 3 of 18

TABLE OF AUTHORITIES
PAGE
CASES
Alfred L. Snapp & Son, Inc. v. Puerto Rico ex rel. Barez,
458 U.S. 592 (1982)............................................................................................... 9
Arakaki v. Cayetano,
324 F.3d 1078 (9th Cir. 2003) ............................................................................ 10
Citizens for Balanced Use v. Mont. Wilderness Ass’n,
647 F.3d 893 (9th Cir. 2011) .............................................................................. 10
City & Cty. of San Francisco v. U.S. Citizenship & Immigration Servs.,
944 F.3d 773 (9th Cir. Dec. 2019) ..................................................................... 12
City & Cty. of San Francisco v. U.S. Citizenship & Immigration Servs.,
981 F.3d 742 (9th Cir. 2020) .................................................................. 1, 3, 9, 12
Day v. Apoliona,
505 F.3d 963 (9th Cir. 2007) ................................................................................ 6
Dep't of Homeland Sec. v. New York, No. 20-449,
__ S. Ct. __, 2021 WL 666376 (Feb. 22, 2021) .................................................... 1
Int’l Union, United Auto., Aerospace & Agric. Implement Workers of
America, AFL-CIO, Local 283 v. Scofield,
382 U.S. 205 (1965)............................................................................................... 6
Mass. Sch. of Law at Andover, Inc. v. United States,
118 F.3d 776 (D.C. Cir. 1997) .............................................................................. 6
Perry v. Proposition 8 Official Proponents,
587 F.3d 947 (9th Cir. 2009) ........................................................................ 10, 11
Perry v. Schwarzenegger,
630 F.3d 898 (9th Cir. 2011) ........................................................................ 11, 12
Prete v. Bradbury,
438 F.3d 949 (9th Cir. 2006) ................................................................................ 6
Sierra Club v. Espy,
18 F.3d 1202 (5th Cir. 1994) ................................................................................ 8

ii

Case: 19-35914, 03/10/2021, ID: 12031586, DktEntry: 141, Page 4 of 18

Sierra Club, Inc. v. EPA,
358 F.3d 516 (7th Cir. 2004) ................................................................................ 6
Sw. Ctr. for Biological Diversity v. Berg,
268 F.3d 810 (9th Cir. 2001) ............................................................................ 6, 7
U.S. ex rel McGough v. Covington Technologies Co.,
967 F.2d 1391 (9th Cir. 1992) .......................................................................... 7, 8
United Airlines, Inc. v. McDonald,
432 U.S. 385 (1977)............................................................................................... 7
Wilderness Soc’y v. U.S. Forest Serv.,
630 F.3d 1173 (9th Cir. 2011) .............................................................................. 6
Yniguez v. Arizona,
939 F.2d 727 (9th Cir. 1991) ................................................................................ 7
STATUTES
8 U.S.C. § 1182(a)(4)(A) ......................................................................................... 2
OTHER AUTHORITIES
Center on Budget and Policy Priorities, Arizona TANF Spending, (2019),
https://www.cbpp.org/sites/default/files/atoms/files/tanf_spendi
ng_az.pdf .............................................................................................................. 4
Center on Budget and Policy Priorities, Policy Basics: An Introduction to
TANF (2018),
https://www.cbpp.org/sites/default/files/atoms/files/7-2210tanf2.pdf ........................................................................................................... 5
Daniel Geller et al., AG-3198-D-17-0106, Exploring the Causes of State
Variation in SNAP Administrative Costs (2019), https://fnsprod.azureedge.net/sites/default/files/media/file/SNAP-StateVariation-Admin-Costs-FullReport.pdf .......................................................... 5
Food and Nutrition Service, Supplemental Nutrition Assistance Program
State Activity Report Fiscal Year 2016 (2017), https://fnsprod.azureedge.net/sites/default/files/snap/FY16-State-ActivityReport.pdf ............................................................................................................ 5
Inadmissibility on Public Charge Grounds,
84 Fed. Reg. 41,292 (Aug. 14, 2019) ......................................................... 1, 3, 10

iii

Case: 19-35914, 03/10/2021, ID: 12031586, DktEntry: 141, Page 5 of 18

March 19, 2020 Order, available at
https://www.supremecourt.gov/orders/courtorders/031920zr_d1o3
.pdf ........................................................................................................................ 8
Medicaid and CHIP Payment and Access Commission, MACStats:
Medicaid and CHIP Data Book (2020), https://www.macpac.gov/wpcontent/uploads/2020/12/MACStats-Medicaid-and-CHIP-DataBook-December-2020.pdf ................................................................................... 4
Robin Rudowitz et al., Medicaid Enrollment & Spending Growth: FY 2018
& 2019 (2018), http://files.kff.org/attachment/Issue-Brief-MedicaidEnrollment-and-Spending-Growth-FY-2018-2019 ......................................... 4
RULES
Fed. R. Civ. P. 24(a)(2) ........................................................................................... 6
Fed. R. Civ. P. 24(b)(1)(B) .................................................................................... 11

iv

Case: 19-35914, 03/10/2021, ID: 12031586, DktEntry: 141, Page 6 of 18

INTRODUCTION
The States of Arizona, Alabama, Arkansas, Indiana, Kansas,
Louisiana, Mississippi, Montana, Oklahoma, Texas, and West Virginia (the
“States”) respectfully move to intervene in this action, both as of right and
permissively. The States seek intervention so that they can file a petition
for certiorari seeking review of this Court’s December 2, 2020 decision,
which considered the validity of a 2019 Rule, Inadmissibility on Public
Charge Grounds, 84 Fed. Reg. 41,292 (Aug. 14, 2019) (“Public Charge
Rule”).

See generally City & Cty. of San Francisco v. U.S. Citizenship &

Immigration Servs. (“San Francisco”), 981 F.3d 742 (9th Cir. 2020). Because
invalidation of the Public Charge Rule will impose injury on the States—
estimated at $1.01 billion in foregone savings in transfer payments for all
states annually—and all of the requirements for intervention are met, this
Court should grant this motion.1
The “cert. worthiness” of the States’ potential petition is already
apparent: the Supreme Court already granted review in a case involving
identical issues. See Dep't of Homeland Sec. v. New York, No. 20-449, __ S. Ct.
__, 2021 WL 666376, at *1 (Feb. 22, 2021). And this Court specifically stayed
the mandate in this action “pending the Supreme Court’s final disposition”
The Plaintiffs in the three cases and the Federal Defendants oppose this
motion.
1

1

Case: 19-35914, 03/10/2021, ID: 12031586, DktEntry: 141, Page 7 of 18

of that petition and a petition in “Wolf v. Cook County, Illinois, petition for
cert. pending, No. 20-450 (filed Oct. 7, 2020).” Doc. 139 at 3 (No. 19-17213).
But despite successfully convincing the Supreme Court to grant
certiorari on February 22, Defendants suddenly shifted course and filed a
joint stipulation of voluntary dismissal of their petitions on March 9, which
was granted the same day by the Clerk of the Supreme Court. In essence,
Federal Defendants have now effectively abandoned defense of the Public
Charge Rule.
Because invalidation of the Public Charge Rule will directly harm the
States, they now seek to intervene to offer a defense of the rule so that its
validity can be resolved on the merits, rather than through strategic
surrender. This motion is plainly timely, filed a single day after the Federal
Defendants’ volte-face, which made plain that the States’ interests were no
longer being adequately represented.
BACKGROUND
These appeals involve challenges to the 2019 final rule that defined
“public charge” for purposes of federal immigration law, specifically 8
U.S.C. § 1182(a)(4)(A). Given this Court’s familiarity with the background
of this case, as evident from its 47-page slip opinion, the States will not
belabor it here.
A few important facts are particularly salient for the instant motion,

2

Case: 19-35914, 03/10/2021, ID: 12031586, DktEntry: 141, Page 8 of 18

however.

As this Court noted, “The Rule itself predicts a 2.5 percent

decrease in enrollment in public benefit programs[.]” San Francisco, 981
F.3d at 754 (citing Public Charge Rule, 84 Fed. Reg. at 41,302, 41,463). In
addition, the federal government only pays a portion of the costs involved
in the public benefit programs at issue:
For example, the Federal Government funds all SNAP
food expenses, but only 50 percent of allowable
administrative costs for regular operating expenses.
Similarly, Federal Medical Assistance Percentages
(FMAP) in some U.S. Department of Health and Human
Services (HHS) programs, like Medicaid, can vary from
between 50 percent to an enhanced rate of 100 percent in some
cases. Since the state share of federal financial
participation (FFP) varies from state to state, DHS uses
the average FMAP across all states and U.S. territories of
59 percent to estimate the amount of state transfer payments.
Public Charge Rule, 84 Fed. Reg. at 41,301 (emphases added). DHS thus
estimated that the Public Charge Rule would save all of the states “about
$1.01 billion annually” in direct payments. Id. (emphasis added).
More generally, the Public Charge Rule will reduce demand on
States’ already over-stretched assistance programs. For example:
• In FY 2019, Arizona spent $3,059,000,000 on Medicaid benefits
and $104,000,000 on administrative costs for Medicaid (as well
as the Children’s Health Insurance Program).2 Increasing the
Medicaid and CHIP Payment and Access Commission, MACStats:
Medicaid and CHIP Data Book 45 (2020), https://www.macpac.gov/wp2

3

Case: 19-35914, 03/10/2021, ID: 12031586, DktEntry: 141, Page 9 of 18

number of Medicaid participants would increase the State’s
spending on Medicaid (the costs of which typically exceed State
general fund growth) and would require the State to make
budget adjustments elsewhere.3
• In 2019, Arizona paid $85 million in maintenance-of-effort costs
for the Temporary Assistance for Needy Families program
(“TANF”).4 Because TANF resources are limited—in 2016, less
than a quarter of impoverished families received this
assistance5—admitting aliens into the United States who are not
likely to utilize this resource will make this program more
accessible to others who are in need.
• States incur administrative costs for each SNAP recipient.6 For
FY 2016, Arizona paid $77,730,088 in administrative costs for
content/uploads/2020/12/MACStats-Medicaid-and-CHIP-Data-BookDecember-2020.pdf
3
Robin Rudowitz et al., Medicaid Enrollment & Spending Growth: FY 2018 &
2019 5 (2018), http://files.kff.org/attachment/Issue-Brief-MedicaidEnrollment-and-Spending-Growth-FY-2018-2019
4
Center on Budget and Policy Priorities, Arizona TANF Spending, (2019),
https://www.cbpp.org/sites/default/files/atoms/files/tanf_spending_az
.pdf
5
Center on Budget and Policy Priorities, Policy Basics: An Introduction to
TANF (2018), https://www.cbpp.org/sites/default/files/atoms/files/722-10tanf2.pdf
6
Daniel Geller et al., AG-3198-D-17-0106, Exploring the Causes of State
Variation in SNAP Administrative Costs 18–19 (2019), https://fns-

4

Case: 19-35914, 03/10/2021, ID: 12031586, DktEntry: 141, Page 10 of 18

administering this program.7

By admitting aliens who are

unlikely to depend on this resource, the State will save money
that would have otherwise gone to fund administrative costs
for aliens who would depend on the program.
LEGAL STANDARD
This Court’s consideration of a motion to intervene is governed by
Federal Rule of Civil Procedure 24. See Int’l Union, United Auto., Aerospace
& Agric. Implement Workers of America, AFL-CIO, Local 283 v. Scofield, 382
U.S. 205, 217 n.10 (1965); Day v. Apoliona, 505 F.3d 963, 965 (9th Cir. 2007);
see also Sierra Club, Inc. v. EPA, 358 F.3d 516, 517-18 (7th Cir. 2004)
(“[A]ppellate courts have turned to ... Fed. R. Civ. P. 24.”); Mass. Sch. of Law
at Andover, Inc. v. United States, 118 F.3d 776, 779 (D.C. Cir. 1997) (same).
Rule 24(a) authorizes anyone to intervene in an action as of right
when the applicant demonstrates that
(1) the intervention application is timely; (2) the applicant
has a “significant protectable interest relating to the
property or transaction that is the subject of the action”;
(3) “the disposition of the action may, as a practical
matter, impair or impede the applicant’s ability to protect
prod.azureedge.net/sites/default/files/media/file/SNAP-State-VariationAdmin-Costs-FullReport.pdf
7
Food and Nutrition Service, Supplemental Nutrition Assistance Program
State Activity Report Fiscal Year 2016 12 (2017), https://fnsprod.azureedge.net/sites/default/files/snap/FY16-State-ActivityReport.pdf

5

Case: 19-35914, 03/10/2021, ID: 12031586, DktEntry: 141, Page 11 of 18

its interest”; and (4) “the existing parties may not
adequately represent the applicant’s interest.”
Prete v. Bradbury, 438 F.3d 949, 954 (9th Cir. 2006); see also Fed. R. Civ. P.
24(a)(2).

Rule 24(a) is to construed “‘broadly in favor of proposed

intervenors. ’” Wilderness Soc’y v. U.S. Forest Serv., 630 F.3d 1173, 1179 (9th
Cir. 2011).
This Court’s intervention analysis is “‘guided primarily by practical
considerations,’ not technical distinctions.” Sw. Ctr. for Biological Diversity
v. Berg, 268 F.3d 810, 818 (9th Cir. 2001); see also Wilderness Soc’y, 630 F.3d at
1179 (reiterating importance of “‘practical and equitable considerations’” as
part of judicial policy favoring intervention).

Courts are “required to

accept as true the non-conclusory allegations made in support of an
intervention motion.” Berg, 268 F.3d at 819.
ARGUMENT
I.

THIS COURT SHOULD GRANT THE STATES INTERVENTION
AS OF RIGHT
A.

The States’ Motion To Intervene Is Timely

This Court has repeatedly explained that “the ‘general rule is that a
post-judgment motion to intervene is timely if filed within the time
allowed for the filing of an appeal.’” U.S. ex rel McGough v. Covington
Technologies Co., 967 F.2d 1391, 1394 (9th Cir. 1992) (quoting Yniguez v.
Arizona, 939 F.2d 727, 734 (9th Cir. 1991) (alteration omitted)).

6

The

Case: 19-35914, 03/10/2021, ID: 12031586, DktEntry: 141, Page 12 of 18

Supreme Court has similarly held that where a party “filed [its] motion
within the time period in which the named plaintiffs could have taken an
appeal … the [party’s] motion to intervene was timely filed[.]” United
Airlines, Inc. v. McDonald, 432 U.S. 385, 396 (1977).
Under 28 U.S.C. § 2101(c), parties generally have 90 days to file a
petition for certiorari. That period has now been extended to 150 days as a
matter of course during the coronavirus pandemic.8 The deadline to file a
petition for seek Supreme Court review here is thus May 1, 2021 (150 days
after this Court’s December 2, 2020 Opinion). This motion is filed more than
a month before that deadline, and is therefore timely.
More generally, this motion presents no prejudice to the other
parties. See Sierra Club v. Espy, 18 F.3d 1202, 1205 (5th Cir. 1994) (holding
that the “requirement of timeliness is ... a guard against prejudicing the
original parties”).

Intervention here only ensures that these cases and

others will be resolved on the merits, rather than through abdication.
Denying the parties a potential opportunity to obtain their desired ends
through the contrivance of surrender inflicts no cognizable prejudice.
Instead, the parties’ positions will be “essentially the same as it would have

March
19,
2020
Order,
available
at
https://www.supremecourt.gov/orders/courtorders/031920zr_d1o3.pdf.
8

7

Case: 19-35914, 03/10/2021, ID: 12031586, DktEntry: 141, Page 13 of 18

been” had the State intervened earlier in the proceedings. McGough, 967
F.2d at 1395.
B.

The State Has A Significant Protectable Interest In The
Subject Matter Of This Action, Which Would Be Affected By
Any Adverse Ruling That Stands.

As set forth above, the States’ have a protectable interest in the
continuing validity of the Public Charge Rule. It is estimated that the rule
will save all of the states cumulatively $1.01 billion annually, and the
moving States here would save a share of that amount. Supra at 2-5. And
invalidating the Public Charge Rule9 will deprive the States of those
savings, thereby injuring them. More generally, the Public Charge Rule
would reduce demands on States’ already overstretched assistance
programs and invalidating it will harm them accordingly.
In addition, the States have “quasi-sovereign interest[s] in the health
and well-being—both physical and economic—of [their] residents in
general.” Alfred L. Snapp & Son, Inc. v. Puerto Rico ex rel. Barez, 458 U.S. 592,
607 (1982). The Public Charge Rule serves that interest by promoting selfreliance of their residents and encouraging immigration of non-citizens
9

Although the preliminary injunctions at issue no longer directly apply in
the States following this Court’s vacatur of the nationwide injunction, San
Francisco, 981 F.3d at 763, this Court outright held that the Public Charge
Rule violates the Administrative Procedure Act. San Francisco, 981 F.3d at
762. As such, absent Supreme Court review, the district courts on remand
will be required to enter judgment in favor of Plaintiffs on the merits, and
vacatur of the Public Charge Rule is at least likely.

8

Case: 19-35914, 03/10/2021, ID: 12031586, DktEntry: 141, Page 14 of 18

(including into the States) who are not dependent upon public resources.
84 Fed. Reg. 41,305. But invalidating the rule will injure the States by
depriving them of these beneficial impacts.
C.

Intervention By The State Now Will Ensure That The State’s
Interests Will Be Adequately Represented.

This Court has held that the “burden of showing inadequacy of
representation is ‘minimal’ and satisfied if the applicant can demonstrate
that representation of its interests ‘may be’ inadequate.”

Citizens for

Balanced Use v. Mont. Wilderness Ass’n, 647 F.3d 893, 898 (9th Cir. 2011)
(quoting Arakaki v. Cayetano, 324 F.3d 1078, 1086 (9th Cir. 2003)). The Court
considers several factors, including
(1) whether the interest of a present party is such that it
will undoubtedly make all of a proposed intervenor’s
arguments; (2) whether the present party is capable and
willing to make such arguments; and (3) whether a
proposed intervenor would offer any necessary elements
to the proceeding that other parties would neglect.
Perry v. Proposition 8 Official Proponents, 587 F.3d 947, 952 (9th Cir. 2009).
Here, Federal Defendants have essentially abandoned their defense
of the Public Charge Rule, and it is doubtful that they will make any further
arguments in support of it, let alone willing to make “all of a proposed
intervenor’s arguments.”

Id.

The States’ protectable interests in the

continued validity of the Public Charge Rule are thus not adequately
represented by the Federal Defendants.

9

Case: 19-35914, 03/10/2021, ID: 12031586, DktEntry: 141, Page 15 of 18

II.

PERMISSIVE INTERVENTION IS WARRANTED HERE
Even if the Court declines to grant the States’ timely motion to

intervene as of right, this is precisely the type of case where permissive
intervention is warranted.

Federal courts may permit intervention by

litigants who have “a claim or defense that shares with the main action a
common question of law or fact.” Fed. R. Civ. P. 24(b)(1)(B). Where a
litigant “timely presents such an interest in intervention,” the Court should
consider:
[T]he nature and extent of the intervenors’ interest, their
standing to raise relevant legal issues, the legal position
they seek to advance, and its probable relation to the
merits of the case[,] whether changes have occurred in
the litigation so that intervention that was once denied
should be reexamined, whether the intervenors’ interests
are adequately represented by other parties, whether
intervention will prolong or unduly delay the litigation,
and whether parties seeking intervention will
significantly contribute to full development of the
underlying factual issues in the suit and to the just and
equitable adjudication of the legal questions presented.
Perry v. Schwarzenegger, 630 F.3d 898, 905 (9th Cir. 2011).
As set forth above, this motion is timely and the States have a
compelling stake in the outcome of these actions.
Moreover, the issues presented here are exceptionally important and
hotly debated—as evidenced by the splits among four circuit courts and
the Supreme Court granting certiorari. Those important issues should be

10

Case: 19-35914, 03/10/2021, ID: 12031586, DktEntry: 141, Page 16 of 18

decided on the merits, rather than through surrender.

The State’s

participation will “significantly contribute to ... the just and equitable
adjudication of the legal questions presented.” Schwarzenegger, 630 F.3d at
905. Moreover, a central issue in these cases was the costs imposed on the
states. City & Cty. of San Francisco v. U.S. Citizenship & Immigration Servs.,
944 F.3d 773, 801-04 (9th Cir. Dec. 2019); San Francisco, 981 F.3d at 759-60.
The presence of the moving States here will ensure that the broad
perspective of the several states is represented.
A favorable exercise of discretion is therefore warranted.
CONCLUSION
For the foregoing reasons, the States’ motion to intervene should be
granted.

11

Case: 19-35914, 03/10/2021, ID: 12031586, DktEntry: 141, Page 17 of 18

Respectfully submitted this March 10, 2020.
MARK BRNOVICH
ATTORNEY GENERAL
s/ Drew C. Ensign
MARK BRNOVICH
ATTORNEY GENERAL
Joseph A. Kanefield
Chief Deputy & Chief of Staff
Brunn (“Beau”) W. Roysden III
Solicitor General
2005 N. Central Avenue
Telephone: (602) 542-8958
Drew.Ensign@azag.gov
Counsel for the State of Arizona

Drew C. Ensign
Deputy Solicitor General
Robert J. Makar
Assistant Attorney General
Dated: March 10, 2021
Also supported by:
STEVE MARSHALL
Alabama Attorney General

AUSTIN KNUDSEN
Montana Attorney General

LESLIE RUTLEDGE
Arkansas Attorney General

LYNN FITCH
Mississippi Attorney General

THEODORE E. ROKITA
Indiana Attorney General

MIKE HUNTER
Oklahoma Attorney General

DEREK SCHMIDT
Kansas Attorney General

KEN PAXTON
Texas Attorney General

JEFF LANDRY
Louisiana Attorney General

PATRICK MORRISEY
West Virginia Attorney General

12

Case: 19-35914, 03/10/2021, ID: 12031586, DktEntry: 141, Page 18 of 18

CERTIFICATE OF SERVICE
I hereby certify that on this 10th day of March, 2020, I caused the
foregoing document to be electronically transmitted to the Clerk’s Office
using the CM/ECF System for Filing and transmittal of a Notice of
Electronic Filing to CM/ECF registrants.
s/ Drew C. Ensign
Drew C. Ensign

13

APPENDIX M

USCA4 Appeal: 19-2222

Doc: 213

Filed: 03/11/2021

Pg: 1 of 17

No. 19-2222

In the United States Court of Appeals
for the Fourth Circuit
Casa de Maryland, et al. ,
Plaintiffs-Appellees,
v.
Joseph R. Biden, in his official capacity as President of
the United States, et al.,
Defendants-Appellants.
On Appeal from the United States District Court
for the District of Maryland
MOTION TO RECALL THE MANDATE TO PERMIT
INTERVENTION AS APPELLANT
Ken Paxton
Attorney General of Texas
Brent Webster
First Assistant Attorney General
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Fax: (512) 474-2697

Judd E. Stone II
Solicitor General
Judd.Stone@oag.texas.gov
Lanora C. Pettit
Assistant Solicitor General
Benjamin Wallace Mendelson
Assistant Attorney General
Counsel for State Intervenor

USCA4 Appeal: 19-2222

Doc: 213

Filed: 03/11/2021

Pg: 2 of 17

Local Rule 26.1 Disclosure Statement
No. 19-2222
Casa de Maryland, et al. ,
Plaintiffs-Appellees,
v.
Joseph R. Biden, in his official capacity as President of
the United States, et al.,
Defendants-Appellants.
Pursuant to Local Rule 26.1, I am not aware of any publicly held corporation,
whether or not a party to the present litigation, that has a direct financial interest in
the outcome of this litigation by reason of a franchise, lease, other profit-sharing
agreement, insurance, or indemnity agreement. I am also not aware of any similarly
situated master limited partnerships, real estate investment trusts, or other legal entities whose shares are publicly held or traded. I represent that the following parties
seek to leave to intervene, and that the following attorneys represent, have represented, or expected to represent the States in this matter.
Intervenors:
State of Texas
State of Alabama
State of Arizona
State of Arkansas
State of Indiana
State of Kansas
State of Kentucky
State of Louisiana
State of Mississippi
State of Montana
State of Ohio
State of Oklahoma
i

USCA4 Appeal: 19-2222

Doc: 213

Filed: 03/11/2021

Pg: 3 of 17

State of South Carolina
State of West Virginia
Counsel for Intervenors:
Ken Paxton
Brent Webster
Judd E. Stone II (counsel of record)
Lanora C. Pettit
Benjamin Wallace Mendelson
Office of the Attorney General
P.O. Box 12548 (MC-059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Fax: (512) 474-2697
Judd.Stone@oag.texas.gov

/s/ Judd E. Stone II
Judd E. Stone II
Counsel of Record for
State Intervenors

ii

USCA4 Appeal: 19-2222

Doc: 213

Filed: 03/11/2021

Pg: 4 of 17

Introduction
The States of Texas, Alabama, Arizona, Arkansas, Indiana, Kansas, Kentucky,
Louisiana, Mississippi, Montana, Ohio, Oklahoma, South Carolina, and West Virginia seek to intervene in this case to defend a duly promulgated rule interpreting the
Immigration and Nationality Act’s prohibition against immigration by those who
would become a public charge (the “Rule”). Two days ago, the named defendants,
who are agents or agencies of the United States, filed a stipulated motion to dismiss
this appeal. The Court granted that stipulated motion and issued its mandate without
offering affected parties, including the States, an opportunity to seek to defend the
Rule.
The Rule directly implicates the States’ obligations in providing Medicaid and
other social services to indigent and low-income individuals. Moreover, the States,
especially the border States, have strong interests in enforcing the Rule, which
properly interpreted and implemented Congress’s long-held policy of immigrant
self-sufficiency. This request is timely: until two days ago, the United States and associated federal defendants defended the Rule’s legality.
Because the Court issued its mandate just two days after the United States announced that it would no longer defend the Rule, interested parties had no ability to
intervene before it did so. And because the United States did not inform the States
that it intended to cease defending the Rule before abandoning numerous cases supporting the Rule nationwide, the States did not have an opportunity to intervene at
an earlier point. The Court should not allow the federal government to use litigation
stipulations to evade the Administrative Procedure Act’s strictures on modifying

USCA4 Appeal: 19-2222

Doc: 213

Filed: 03/11/2021

Pg: 5 of 17

rules a new Administration finds uncongenial without at least allowing interested
parties the opportunity to defend the case.

Background
This immigration case concerns the hotly contested public charge rule. Under
federal law, “any alien who . . . in the opinion of the Attorney General at the time of
application for admission or adjustment of status, is likely to become a public charge
is inadmissible.” 8 U.S.C. § 1182(a)(4)(A).
In 2019, following extensive notice and comment, the Department of Homeland
Security issued a final rule adopting a new definition of “public charge” for purposes
of this statute. Casa de Maryland, Inc. v. Trump, 971 F.3d 220, 234 (4th Cir. 2020),
vacated for rehearing en banc, 981 F.3d 311, 314. The new rule defines “public charge”
as “‘an alien who receives one or more public benefits . . . for more than 12 months
in the aggregate within any 36-month period.’” Id. at 234 (quoting 84 Fed. Reg. at
41,501). The rule further explains that “public benefits” include non-cash benefits
that are partially funded by the States, including certain Medicaid benefits. Id.
The plaintiffs, CASA de Maryland, Inc. and two individuals, filed this action in
the United States District Court for the District of Maryland against the President,
the Secretary of Homeland Security, and other Federal Defendants in their official
capacities. The plaintiffs alleged that the Rule violates both the APA and the Fifth
Amendment. Id. at 236. They moved for a preliminary injunction to block the rule
from taking effect. Id. The district court granted the motion and entered a nationwide injunction preventing the federal defendants from enforcing the rule anywhere.
Id.
2

USCA4 Appeal: 19-2222

Doc: 213

Filed: 03/11/2021

Pg: 6 of 17

A panel of this court reversed. It held that that the rule “rests on an interpretation of ‘public charge’ that comports with a straightforward reading of the [statute].” Id. at 242. The panel further ruled that the district court “erred in its choice
of remedy” by issuing a “plainly overbroad” nationwide injunction. Id. at 255-56.
The plaintiffs moved for rehearing en banc, which the court granted. Casa de
Maryland, Inc. v. Trump, 981 F.3d 311, 314 (4th Cir. 2020). The court called for supplemental briefing “to address relevant developments concerning the Public Charge
Rule.” ECF 158 at 2. The defendants responded that on February 2, 2021, President
Biden issued an Executive Order directing a review of the DHS rule, so the Defendants suggested that the court postpone en banc oral argument until that review is
complete. ECF 188 at 3. The court agreed and removed the case from the oral argument calendar. ECF 208 at 2-3.
On March 9, 2021, without beginning the process to rescind the Rule or providing notice to parties who would normally be entitled to participate in notice-andcomment rulemaking, the defendants filed an unopposed motion to dismiss the appeal. ECF 210 at 1. This Court granted that motion. It also issued its mandate without allowing any potentially interested parties to seek leave to intervene and defend
the rule. As a result, the public charge rule will become (absent intervention and a
stay) unenforceable in any State.
Because the defendants will no longer defend a rule directly implicating the
States’ interests, the States now move this Court to withdraw its mandate, to reconsider its dismissal, and for leave to intervene in defense of the Rule.

3

USCA4 Appeal: 19-2222

Doc: 213

Filed: 03/11/2021

Pg: 7 of 17

I. The Court Should Recall the Mandate.
The Court should recall the mandate and has the “inherent power” to do so.
Calderon v. Thompson, 523 U.S. 538, 549 (1998); see also United States v. Tolliver, 116
F.3d 120, 123 (5th Cir. 1997) (“Our authority to recall our own mandate is clear.”).
Recalling the mandate is appropriate in “extraordinary circumstances” and to prevent injustice. Calderon, 523 U.S. at 550.
As described below, extraordinary circumstances justify recalling the mandate
where the State Intervenors were presented no opportunity to preserve their interests in this litigation. Until March 9, the State Intervenors’ interests were represented by the United States. The United States did not inform the State Intervenors
that it intended to withdraw its defense of the Rule, depriving the States of an opportunity to seek leave to intervene prior to its seeking dismissal of this appeal. Likewise,
this Court’s almost immediate issuance of the mandate following the motion to dismiss prevented the States from seeking leave to intervene prior to dismissal once the
intentions of the United States not to defend the Rule became public.
The harms to the State Intervenors—who include multiple border States—from
allowing the district court’s nationwide injunction to take effect are severe and will
hamper state officials’ ability to act in a period of great budgetary uncertainty. The
mandate should be recalled.

II. The Court Should Stay the Mandate Pending Resolution of Any Petition for a Writ of Certiorari.
Once recalled, the Court should stay further issuance of the mandate until the
States obtain review in this Court and, if necessary, on a petition for certiorari.

4

USCA4 Appeal: 19-2222

Doc: 213

Filed: 03/11/2021

Pg: 8 of 17

A motion to stay the mandate pending the filing of a petition for writ of certiorari
“must show that the petition would present a substantial question and that there is
good cause for a stay.” Fed. R. App. P. 41(d)(1). Under this standard, there must be
(1) “a reasonable probability that four members of the [Supreme] Court would consider the underlying issue sufficiently meritorious for the grant of certiorari,” (2) “a
significant possibility of reversal of the lower court’s decision,” and (3) “a likelihood
that irreparable harm will result if that decision is not stayed.” Baldwin v. Maggio,
715 F.2d 152, 153 (5th Cir. 1983). This case easily meets that standard.

A. The Supreme Court is likely to grant certiorari.
The Supreme Court is not only likely to grant certiorari—it had already done so.
Dep’t of Homeland Sec., 2021 WL 666376, at *1. Moreover, the Supreme Court has
identified several considerations governing its exercise of discretion in granting certiorari: a conflict among courts on an important matter, the decision of an important
federal question in a way that conflicts with Supreme Court decisions, and the decision of an important question of federal law that has not been but should be settled
by the Supreme Court. Sup. Ct. R. 10. This case meets each criterion.
1. At the time the Administration decided to abandon the Rule, there was a welldefined split among federal courts over the rule’s legality. Over the dissent of thenJudge Barrett, the Seventh Court had concluded it was likely to be held improper.
Wolf, 962 F.3d at 228. The Second Circuit had similarly found the rule to exceed the
scope of DHS’s delegated power. New York v. U.S. Dep’t of Homeland Security, 969
F.3d 42, 74-75 (2d Cir. 2020).

5

USCA4 Appeal: 19-2222

Doc: 213

Filed: 03/11/2021

Pg: 9 of 17

By contrast, a panel of this Court reversed the district court’s preliminary injunction against enforcement of the Rule based on the conclusion that “[t]he DHS
Rule . . . comports with the best reading of the INA.” CASA de Maryland, Inc. v.
Trump, 971 F.3d 220, 250, vacated for rehearing en banc, 981 F.3d 311 (4th Cir. 2020)
(dismissed Mar. 11, 2021). Indeed, the panel went so far as to say that “[t]o invalidate
the Rule would . . . entail the disregard of the plain text of a duly enacted statute,”
and would “visit palpable harm upon the Constitution’s structure and the circumscribed function of the federal courts that document prescribes.” Id. at 229. Similarly, in entering a stay pending appeal of preliminary injunctions against the Rule,
the Ninth Circuit issued a lengthy published opinion concluding that “[t]he Final
Rule’s definition of ‘public charge’ is consistent with the relevant statutes, and
DHS’s action was not arbitrary or capricious.” City & County of San Francisco v.
USCIS, 944 F.3d 773, 790 (9th Cir. 2019).
2. This question is vitally important. Decisions about whether and under what
conditions to admit immigrants implicate a “fundamental sovereign attribute exercised by the Government’s political departments.” Fiallo v. Bell, 430 U.S. 787, 792
(1977). As the Second Circuit noted, making these decisions correctly is essential
“[b]ecause there is no apparent means by which DHS could revisit adjustment determinations” once made. 969 F.3d at 86-87.
Congress explicitly directed the Executive Branch to deny admission or adjustment of status to aliens who, “in the opinion of the [Secretary of Homeland Security],” are “likely at any time to become a public charge.” 8 U.S.C. § 1182(a)(4)(A).
The Rule provides key guidance in doing so, issuing formal, objective standards by
6

USCA4 Appeal: 19-2222

Doc: 213

Filed: 03/11/2021

Pg: 10 of 17

which that determination will be made. The propriety of the Rule is a question of
national importance which the Supreme Court has already once determined merits
its attention. Dep’t of Homeland Sec., 2021 WL 666376, at *1.

B. There is a significant possibility of reversal.
The State Intervenors are likely to prevail on the merits following a petition for
certiorari because the Rule is lawful. For more than a century, it has been “the immigration policy of the United States that . . . (A) aliens within the Nation’s borders
not depend on public resources to meet their needs, . . . and (B) the availability of
public benefits not constitute an incentive for immigration to the United States.” 8
U.S.C. § 1601(2). That long-held policy formed the basis of the public-charge Rule.
Congress never defined the term “public charge,” but “[t]he ordinary meaning of
‘public charge’ . . . was ‘one who produces a money charge upon, or an expense to,
the public for support and care.’” CASA de Maryland, 971 F.3d at 242 (quoting
BLACK’S LAW DICTIONARY 295 (4th ed. 1951)). The Rule reflects that ordinary
meaning by defining as public charges those individuals who rely on individual benefits for a prolonged period, or multiple benefits for a shorter period of time. 84 Fed.
Reg. at 41,501; id. at 41,294-95.
That the Rule represents the best—or, at least, a reasonable—reading of the
public-charge provision of the INA is confirmed by reading that provision within its
larger statutory context. See CASA de Maryland, 971 F.3d at 243-44. For example,
Congress required that an alien seeking admission or adjustment of status to submit
“affidavit[s] of support” from sponsors. See 8 U.S.C. § 1182(a)(4)(C)-(D). Those
sponsors must, in turn, agree “to maintain the sponsored alien at an annual income
7

USCA4 Appeal: 19-2222

Doc: 213

Filed: 03/11/2021

Pg: 11 of 17

that is not less than 125 percent of the Federal poverty line.” Id. § 1183a(a)(1)(A).
Congress reinforced this requirement for self-sufficiency by allowing federal and
state governments to seek reimbursement from the sponsor for “any means-tested
public benefit” the government provides to the alien during the period the support
obligation remains in effect, Id. § 1183a(a)(1)(B). That provision is not limited to
cash support. Aliens who fail to obtain the required affidavit are treated by operation
of law as inadmissible on the public-charge ground, regardless of individual circumstances. Id. § 1182(a)(4).
Taken together, these provisions of the INA demonstrate that Congress did not
mandate a narrow reading of “public charge.” Instead, “[t]his sponsor-and-affidavit
scheme” shows “that the public charge provision is naturally read as extending beyond only those who may become ‘primarily dependent’ on public support.” CASA
de Maryland, 971 F.3d at 243; see also Cook County, 962 F.3d at 246 (Barrett, J., dissenting) (“[T]he affidavit provision reflects Congress’s view that the term ‘public
charge’ encompasses supplemental as well as primary dependence on public assistance.”).
Further, the larger statutory context demonstrates why the Executive Branch
could—and indeed should—take non-cash benefits into account in making publiccharge determinations. The current public-charge provision was adopted in 1996. Illegal Immigration Reform and Immigrant Responsibility Act of 1996, Pub. L. No.
104-208, Div. C, Tit. V, § 531, 110 Stat. 3009-674. In contemporaneous legislation,
Congress stressed the government’s “compelling” interest in ensuring “that aliens
be self-reliant in accordance with national immigration policy.” 8 U.S.C. § 1601(5);
8

USCA4 Appeal: 19-2222

Doc: 213

Filed: 03/11/2021

Pg: 12 of 17

see also id. § 1601(4) (emphasizing the government’s strong interest in “assuring that
individual aliens not burden the public benefits system”). Congress equated a lack
of “self-sufficiency” with the receipt of “public benefits” by aliens, id. § 1601(3),
which it defined broadly to include any “welfare, health, disability, public or assisted
housing . . . or any other similar benefit.” Id. § 1611(c)(1)(B) (emphasis added). That
is, Congress adopted a broad, plain meaning of the statutory phrase “public charge”
as one who receives public benefits, and Congress’s statutory policy of ensuring that
aliens do “not burden the public benefits system” programs to be “an incentive for
immigration to the United States,” Id. § 1601(2)(B), (4).
Given these statutory provisions, the Supreme Court is likely to agree with this
Court’s panel decision and the Ninth Circuit’s stay decision: The Rule “easily”
qualifies as a “permissible construction of the INA.” City & County of San Francisco,
944 F.3d at 799; see CASA de Maryland, 971 F.3d at 251 (holding that the Rule is
“unquestionably lawful”). In applying Chevron, the Supreme Court has repeatedly
emphasized that the federal courts “may not substitute [their] judgment for that of
the [Executive], but instead must confine [themselves] to ensuring that he remained
“‘within the bounds of reasoned decisionmaking.’” Dep’t of Com. v. New York, 139
S. Ct. 2551, 2569 (2019) (citation omitted) (quoting Baltimore Gas & Elec. Co. v. Natural Resources Defense Council, Inc., 462 U.S. 87, 105 (1983)). Administrative rules
passed regarding immigration are given particular deference because “Congress has
expressly and specifically delegated power to the executive in an area that overlaps
with the executive’s traditional constitutional function.” CASA de Maryland, 971

9

USCA4 Appeal: 19-2222

Doc: 213

Filed: 03/11/2021

Pg: 13 of 17

F.3d at 251 & n.6 (citing United States v. Curtiss-Wright Export Corp., 299 U.S. 304,
319-20 (1936)). The public-charge Rule easily passes muster.
To be clear, State Intervenors do not maintain that the Executive may not change
the definition of “public charge.” But the requirements of APA rulemaking apply
with equal force whether the Executive is creating a rule or modifying it. E.g., Dep’t of
Comm, 139 S. Ct. at 2569-71. Because the public-charge Rule was made through formal notice-and-comment procedures, it can only be unmade the same way. Cf. Motor
Vehicle Mfr’s Ass’n v. State Farm Mutual Auto. Ins. Co., 463 U.S 29, 41, 46-47 (1983).
As part of that process, State Intervenors would have had the right to submit input
and to protect their interests before the agency. 5 U.S.C. § 553(c). If unsatisfied with
the ultimate result, they would have been permitted to challenge whether the Executive “articulated ‘a satisfactory explanation’ for [its] decision, ‘including a rational
connection between the facts found and the choice made.’” Dep’t of Comm., 139 S.
Ct. at 2569 (quoting Motor Vehicles Mfrs. Ass’n, 463 U.S. at 43). The Administration
improperly seeks to short-circuit that process by using early court decisions to “set
aside” the Rule under 5 U.S.C. § 706(2). Accordingly, State Intervenors are likely
to prevail in showing that the order under review was improper.

C.

There is a likelihood of irreparable harm absent a stay.

Allowing the mandate to issue and permitting the district court to vacate the rule
will cause State Intervenors irreparable harm. As an initial matter, a State suffers an
“institutional injury” from the “inversion of . . . federalism principles.” Texas v.
EPA, 829 F.3d 405, 434 (5th Cir. 2016); see Moore v. Tangipahoa Par. Sch. Bd., 507 F.
App’x 389, 399 (5th Cir. 2013) (per curiam) (finding that a State suffers irreparable
10

USCA4 Appeal: 19-2222

Doc: 213

Filed: 03/11/2021

Pg: 14 of 17

harm when an injunction “would frustrate the State’s program”). The district
court’s judgment reverses a formal rulemaking process upon which States have relied in setting law enforcement and budgetary policies, without allowing them input
into the process or the time to adjust that normally follows from a formal rescission
process. And it interferes with traditional state prerogatives for the reasons described
in the accompanying motion to intervene.
As the Court is undoubtedly aware, this is a time of considerable financial strain
on all States, given the unprecedented COVID-19 pandemic and associated economic downturn. Immigration can be a driver of cultural and economic growth. But
as Congress has recognized for over a century, it can also significantly strain the public fisc. 8 U.S.C. § 1601(1) (“Self-sufficiency has been a basic principle of United
States immigration law since this country’s earliest immigration statutes.”). By definition, the individuals whose receipt of benefits depends on the definition of “public
charge” are among the poorest in our society. Because such benefits can never be
recouped, State Intervenors will be irreparably harmed if the Rule cannot be enforced while its legality is resolved here and elsewhere.

11

USCA4 Appeal: 19-2222

Doc: 213

Filed: 03/11/2021

Pg: 15 of 17

Conclusion
The Court should recall and stay issuance of the mandate, reconsider its dismissal of the appeal, and permit the States to intervene as Defendant-Appellants.
Respectfully submitted.
Steve Marshall
Attorney General of Alabama

Ken Paxton
Attorney General of Texas

Mark Brnovich
Attorney General of Arizona

Brent Webster
First Assistant Attorney General

Leslie Rutledge
Attorney General of Arkansas

/s/ Judd E. Stone II
Judd E. Stone II
Solicitor General
Judd.Stone@oag.texas.gov

Todd Rokita
Attorney General of Indiana
DEREK SCHMIDT
Attorney General of Kansas
DANIEL CAMERON
Attorney General of Kentucky
Jeff Landry
Attorney General of Louisiana
Lynn Fitch
Attorney General of Mississippi

Lanora C. Pettit
Assistant Solicitor General
Benjamin Wallace Mendelson
Assistant Attorney General
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Fax: (512) 474-2697
Counsel for State Intervenors

Austin Knudsen
Attorney General of Montana
Dave Yost
Attorney General of Ohio

12

USCA4 Appeal: 19-2222

Doc: 213

Filed: 03/11/2021

Pg: 16 of 17

Mike Hunter
Attorney General of Oklahoma
Alan Wilson
Attorney General of
South Carolina
Patrick Morrisey
Attorney General of
West Virginia

Certificate of Conference
On March 11, 2021, counsel for the State of Texas conferred with counsel for
plaintiffs and for the United States, who advised that they are opposed to this motion.
/s/ Judd E. Stone II
Judd E. Stone II

Certificate of Service
On March 11, 2021, this brief was served via CM/ECF on all registered counsel
and transmitted to the Clerk of the Court. Counsel further certifies that: (1) any required privacy redactions have been made in compliance with Fifth Circuit Rule
25.2.13; (2) the electronic submission is an exact copy of the paper document in compliance with Fifth Circuit Rule 25.2.1; and (3) the document has been scanned with
the most recent version of Symantec Endpoint Protection and is free of viruses.
/s/ Judd E. Stone II
Judd E. Stone II

13

USCA4 Appeal: 19-2222

Doc: 213

Filed: 03/11/2021

Pg: 17 of 17

Certificate of Compliance
This brief complies with: (1) the type-volume limitation of Federal Rule of Appellate Procedure 32(a)(7)(B) because it contains 3,009 words, excluding the parts
of the brief exempted by Rule 32(f); and (2) the typeface requirements of Rule
32(a)(5) and the type style requirements of Rule 32(a)(6) because it has been prepared in a proportionally spaced typeface (14-point Equity) using Microsoft Word
(the same program used to calculate the word count).
/s/ Judd E. Stone II
Judd E. Stone II

14

APPENDIX N

USCA4 Appeal: 19-2222

Doc: 214

Filed: 03/11/2021

Pg: 1 of 11

No. 19-2222

In the United States Court of Appeals
for the Fourth Circuit
Casa de Maryland, et al. ,
Plaintiffs-Appellees,
v.
Joseph R. Biden, in his official capacity as President of
the United States, et al.,
Defendants-Appellants.
On Appeal from the United States District Court
for the District of Maryland
OPPOSED MOTION TO RECONSIDER, OR IN THE
ALTERNATIVE TO REHEAR, THE MOTION TO DISMISS
The States of Texas, Alabama, Arizona, Arkansas, Indiana, Kansas, Kentucky,
Louisiana, Ohio, Oklahoma, Mississippi, Montana, South Carolina, and West Virginia respectfully ask this Court to reconsider its order dismissing this appeal so that
they may intervene as Defendant-Appellants to challenge the district court’s nationwide injunction. The district court preliminarily enjoined a final rule interpreting the
Immigration and Nationality Act’s prohibition against immigration by those would
become a public charge—the public charge rule. Until two days ago, the federal defendants, agents or agencies of the United States (collectively “United States”), defended this rule in multiple courts, including the United States Supreme Court.

USCA4 Appeal: 19-2222

Doc: 214

Filed: 03/11/2021

Pg: 2 of 11

Two days ago, the United States changed tack. Abandoning its typical practice
of asking courts to abey appeals of actions it no longer supports while it formally reverses those actions, the United States filed stipulated motions to dismiss numerous
appeals defending the Rule across the country, including in this case. This Court
granted that motion and immediately issued its mandate.
Under these circumstances, this Court should have rejected that stipulation.
The nationwide injunction implicates the interests of countless parties who, until the
stipulation was filed, had no notice that they needed to intervene in order to protect
those interests. Indeed, the federal defendants here did not notify the States that they
intended to withdraw support of the Rule prior to these stipulations becoming common knowledge. Allowing Federal Rule of Appellate Procedure 42(a) to be used in
this fashion permits the federal government effectively to rescind rules by litigation
rather than through the Administrative Procedure Act’s requirements, vitiating numerous procedural protections for adversely impacted parties.
This novel practice will not end here. If permitted to stand, the federal government’s repeal-by-stipulation tactic will simultaneously stifle public participation in
major policy initiatives at the federal level, encourage ever-more-complex procedural gamesmanship, and will encourage even potentially affected parties to intervene aggressively into cases to prevent this tactic’s future use. The Court should not
countenance these results and should reconsider its dismissal.

2

USCA4 Appeal: 19-2222

Doc: 214

Filed: 03/11/2021

Pg: 3 of 11

Background
The background of this case is explored in the accompanying motions to withdraw the mandate and to intervene. To avoid burdening the Court, State Intervenors
supply only a truncated background here.
Since the late Nineteenth Century, Congress has prohibited immigration by
individuals who are likely to become a “public charge.” Immigrant Fund Act, 47th
Cong. ch. 376, §§ 1-2, 22 Stat. 214 (1882). Congress has never attempted to define
that term, providing only a list of factors that the Executive is to consider. 8 U.S.C.
§ 1182(a)(4)(B).
In 2019, following an extensive notice-and-comment period, the Trump Administration finalized the first formal rule defining a “public charge.” This rule required federal officials assess an alien’s likely reliance on non-cash public assistance
as well as cash public assistance when determining whether an alien is likely to be a
public charge, and therefore inadmissible. Inadmissibility of Public Charge Grounds,
84 Fed. Reg. 41,292 (Aug. 14, 2019). Various states, municipalities, and private interest groups immediately filed suit to challenge this rule in courts across the country. These cases led to sometimes overlapping and sometimes conflicting orders and
injunctions, which are fully described in the United States’s petition for certiorari
arising from a companion case regarding the Rule in the Second Circuit. Petition for
a Writ of Certiorari, Department of Homeland Security v. New York, No. 20-449 (U.S.
Oct. 7, 2020).
The plaintiffs, CASA de Maryland, Inc. and two individuals, filed this action in
the United States District Court for the District of Maryland against the President,
3

USCA4 Appeal: 19-2222

Doc: 214

Filed: 03/11/2021

Pg: 4 of 11

the Secretary of Homeland Security, and other federal defendants in their official
capacities. The plaintiffs alleged that the Rule violates both the APA and the Fifth
Amendment. Id. at 236. They moved for a preliminary injunction to block the rule
from taking effect. Id. The district court granted the motion and entered a nationwide injunction preventing the United States from enforcing the rule anywhere. Id.
A panel of this Court reversed. It held that that the Rule “rests on an interpretation of ‘public charge’ that comports with a straightforward reading of the [statute].” Id. at 242. The panel further ruled that the district court “erred in its choice
of remedy” by issuing a “plainly overbroad” nationwide injunction. Id. at 255-56.
The plaintiffs moved for rehearing en banc, which the Court granted. Casa de
Maryland, Inc. v. Trump, 981 F.3d 311, 314 (4th Cir. 2020). The Court called for supplemental briefing “to address relevant developments concerning the Public Charge
Rule.” Order of Dec. 12, 2020 at 2, Casa De Maryland, Inc v. Joseph Biden, Jr., No.
19-2222 (ECF 158). The United States responded that on February 2, 2021, President Biden issued an Executive Order directing a review of the DHS rule, and suggested that the Court postpone en banc oral argument until that review is complete.
ECF 188 at 3. The Court agreed and removed the case from the oral argument calendar. ECF 208 at 2-3.
On March 9, 2021, the United States revealed that it no longer intended to
defend the Rule, filing nearly simultaneous motions to dismiss litigation pending in
the Supreme Court, this Court, and the Seventh Circuit. This morning, the Court
granted that motion under Federal Rule of Appellate Procedure 42, without offering

4

USCA4 Appeal: 19-2222

Doc: 214

Filed: 03/11/2021

Pg: 5 of 11

the opportunity for other parties whose interests would be affected by the nationwide
injunction to intervene to defend those interests.

Argument
The Court should reconsider its ruling on the Motion to Dismiss under Federal
Rule of Appellate Procedure 42(b).1 Motions for reconsideration are appropriate
where, through no fault of the movant, a court has committed an error of fact or law
in deciding on a motion. Cf. Lightspeed Media Corp. v. Smith, 830 F.3d 500, 505-506
(7th Cir. 2016) (collecting cases); Keene Corp. v. Int’l Fidelity Insurance Co., 561 F.
Supp. 656, 656 (N.D. Ill. 1982), aff’d, 736 F.2d 388 (7th Cir.1984) (“Motions for
reconsideration serve a limited function; to correct manifest errors of law or fact or
to present newly discovered evidence.”). State Intervenors respectfully suggest that
the Court made such an error here by allowing the parties—who are now aligned—
to voluntarily dismiss an appeal of a ruling vacating a final rule without allowing nonparties whose interests are affected by the Rule the opportunity to intervene to protect those interests.
Federal Rule of Appellate Procedure 42 is an inappropriate mechanism to seek
dismissal of an appeal of a nationwide injunction affecting numerous non-parties—
particularly when accompanied by the immediate issuance of the court’s mandate.
Rule 42(b) allows the “circuit clerk [to] dismiss a docketed appeal if the parties file

1

To the extent that the Court determines that this motion should have been
brought as a petition for rehearing, State Intervenor request the Court to construe it
as such. The standards for relief are similar, and such rehearing would be appropriate
for the same reasons. See Fed. R. App. P. 40(a)(2).
5

USCA4 Appeal: 19-2222

Doc: 214

Filed: 03/11/2021

Pg: 6 of 11

a signed dismissal agreement specifying how costs are to be paid and pay any fees
that are due.” This rule typically serves a salutary purpose in that it allows appeals
where there is no longer a controversy to dismiss the case rather than incur additional
costs. “Normally such stipulations are accepted and the appeal dismissed.” Alvarado v. Corp. Cleaning Servs., Inc., 782 F.3d 365, 372 (7th Cir. 2015). This Court
has, however, stated that it will “decline to do so if necessary to avoid an injustice,
and especially to ‘protect the rights of anyone who did not consent to the dismissal.’” Id. (quoting Safeco Ins. Co. of Am. v. Am. Int’l Grp., Inc., 710 F.3d 754, 755 (7th
Cir.2013)).
Though the nominal parties to this appeal approved the dismissal, the injunction
in this case affects numerous parties who have not had the opportunity either to consent or deny their consent to the dismissal. Indeed, many States whose interests are
directly implicated were not so much as notified about the United States’s intentions
before it acted to dismiss these cases. This Rule was promulgated following a noticeand-comment period that lasted nearly a year. 84 Fed. Reg. at 41,501 (Aug. 2019);
Inadmissibility on Public Charge Grounds, 83 Fed. Reg. 51,114 (Oct. 10, 2018). The
final Rule balanced a multitude of concerns and addressed numerous comments, and
the federal government, as it typically does, was charged with defending that rule
against the litigation that inevitably followed. The federal government fulfilled those
duties until it filed the motions of March 9, 2021.
The Court should not allow parties to voluntarily dismiss an appeal under these
circumstances. Ordinarily, a rule adopted through notice-and-comment rulemaking
can only be rescinded through notice-and-comment rulemaking. Cf. Motor Vehicle
6

USCA4 Appeal: 19-2222

Doc: 214

Filed: 03/11/2021

Pg: 7 of 11

Mfrs. Ass’n of U.S., Inc.v. State Farm Mutual Auto. Ins. Co., 463 U.S 29, 36-37, 41
(1983). As part of that process, parties whose interests would be negatively impacted
by the rescission of the rule would have had the right to submit input, 5 U.S.C. § 503,
and ultimately to challenge the final outcome in court, Dep’t of Com. v. New York,
139 S. Ct. 2551, 2569 (2019). But this Administration has effectively rescinded the
public-charge rule by agreeing to dismiss the case with an adversary in name only
under Rule 42(b). That is not what voluntary dismissal under Rule 42(b) was designed to do.
To permit Rule 42(b) to be used as a route around the Administrative Procedure Act would lead to severe adverse consequences. Because rulemaking rarely satisfies everyone, APA challenges are both commonplace and often complex, potentially involving numerous issues and parties. In the early stages of this case, it was
not clear that parties who were aligned with the United States could have become
involved. Like all Americans, State Intervenors have an interest in uniform application of our immigration laws. It initially appeared, however, that the federal government planned to defend those interests. Now, the United States’s dismissal of various appeals would impose direct costs on the States in the form of increased benefit
payments to otherwise ineligible immigrants, see generally Mot. to Intervene, the
States cannot vindicate their interests absent this Court’s action because the United
States have agreed to dismiss the appeal and allow the district court’s order to become final.
If the Court permits Rule 42 to be used to dismiss a case in circumstances like
this, nonparties like State Intervenors will be forced to intervene at the first sign of
7

USCA4 Appeal: 19-2222

Doc: 214

Filed: 03/11/2021

Pg: 8 of 11

litigation that may affect their interests. Indeed, it would paradoxically require States
to more hastily intervene when the federal government already supports their interests precisely to avoid the sudden switch-and-dismissal performed here. That is precisely the opposite of what the federal rules are intended to work—namely “to secure the just, speedy, and inexpensive determination of every action and proceeding.” Fed. R. Civ. P. 1.

[Remainder of page intentionally left blank.]

8

USCA4 Appeal: 19-2222

Doc: 214

Filed: 03/11/2021

Pg: 9 of 11

Conclusion
The Court reconsider the motion to dismiss to allow State Intervenors to intervene and prosecute this appeal as Defendant-Appellants.
Respectfully submitted.
Steve Marshall
Attorney General of Alabama

Ken Paxton
Attorney General of Texas

Mark Brnovich
Attorney General of Arizona

Brent Webster
First Assistant Attorney General

Leslie Rutledge
Attorney General of Arkansas

/s/ Judd E. Stone II
Judd E. Stone II
Solicitor General
Judd.Stone@oag.texas.gov

Todd Rokita
Attorney General of Indiana
DEREK SCHMIDT
Attorney General of Kansas
DANIEL CAMERON
Attorney General of Kentucky
Jeff Landry
Attorney General of Louisiana
Lynn Fitch
Attorney General of Mississippi

Lanora C. Pettit
Assistant Solicitor General
Benjamin Wallace Mendelson
Assistant Attorney General
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Fax: (512) 474-2697
Counsel for State Intervenors

Austin Knudsen
Attorney General of Montana
Dave Yost
Attorney General of Ohio

9

USCA4 Appeal: 19-2222

Doc: 214

Filed: 03/11/2021

Pg: 10 of 11

Mike Hunter
Attorney General of Oklahoma
Alan Wilson
Attorney General of
South Carolina
Patrick Morrisey
Attorney General of
West Virginia

Certificate of Conference
On March 11, 2021, counsel for the State of Texas conferred with counsel for
plaintiffs and for the United States, who advised that they are opposed to this motion.
/s/ Judd E. Stone II
Judd E. Stone II

Certificate of Service
On March 11, 2021, this brief was served via CM/ECF on all registered counsel
and transmitted to the Clerk of the Court. Counsel further certifies that: (1) any required privacy redactions have been made in compliance with Fifth Circuit Rule
25.2.13; (2) the electronic submission is an exact copy of the paper document in compliance with Fifth Circuit Rule 25.2.1; and (3) the document has been scanned with
the most recent version of Symantec Endpoint Protection and is free of viruses.
/s/ Judd E. Stone II
10

USCA4 Appeal: 19-2222

Doc: 214

Filed: 03/11/2021

Pg: 11 of 11

Judd E. Stone II

Certificate of Compliance
This brief complies with: (1) the type-volume limitation of Federal Rule of Appellate Procedure 32(a)(7)(B) because it contains 1,809 words, excluding the parts
of the brief exempted by Rule 32(f); and (2) the typeface requirements of Rule
32(a)(5) and the type style requirements of Rule 32(a)(6) because it has been prepared in a proportionally spaced typeface (14-point Equity) using Microsoft Word
(the same program used to calculate the word count).
/s/ Judd E. Stone II
Judd E. Stone II

11

APPENDIX O

USCA4 Appeal: 19-2222

Doc: 215

Filed: 03/11/2021

Pg: 1 of 12

No. 19-2222

In the United States Court of Appeals
for the Fourth Circuit
Casa de Maryland, et al. ,
Plaintiffs-Appellees,
v.
Joseph R. Biden, in his official capacity as President of
the United States, et al.,
Defendants-Appellants.
On Appeal from the United States District Court
for the District of Maryland
OPPOSED MOTION FOR LEAVE TO INTERVENE AS
DEFENDANT-APPELLANTS
The States of Texas, Alabama, Arizona, Arkansas, Indiana, Kansas, Kentucky,
Louisiana, Mississippi, Montana, Ohio, Oklahoma, South Carolina, and West Virginia move under Federal Rule of Appellate Procedure 27 to intervene as DefendantAppellants to appeal the district court’s nationwide injunction against enforcement
of the public charge rule (the “Rule”). The Rule implements the Immigration and
Nationality Act’s prohibition against immigration by those who are likely to become
a public charge. Two days ago, the Defendants, who are agents or agencies of the
United States (collectively the “United States”), filed a stipulated motion to dismiss
this appeal. This morning, the Court granted that stipulated motion and issued its
mandate without offering affected parties an opportunity to seek to defend the Rule.

USCA4 Appeal: 19-2222

Doc: 215

Filed: 03/11/2021

Pg: 2 of 12

Because the Rule at issue that directly implicates the States’ obligations in providing
Medicaid and other services, they seek leave to defend the suit.
The States timely seek to intervene. Until two days ago, the United States defended the Rule, so that the States’ intervention prior to that point would have unnecessarily complicated this suit. But now that the federal government has abandoned that defense—and, by extension, has evaded the Administrative Procedure
Act’s strictures for modifying a rule it no longer finds genial—no one is left to represent the States’ interests in defending the Rule.
Counsel for Texas contacted counsel for all parties regarding this motion and
the accompanying ones. Counsel for Casa de Maryland indicated that it opposes
them. Counsel for the United States indicated that it opposes them.

Background
This immigration case concerns the hotly contested public charge rule. Under
federal law, “any alien who . . . in the opinion of the Attorney General at the time of
application for admission or adjustment of status, is likely at any time to become a
public charge is inadmissible.” 8 U.S.C. § 1182(a)(4)(A).
In 2019, following extensive notice and comment, the Department of Homeland
Security issued a final rule adopting a new definition of “public charge” for purposes
of this statute. Casa de Maryland, Inc. v. Trump, 971 F.3d 220, 234, reh’g granted, 981
F.3d 311, 314(4th Cir. 2020) (dismissed March 11, 2021). The Rule defines a “public
charge” as “‘an alien who receives one or more public benefits . . . for more than 12
months in the aggregate within any 36-month period.’” Id. at 234 (quoting Inadmissibility on Public Charge Grounds, 84 Fed. Reg. 41, 292 41,501). The Rule further
2

USCA4 Appeal: 19-2222

Doc: 215

Filed: 03/11/2021

Pg: 3 of 12

explains that the term “public benefits” includes non-cash benefits that are partially
funded by the States, including certain Medicaid benefits. Id.
The Plaintiffs, CASA de Maryland, Inc. and two individuals, filed this action in
the United States District Court for the District of Maryland against the President,
the Secretary of Homeland Security, and other federal defendants in their official
capacities. The Plaintiffs alleged that the Rule violates both the APA and the Fifth
Amendment. Id. at 236. They moved for a preliminary injunction to block the rule
from taking effect. Id. The district court granted the motion and entered a nationwide injunction preventing the United States from enforcing the rule anywhere. Id.
A panel of this Court reversed. It held that that the Rule “rests on an interpretation of ‘public charge’ that comports with a straightforward reading of the [statute].” Id. at 242. The panel further ruled that the district court “erred in its choice
of remedy” by issuing a “plainly overbroad” nationwide injunction. Id. at 255-56.
The Plaintiffs moved for rehearing en banc, which the Court granted. Casa de
Maryland, Inc. v. Trump, 981 F.3d 311, 314 (4th Cir. 2020). The Court called for supplemental briefing “to address relevant developments concerning the Public Charge
Rule.” Order of Dec. 14, 2020 at 2, Casa de Maryland, Inc. v. Trump, No. 19-2222
(4th Cir.) (ECF No. 158). The United States responded that on February 2, 2021,
President Biden issued an Executive Order directing a review of the DHS rule, and
suggested that the Court postpone en banc oral argument until that review is complete. Supplemental Reply Brief for Appellants at 3, Casa de Maryland, Inc. v. Trump,
No. 19-2222 (4th Cir.) (ECF No. 188). The Court agreed and removed the case from

3

USCA4 Appeal: 19-2222

Doc: 215

Filed: 03/11/2021

Pg: 4 of 12

the oral argument calendar. Order of February 24, 2021, Casa de Maryland, Inc. v.
Trump, No. 19-2222 (4th Cir.) (ECF No. 208).
Then, on March 9, 2021, without beginning the process to rescind the Rule or
providing notice to parties who would normally be entitled to participate in noticeand-comment rulemaking, the United States filed an unopposed motion to dismiss
the appeal. Unopposed Motion to Voluntarily Dismiss Appeal at 1, Casa de Maryland, Inc. v. Trump, No. 19-2222 (4th Cir.) (ECF No. 210). This Court granted that
motion earlier today. It also issued its mandate without allowing any potentially interested parties to seek leave to intervene and defend the rule. As a result, the public
charge rule will become (absent intervention and a stay) unenforceable in any State.
Because the United States will no longer defend a rule directly implicating the
States’ interests, the States now move this Court to withdraw its mandate, to reconsider its dismissal, and for leave to intervene in defense of the Rule.

Argument
Although the Federal Rules of Civil Procedure do not apply directly in appellate
proceedings, multiple courts have recognized that the rules controlling district court
intervention may serve as useful guidance regarding whether to permit intervention
in other contexts. E.g., Int’l Union v. Scofield, 382 U.S. 205, 217, 86 S. Ct. 373, 381
n.10 (1965); Sierra Club, Inc. v. E.P.A., 358 F.3d 516, 517-18 (7th Cir. 2004); Texas v.
U.S. Dep’t of Energy, 754 F.2d 550, 551 (5th Cir. 1985). The States meet Rule 24’s
standards for intervention both as of right and as a permissive matter.

4

USCA4 Appeal: 19-2222

Doc: 215

Filed: 03/11/2021

Pg: 5 of 12

I. The States are entitled to intervene as of right.
“[T]o intervene as a matter of right under Rule 24(a) a movant generally must
satisfy four criteria: (1) timeliness, (2) an interest in the litigation, (3) a risk that the
interest will be impaired absent intervention, and (4) inadequate representation of
the interest by the existing parties.” Scott v. Bond, 734 F. App’x 188, 191 (4th Cir.
2018); In re Brewer, 863 F.3d 861, 872 (D.C. Cir. 2017). The States easily meet this
standard.
First, this motion is timely. “In order to properly determine whether a motion
to intervene in a civil action is sufficiently timely, a trial court in this Circuit is obliged
to assess three factors: first, how far the underlying suit has progressed, second, the
prejudice any resulting delay might cause the other parties; and third, why the movant was tardy in filing its motion.” Alt. v. U.S. E.P.A., 758 F.3d 588, 591 (4th Cir.
2014). Here, although the case is now at the en banc stage, the States are not “tardy”
in filing this motion. The Defendants announced that they would no longer defend
the Rule on March 9, and the States filed this motion on March 11, immediately after
it learned that the United States intended to regulate by stipulation. Before that, the
United States had defended the Rule in this and similar litigation in multiple fora
over a period of years, and the United States gave the States no prior notice of its
intention to withdraw that defense. Rather than further complicating these procedures and burdening the courts with duplicative briefing, the States relied on the
United States to defend its own Rule.
Further, the Plaintiffs will not be prejudiced by the States’ intervention. Plaintiffs faced the possibility of protracted litigation until two days ago, even if en banc
5

USCA4 Appeal: 19-2222

Doc: 215

Filed: 03/11/2021

Pg: 6 of 12

oral argument had been postponed; they suffer no prejudice by litigating the same
issues in the same forum against the States rather than the United States. The absence of prejudice likewise indicates this motion is timely.
Second, the States have important interests in this litigation, specifically their
interests in conserving their Medicaid and related social-welfare budgets. Providing
for the healthcare needs of economically disadvantaged individuals represents a substantial portion of the States’ budgets. For example, in Texas in 2015, approximately
4 million Texans relied on Medicaid. Tex. health. & Human servs. comm’n, Texas
medicaid and Chip in Perspective 1-2 (11th ed. 2017), https://hhs.texas.gov/reports/2017/02/texas-medicaid-chip-perspective-eleventh-edition.

Medicaid

is

jointly financed by the federal government and the States. Id. at 4. In 2015, total
Texas expenditures for Medicaid represented approximately 28% of the State’s
budget. Id. at 4. In the past several years, the Federal Government has paid for approximately 56-58% of Texas’s Medicaid expenditures. Id. at 183. Although the exact
amount of Texas’s Medicaid budget spent on immigrants who would otherwise be
inadmissible under the DHS Rule has varied, the total budget is always measured in
billions of dollars. Id. at 179. And from 2000 to 2015, Medicaid expenses increased
from 20% to 28% of the state’s budget. Id. at 179.
The Court can and should infer that invalidating the Rule will have a disproportionate impact on the States, particularly on border States. For example, Texas and
Montana have among the largest international borders in the Union and provide
Medicaid services to many immigrants. The Rule would reduce that burden. Under
the relevant statute, “[a]ny alien who . . . in the opinion of the Attorney General at
6

USCA4 Appeal: 19-2222

Doc: 215

Filed: 03/11/2021

Pg: 7 of 12

the time of application for admission or adjustment of status, is likely at any time to
become a public charge is inadmissible.” 8 U.S.C. § 1182(a)(4)(A). DHS’s rule defines “public charge” as “‘an alien who receives one or more public benefits . . . for
more than 12 months in the aggregate within any 36-month period.’” 84 Fed. Reg.
at 41,501. “Public benefits” specifically includes, among other forms of public assistance, Medicaid services with some exceptions. Id. Thus, if the Attorney General
determined that an alien applying for admission to the United States would likely
require Medicaid services for more than 12 months in a 36-month period, then that
alien would be inadmissible. Accordingly, fewer aliens requiring Medicaid and other
public services would be admitted to the United States, including into the State Intervenors, thus reducing the States’ Medicaid budgets. Accordingly, each Intervenor has a strong fiscal interest in this litigation.
Third, the States’ interests in conserving their increasing Medicaid and related
social-welfare budgets will be impaired absent intervention. As explained above, the
district court entered a nationwide injunction preventing the federal defendants from
enforcing DHS’s rule anywhere. CASA de Maryland, 971 F.3d at 236. A panel of this
Court reversed, but the Court vacated the panel’s opinion for rehearing en banc.
Now that the United States has voluntarily dismissed this appeal, nothing will stop
the district court’s nationwide injunction from taking effect and adversely impacting
the States’ budgets, including their Medicaid expenditures.
Fourth, no party now adequately represents the States’ interests because no
party is left to defend the Rule. Absent the States’ intervention, all States will be

7

USCA4 Appeal: 19-2222

Doc: 215

Filed: 03/11/2021

Pg: 8 of 12

affected by the invalidation of the Rule without having the ability to defend those
interests. For these reasons, the States are entitled to intervene as of right.

II. The States also meet the criteria for permissive intervention.
For similar reasons, even if the Court concludes that the States do not meet the
standard to intervene as of right, it should use its discretion to allow the States to do
so permissively. Under Rule 24(b), a movant seeking permissive intervention must
show: (1) that there exists an independent ground of subject matter jurisdiction; (2)
that the motion is timely; (3) that the movant’s claims or defenses share with the
main action a common question of law or fact; and (4) that intervention will not result in undue delay or prejudice to the existing parties. Fed R. Civ. P. 24(b)(1),
24(b)(2), 24(b)(1)(B), 24(b)(3); Stuart v. Huff, 706 F.3d 345, 349 (4th Cir. 2013);
League of Women Voters of Virginia v. Virginia State Bd. of Elections, 458 F. Supp. 3d
460, 463–64 (W.D. Va. 2020); Shanghai Meihao Elec., Inc. v. Leviton Mfg. Co., Inc.,
223 F.R.D. 386, 387 (D. Md. 2004). Again, the States easily meet this standard.
Here, the requirements of an independent ground of subject-matter jurisdiction
and shared claims or defenses are not strictly applicable, as plaintiffs must demonstrate subject-matter jurisdiction, and the States seek to intervene as defendants by
stepping into the shoes of the former defendants. Kokkonen v. Guardian Life Ins. Co.
of Am., 511 U.S. 375, 377 (1994). But this Court would retain subject-matter jurisdiction over this federal question, and the States intend to present similar defenses of
the Rule to those that were (until two days ago) presented by the federal government.
The States likewise enjoy an actual controversy against the plaintiffs: they will be

8

USCA4 Appeal: 19-2222

Doc: 215

Filed: 03/11/2021

Pg: 9 of 12

tangibly, economically affected by an adverse judgment redressable by this Court,
and thus this Court would retain Article III jurisdiction.
The timeliness and prejudice analyses used in permissive intervention essentially mirror the analogous intervention as of right analysis discussed above. See Alt,
758 F.3d at 591. The States filed this motion promptly after they learned on March 9
that the United States would no longer defend the Rule, and Plaintiffs will suffer no
prejudice by this intervention because they were already expected to continue to litigate this case until mere days ago.
This Court should exercise its discretion to permit the States to intervene to
defend their interests in avoiding increased costs by the invalidation of the Rule that
will otherwise go unprotected. The States have enormous financial obligations in
providing Medicaid and other public services and, until quite recently, had no need
to intervene to defend those interests. That need has changed due to unexpected
litigation tactics by the federal defendants. This Court should not countenance this
unprecedented turn.

9

USCA4 Appeal: 19-2222

Doc: 215

Filed: 03/11/2021

Pg: 10 of 12

Conclusion
The Court should grant the States leave to intervene as a Defendant-Appellants.
Respectfully submitted.
Steve Marshall
Attorney General of Alabama

Ken Paxton
Attorney General of Texas

Mark Brnovich
Attorney General of Arizona

Brent Webster
First Assistant Attorney General

Leslie Rutledge
Attorney General of Arkansas

/s/ Judd E. Stone II
Judd E. Stone II
Solicitor General
Judd.Stone@oag.texas.gov

Todd Rokita
Attorney General of Indiana
DEREK SCHMIDT
Attorney General of Kansas
DANIEL CAMERON
Attorney General of Kentucky
Jeff Landry
Attorney General of Louisiana
Lynn Fitch
Attorney General of Mississippi

Lanora C. Pettit
Assistant Solicitor General
Benjamin Wallace Mendelson
Assistant Attorney General
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Fax: (512) 474-2697
Counsel for the Intervenor States

Austin Knudsen
Attorney General of Montana
Dave Yost
Attorney General of Ohio
Mike Hunter
Attorney General of Oklahoma
10

USCA4 Appeal: 19-2222

Doc: 215

Filed: 03/11/2021

Pg: 11 of 12

Alan Wilson
Attorney General of
South Carolina
Patrick Morrisey
Attorney General of
West Virginia

Certificate of Conference
On March 11, 2021, counsel for the State of Texas conferred with counsel for
plaintiffs and for the United States, who advised that they are opposed to this motion.
/s/ Judd E. Stone II
Judd E. Stone II

Certificate of Service
On March 11, 2021, this motion was served via CM/ECF on all registered counsel and transmitted to the Clerk of the Court. I also hereby certify that the participants in the case are registered CM/ECF users and will be served via the CM/ECF
system.
/s/ Judd E. Stone II
Judd E. Stone II

11

USCA4 Appeal: 19-2222

Doc: 215

Filed: 03/11/2021

Pg: 12 of 12

Certificate of Compliance
This brief complies with: (1) the type-volume limitation of Federal Rule of Appellate Procedure 27 because it contains 2,289 words, excluding the parts of the brief
exempted by Rule 32(f); and (2) the typeface requirements of Rule 32(a)(5) and the
type style requirements of Rule 32(a)(6) because it has been prepared in a proportionally spaced typeface (14-point Equity) using Microsoft Word (the same program
used to calculate the word count).
/s/ Judd E. Stone II
Judd E. Stone II

12

APPENDIX P

Case: 20-3150

Document: 23

Filed: 03/09/2021

Pages: 3

IN THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
COOK COUNTY, ILL., et al.,
Plaintiffs-Appellees,
v.
ALEJANDRO MAYORKAS, SECRETARY,
DEPARTMENT OF HOMELAND
SECURITY, et al.,

No. 20-3150

Defendants-Appellants.
UNOPPOSED MOTION TO
VOLUNTARILY DISMISS APPEAL
Pursuant to Federal Rule of Appellate Procedure 42(b), Defendants-Appellants
hereby move to dismiss this appeal, with each party to bear its own fees and costs.
Counsel for Plaintiffs-Appellees have authorized us to state that they do not oppose
this motion.
Respectfully submitted,
DANIEL TENNY
/ s/ Gerard Sinzdak
GERARD SINZDAK
JOSHUA DOS SANTOS
JACK STARCHER
Attorneys
Civil Division, Appellate Staff
U.S. Department of Justice
950 Pennsylvania Ave., N.W., Rm. 7242
Washington, D.C. 20530
(202)-514-0718

Case: 20-3150

Document: 23

Filed: 03/09/2021

Pages: 3

CERTIFICATE OF COMPLIANCE
I hereby certify that the foregoing complies with the type-volume limitation of
Fed. R. App. P. 27(d)(2) because it contains 40 words, according to the count of
Microsoft Word.
/s/ Gerard Sinzdak
Gerard Sinzdak
Counsel for the United States
gerard.j.sinzdak@usdoj.gov

2

Case: 20-3150

Document: 23

Filed: 03/09/2021

Pages: 3

CERTIFICATE OF SERVICE
I hereby certify that on March 9, 2021, I filed and served the foregoing with the
Clerk of the Court by causing a copy to be electronically filed via the appellate
CM/ECF system. I also hereby certify that the participants in the case are registered
CM/ECF users and will be served via the CM/ECF system.
s/ Gerard Sinzdak
Gerard Sinzdak
Counsel for the United States
gerard.j.sinzdak@usdoj.gov

